<html>
<title> - THE FISCAL YEAR 2011 BUDGET FOR VETERANS' PROGRAMS</title>
<body><pre>[Senate Hearing 111-597]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-597

                    THE FISCAL YEAR 2011 BUDGET FOR 
                           VETERANS' PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
57-764 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts\1\
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



----------
\1\ Hon. Scott P. Brown was recognized as a minority Member on March 
24, 2010.




















                            C O N T E N T S

                              ----------                              

                           February 26, 2010
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Johanns, Hon. Mike, U.S. Senator from Nebraska...................     4
Begich, Hon. Mark, U.S. Senator from Alaska......................     6

                               WITNESSES

Shinseki, Hon. Eric K., Secretary, U.S. Department of Veterans 
  Affairs; accompanied by Hon. Robert A. Petzel, M.D., Under 
  Secretary for Health; Michael Walcoff, Acting Under Secretary 
  for Benefits; Steve L. Muro, Acting Under Secretary for 
  Memorial Affairs; Hon. Roger W. Baker, Assistant Secretary for 
  Information and Technology; and W. Todd Grams, Acting Assistant 
  Secretary for Management.......................................     7
    Prepared statement...........................................     9
    Response to pre-hearing questions submitted by Hon. Daniel K. 
      Akaka......................................................    17
    Response to post-hearing questions submitted by:
        Hon. Daniel K. Akaka.....................................    21
        Hon. Richard Burr........................................    26
        Hon. Jon Tester..........................................   155
        Hon. Mark Begich.........................................   158

                   Independent Budget Representatives

Blake, Carl, National Legislative Director, Paralyzed Veterans of 
  America........................................................   178
    Prepared statement...........................................   180
Wilson, John, Assistant National Legislative Director, Disabled 
  American Veterans..............................................   182
    Prepared statement...........................................   184
Kelley, Raymond C., National Legislative Director, AMVETS........   196
    Prepared statement...........................................   197
Hilleman, Eric A., Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................   200
    Prepared statement...........................................   202

                  Other Veterans Service Organizations

Robertson, Steve A., Director, National Legislative Commission, 
  The American Legion............................................   211
    Prepared statement...........................................   212
Weidman, Rick, Executive Director for Policy & Government 
  Affairs, Vietnam Veterans of America...........................   224
    Prepared statement...........................................   226

 
           THE FISCAL YEAR 2011 BUDGET FOR VETERANS' PROGRAMS

                              ----------                              


                       FRIDAY, FEBRUARY 26, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Begich, Burr, and Johanns.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The hearing will come to order, and aloha 
to all of you this morning, this hearing on the fiscal year 
2011 budget for the Department of Veterans Affairs. I want to 
extend a warm welcome to Secretary Eric K. Shinseki. Secretary 
Shinseki, I look forward to our continued work together on 
behalf of our Nation's veterans, and thank you for having your 
staff here as well, as we discuss the budget for the Veterans 
Administration.
    A strong VA budget moves beyond the rhetoric of supporting 
veterans and provides actual support by providing the funding 
to make VA's programs work. The President's budget for VA for 
the next fiscal year is indeed a strong one. Although many 
agencies are facing budget cuts, I am pleased that the VA 
budget--critical for meeting the health care and benefit needs 
of so many of this Nation's veterans--is increasing. Many of 
the initiatives in the President's budget request, such as the 
commitment to end veterans' homelessness and increase staffing 
to help eliminate the claims backlog, are designed to make 
responsible investments now in order to reduce Federal 
spending.
    The President has requested a budget for VA of $125 
billion, including a total discretionary request of $60.3 
billion. For fiscal year 2011, the administration is requesting 
$51.5 billion in resources for VA medical care, including 
collections. This funding level is an increase of $4.1 billion 
over fiscal year 2010 levels. It is a good thing, too, since 
for the first time the number of patients is predicted to 
exceed 6 million. With this budget, we also see the fruits of 
our labor in passing the Veterans Health Care Budget Reform and 
Transparency Act. We have before us a budget that includes a 
funding request for VA medical care into fiscal year 2012.
    Last year, both President Obama and Secretary Shinseki 
stated their commitment to ending homelessness among veterans--
a commitment that I share. With VA's objective to meet this 
goal in 5 years, it is encouraging to see that this budget 
calls for nearly $800 million in additional spending for 
homeless veteran programs. This represents a significant effort 
by VA to reduce the number of homeless veterans and prevent 
those ``at risk'' from becoming homeless.
    The administration is also requesting nearly $1.75 billion 
for construction programs. This includes the cost of 
initiatives designed to help VA better manage its physical 
infrastructure. I am pleased to see that VA continues to make 
health care more accessible for veterans living in rural areas.
    On the benefits side of the ledger, timely and accurate 
adjudication of disability claims and appeals remains a 
significant problem. I know that the President and Secretary 
Shinseki are committed to addressing this issue, and I am 
pleased by the proposal to add significant staff and resources 
to that effort. The President's budget responds to the rapid 
rise in the number of disability claims being filed by veterans 
and prepares for an increased workload due to the recent 
extension of new Agent Orange presumptive conditions. I hope to 
hear from VA in detail how it intends to handle these workload 
increases.
    We must be candid about the backlog. It appears that this 
situation will get worse before it gets better. It can take 
years for new staff to become skilled at processing complicated 
claims, and technology and pilot programs can only do so much 
in the short term. VA must be able to absorb new court 
decisions, changes in legislation and regulation, and other 
unforeseen events so that when new circumstances arise, the 
system is not paralyzed.
    I am encouraged that the administration has included what 
it believes will be adequate resources to continue to press 
forward with the prompt and accurate delivery of education 
benefits under the new GI bill. I know that there have been 
some difficult moments over the last several months, but I 
believe that VA has made progress toward improving the payment 
delivery process. I will continue to do whatever I can to help 
in this area.
    I look forward to working with my colleagues on the 
Committee and in Congress, the executive branch, and leaders 
from the veterans' community to adopt a viable budget for 
veterans and for the system designed to serve them.
    And now let me ask our Ranking Member for him to deliver 
his opening statement. Senator Burr, aloha.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Aloha, Senator. Thank you. General, welcome. 
I welcome you this morning as well as your senior leadership 
team and the representatives of all the various veterans' 
service organizations that are here.
    We are here to review the President's fiscal year 2011 
budget for the Department of Veterans Affairs. Each Member of 
the Committee and each Member of Congress will have their own 
criteria by which they judge this $125 billion request. My own 
judgment will be guided by three core principles.
    First, we remain a nation at war. We have men and women 
thousands of miles away from home, away from their families, 
away from their friends, putting themselves in harm's way on a 
daily basis. They and their families command our highest 
obligation. We must have a VA health and benefits system that 
meets their needs, is responsive to their expectations, and 
appropriately expresses the gratitude of the Nation for their 
tremendous sacrifice.
    Second, we are a country that values the service of all 
generations of veterans who have worn the Nation's uniform. We 
must not forget our obligations to them, their families, and 
their survivors. We must care for their injuries resulting from 
service, extend a helping hand during tough economic times, and 
honor and memorialize the memory of our fallen heroes.
    Third, we need to be accountable for what we spend. We have 
a deficit and a debt of staggering proportions. All Americans--
and especially veterans--deserve the assurance that every tax 
dollar going to the VA is spent to improve the lives of 
veterans.
    With those as my guiding principles, here are my initial 
thoughts on the President's budget.
    The budget represents a 10-percent increase in spending 
overall and an 8-percent increase in discretionary spending. 
Significant investments are proposed to end homelessness, 
increase mental health treatment access, and care for returning 
OEF/OIF veterans. I am looking forward to asking you, Mr. 
Secretary, as to how these investments will translate into 
improved outcomes for our veterans, and I applaud you for 
making these priorities.
    There are some aspects of this budget, however, that do 
leave me puzzled. Whether it is throwing more money at a 
problem like the claims backlog--a strategy that has clearly 
not worked--or whether it is throwing money at administrative 
functions that may be nice to have, but may rank low on a 
priority list, I think that we owe it to the American people to 
make sure that every dollar we spend translates into improved 
services for our veterans and their families.
    Let me first talk about the backlog issue. Mr. Secretary, 
your budget proposes to increase permanent staffing for claims 
adjudication by roughly 4,000 FTEs. If you look at the chart 
that I had put up, you will see that the claims staffing has 
exploded in recent years. Every year we have been told that the 
system needs more staff, but when the resources for staff are 
provided, clearly productivity goes down.
    Let me say that again. As we increase the staffing, 
productivity goes down per FTE.
    Let me talk about a couple of other items that jump out, 
and I will just raise these as questions for everyone to 
consider.
    If this budget is approved, there will be a 38-percent 
increase in the General Administration account since 2009, 
nearly $130 million. Now, where is this money going and, in a 
time of massive deficits and debt, is this responsible? Here 
are some highlights: a 2-year increase of 65 percent in the 
Office of Congressional and Legislative Affairs; a 2-year 
increase of 97 percent in the Office of Policy and Planning; 
and a 2-year increase of 51 percent for the Office of the 
Secretary.
    Now, are these requests essential? How will they help 
improve the lives of veterans and their families? How is it 
that the Office of Inspector General, the office tasked to do 
the oversight of a $125 billion Department, is slated for a 
funding freeze, but these support offices are getting huge 
bumps?
    Just a couple more examples in this budget, Mr. Chairman. 
How about an initiative to put printers on the desks of all VBA 
employees, especially when VBA is going paperless? Or the 
publication of an annual Veterans Law Review containing 
articles and book reviews?
    Mr. Chairman, these line items may seem like pocket change, 
but these dollars add up, and they have real consequences for 
whether we will be able to meet some of the core obligations to 
our veterans. I for one believe that we must provide more 
support for our family caregivers of our wounded warriors. It 
is my hope Congress passes the family caregiver bill as soon as 
possible. If Congress does, will the VA have the money to fund 
this program under this budget?
    We also have a moral obligation to provide VA health care 
to veterans and family members who were exposed to contaminated 
drinking water during their service at Camp Lejeune. Will we do 
this for our veterans and their families, or will we fritter 
these dollars away on printers on every desk and book reviews?
    I will end on this point: If we waste money on bureaucrats 
and shopping sprees at Staples, we may not have the funds to 
follow through on the promises we have made and we need to 
keep. We should not be giving false hope to the family 
caregivers of severely wounded veterans or the marines and 
their families who drank toxic water at Camp Lejeune that the 
VA is going to be there for them and we are not. They deserve 
better.
    We have got to prioritize the money our taxpayers entrust 
us with so that veterans and their families will have the 
benefits and services they need and they earned. I am looking 
forward to asking several questions in these areas.
    Mr. Chairman, I thank you. Mr. Secretary, I applaud your 
leadership at the Veterans Administration and, more 
importantly, your service to this country.
    I thank the Chair. I yield.
    Chairman Akaka. Thank you very much, Senator Burr.
    Now I would like to call on Senator Johanns for his 
statement.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you very much. My 
comments this morning will be relatively brief because I am 
anxious to hear from the witnesses. Let me, if I might, start 
out in a very positive vein and offer some words of gratitude.
    First, I would like to thank the Chairman and the Ranking 
Member. Last summer, as we were preparing for the August recess 
and planning our month's schedule back home, we asked for the 
opportunity to do a hearing in Omaha at the VA hospital. And, 
Mr. Chairman, you granted that request, and we had an excellent 
hearing. It was excellent because the VA staff really, really 
stepped up and tried to do everything they could to make sure 
that we made a very, very positive record. So, I thank you for 
that opportunity. It meant a lot to the people back home in 
Nebraska.
    Mr. Secretary, I also want to compliment you on your 
leadership. As you know, you have many fans on my staff, 
including a former adjutant general who heads up my military 
affairs issues. We think you are the right guy to do the job 
that you are doing, and you have surrounded yourself with very 
good people.
    Dr. Petzel, a special thanks to you. You helped us organize 
our thinking and our efforts as we tried to figure out what to 
do about the VA hospital in Omaha and how best to proceed. I 
just cannot express enough how we feel that process was handled 
very fairly, in a very open way, and in a very transparent way. 
I think that is in large part because of your leadership.
    That brings me to something in the budget that I do want to 
acknowledge, and that is that we are starting to take some 
initial steps on that hospital in Omaha, which is in pretty 
dire condition, as you know. I think that is a step in the 
right direction. During my questioning I will probe a little 
bit more as to other needs across the country and how those 
will be addressed.
    I do not think we have had a hearing where I have not 
raised the issue of mental health and trying to do all we can 
to provide the services necessary for our veterans as they 
return home. The mental health issues are every bit as real as 
the physical issues that some of our veterans face, and so I 
really applaud the efforts to deal with that and to try to 
address those issues. Again, I will probably be asking some 
questions on what we are doing there, what difference will that 
make, is it a good investment, and where do we go from here.
    The final thing I want to highlight--and then I will wrap 
up--is this: All of us have been very, very concerned about the 
claims backlog. At times, as I have listened to the testimony 
and tried to get my head around the size of this backlog, it 
almost seems like it is insurmountable, but it is not. It can 
be addressed. This budget, I think, does a number of very 
positive things. The important thing about it, though, is that 
it sends the message to those who have been waiting for us to 
get to their claim that we are serious about dealing with the 
backlog; we are going to do everything we can to address it.
    In that vein, I was very pleased to see that this is not 
just about muscling our way through it, you know--throwing 
staff in the midst of it. Mr. Secretary, as you know, you 
stopped by my office, and you talked about some of the 
innovative things that you are doing. I have great optimism 
that we can learn from some of the positive things that are 
happening out there.
    As I mentioned to you and as General Lemke mentioned to you 
during that meeting, we think there are some good things 
happening in Lincoln, Nebraska, and at least our experience in 
my office there (my Senate office), is this is a focused, 
determined group who has a tremendous amount of spirit and 
orientation toward providing first-class quality services in 
working with the veterans. So I would just ask again that you 
take a look at some of the things they are doing there. It is 
very possible that we will see they are doing some very 
positive, innovative things.
    I will wrap up with those comments and say that we are all 
going to look at these budgets with close scrutiny. We should. 
That is why we are here. But, on the other hand, what I have 
really enjoyed about this Committee and the Chairman's 
leadership is that at the end of the day we are focused on one 
thing, and that is, how do we care for the veterans. They have 
given us a lot, and we want to do everything we can to try to 
make sure that not only are we providing the resources, but 
that we are handling those resources in a smart way, in an 
efficient way, and in a way that we can justify to our 
constituents and the taxpayers.
    So I look forward to our continued work in that vein. And, 
Mr. Chairman, thank you for the opportunity to say a few words.
    Chairman Akaka. Thank you very much, Senator Johanns. I am 
glad you mentioned mental health--that we have had hearings on 
that. And just to let you know, we are planning to have a 
hearing on mental health next week.
    Senator Johanns. Good.
    Chairman Akaka. Thank you so much.
    Senator Begich, your opening statement.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I am looking forward to the 
presentation of the budget. First, I want to thank the 
Secretary for the insightful conversation we had on VA health 
care yesterday. And thank you for sending some of your folks to 
the field hearings in Alaska.
    Mr. Chairman, I'd like to thank you once again for allowing 
me to hold hearings in my home State with your staff's support. 
I really felt we tackled employment issues, as well as VA 
health care issues. As you and I discussed yesterday, most of 
my concerns today will most likely touch on the importance of 
rural health care and VA's plans in the fiscal year to provide 
better access in these hard to reach areas.
    So, again, I appreciate your being here and your leadership 
within the VA. As a couple folks have mentioned, while in 
Alaska, Ray Jefferson from the Department of Labor, Under 
Secretary for Veterans Employment and Training, said you have a 
hefty job by moving a large ship--a large budget of $100 
billion plus, you know, tons of employees--to move that in a 
new direction and while becoming more and more responsive to 
our veterans. So you have a big task ahead of you. I know you 
have only been there a year, as I have only been here a year.
    I am looking forward to your presentation, and then, as we 
discussed yesterday, some additional follow-up on rural health 
care and the unique situation in Alaska.
    Thank you, Mr. Secretary. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Begich.
    I would like to welcome back to the Committee Secretary 
Eric Shinseki. I thank you for joining us today to give your 
perspective on the Department's fiscal year 2011 budget. I look 
forward to your testimony.
    Secretary Shinseki is accompanied by Dr. Robert Petzel, who 
was just sworn in as Under Secretary for Health. And we also 
have Michael Walcoff, Acting Under Secretary for Benefits; 
Steve Muro, Under Secretary for Memorial Affairs; Roger Baker, 
Assistant Secretary for Information and Technology; and W. Todd 
Grams, Acting Assistant Secretary for Management. Thank you 
very much for being here.
    Mr. Secretary, your prepared statement will, of course, 
appear in the record of the Committee. Will you please begin 
with your statement?

STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY, U.S. DEPARTMENT 
  OF VETERANS AFFAIRS; ACCOMPANIED BY HON. ROBERT A. PETZEL, 
M.D., UNDER SECRETARY FOR HEALTH; MICHAEL WALCOFF, ACTING UNDER 
 SECRETARY FOR BENEFITS; STEVE L. MURO, ACTING UNDER SECRETARY 
FOR MEMORIAL AFFAIRS; HON. ROGER W. BAKER, ASSISTANT SECRETARY 
   FOR INFORMATION AND TECHNOLOGY; AND W. TODD GRAMS, ACTING 
               ASSISTANT SECRETARY FOR MANAGEMENT

    Secretary Shinseki. Well, thank you very much, Mr. 
Chairman, Ranking Member Burr, other distinguished Members of 
the Committee. Good morning. Good to see all of you.
    Mr. Chairman, thank you for introducing the members on the 
panel with me, all great VA leaders who are very happy to be 
here to participate in the testimony.
    Thank you for this opportunity to present the President's 
2011 budget and the advance appropriations request for the 
Department of Veterans Affairs. I am pleased to report a good 
start in 2009, and I have covered some of that with you as I 
came around to make my office calls. I think we have a 
tremendous opportunity here in 2010 and the President's 
continued strong support of veterans and veterans' needs in 
2011 and 2012. I regret that the intervention of some bad 
weather precluded my visiting all the Members of the Committee, 
as I like to do. These opportunities are always valuable for 
me, and I appreciate the generosity of time of those Members I 
was able to call on.
    Let me also acknowledge, as Senator Burr did, the 
representatives from some of our veterans' service 
organizations who are in attendance today. Their insights for 
the year that I have been here have been very helpful in 
helping us to meet our obligations to veterans and framing our 
thoughts and understanding of what the needs were.
    Mr. Chairman, thank you for accepting my written statement 
for the record. I appreciate that.
    This Committee's longstanding commitment to our Nation's 
veterans has always been unequivocal and unwavering. That is 
the reputation of this Committee. Such commitment and the 
President's own steadfast support of veterans resulted in a 
2010 budget that provides this Department the resources to 
begin renewing itself in fundamental and comprehensive ways. 
And some of this goes to some of the questions you posed, 
Senator Burr, which I would be very happy to elaborate on 
during questioning. We are well launched on that effort.
    As I remind all in VA, 2009 was a congressionally enhanced 
budget, and we are well launched on the basis of that set of 
resources provided to us. That effort continues, and we are 
determined to continue transforming VA in 2011 and 2012, well 
begun this year, and the next 2 years are important.
    We have crafted a new strategic framework organized around 
three governing principles--principles that I have mentioned 
for the past year now. It is about transforming VA, and to do 
that, there's nothing magical here. Take a good, hard look at 
your mission, understand what your mission is, focus on that, 
and then fundamentally and comprehensively go back and 
challenge all the assumptions on how you are doing that. Go 
back and review how you do this.
    In doing that, we are looking at being people-centric, and 
that is both veteran-centric and also developing the workforce 
to better serve those veterans. It is about results-driven. A 
lot of promises made. We do not get graded until the results 
are in, so we intend to have metrics to be able to measure our 
progress. Then forward-looking we know there is a history here 
where we have had some problems, and claims may be a good 
example to talk about. How do we take what we know and then 
transform ourselves for the future?
    So this new strategic plan delivers on President Obama's 
vision for VA. It is in the final stages of review. Its 
strategic goals will do several things: improve the quality of 
and increase access to VA care and benefits, while optimizing 
their value for veterans; heighten readiness to protect our 
people, both our clients, our veterans, as well as our 
workforce, and our resources day-to-day and in times of crisis; 
enhance veteran satisfaction with our health, education, 
training, counseling, financial, and burial benefits and 
services--it is a very large charter that goes with VA; and 
finally, invest in our human capital, both in their well-being 
and in their development as leaders to drive excellence over 
the long term in everything we do--everything day-to-day--and 
toward the objectives we are trying to achieve, from management 
to IT systems to support services.
    This goal is vital to mission performance if we are to 
attain our goal--a model of good governance--in the next 4 
years. These goals will guide our people daily and focus them 
on producing the outcomes veterans expect and have earned 
through their service to our country.
    To support our pursuit of these goals, the President's 
budget provides $125 billion, Mr. Chairman, as you pointed out, 
in 2011--$60.3 billion in discretionary resources, $64.7 
billion in mandatory funding. Our discretionary budget request 
represents an increase of $4.2 billion, or a 7.6 percent 
increase over the President's 2010 enacted budget, which was 
the largest percentage budget increase in 30 years.
    VA's 2011 budget focuses primarily on three critical 
concerns that are of significant importance to veterans--at 
least I hear about them as I travel: better access to benefits 
and services; reducing the disability claims backlog and wait 
time for the receipt of earned benefits; and, finally, ending 
the downward spiral that often enough results in veterans' 
homelessness.
    Let me just touch on access. This budget provides the 
resources required to enhance access to our health care system 
and to our national cemeteries. We will expand access to health 
care: through the activations of new and improved facilities; 
by honoring the President's commitment to veterans who were 
exposed to the toxic effects of Agent Orange 40 years ago; by 
delivering on President Obama's promise to provide health care 
eligibility to more Priority Group 8 veterans; and by making 
greater investments in telehealth to extend our health care 
deliveries into the most remote communities and, where 
warranted, even into veterans' homes, which we are already 
doing. And, finally, we will increase access to our national 
shrines by establishing five new national cemeteries.
    The backlog. We are requesting an unprecedented 27-percent 
increase in funding for VBA--our Veterans Benefits 
Administration--primarily for staffing, to address the growing 
increase in disability claims receipts. That is the initial 
investment. We are re-engineering our processes and developing 
what we intend to achieve as a paperless system, integrated 
with a virtual lifetime electronic record that the President 
has mandated that both Defense and VA go to work on.
    Ending homelessness. We are also requesting a substantial 
investment in our homelessness program as part of our plan to 
eliminate veterans' homelessness in 5 years through an 
aggressive approach that includes housing, education, jobs, and 
health care. In this effort, we partner with the Department of 
Housing and Urban Development, probably our closest 
collaborator, and also with the Departments of Labor, 
Education, Health and Human Services, and Small Business 
Administration, among others. Taken together, these initiatives 
are intended to meet veteran expectations in each of these 
three mission-focused areas: increase access; reduce the 
backlog; and end homelessness.
    We will achieve these objectives by developing innovative 
business processes and delivery systems that not only better 
serve veterans' and families' needs for many years to come, but 
which will also dramatically improve the efficiency and cost 
control of our operations.
    Our budget and advanced appropriations request for 2011 and 
2012 provide the resources necessary to continue our aggressive 
pursuit of the President's two overarching goals for the VA 
Department: transform and ensure client access to timely, high-
quality care and benefits without fail.
    We still have much work to accomplish. Our efforts are well 
begun, and I am very proud of the steps we have taken the past 
year and where we are thus far in 2010--well begun. But there 
is still, as Members of this Committee know, much yet to be 
accomplished if we are going to meet our obligations to those 
who have defended the Nation.
    Again, thank you for this opportunity to appear before the 
Committee and for your continued and unwavering support of our 
mission on behalf of veterans. I look forward--we all look 
forward--to your questions.
    [The prepared statement of Secretary Shinseki follows:]
        Prepared Statement of Hon. Eric K. Shinseki, Secretary, 
                  U.S. Department of Veterans Affairs
    Chairman Akaka, Ranking Member Burr, Distinguished Members of the 
Senate Committee on Veterans' Affairs: Thank you for this opportunity 
to present the President's Fiscal Year 2011 Budget and Fiscal Year 2012 
Advance Appropriations request for the Department of Veterans Affairs 
(VA). Our budget provides the resources necessary to continue our 
aggressive pursuit of the President's two overarching goals for the 
Department--to transform VA into a 21st Century organization and to 
ensure that we provide timely access to benefits and high quality care 
to our Veterans over their lifetimes, from the day they first take 
their oaths of allegiance until the day they are laid to rest.
    We recently completed development of a new strategic framework that 
is people-centric, results-driven, and forward-looking. The path we 
will follow to achieve the President's vision for VA will be presented 
in our new strategic plan, which is currently in the final stages of 
review. The strategic goals we have established in our plan are 
designed to produce better outcomes for all generations of Veterans:

    <bullet> Improve the quality and accessibility of health care, 
benefits, and memorial services while optimizing value;
    <bullet> Increase Veteran client satisfaction with health, 
education, training, counseling, financial, and burial benefits and 
services;
    <bullet> Protect people and assets continuously and in time of 
crisis; and,
    <bullet> Improve internal customer satisfaction with management 
systems and support services to achieve mission performance and make VA 
an employer of choice by investing in human capital.

    The strategies in our plan will guide our workforce to ensure we 
remain focused on producing the outcomes Veterans expect and have 
earned through their service to our country.
    To support VA's efforts, the President's budget provides $125 
billion in 2011--almost $60.3 billion in discretionary resources and 
nearly $64.7 billion in mandatory funding. Our discretionary budget 
request represents an increase of $4.3 billion, or 7.6 percent, over 
the 2010 enacted level.
    VA's 2011 budget also focuses on three concerns that are of 
critical importance to our Veterans--easier access to benefits and 
services; reducing the disability claims backlog and the time Veterans 
wait before receiving earned benefits; and ending the downward spiral 
that results in Veterans' homelessness.
    This budget provides the resources required to enhance access in 
our health care system and our national cemeteries. We will expand 
access to health care through the activations of new or improved 
facilities, by expanding health care eligibility to more Veterans, and 
by making greater investments in telehealth. Access to our national 
cemeteries will be increased through the implementation of new policy 
for the establishment of additional facilities.
    We are requesting an unprecedented increase for staffing in the 
Veterans Benefits Administration (VBA) to address the dramatic increase 
in disability claim receipts while continuing our process-reengineering 
efforts, our development of a paperless claims processing system, and 
the creation of a Virtual Lifetime Electronic Record.
    We are also requesting a substantial investment for our 
homelessness programs as part of our plan to ultimately eliminate 
Veterans' homelessness through an aggressive approach that includes 
housing, education, jobs, and health care.
    VA will be successful in resolving these three concerns by 
maintaining a clear focus on developing innovative business processes 
and delivery systems that will not only serve Veterans and their 
families for many years to come, but will also dramatically improve the 
efficiency of our operations by better controlling long-term costs. By 
making appropriate investments today, we can ensure higher value and 
better outcomes for our Veterans. The 2011 budget also supports many 
key investments in VA's six high priority performance goals (HPPGs).
                  hppg i: reducing the claims backlog
    The volume of compensation and pension rating-related claims has 
been steadily increasing. In 2009, for the first time, we received over 
one million claims during the course of a single year. The volume of 
claims received has increased from 578,773 in 2000 to 1,013,712 in 2009 
(a 75% increase). Original disability compensation claims with eight or 
more claimed issues have increased from 22,776 in 2001 to 67,175 in 
2009 (nearly a 200% increase). Not only is VA receiving substantially 
more claims, but the claims have also increased in complexity. We 
expect this level of growth in the number of claims received to 
continue in 2010 and 2011 (increases of 13 percent and 11 percent were 
projected respectively even without claims expected under new 
presumptions related to Agent Orange exposure), which is driven by 
improved access to benefits through initiatives such as the Benefits 
Delivery at Discharge Program, increased demand as a result of nearly 
ten years of war, and the impact of a difficult economy prompting 
America's Veterans to pursue access to the benefits they earned during 
their military service.
    While the volume and complexity of claims has increased, so too has 
the productivity of our claims processing workforce. In 2009, the 
number of claims processed was 977,219, an increase of 8.6 percent over 
the 2008 level of 899,863. The average time to process a rating-related 
claim fell from 179 to 161 days in 2009, an improvement of 11 percent.
    The progress made in 2009 is a step in the right direction, but it 
is not nearly enough. My goal for VA is an average time to process a 
claim of no more than 125 days. Reaching this goal will become even 
more challenging because of additional claims we expect to receive 
related to Veterans' exposure to Agent Orange. Adding Parkinson's 
disease, ischemic heart disease, and B-cell leukemias to the list of 
presumptive disabilities is projected to significantly increase claims 
inventories in the near term, even while we make fundamental 
improvements to the way we process disability compensation claims.
    We expect the number of compensation and pension claims received to 
increase from 1,013,712 in 2009 to 1,318,753 in 2011 (a 30 percent 
increase). Without the significant investment requested for staffing in 
this budget, the inventory of claims pending would grow from 416,335 to 
1,018,343 and the average time to process a claim would increase from 
161 to 250 days. If Congress provides the funding requested in our 
budget, these increases are projected to be 804,460 claims pending with 
an average processing time of 190 days. Through 2011, we expect over 
228,000 claims related to the new presumptions and are dedicated to 
processing this near-term surge in claims as efficiently as possible.
    This budget is based on our plan to improve claims processing by 
using a three-pronged approach involving improved business processes, 
expanded technology, and hiring staff to bridge the gap until we fully 
implement our long-range plan. We will explore process and policy 
simplification and contracted service support in addition to the 
traditional approach of hiring new employees to address this spike in 
demand. We expect these transformational approaches to begin yielding 
significant performance improvements in fiscal year 2012 and beyond; 
however, it is important to mitigate the impact of the increased 
workload until that time.
    The largest increase in our 2011 budget request, in percentage 
terms, is directed to the Veterans Benefits Administration as part of 
our mitigation of the increased workload. The President's 2011 budget 
request for VBA is $2.149 billion, an increase of $460 million, or 27 
percent, over the 2010 enacted level of $1.689 billion. The 2011 budget 
supports an increase of 4,048 FTEs, including maintaining temporary FTE 
funded through ARRA. In addition, the budget also includes $145.3 
million in information technology (IT) funds in 2011 to support the 
ongoing development of a paperless claims processing system.
               hppg ii: eliminating veteran homelessness
    Our Nation's Veterans experience higher than average rates of 
homelessness, depression, substance abuse, and suicides; many also 
suffer from joblessness. On any given night, there are about 131,000 
Veterans who live on the streets, representing every war and 
generation, including those who served in Iraq and Afghanistan. VA's 
major homeless-specific programs constitute the largest integrated 
network of homeless treatment and assistance services in the country. 
These programs provide a continuum of care for homeless Veterans, 
providing treatment, rehabilitation, and supportive services that 
assist homeless Veterans in addressing health, mental health and 
psychosocial issues. VA also offers a full range of support necessary 
to end the cycle of homelessness by providing education, jobs, and 
health care, in addition to safe housing. We will increase the number 
and variety of housing options available to homeless Veterans and those 
at risk of homelessness with permanent, transitional, contracted, 
community-operated, HUD-VASH provided, and VA-operated housing.
    Homelessness is primarily a health care issue, heavily burdened 
with depression and substance abuse. VA's budget includes $4.2 billion 
in 2011 to prevent and reduce homelessness among Veterans--over $3.4 
billion for core medical services and $799 million for specific 
homeless programs and expanded medical programs. Our budget includes an 
additional investment of $294 million in programs and new initiatives 
to reduce the cycle of homelessness, which is almost 55 percent higher 
than the resources provided for homelessness programs in 2010.
    VA's health care costs for homeless Veterans can drop in the future 
as the Department emphasizes education, jobs, and prevention and 
treatment programs that can result in greater residential stability, 
gainful employment, and improved health status.
            hppg iii: automating the gi bill benefits system
    The Post-9/11 GI Bill creates a robust enhancement of VA's 
education benefits, evoking the World War II Era GI Bill. Because of 
the significant opportunities the Act provides to Veterans in 
recognition of their service, and the value of the program in the 
current economic environment, we must deliver the benefits in this Act 
effectively and efficiently, and with a client-centered approach. In 
August 2009, the new Post-9/11 GI Bill program was launched. We 
received more than 397,000 original and 219,000 supplemental 
applications since the inception of this program.
    The 2011 budget provides $44.1 million to complete the automated 
solution for processing Post-9/11 GI Bill claims and to begin the 
development and implementation of electronic systems to process claims 
associated with other education programs. The automated solution for 
the Post-9/11 GI Bill education program will be implemented by December 
2010.
    In 2011, we expect the total number of all types of education 
claims to grow by 32.3 percent over 2009, from 1.70 million to 2.25 
million. To meet this increasing workload and complete education claims 
in a timely manner, VA has established a comprehensive strategy to 
develop an end-to-end solution that utilizes rules-based, industry-
standard technologies to modernize the delivery of education benefits.
       hppg iv: establishing a virtual lifetime electronic record
    Each year, more than 150,000 active and reserve component 
servicemembers leave the military. Currently, this transition is 
heavily reliant on the transfer of paper-based administrative and 
medical records from the Department of Defense (DOD) to the Veteran, 
the VA or other non-VA health care providers. A paper-based transfer 
carries risks of errors or oversights and delays the claim process.
    In April 2009, the President charged me and Defense Secretary Gates 
with building a fully interoperable electronic records system that will 
provide each member of our Armed Forces a Virtual Lifetime Electronic 
Record (VLER). This virtual record will enhance the timely delivery of 
high-quality benefits and services by capturing key information from 
the day they put on the uniform, through their time as Veterans, until 
the day they are laid to rest. The VLER is the centerpiece of our 
strategy to better coordinate the user-friendly transition of 
servicemembers from their service component into VA, and to produce 
better, more timely outcomes for Veterans in providing their benefits 
and services.
    In December 2009, VA successfully exchanged electronic health 
record (EHR) information in a pilot program between the VA Medical 
Center in San Diego and a local Kaiser Permanente hospital. We 
exchanged EHR information using the Nationwide Health Information 
Network (NHIN) created by the Department of Health and Human Services. 
Interoperability is key to sharing critical health information. 
Utilizing the NHIN standards allows VA to partner with private sector 
health care providers and other Federal agencies to promote better, 
faster, and safer care for Veterans. During the second quarter of 2010, 
the DOD will join this pilot and we will announce additional VLER 
health community sites.
    VA has $52 million in IT funds in 2011 to continue the development 
and implementation of this Presidential priority.
                  hppg v: improving mental health care
    The 2011 budget continues the Department's keen focus on improving 
the quality, access, and value of mental health care provided to 
Veterans. VA's budget provides over $5.2 billion for mental health, an 
increase of $410 million, or 8.5 percent, over the 2010 enacted level. 
We will expand inpatient, residential, and outpatient mental health 
programs with an emphasis on integrating mental health services with 
primary and specialty care.
    Post-Traumatic Stress Disorder (PTSD) is the mental health 
condition most commonly associated with combat, and treating Veterans 
who suffer from this debilitating disorder is central to VA's mission. 
Screening for PTSD is the first and most essential step. It is crucial 
that VA be proactive in identifying PTSD and intervening early in order 
to prevent chronic problems that could lead to more complex disorders 
and functional problems.
    VA will also expand its screening program for other mental health 
conditions, most notably Traumatic Brain Injury (TBI), depression, and 
substance use disorders. We will enhance our suicide prevention 
advertising campaign to raise awareness among Veterans and their 
families of the services available to them.
    More than one-fifth of the Veterans seen last year had a mental 
health diagnosis. In order to address this challenge, VA has 
significantly invested in our mental health workforce, hiring more than 
6,000 new workers since 2005.
    In October 2009, VA and DOD held a mental health summit with mental 
health experts from both departments, and representatives from Congress 
and more than 57 non-government organizations. We convened the summit 
to discuss an innovative, wide-ranging public health model for 
enhancing mental health for returning servicemembers, Veterans, and 
their families. VA will use the results to devise new innovative 
strategies for improving the health and quality of life for Veterans 
suffering from mental health problems.
      hppg vi: deploying a veterans relationship management system
    A key component of VA's transformation is to employ technology to 
dramatically improve service and outreach to Veterans by adopting a 
comprehensive Veterans' Relationship Management System to serve as the 
primary interface between Veterans and the Department. This system will 
include a framework that provides Veterans with the ability to:

    <bullet> Access VA through multiple methods;
    <bullet> Uniformly find information about VA's benefits and 
services;
    <bullet> Complete multiple business processes within VA without 
having to re-enter identifying information; and,
    <bullet> Seamlessly access VA across multiple lines of business.

    This system will allow Veterans to access comprehensive online 
information anytime and anywhere via a single consistent entry point. 
Our goal is to deploy the Veterans Relationship Management System in 
2011. Our budget provides $51.6 million for this project.
    In addition to resources supporting these high-priority performance 
goals, the President's budget enhances and improves services across the 
full spectrum of the Department. The following highlights funding 
requirements for selected programs along with the outcomes we will 
achieve for Veterans and their families.
                  delivering world-class medical care
    The Budget provides $51.5 billion for medical care in 2011, an 
increase of $4 billion, or 8.5 percent, over the 2010 level. This level 
will allow us to continue providing timely, high-quality care to all 
enrolled veterans. Our total medical care level is comprised of funding 
for medical services ($37.1 billion), medical support and compliance 
($5.3 billion), medical facilities ($5.7 billion), and resources from 
medical care collections ($3.4 billion). In addition to reducing the 
number of homeless Veterans and expanding access to mental health care, 
our 2011 budget will also achieve numerous other outcomes that improve 
Veterans' quality of life, including:

    <bullet> Providing extended care and rural health services in 
clinically appropriate settings;
    <bullet> Expanding the use of home telehealth;
    <bullet> Enhancing access to health care services by offering 
enrollment to more Priority Group 8 Veterans and activating new 
facilities; and,
    <bullet> Meeting the medical needs of women Veterans.

    During 2011, we expect to treat nearly 6.1 million unique patients, 
a 2.9 percent increase over 2010. Among this total are over 439,000 
Veterans who served in Operation Enduring Freedom and Operation Iraqi 
Freedom, an increase of almost 57,000 (or 14.8 percent) above the 
number of Veterans from these two campaigns that we anticipate will 
come to VA for health care in 2010.
    In 2011, the budget provides $2.6 billion to meet the health care 
needs of Veterans who served in Iraq and Afghanistan. This is an 
increase of $597 million (or 30.2 percent) over our medical resource 
requirements to care for these Veterans in 2010. This increase also 
reflects the impact of the recent decision to increase troop size in 
Afghanistan. The treatment of this newest generation of Veterans has 
allowed us to focus on, and improve treatment for, PTSD as well as TBI, 
including new programs to reach Veterans at the earliest stages of 
these conditions.
    The FY 2011 Budget also includes funding for new patients resulting 
from the recent decision to add Parkinson's disease, ischemic heart 
disease, and B-cell leukemias to the list of presumptive conditions for 
Veterans with service in Vietnam.
Extended Care and Rural Health
    VA's budget for 2011 contains $6.8 billion for long-term care, an 
increase of 858.8 million (or 14.4 percent) over the 2010 level. In 
addition, $1.5 billion is included for non-institutional long-term 
care, an increase of $276 million (or 22.9 percent) over 2010. By 
enhancing Veterans' access to non-institutional long-term care, VA can 
provide extended care services to Veterans in a more clinically 
appropriate setting, closer to where they live, and in the comfort and 
familiar settings of their homes.
    VA's 2011 budget also includes $250 million to continue 
strengthening access to health care for 3.2 million enrolled Veterans 
living in rural and highly rural areas through a variety of avenues. 
These include new rural health outreach and delivery initiatives and 
expanded use of home-based primary care, mental health, and telehealth 
services. VA intends to expand use of cutting edge telehealth 
technology to broaden access to care while at the same time improve the 
quality of our health care services.
Home Telehealth
    Our increasing reliance on non-institutional long-term care 
includes an investment in 2011 of $163 million in home telehealth. 
Taking greater advantage of the latest technological advancements in 
health care delivery will allow us to more closely monitor the health 
status of Veterans and will greatly improve access to care for Veterans 
in rural and highly rural areas. Telehealth will place specialized 
health care professionals in direct contact with patients using modern 
IT tools. VA's home telehealth program cares for 35,000 patients and is 
the largest of its kind in the world. A recent study found patients 
enrolled in home telehealth programs experienced a 25 percent reduction 
in the average number of days hospitalized and a 19 percent reduction 
in hospitalizations. Telehealth and telemedicine improve health care by 
increasing access, eliminating travel, reducing costs, and producing 
better patient outcomes.
Expanding Access to Health Care
    In 2009 VA opened enrollment to Priority 8 Veterans whose incomes 
exceed last year's geographic and VA means-test thresholds by no more 
than 10 percent. Our most recent estimate is that 193,000 more Veterans 
will enroll for care by the end of 2010 due to this policy change.
    In 2011 VA will further expand health care eligibility for Priority 
8 Veterans to those whose incomes exceed the geographic and VA means-
test thresholds by no more than 15 percent compared to the levels in 
effect prior to expanding enrollment in 2009. This additional expansion 
of eligibility for care will result in an estimated 99,000 more 
enrollees in 2011 alone, bringing the total number of new enrollees 
from 2009 to the end of 2011 to 292,000.
Meeting the Medical Needs of Women Veterans
    The 2011 budget provides $217.6 million to meet the gender-specific 
health care needs of women Veterans, an increase of $18.6 million (or 
9.4 percent) over the 2010 level. The delivery of enhanced primary care 
for women Veterans remains one of the Department's top priorities. The 
number of women Veterans is growing rapidly and women are increasingly 
reliant upon VA for their health care.
    Our investment in health care for women Veterans will lead to 
higher quality of care, increased coordination of care, enhanced 
privacy and dignity, and a greater sense of security among our women 
patients. We will accomplish this through expanding health care 
services provided in our Vet Centers, increasing training for our 
health care providers to advance their knowledge and understanding of 
women's health issues, and implementing a peer call center and social 
networking site for women combat Veterans. This call center will be 
open 24 hours a day, 7 days a week.
            advance appropriations for medical care in 2012
    VA is requesting advance appropriations in 2012 of $50.6 billion 
for the three medical care appropriations to support the health care 
needs of 6.2 million patients. The total is comprised of $39.6 billion 
for Medical Services, $5.5 billion for Medical Support and Compliance, 
and $5.4 billion for Medical Facilities. In addition, $3.7 billion is 
estimated in medical care collections, resulting in a total resource 
level of $54.3 billion. It does not include additional resources for 
any new initiatives that would begin in 2012.
    Our 2012 advance appropriations request is based largely on our 
actuarial model using 2008 data as the base year. The request continues 
funding for programs that we will continue in 2012 but which are not 
accounted for in the actuarial model. These initiatives address 
homelessness and expanded access to non-institutional long-term care 
and rural health care services through telehealth. In addition, the 
2012 advance appropriations request includes resources for several 
programs not captured by the actuarial model, including long-term care, 
the Civilian Health and Medical Program of the Department of Veterans 
Affairs, Vet Centers, and the state home per diem program. Overall, the 
2012 requested level, based on the information available at this point 
in time, is sufficient to enable us to provide timely and high-quality 
care for the estimated patient population. We will continue to monitor 
cost and workload data throughout the year and, if needed, we will 
revise our request during the normal 2012 budget cycle.
    After a cumulative increase of 26.4 percent in the medical care 
budget since 2009, we will be working to reduce the rate of increase in 
the cost of the provision of health care by focusing on areas such as 
better leveraging acquisitions and contracting, enhancing use of 
referral agreements, strengthening DOD/VA joint ventures, and expanding 
applications of medical technology (e.g. tele-home health).
                    investments in medical research
    VA's budget request for 2011 includes $590 million for medical and 
prosthetic research, an increase of $9 million over the 2010 level. 
These research funds will help VA sustain its long track record of 
success in conducting research projects that lead to clinically useful 
interventions that improve the health and quality of life for Veterans 
as well as the general population.
    This budget contains funds to continue our aggressive research 
program aimed at improving the lives of Veterans returning from service 
in Iraq and Afghanistan. This focuses on prevention, treatment, and 
rehabilitation research, including TBI and polytrauma, burn injury 
research, pain research, and post-deployment mental health research.
          sustaining high quality burial and memorial programs
    VA remains steadfastly committed to providing access to a dignified 
and respectful burial for Veterans choosing to be buried in a VA 
national cemetery. This promise to Veterans and their families also 
requires that we maintain national cemeteries as shrines dedicated to 
the memory of those who honorably served this Nation in uniform. This 
budget implements new policy to expand access by lowering the Veteran 
population threshold for establishing new national cemeteries and 
developing additional columbaria to better serve large urban areas.
    VA expects to perform 114,300 interments in 2011 or 3.8 percent 
more than in 2010. The number of developed acres (8,441) that must be 
maintained in 2011 is 4.6 percent greater than the 2010 estimate, while 
the number of gravesites (3,147,000) that will be maintained is 2.6 
percent higher. VA will also process more than 617,000 Presidential 
Memorial Certificates in recognition of Veterans' honorable military 
service.
    Our 2011 budget request includes $251 million in operations and 
maintenance funding for the National Cemetery Administration. The 2011 
budget request provides $36.9 million for national shrine projects to 
raise, realign, and clean an estimated 668,000 headstones and markers, 
and repair 100,000 sunken graves. This is critical to maintaining our 
extremely high client satisfaction scores that set the national 
standard of excellence in government and private sector services as 
measured by the American Customer Satisfaction Index. The share of our 
clients who rate the quality of the memorial services we provide as 
excellent will rise to 98 percent in 2011. The proportion of clients 
who rate the appearance of our national cemeteries as excellent will 
grow to 99 percent. And we will mark 95 percent of graves within 60 
days of interment.
    The 2011 budget includes $3 million for solar and wind power 
projects at three cemeteries to make greater use of renewable energy 
and to improve the efficiency of our program operations. It also 
provides $1.25 million to conduct independent Facility Condition 
Assessments at national cemeteries and $2 million for projects to 
correct safety and other deficiencies identified in those assessments.
                   leveraging information technology
    We cannot achieve the transformation of VA into a 21st Century 
organization capable of meeting Veterans' needs today and in the years 
to come without leveraging the power of IT. The Department's IT program 
is absolutely integral to everything we do, and it is vital we continue 
the development of IT systems that will meet new service delivery 
demands and modernize or replace increasingly fragile systems that are 
no longer adequate in today's health care and benefits delivery 
environment. Simply put, IT is indispensable to achieving VA's mission.
    The Department's IT operations and maintenance program supports 
334,000 users, including VA employees, contractors, volunteers, and 
researchers situated in 1,400 health care facilities, 57 regional 
offices, and 158 national cemeteries around the country. Our IT program 
protects and maintains 8.5 million vital health and benefits records 
for Veterans with the level of privacy and security mandated by both 
statutes and directives.
    VA's 2011 budget provides $3.3 billion for IT, the same level of 
funding provided in 2010. We have prioritized potential IT projects to 
ensure that the most mission-critical projects for improving service to 
Veterans are funded. For example, the resources we are requesting will 
fund the development and implementation of an automated solution for 
processing education claims ($44.1 million), the Financial and 
Logistics Integrated Technology Enterprise project to replace our 
outdated, non-compliant core accounting system ($120.2 million), 
development and deployment of the paperless claims processing system 
($145.3 million), and continued development of HealtheVet, VA's 
electronic health record system ($346.2 million). In addition, the 2011 
budget request includes $52 million for the advancement of the Virtual 
Lifetime Electronic Record, a Presidential priority that involves our 
close collaboration with DOD.
                enhancing our management infrastructure
    A critical component of our transformation is to create a reliable 
management infrastructure that expands or enhances corporate 
transparency at VA, centralizes leadership and decentralizes execution, 
and invests in leadership training. This includes increasing investment 
in training and career development for our career civil service and 
employing a suitable financial management system to track expenditures. 
The Department's 2011 budget provides $463 million in General 
Administration to support these vital corporate management activities. 
This includes $23.6 million in support of the President's initiative to 
strengthen the acquisition workforce.
    We will place particular emphasis on increasing our investment in 
training and career development--helping to ensure that VA's workforce 
remain leaders and standard-setters in their fields, skilled, 
motivated, and client-oriented. Training and development (including a 
leadership development program), communications and team building, and 
continuous learning will all be components of reaching this objective.
                         capital infrastructure
    VA must provide timely, high-quality health care in medical 
infrastructure which is, on average, over 60 years old. In the 2011 
budget, we are requesting $1.6 billion to invest in our major and minor 
construction programs to accomplish projects that are crucial to right 
sizing and modernizing VA's health care infrastructure, providing 
greater access to benefits and services for more Veterans, closer to 
where they live, and adequately addressing patient safety and other 
critical facility deficiencies.
Major Construction
    The 2011 budget request for VA major construction is $1.151 
billion. This includes funding for five medical facility projects in 
New Orleans, Louisiana; Denver, Colorado; Palo Alto and Alameda, 
California; and Omaha, Nebraska.
    This request provides $106.9 million to support the Department's 
burial program, including gravesite expansion and cemetery improvement 
projects at three national cemeteries--Indiantown Gap, Pennsylvania; 
Los Angeles, California; and Tahoma, Washington.
    Our major construction request includes $51.4 million to begin 
implementation of a new policy to expand and improve access to burial 
in a national cemetery. Most significantly, this new policy lowers the 
Veteran population threshold to build a new national cemetery from 
170,000 to 80,000 Veterans living within 75 miles of a cemetery. This 
will provide access to about 500,000 additional Veterans. Moreover, it 
will increase our strategic target for the percent of Veterans served 
by a burial option in a national or state Veterans cemetery within 75 
miles of their residence from 90 percent to 94 percent.
    VA's major construction request also includes $24 million for 
resident engineers that support medical facility and national cemetery 
projects. This represents a new source of funding for the resident 
engineer program, which was previously funded under General Operating 
Expenses.
Minor Construction
    The $467.7 million request for 2011 for minor construction is an 
integral component of our overall capital program. In support of the 
medical care and medical research programs, minor construction funds 
permit VA to realign critical services; make seismic corrections; 
improve patient safety; enhance access to health care; increase 
capacity for dental care; enhance patient privacy; improve treatment of 
special emphasis programs; and expand our research capability. Minor 
construction funds are also used to improve the appearance of our 
national cemeteries. Further, minor construction resources will be used 
to comply with energy efficiency and sustainability design 
requirements.
                                summary
    Our job at the VA is to serve Veterans by increasing their access 
to VA benefits and services, to provide them the highest quality of 
health care available, and to control costs to the best of our ability. 
Doing so will make VA a model of good governance. The resources 
provided in the 2011 President's budget will permit us to fulfill our 
obligation to those who have bravely served our country.
    The 298,000 employees of the VA are committed to providing the 
quality of service needed to serve our Veterans and their families. 
They are our most valuable resource. I am especially proud of several 
VA employees that have been singled out for special recognition this 
year.
    First, let me recognize Dr. Janet Kemp, who received the ``2009 
Federal Employee of the Year'' award from the Partnership for Public 
Service. Under Dr. Kemp's leadership, VA created the Veterans National 
Suicide Prevention Hotline to help Veterans in crisis. To date, the 
Hotline has received almost 225,000 calls and rescued about 6,800 
people judged to be at imminent risk of suicide since its inception.
    Second, we are also very proud of Nancy Fichtner, an employee at 
the Grand Junction Colorado Medical Center, for being the winner of the 
President's first-ever SAVE (Securing Americans Value and Efficiency) 
award. Ms. Fichtner's winning idea is for Veterans leaving VA hospitals 
to be able to take medication they have been using home with them 
instead of it being discarded upon discharge.
    And third, we are proud of the VA employees at our Albuquerque, New 
Mexico Clinical Research Pharmacy Coordinating Center, including the 
Center Director, Mike R. Sather, for excellence in supporting clinical 
trials targeting current Veteran health issues. Their exceptional and 
important work garnered the center's recognition as the 2009 Malcolm 
Baldrige National Quality Award Recipient in the nonprofit category.

    The VA is fortunate to have public servants that are not only 
creative thinkers, but also able to put good ideas into practice. With 
such a workforce, and the continuing support of Congress, I am 
confident we can achieve our shared goal of accessible, high-quality 
and timely care and benefits for Veterans.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   Hon. Eric Shinseki, Secretary, U.S. Department of Veterans Affairs
    Question 1. Since the population threshold for the purposes of 
locating future National Cemeteries has been lowered from 170,000 to 
80,000 veterans, what impact will this have on the sizing of new 
cemeteries in the future?
    Response. The revised Veteran population threshold will result in 
the construction of five new national cemeteries in the areas of 
Melbourne/Daytona, FL; Omaha, NE; Buffalo, NY; Tallahassee, FL; and 
Southern Colorado. The new threshold will not alter VA's approach to 
the purchase of land for new national cemeteries. We will continue to 
seek large parcels that will ensure uninterrupted service into the 
foreseeable future and accommodate the necessary infrastructure. In 
addition, future budget requests will reflect Phase One cemetery 
development projects sufficient to accommodate interments for a ten 
year period. The number of acres to be developed in Phase One will 
depend on estimated death and usage rates for Veterans and eligible 
family members.

    Question 2. The Independent Budget (IB) notes that given the 
increased reliance on contract services, VR&E needs an additional 50 
FTE's dedicated to management and oversight of contract counselors and 
rehabilitation and employment service providers. Please comment on the 
FTE dedicated to this management and oversight function envisioned in 
the President's budget.
    Response. VR&E Service currently has dedicated 24 contract 
specialists throughout the country to provide oversight and support of 
contracting activities in each regional office. The number of contracts 
varies by office, with the average office supporting two local 
contracts. Structured guidance was provided to the regional offices, 
reducing associated complexity of development and procurement of 
contracts at the local level. Because contracting activity varies by 
office, contract specialist support has been placed in offices with the 
highest usage. Where the use of contracts does not warrant a full-time 
contract specialist, the specialist is responsible to support multiple 
offices. VR&E Service works with the Office of Field Operations to 
evaluate the need for additional contract specialists, and staff has 
been added when appropriate.
    In addition, VR&E Officers are required to complete basic contract 
warrant and contracting officer technical representative training. This 
training provides VR&E managers with the knowledge to effectively 
administer contracts. Working in collaboration with VA's Office of 
Acquisition, Logistics, and Construction, VR&E Service also provides 
routine training and oversight to field offices to ensure consistent 
compliance with Federal acquisition regulations.

    Question 3. At VA's budget briefing on February 1, a decrease of 
nine FTE for the VR&E program was justified on the basis of 
``efficiencies''. Please provide more detail on the precise nature of 
these efficiencies.
    Response. The following chart displays the VR&E budget for 2010 and 
2011. Direct FTE remains constant at 1,155 for both 2010 and 2011, with 
VBA management support FTE allocated to the VR&E Program reduces by 
nine FTE in 2011. VBA management support FTE provide support to program 
management and operations. This includes but is not limited to offices 
such as Resource Management and Human Resources. Unlike direct FTE, 
management support FTE are not responsible for program administration 
and operations.
    The reduction of nine management support FTE for VR&E does not have 
direct program impact. VBA management support FTE for all VBA programs 
(such as human resources or financial management FTE) are allocated by 
formula across all business lines based on the level of direct program 
FTE to VBA's total direct FTE. Since direct FTE increased for the 
Compensation and Pension (C&P) Program, a larger portion of the total 
management support FTE was allocated to C&P Program, and support FTE 
decreased for other programs.
    The 2011 budget includes an $8.3 million GOE increase for VR&E 
contract counseling services, some or all of which can be utilized to 
support up to 130 additional direct FTE for VR&E. During execution of 
the 2011 budget, other upward staffing adjustments will be made, if 
needed.

    Question 4. A number of increased outreach initiatives are 
discussed in connection with the VR&E program including enhanced DTAP 
efforts, the Coming Home to Work program, and the VetSuccess on Campus 
pilot program. Can you provide a breakout of the number of FTE who will 
be supporting these efforts?
    Response. The Disability Transition Assistance Program (DTAP) , 
Coming Home to Work, and the VetSuccess on Campus pilot provide 
outreach and assistance to transitioning servicemembers and new 
Veterans. VR&E is working with the Office of Acquisition, Logistics, 
and Construction to award a contract for redesign of the DTAP program. 
This redesign will result in an enhanced DTAP model tailored to the 
needs of active duty Servicemembers and Guard and Reserve members. The 
enhanced DTAP model is expected to increase awareness of VR&E benefits 
and applications for VR&E services. Staffing resources will be 
evaluated as a part of the DTAP redesign process.
    The Coming Home to Work Program was expanded in 2008 to increase 
outreach and early intervention services. VA has 13 full-time 
counselors at Military Treatment Facilities and also assigned 
counselors on a part-time basis in each regional office to provide 
outreach to VA medical centers, Warrior Transition Units, and Coming 
Home events.
    The VetSuccess on Campus program is currently in the pilot stage. 
It is designed to provide outreach and assistance to Veterans utilizing 
Post-9/11 GI Bill education benefits to assist them in successfully 
transitioning from military to campus life and ultimately to successful 
employment. Three full-time staff are dedicated to the VetSuccess 
pilot. Staffing requirements to implement the program will be 
determined as a part of the pilot project analysis.

    Question 5. The IB supports an increase of 200 FTE for VR&E's 
Independent Living Program. The President's Budget notes some positive 
improvements made to the program by virtue of the Veterans' Benefits 
Improvement Act of 2008 but fails to discuss in any detail how these 
improvements might have an impact on the effective management of it. 
Please provide a detailed discussion of the resources that will be 
available for this initiative and comment on the IB's proposal for an 
increase of 200 FTE.
    Response. The Veterans' Benefits Improvement Act of 2008 (VBIA) 
increased the cap on new Independent Living (IL) cases that may be 
developed each year from 2,500 to 2,600. In addition, the VBIA removed 
the time limitation on IL services for the most seriously disabled 
Veterans who have served in the Iraq and Afghanistan conflicts. These 
changes allow VR&E managers to ensure that appropriate services may be 
provided to the most seriously disabled Veterans suffering from such 
conditions as Traumatic Brain Injury, PTSD, or polytrauma injuries.
    The IL workload represents less than three percent of the open VR&E 
workload, with only 2,600 new cases developed each year. VA's model 
supports Rehabilitation Counselors (VRCs) providing a full scope of 
services for Veterans who need assistance to work, to live 
independently, or a combination of both. This allows an integrated 
service delivery approach in which the VRCs serve as experts who 
provide services tailored to each Veteran's needs. This comprehensive 
model supports the provision of IL services during a plan of employment 
services. Conversely, it supports the progression of Veterans' plans 
from IL to employment, when they are ready to pursue job goals. In lieu 
of adding specialized staffing to meet the varying and individually 
tailored IL needs of Veterans, VA counselors work with community 
resources, such as the national network of Centers for Independent 
Living (CILs) and/or procure services from specialized community 
professionals. Through the establishment of agreements with CILs and 
the expenditure of contract funds to meet specialized needs for the 
small population of Veterans requiring independent living assistance, 
VA is able to ensure resources are available when and where they are 
needed, ensuring that counselors in regional offices may quickly 
respond to additional service needs for Veterans who require 
extraordinary support to achieve IL goals.

    Question 6. The President's Budget notes that $1.2 million was 
redirected from VR&E's resources for the Veterans Benefits Management 
System (VBMS) Initiative to the Compensation and Pensions program. What 
effect will this action have on the VBMS Initiative within VR&E and to 
what purpose will the funds be used within the C&P program?
    Response. The $1.2 million redirected from VR&E to C&P in the FY 
2011 budget submission was originally allocated for VR&E-specific 
paperless processing capabilities in the FY 2010 President's Budget. 
Subsequent to the formulation of the FY 2010 budget, the strategy for 
the paperless claims processing initiative was refined with a greater 
emphasis on delivering near-term capabilities for C&P claims 
processing.
    The Veterans Benefits Management System (VBMS) initiative is a 
business transformation initiative supported by technology and designed 
to improve VBA service delivery, beginning with the C&P business line. 
VBMS is a holistic solution that integrates a business transformation 
strategy to address process, people and organizational structure 
factors, and an information technology solution to provide a 21st 
century paperless claims processing system. The technology investment 
in VBMS is reflected in the VA Information Technology Budget 
submission.
    During FY 2010, VR&E funding associated with VBMS was redirected to 
contribute to several contracts that enable VBA to acquire the 
technical and professional expertise required for the VBMS initiative. 
Services acquired through these contracts include strategic and 
tactical program management support services, business transformation 
and organization change management services, and commercial scanning 
services. For FY 2011, the VR&E budget request does not include funds 
for VBMS, which is a direct reflection of the VBA strategy to focus on 
improving C&P claims processing. The $1.2 million will be used for 
strategic and tactical program management support services, business 
transformation, and organization change management services specific to 
the C&P program.

    Question 7. What is the percentage of Vietnam veterans who are 
service-connected due to a presumptive condition?
    Response. VA cannot provide this percentage because our data 
systems do not store the basis of an award of service connection. VA 
cannot distinguish whether a Vietnam Veteran was awarded a disability 
rating due to presumed exposure to Agent Orange or due to a direct 
disability while in service.

    Question 8. In 2009, over 169,000 veterans received an increase to 
their disability benefits. On average, how long did it take for those 
re-opened claims to be adjudicated?
    Response. VA does not separately track the average days to complete 
reopened claims that are granted or denied. However, VA does track this 
information for all reopened claims. The average number of days to 
complete a reopened claim was 172.6 in FY 2009 and 164.7 in FY 2010 
through January.

    Question 9. Does the Department anticipate needing additional funds 
to pay benefits to Filipino World War II veterans and eligible 
survivors as mandated in Pub. L. 110-329?
    Response. The deadline to submit claims was February 16, 2010. VA 
is still determining the number of new and duplicate claims. Based on 
the current approval rate, additional funding may be required. VA is 
currently evaluating funding requirements to ensure all eligible 
Veterans are compensated. VA will advise Congress when this evaluation 
is completed.

    Question 10. The FY 2008 NDAA required the DOD and the VA to 
accelerate their exchange of health information and to develop 
capabilities that allow for interoperability (generally, the ability of 
systems to exchange data) by September 30, 2009. It also required 
compliance with Federal standards and the establishment of a joint 
interagency program office to function as a single point of 
accountability for the effort. In a January 2010 report, the GAO noted 
that the DOD/VA interagency program office is not yet positioned to 
function as a single point of accountability for the implementation of 
interoperable electronic health record systems or capabilities. In 
addition GAO also stated that if the program office does not fulfill 
key management responsibilities as GAO previously recommended, it may 
not be positioned to function as a single point of accountability for 
the delivery of future interoperable capabilities, including the 
development of the virtual lifetime electronic record.
    Response. On January 22, 2010, the Department offered GAO an update 
report RE: Electronic Health Records: DOD and VA Interoperability 
Efforts Are Ongoing; Program Office Needs to Implement Recommended 
Improvements (GAO-10-332). This report addresses key issues sited above 
in Question #10. Please see attachment for full copy of the updated 
report signed and dated by Mr. John R. Gingrich, Chief of Staff.

    Question 11. What is the status of the virtual lifetime electronic 
record? What is your assessment of the progress being made and when do 
you expect to launch this system? What are your thoughts on how VA 
should proceed?
    Response. ``VA has begun to lay the groundwork necessary to meet 
the President's directive for a Virtual Lifetime Electronic Record, or 
VLER, to contain the entire health and administrative data for our 
Nation's Service Members and Veterans. To achieve that goal, we have 
begun to connect the Department to the Nationwide Health Information 
Network (NHIN) for the purposes of securely exchanging health 
information with other public and private health care providers. In 
December 2009, we successfully began exchanging health information 
between the Department and Kaiser Permanente in San Diego, CA, for 
those patients who are seen in both organizations and who have opted 
into the exchange program. The Department of Defense (DOD) took the 
steps needed to join the effort in a three-way exchange by successfully 
implementing the technical capacity for NHIN based health data exchange 
at the end of January, 2010. We plan to increase the functionalities of 
this initial pilot and to deploy to additional sites around the country 
during 2010. We will soon begin to lay out the approach to guide future 
years planning and budgeting. The lessons learned from these pilots 
will position the Department to be able to securely exchange health 
information with any organization that also joins the NHIN. These first 
efforts represent the cornerstone building block of designing the 
Virtual Lifetime Electronic Record (VLER).''

    Question 12. The President's budget provides $51.6 million the 
Veterans Relationship Management System. This system will allow 
Veterans to access comprehensive online information anytime and 
anywhere via a single consistent entry point, among other things. What 
is the timeline for this project and when will it operational?
    Response. VA will use an iterative approach and a phased 
implementation to integrate the capabilities that will leverage all the 
initiatives in the Veterans Relationship Management (VRM) Program. The 
iterative framework of the VRM Program assumes that all initiatives 
will be conducted in parallel and will incorporate the multi-phased and 
multi-years implementation strategy.
    The VRM Program has three phases with milestones and deliverables 
in 2010, 2011, and 2012. The focus in 2013 and 2014 will be to ensure 
that the solutions implemented will continue to evolve with the 
changing needs of Veterans and the agencies that serve them. This agile 
approach will facilitate continuous improvement in our processes and 
technology and ensures that the transformational vision is realized.

    Question 13. This President's budget provides funds to meet the 
need of women veterans which includes full-time Women Veterans Program 
Managers serving at all VA medical facilities. However, on July 14, 
2009, VA testified before this Committee that, ``As of June 2009, each 
of the VA's 144 health care systems has appointed a full-time Women 
Veterans' Program manager.'' What does the FY 2011 budget providing for 
exactly with regard to the full-time Women Veterans Program Managers?
    Response. VA recognizes that the position of the Women Veterans 
Program Manager is key to the implementation and delivery of primary 
care women Veteran's health services. As previously stated, each of 
VA's 144 health care systems has appointed a full-time Women Veterans 
Program Manager. The positions are funded in FY 2010. The FY 2011 
budget continues the funding for these positions. As any of these 
positions becomes vacant through the normal turn over process, the 
vacancies will be filled in a timely manner through the established 
personnel hiring processes.

    Question 14. Of the carryover funds in the Medical Services account 
from 2009, $200 million is designated for rural health initiatives. 
Have these funds been obligated yet, and for what purposes? If not, why 
are they still unobligated?
    Response. Congress provided VHA's Office of Rural Health (ORH) with 
$250 million in two-year funds (FY 2009/2010) for rural health care 
initiatives. The majority of these funds were allocated in FY 2009 for 
rural health initiatives; however, at the end of the year $223 million 
was unobligated and carried over to FY 2010 to continue this dedicated 
funding for rural health. These funds support a variety of projects 
including, but not limited to: mobile clinics, rural Telehealth and 
tele-mental health initiatives, home based primary care (HPBC) 
programs, rural health outreach clinics, mental health intensive care 
management (MHICM) programs and expansions, as well as enhancements to 
existing community based outpatient clinics in rural areas. VA plans to 
have the full $250 million obligated by the end of FY 2010.
    There are several reasons why rural health care dollars have been 
delayed in obligation, which fall into three broad categories. First, 
the pool of qualified bidders willing to contract with VA to provide 
health care in rural communities is limited. The second is human 
resources. Identifying qualified individuals in highly rural areas has 
proven difficult, and finding employees willing to move to isolated 
areas has also been a challenge. And third, identifying appropriate 
physical space for clinical activities in rural areas that meet privacy 
standards has been a challenge, as well. Frequently, the space has 
required significant alteration, thus causing delays in construction 
and obligating dollars for completion of these projects.
                                ------                                

Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans Affairs
    Question 1. For FY 2010, the Department requested $70 million more 
than the previous year in medical and prosthetics research. For FY 
2011, the request is for only an additional $9 million. Does the 
Department anticipate any reduction in the amount of research carried 
out as a result of what is essentially a flat-lined request?
    Response. There is a 15.7% increase in research funding from FY 
2009 to FY 2011. This is significantly higher than the rate of research 
inflation which was 3.1% in FY 2010 and 3.2% in FY 2011. With this 
level of funding, VA does not anticipate any reduction in the amount of 
research.

    Question 2. There was an error in printing the budget wherein the 
IG's funding request to OMB was not printed; having corrected this, is 
the Department prepared to support the IG's request for nearly $12 
million in additional funding?
    Response. VA supports the need for strong management oversight, and 
the Office of Inspector General (OIG) plays an important role in 
performing its investigative and audit responsibilities. When the 
budget was developed recent budget increases were taken into account 
for all VA accounts, including the IG, Information Technology, and NCA. 
While these programs do not have increases in 2011, their two-year 
total increases in resources provide for very significant real program 
growth.
    More specifically, the 2011 budget request for IG is a 25% increase 
over the 2009 level. IG staffing has increased by 13% between 2009-2011 
(509 FTE to 576 FTE), and the 2011 budget sustains the 2010 staffing 
level of 576. The OIG has indicated that the 2011 budget will support a 
current services level of workload.

    Question 3. The Department's budget request shows a 30 percent 
increase in funding for OEF/OIF services. What new or expanded services 
will be provided as a result of this increase? Are there any programs 
or services you would like to expand or create, but did not request due 
to the cost of the increased workload?
    Response. The budget requests a funding increase of 30% for OEF/OIF 
Veterans in FY 2011 to accommodate an estimated 15% increase in the 
number of patients. We will continue to provide a full range of 
services to meet all of their medical needs. There are no new or 
expanded services and there are no programs or services that were not 
included in this budget request.

    Question 4. VA must deal with the most serious of Traumatic Brain 
Injuries (TBI), as well as the less severe injuries. Does the 13 
percent increase for the TBI program reflect the increased need for 
occupational therapy and support services for veterans who chose to 
transition to the civilian workforce?
    Response. Yes, the needs for increased occupational therapy are 
included in the 13 percent increase for the TBI program (i.e., the 
difference between the FY 2010 and FY 2011 funding). Funding for 
vocational and occupational training and similar support services for 
Veterans are provided by the Veterans Benefits Administration through 
the Vocational Education and Employment program.

    Question 5. VA is proposing to reduce obligations for rural health 
initiatives in Fiscal Years 11 and 12. Improving health care for 
veterans residing in rural areas is a major priority of many Members of 
the Committee, and the veteran population. What is the rationale for 
the proposed reduction?
    Response. There is no reduction. In FY 2009, Congress provided $250 
million in two-year funds (fiscal year 2009/2010) for rural health care 
initiatives. The majority of these funds were allocated in FY 2009 for 
rural health initiatives; however, at the end of the year $223 million 
was unobligated and carried over to FY 2010 to continue this dedicated 
funding for rural health. These funds support a variety of projects 
including, but not limited to: mobile clinics, rural tele-health and 
tele-mental health initiatives, home based primary care (HBPC) 
programs, rural health outreach clinics, mental health intensive care 
management (MHICM) programs and expansions, as well as enhancements to 
existing community based outpatient clinics in rural areas. We plan to 
have the full $250 million obligated by the end of FY 2010. In 
addition, FY 2010, FY 2011, and FY 2012 each continue the commitment of 
$250 million being dedicated to rural health initiatives.

    Question 6. VA's budget request cited a study which found a 19 
percent reduction in hospitalizations, and a 25 percent reduction in 
days hospitalized, for patients enrolled in home telehealth programs. 
What will be the cost savings in dollars expected from the $40 million 
investment that VA has requested for telehealth?
    Response. VA's focus on preventative medicine is reflected in the 
health care trends developed for VA and integrated into the actuarial 
model. Health care practices, like home telehealth, are also reflected 
in the assumptions to the extent that they prevent an avoidable 
inpatient admission or result in more efficient utilization of office 
visits. However, the impact of specific practices and/or technology 
cannot be separately identified and quantified.

    Question 7. Of the $179 million that VA has requested for 
readjustment counseling for fiscal year 2011, how much of this amount 
will be allocated to provide care for returning servicemembers and how 
much will be allocated to provide care for their family members?
    Response. Resources are not allocated specifically between services 
for Veterans and services for their family members. In FY 2009, Vet 
Centers provided 62,747 visits to 13,903 Veteran families for military 
related issues. 95% of these family services were provided conjointly 
with the Veteran present. A very small number (<1%) of the total Vet 
Center visits are provided to a Veteran's family member without the 
Veteran present.

    Question 8. Given the fact that the President's budget projects a 
nearly 5 percent increase in workload for the New GI Bill yet--at the 
same time--proposes nearly a 20 percent decrease in FTE devoted to the 
program, how confident are you that you will have sufficient resources 
to implement the program in an effective and timely fashion?
    Response. Post-9/11 GI Bill claims are currently reviewed and 
approved through a manual process augmented by limited automated 
support. Claims examiners must manually enter data into several 
systems. The long term solution, which will be fully deployed in 
December 2010, will automate many of manual processing steps. We are 
confident the new automated process will result in the need for fewer 
FTE.

    Question 9. The budget includes a 9 percent increase in funding for 
women veterans from fiscal year 2010 to 2011. Does this reflect an 
increase in the number of women veterans seeking VA care or an 
expansion of the services provided to women veterans?
    Response. The 9.7 percent increase in Gender Specific health care 
for Women Veterans in 2011 is being driven almost entirely by the 
influx of new women veterans. The number of active duty women in the 
military is at all time high and the number of enrolled women veterans 
has been increasing and is anticipated to increase steadily over the 
next decade. VHA will continue to ensure a broad range of health care 
services are available to these women including female specific 
diagnoses and services.

    Question 10. In the President's budget proposal there is no 
increase in budget dollars or total FTE from FY 2010 in the area of 
Information Technology. What impact will this have on VA's 21st Century 
technology initiatives such as implementing the Virtual Lifetime 
Electronic Record?
    Response. Within the $3.307 billion budget request, funding for 
maintenance and operations costs will be sustained to keep the systems 
at current capability and acceptable performance level. Potential risks 
are:

    <bullet> Systems supporting critical business functions will not be 
refreshed, potentially affecting performance and availability of 
services.
    <bullet> Significantly reduced funding for Regional Data Processing 
Centers (RDPCs) may affect efficiency and reliability of operations.

    The Project Management Accountability System (PMAS) with an 
incremental development and fiscally responsible approach will better 
manage development spending and ensure early identification and 
correction of failing IT programs. Halting programs that fail to meet 
their delivery milestones will prevent wasteful spending and manage 
with accountability in delivering technologies to help transform VA.
    Our Major Investments will continue to increase above the FY 2010 
level to meet the on-going demands for our Veterans and transforming 
VA:

    <bullet> Veterans Benefits Management System (VBMS) with $145.3 
million requested, is a 104% increase of above 2010, and is designed to 
transition from paper-intensive claims processing to a paperless 
environment.
    <bullet> The Post-9/11 GI Bill (Chapter 33) with $44 million 
requested, is a 28% increase above 2010, will provide the long term 
solution to deliver an end-to-end solution to support the delivery of 
tuition, university fee payments, housing allowance and yearly books 
and supply stipend.
    <bullet> Financial and Logistics Integrated Technology Enterprise 
(FLITE) with $120 million requested, is a 52% increase above 2010, and 
will effectively integrate and standardize financial/asset management 
data and processes across VA.
    <bullet> Virtual Lifetime Electronic Record (VLER) with $52 million 
requested, is a 23.42% increase above 2010, and will create the 
capability for VA and DOD to electronically access and manage the 
health, personnel, benefits, and administrative information needed to 
efficiently deliver seamless health care, services, and benefits to 
Servicemembers and Veterans.
    <bullet> Tele-health and Home Care Model with $48.6 million 
requested, enables VA to become a national leader in transforming 
primary care services to a medical home model of health care delivery 
with a new generation of communication tools that can be used to 
disseminate and collect information related to health, benefits and 
other services.

    Question 11. As part of VA's efforts to end homelessness among 
veterans, what long term solutions do you envision the Department will 
undertake to address homelessness among severely and chronically 
mentally ill veterans?
    Response. VA addresses the needs of homeless Veterans with severe 
and chronic mental illness through a continuum of care that includes 
Mental Health Residential Rehabilitation and Treatment services, 
transitional housing services through the Homeless Providers Grant & 
Per Diem Program, and VA Health Care for Homeless Veterans Contract 
Residential Treatment. In the very near future, VA will expand the 
continuum by adding homeless prevention services particular to this 
population. Historically, VA mental health and social services have 
played an important role in preventing homelessness among Veterans with 
mental illness. Interventions such as the Veterans Benefits 
Administration's (VBA) benefits assistance programs, compensated work 
therapy, recovery oriented treatment, residential rehabilitation, 
outpatient mental health and substance abuse programs have served many 
Veterans who are homeless or at risk for homelessness. In its mission 
of ending homelessness among Veterans, VA has enhanced its existing 
emphasis on prevention by the recent development or planning of several 
national initiatives that will serve chronically mentally ill Veterans. 
These include Supportive Services for Low Income Veterans and Families 
and Housing and Urban Development VA Supported Housing Program (HUD-
VASH).
    The HUD-VASH program is one of the core initiatives directed at 
ending homelessness among chronically mentally ill Veterans, in that it 
provides these Veterans with both permanent housing and supportive 
services on an ongoing basis. In this collaborative initiative between 
the U.S. Housing and Urban Development (HUD) and the VA, HUD provides 
housing vouchers and the VA provides case management services to assist 
Veterans' access and maintain permanent housing. HUD-VASH is 
specifically targeted to address the needs of chronically homeless 
Veterans, many of whom have a serious mental illness. At present, VA 
has 20,000 vouchers with case management services and anticipates the 
authorization of an additional 30,000 vouchers with case management 
services through 2014 to better meet the needs of our Veterans who are 
chronically homeless and also suffering from a serious mental illness. 
VA also intends to intensify the case management ratio to better 
address the housing and treatment needs of this most vulnerable 
population. Additionally, VA intends to implement emerging best 
practice models including Housing First approaches to more rapidly link 
chronically homeless Veterans to housing and treatment services.

    Question 12. The President's budget would provide over $15 billion 
in mandatory entitlements in FY 2010 and FY 2011 for new presumptions 
related to Agent Orange exposure. In arriving at this cost estimate, 
did the Department project how much more likely Vietnam veterans are to 
suffer from these conditions--such as heart disease--as compared with 
Vietnam era veterans who did not serve in Southeast Asia and their non-
veteran counterparts?
    Response. The cost estimate and methodology for the newly 
presumptive conditions related to Agent Orange exposure includes $15 
billion in mandatory funding, $12.3 billion of which is associated with 
86,069 known Nehmer retroactive claims. Under Nehmer, VA must 
readjudicate previously denied claims for newly added herbicide-related 
presumptive diseases filed by Nehmer class members (generally Vietnam 
Veterans and their survivors) and provide retroactive benefits from the 
date of the prior claim to such individual pursuant to 38 C.F.R. 
Sec. 3.816. Of those previously denied, 52,918, or nearly 76 percent, 
are currently on the rolls for other service-connected disabilities.
    The remaining $2.7 billion is associated with new claims from both 
Veterans who will be added to the compensation rolls and Veterans who 
will receive an increase to their current disability rating. For these 
new claims, prevalence rates for the general population were applied to 
the in-country Vietnam Veteran population. Other factors such as 
mortality and application rates were applied to generate total 
caseload.

    Question 13. In addition to the over $15 billion to fund mandatory 
entitlements for new presumptions related to Agent Orange exposure, 
what is the Department's estimate of the related costs for medical care 
for veterans who will now become service-connected from these 
presumptions? Are these costs reflected in the budget?
    Response. The estimate for medical care costs in FY 2011 related to 
the new presumptions for Agent Orange exposure and Amyotrophic Lateral 
Sclerosis (ALS) is $205 million.

    Question 14. The highlights of the VA's budget for FY 2011 claim 
that, ``The budget proposal includes $4.2 billion in 2011 to reduce and 
help prevent homelessness among Veterans. That breaks down into $3.4 
billion for core medical services and $799 million for specific 
homeless programs and expanded medical care, which includes $294 
million for expanded homeless initiatives.'' Can you please clarify 
what this $3.4 billion for core medical services represents? Is that 
amount solely for homeless veterans' services?
    Response. The $3.4 billion contains all core medical services costs 
for homeless veterans, including acute, rehabilitative, mental, 
prosthetics, and dental care.

    Question 15. Besides expanding existing programs, VA's 5 year plan 
to end homelessness among veterans includes the development of new 
programs--New HUD/VA Prevention Program, National Referral Call Center, 
and Supportive Services for Veterans and Families. Does VA have a 
breakdown in the budget for funding these new programs? When will these 
programs be up and running?
    Response. The proposed funding for these new programs is shown in 
the table below.
------------------------------------------------------------------------
                                           (Dollars in Thousands)
           Description            --------------------------------------
                                     FY 2010      FY 2011      FY 2012
------------------------------------------------------------------------
HUD-VASH Prevention Pilots.......       $5,000       $5,175       $5,366
National Referral Call Center....       $2,500       $3,000       $3,000
Support Svcs Low Income Vets &         $20,000      $50,560      $50,560
 Families........................
------------------------------------------------------------------------


    New HUD/VA Prevention Pilot: This new prevention initiative is a 
multi-site three-year pilot project designed to provide early 
intervention to recently discharged Veterans and their families to 
prevent homelessness. Site selection for this pilot project will give 
priority to communities with high concentrations of returning OEF/OIF 
soldiers, and to rural communities. Implementation of this program is 
expected to provide services to nearly 250 Veterans and their families 
in 2010. A total of 750 Veterans are projected to receive services from 
this program between 2010 and 2014.
    Supportive Services for Veterans and Families: VA will also use the 
authority mandated in Public Law 110-387 to establish programs with 
community-based non-profit and co-op agencies to provide supportive 
services specifically designed to prevent homelessness. These pilots 
will encompass both rural and urban sites with the goal of preventing 
homelessness and maintaining housing stability for the Veteran's 
family. This new homeless prevention initiative will establish and 
provide grants and technical assistance to community non-profit 
organizations to provide supportive services to Veterans and their 
families in order to maintain them in their current housing. Program 
regulations are currently under review; grants will be awarded in 2010. 
Approximately 5,000 Veterans and their families will receive services 
in 2010.
    National Referral Call Center: This new prevention initiative will 
establish a National Call Center that will provide linkages for 
homeless Veterans, their families and other interested parties to 
appropriate VA and community-based resources. It is anticipated that in 
2010 the Call Center will provide information and referral to 15,000 
Veterans and other interested parties. The National Referral Call 
Center will be a primary vehicle for VA to communicate with Veterans 
and community providers assisting them in connecting to local VA and 
community resources that will assist the Veteran in avoiding falling 
into homelessness or exiting homelessness.

    Question 16. The Independent Budget noted that in its latest 5-Year 
Capital Plan, VA has estimated the total cost of repairing all D-rated 
and F-rated facilities in the Facilities Conditions Assessment to be a 
staggering $8 billion. Please comment on this.
    Response. The FCA backlog has risen over the past few years due to 
various reasons: higher focus on identifying and reporting 
deficiencies; addition of special studies to FCA backlog, such as 
hurricane hardening, seismic, facade repairs; and the inclusion of 
assessments of all buildings and their associated infrastructure within 
VA. During the last several years, VA has devoted approximately $1.8 
billion to reducing the FCA backlog which currently stands at $9.6 
billion. The largest component of VA's FCA backlog of deficiencies 
belongs to VHA, which is primarily addressed through the Non-Recurring 
Maintenance (NRM) Program funds. A focus on reducing the backlog is 
balanced with other critical infrastructure needs such as sustainment, 
infrastructure improvements, high priority clinical initiatives (HPCI), 
and green management in order to meet VHA's mission, congressional 
direction, and energy mandate. The total FY 2011 VHA NRM budget request 
totals $1.11 billion, the largest request in Department history. This 
includes $400 million to ensure sustainability, $358 to reduce the FCA 
backlog in infrastructure improvements, $252 million for energy, and 
$100 million for HPCI.

    Question 17. The Committee has received reports from several small 
businesses which serve as distributors of products from manufacturers 
to VA facilities that their FSS contract renewal awards have been 
unnecessarily delayed by interference of VA's Office of Inspector 
General. During these delays, VA has been unable to obtain discounts 
which would be available under a standard contract, often resulting in 
more costly purchases on the open market. In just one case alone, VA 
lost more than $1 million in discounts due to IG-induced delays in 
making a contract award to one company, as it was forced to make 
necessary purchases on the open market. Most recently, VA has failed to 
meet yet another anticipated contract determination date of January 1, 
a determination process that began nearly 22 months ago. GSA completed 
a similar renewal in less than 60 days. Will you take the necessary 
actions to ensure that small businesses seeking the ability to compete 
for VA task orders are treated fairly and in accordance with GSA 
policy?
    Response. The VA is fully committed toward ensuring acquisition 
processes are fair and equitable to all vendors, including small 
businesses.
    VA processes all Federal Supply Schedule (FSS) offers in accordance 
with applicable regulations, laws and policies, especially FSS policies 
and provisions set forth by the General Services Administration. All 
FSS offers, whether received from manufacturers or dealers/
distributors, small or large businesses, are processed in the same 
manner and all offerors are treated fairly and equitably, regardless of 
a firm's socioeconomic status. Some FSS offers may take additional time 
to complete due to the value of the offer, which may meet certain 
thresholds requiring a more thorough evaluation or review such as a 
pre-award review (typically performed on FSS offers valued annually at 
$5 million or more for pharmaceuticals, $3 million or more for non-
pharmaceutical). These reviews protect the government's interests by 
ensuring favorable pricing for the government.
    VA solicits early submission of ensuing FSS offers at least 24 
months before the current FSS contract expires. Periodic reminders are 
sent every six months. Many FSS contractors wait until the final months 
of their current contract's performance before submitting. In an effort 
to avoid disruptions, FSS contractors seeking an ensuing FSS contract 
are afforded the opportunity to extend their current contract until a 
new and ensuing FSS contract can be awarded. The only time this option 
is not extended is when a FSS contractor has waited until the final 
months of the performance period to renew, at which time VA has no 
legal authority to extend beyond the prescribed performance period of 
the FSS contract.
    Because the FSS program is a multiple award program, which means 
more than one contract source could be awarded for ``same'' or 
``similar'' products and/or services, VA, like other Federal customers, 
have other contract source options under the FSS program should a 
particular FSS offeror's products be unavailable due to an on-going 
evaluation/negotiation process. If the particular product/service 
sought is only available on the ``open market'', VA facilities may 
request a waiver, including the proper ``sole source'' justification, 
through the proper channels to procure the needed item or service. The 
waiver process is quick and the requesting office normally receives a 
response within 24 to 48 hours.
    VA is firmly committed to ensuring the acquisition process is fair 
and equitably to all vendors while ensuring the awarded contracts are 
in the best interest of the government and ultimately our taxpayers.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
 Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans Affairs
               veterans benefits administration--general
    Question 1. The fiscal year (FY) 2011 budget request refers to an 
initiative to provide individual printers to employees throughout the 
Veterans Benefits Administration (VBA) so they will be able to print 
documents at their own desks. The explanation for this initiative is 
that it will ``increase employee efficiency * * * and also reduces the 
possibility of incorrectly mailing personally identifiable 
information.''

    A. How much has the Department of Veterans Affairs (VA) already 
spent on this initiative and how much more does VA plan to spend in 
fiscal years 2010 and 2011 for this purpose?
    Response. The Office of Information & Technology (OI&T) spent 
approximately $47,000 on desktop printers for VBA to pilot this 
initiative at the Lincoln Regional Office. Upon further study, VBA 
determined that the costs to implement this initiative nationwide 
significantly outweigh the benefits, and no additional funds will be 
spent to pursue this effort.
    OI&T promotes the use of network printers, which are more cost-
effective, as they use less ink, paper, and require less maintenance. 
VBA leadership canceled the pilot in January 2010 after re-evaluating 
the costs/benefits of proceeding with the initiative and its future 
relevancy with the procession of the Veterans Benefits Management 
System (VBMS).
    Final decisions have not been made on the reallocation of funds 
designated for this effort. VBA leadership will review the needs of the 
organization in the execution year for reallocation. VBA will place a 
priority on initiatives that directly align with VA's strategic, 
integrated, and high-performance goals for FY 2011.

    B. In total, how many printers and print cartridges are being 
purchased as part of this initiative?
    Response. OI&T purchased 130 desktop printers for the Lincoln RO 
pilot. These printers are being reallocated to replace older, existing 
desktop printers still needed to support management, human resources, 
and finance functions, and to meet the needs of employees requiring job 
accommodations. No print cartridges were purchased.
    VBA did not progress beyond the initial purchase of the desktop 
printers at the Lincoln Regional Office pilot site. VBA leadership 
canceled the pilot in January 2010 after re-evaluating the costs/
benefits of proceeding with the initiative against its future relevancy 
with the procession of the Veterans Benefits Management System (VBMS) 
initiative.

    C. What is the cost per employee for this initiative?
    Response. The cost was estimated at $360 per employee for the 
initial purchase of printers and printer maintenance kits.

    D. Please quantify the expected improvements in efficiency for each 
VBA business line, such as the number of additional claims the 
Compensation and Pension service would be expected to complete per 
year.
    Response. VBA determined that nationwide implementation of this 
initiative would not significantly improve efficiency or productivity.

    E. Is expanding the availability of printers consistent with VA's 
goal to ``move the claims process to a paperless environment''?
    Response. No. As such, the organization is no longer pursuing this 
initiative.

    F. Did VA examine whether there are less expensive means of 
protecting against the inadvertent mailing of personally identifiable 
information?
    Response. The safeguarding of Veterans' information is paramount. 
VBA continually seeks improvement in mailroom efficiency and 
effectiveness through enhancements in process, technology, and quality.
                vocational rehabilitation and employment
    Question 1. The fiscal year 2011 budget request for the Vocational 
Rehabilitation and Employment (VR&E) program includes $32.8 million for 
Other Services, which is 51% higher than the amount expended during 
fiscal year 2009 ($21.7 million) and 34% higher than the amount 
expected to be expended during fiscal year 2010 ($24.4 million). 
According to the budget request, this increase ``reflects contracted 
services.''

    A. Please provide an itemized list of how these funds would be 
expended.
    Response. The 2011 budget includes an $8.4 million GOE increase for 
VR&E contract counseling services, which will be utilized for contract 
counseling services or to for additional service that support FTE in 
the VR&E program. Specific services provided to Veterans through this 
funding, either by contract counselors or VR&E direct FTE will include 
the following: initial evaluations, case management, employment, and 
discrete services. Discrete services include specialized services for 
the most seriously disabled such as life skills coaching, job coaching, 
independent living assessment, and job site analysis.

    B. What specific services would be provided through contractors?
    Response. Services are procured from professional counselors in the 
community to supplement services provided by VA staff. Services include 
vocational counseling and testing, case management, and employment 
readiness and job placement assistance.

    C. What metrics would be used to gauge whether funds for contract 
services are used effectively?
    Response. Effectiveness of the use of FTE and contract resources is 
based on timeliness of entitlement determinations and rehabilitation 
plan development, quality of program services, and rehabilitation 
outcomes.

    Question 2. The President's budget request for FY 2011 allows for 
an increase of over $7.3 million for personal services, yet reduces the 
Full Time Equivalents (FTEs) by 9.

    A. What is the average current workload of vocational 
rehabilitation counselors, both VA full-time employees and contracted 
counselors?
    Response. Currently, Vocational Rehabilitation counselors are 
assisting an average of 145 Veterans each. Contracted services are also 
utilized as necessary to supplement VR&E staffing in cases when 
Veterans live in remote geographic regions or where VA has staff 
turnover or workload growth due to deployments in certain regions. The 
use of contractors allows VA to respond quickly to workload 
fluctuations, ensuring services are provided in a timely and quality 
manner. Because contractors hire a combination of staff and 
subcontractors and may provide services to other customers, it is not 
possible to quantify the number of cases per contract provider. 
However, contracts limit vendors to no more than a 1:125 counselor to 
Veteran ratio when serving Veterans in all phases of the program and to 
no more than a 1:150 ratio when the contract counselor is providing 
only case management assistance.

    B. VA anticipates a 10% increase in actual VR&E workload; how will 
the President's budget ensure that the best possible services are 
provided to these disabled veterans given the current staffing levels?
    Response. To ensure support is in place to serve new Veterans in 
the VR&E program, the FY 2011 budget includes an increase of VR&E's 
budget to allow an additional $8.4 million in funding that may be used 
to fund contracting support.

    C. In light of the fact that Vocational Rehabilitation & Employment 
FTEs will be reduced by 9 in between the FY 2010 estimate and the FY 
2011 estimate, what accounts for the increased funds for personal 
services?
    Response. The FY 2011 FTE allocation for VR&E is 9 fewer than in FY 
2010 as a result of an adjustment in the overhead allocation of VBA 
management support across all business lines. There is no reduction in 
VR&E direct program staffing for 2011. Personal services increases by 
$7.3 million to fund the budgeted pay raise, the associated level of 
fringe benefits costs, e.g., health care, the government's share of 
employee retirement, and Thrift Savings contributions (which increase 
at rates above the pay raise rate).

    Question 3. Travel obligations for Vocational Rehabilitation & 
Employment in FY 2009 were $1.9 million. The FY 2011 request asks for 
$2.9 million.

    A. The budget request for FY 2011 constitutes a 53% increase over 
FY 2009. How many VA employees are anticipated to travel for their 
duties during FY 2011?
    Response. VRE's FY 2011 travel request, at the time the budget was 
developed (May 2009), was based upon the budgeted FY 2009 level of 
$2.78 million and included a modest increase of approximately $105 
thousand. FY 2009 actual expenditures of $1.93 million, available after 
the completion of the budget, were approximately $850 thousand less 
than the budgeted level. While the comparison of FY 2011 to FY 2009 
actuals (an atypically low year), in hindsight, seems a large 
percentage increase, the request is very consistent over the last 
several years. Due to the nature of the VR&E program, all 
(approximately 874) professional and employment field staff will travel 
to some degree to provide direct services to Veterans and to 
participate in training activities. A total of approximately 53 Staff 
in central office will also travel to provide training and support to 
the field.

    B. What is the average cost per employee for work-related travel?
    Response. Of our 2011 staff of 1,289 we expect 927 (874 field staff 
and 53 central office staff) to travel. Our total travel request for 
2011 is $2.884M which averages out to approximately $3,100 per person.

    C. What portion of these additional funds will go toward training 
for vocational rehabilitation counselors?
    Response. Approximately 60 percent or more than $1.72 million of 
the travel budget is for centralized counselor training. The remaining 
40% is for program travel, oversight, outreach and local training. 
Program travel in the field includes the cost for counselors and 
employment coordinators to travel to provide direct services to 
Veterans. Outreach includes travel to provide Disabled Transition 
Assistance Program (DTAP) briefings, and targeted outreach at other 
venues such as Yellow Ribbon and Post Deployment Health Reassessment 
events. Central Office program travel includes provision of oversight, 
initiatives and support to field offices.
                                housing
    Question 1. The budget request for Housing programs for FY 2011 
includes $29 million for Other Services, including an Appraisal 
Management Service/Automated Valuation Model, a workload measurement 
study, and an audit of property management contractor, which is 67% 
more than the amount expended on Other Services during FY 2009 ($17.4 
million), and $5.4 million more than the FY 2010 current estimate 
($23.7 million).

    A. What specific performance outcomes are anticipated with the 
purchase of an Appraisal Management Service/Automated Valuation Model?
    Response. Appraisal Management services, including Automated 
Valuation models, have become prevalent in the industry over the past 
10 years. These services and models support standardized operations and 
better management of financial decisions in a cost-effective manner 
through the use of statistically valid and reliable risk indicators. 
Similar to the industry, VA expects to transform its appraisal 
oversight operations through the purchase of this service. VA's primary 
goal is to improve the quality and efficiency of its appraisal 
oversight program. To achieve this goal, VA expects to:

    <bullet> Automate first-level reviews of appraisals using pre-
defined business rules and statistically valid and reliable risk 
indicators
    <bullet> Shift from a random to a risk-based selection process to 
perform oversight activities
    <bullet> Maximize fraud prevention efforts through the automation 
of the appraisal review process, as well as the application of national 
databases with up-to-date valuations and statistically proven risk 
indicators
    <bullet> Decrease travel costs for field reviews of appraisals and 
appraisers
    <bullet> Standardize appraisal policies and processes across the 
nation
    <bullet> Gain the ability to assign work so that it can be evenly 
distributed nationwide, when geographic demands necessitate it
    <bullet> Accelerate payments to appraiser panel
    <bullet> Tailor training program to appraisers and lenders' staff 
appraisal reviewers
    These outcomes will greatly improve VA's ability to estimate the 
collateral value of VA's portfolio and will reduce its corresponding 
financial portfolio risk. Since most Veterans using the program do so 
because of the no-down payment feature, it is especially critical in 
protecting the government's interests to have an accurate appraisal of 
the property being secured with the VA guaranty. Additionally, these 
outcomes will make the loan guaranty program more appealing to VA's 
lending and servicing industry partners and, in turn, Veteran 
borrowers.

    B. How will performance measures be determined on the Appraisal 
Management Service/Automated Valuation Model?
    Response. VA plans to contract with a service provider to acquire 
the services of an appraisal management system, including automated 
valuation models, in FY 2010. During this time, VA will work with the 
contractor to identify relevant, meaningful performance measures by 
leveraging industry best practices. VA anticipates being able to 
maximize many of the measures currently being used in the industry 
since, similar to the conventional market, VA abides by the Appraisal 
Foundation's Uniform Standards of Professional Appraisal Practice 
(USPAP) in the completion of its appraisals. Possible performance 
measures may include:

    <bullet> Risk and fraud rate by appraiser, geographical area, and 
appraisal type
    <bullet> Timeliness by appraiser, geographical area, and appraisal 
type
    <bullet> Appraiser error rates resulting from USPAP violations
    <bullet> Bias rate (appraiser's determined value compared to AVM's 
projected value)
    <bullet> Percentage of appraisals below/at/above contract price by 
appraiser
    <bullet> Average appraiser fees by geographic area and appraisal 
type

    C. How will the workload measurement study be used by the VA Home 
Loan program to ensure the most efficient approval and oversight of 
home loan guarantees?
    Response. Since the last workload measurement study in 2000, 
significant changes in operational procedures have occurred as a result 
of legislative activity, managerial or organizational decisions, and IT 
developments. Some of these changes include the addition of the 
multiple-use provision and increased grant amounts to the Specially 
Adapted Housing (SAH) program and the implementation of the Veterans 
Affairs Loan Electronic Reporting Interface (VALERI) system.
    Accurate information on the amount of time devoted to the work 
performed in administration of Loan Guaranty benefits is necessary to 
evaluate performance in terms of productivity and effectiveness. The 
data from the workload measurement study will better enable Loan 
Guaranty to make successful management decisions affecting staffing, 
organization, procedures, and technology in this environment.

    Question 2. The Home Loan Guaranty program anticipates a decrease 
of almost 60,000 home loan guarantees from FY 2009 (323,812) to FY 2010 
(267,900). This amount is further decreased in the estimated FY 2011 
workload, which indicates that approximately 240,100 loans will be 
guaranteed.

    A. In light of the anticipated reduction in overall participation 
in the program, why are an additional 39 FTE requested during a time of 
decreased workload?
    Response. The additional FTE are targeted for the Specially Adapted 
Housing (SAH) program, which has experienced significant workload 
increases over the last few years. As noted in the FY 2011 Budget, the 
number of SAH grant applications received has increased from 3,159 in 
2008 to 4,283 in 2009, and is expected to continue increasing in 2010 
and 2011. The number of SAH grants approved has also increased from 
1,017 in 2008 to 1,270 in 2009, and is expected to continue increasing 
to 1,512 in 2010 and 1,801 in 2011. These increases are largely due to 
recent legislative changes to the SAH program, which made over 14,000 
Veterans potentially eligible to re-use their SAH grants. Recent 
legislation also expanded eligibility criteria, increased grant 
amounts, and allowed for yearly adjustments of the grant amount based 
on a cost-of-construction index. Because of these changes, it is more 
important than ever that we regularly and aggressively reach out to 
these Veterans to ensure they are aware of and take advantage of the 
benefits to which they are entitled.
    It is true that we anticipate a decrease in the total number of 
loans guaranteed by VA between FY 2009 and FY 2011. However, this 
decrease will be due to an estimated 79 percent reduction in refinance 
loans, and specifically, the volume of interest-rate-reduction-
refinance loans (IRRRLs). IRRRLs are refinances of previously VA-
guaranteed loans where borrowers are seeking to reduce their interest 
rate. VA's processing and oversight work required for loans of this 
type is significantly less than what is required for purchase loans, 
since IRRRLs require neither full underwriting nor an appraisal.
    In contrast, purchase loans, which are the primary driver of VA's 
loan oversight workload, are expected to increase nearly 14 percent 
over the same time period. VA's increase in purchase loan volume will 
be largely due to a tightened lending environment for home mortgages 
and the fact that the VA guaranteed loan program is possibly the only 
no-down payment option remaining in the marketplace. VA borrowers 
typically purchase homes in the $205,000 price range and have median 
liquid assets of $6,800. As a result, for most of these Veterans, their 
only route to home ownership is through a VA-guaranteed loan. These 
loans do require greater scrutiny by VA employees to ensure appraisal, 
underwriting and credit guidelines are followed, and that Veterans are 
charged appropriately for the costs associated with obtaining and 
closing purchase loans.
    As a result of the expected increase in VA-guaranteed loans used to 
purchase homes as opposed to those used for refinance, it will not be 
feasible to reallocate FTE from the loan origination portion of the 
program to serve those Veterans in need of Specially Adapted Housing 
benefits.

    Question 3. The FY 2010 budget request for the Housing Program 
Interagency Motor Pool ($559,000) has almost doubled from $288,000 
expended in FY 2009.

    A. What constitutes the nature and purpose of this increase?
    Response. The 2009 enacted budget contained $538,000 for Loan 
Guaranty's motor pool obligations. This amount was used as a basis for 
developing the 2011 request of $559,000. Actual expenditures for 2009 
were considerably lower than anticipated. As a result, we will lower 
our 2011 anticipated obligations to $305,000 within this account.
                        compensation and pension
    Question 1. The fiscal year 2010 budget request from VA included a 
chart regarding the workload and resource needs for the Compensation, 
Pension, and Burial programs. That chart included information on 
``Output per FTE.'' A chart with similar information had been included 
in previous budget requests. The fiscal year 2011 budget also includes 
that chart but does not include information on the ``Output per FTE.''

    A. For fiscal year 2009, what was the level of output per FTE, 
including both permanent employees and employees hired with funds from 
the American Recovery and Reinvestment Act?
    Response. The total direct FTE in 2009 was 11,868, resulting in 
977,219 rating-related claims completed. The calculated output per FTE 
is 82.3. However, the 420 ARRA FTE only began coming on board in May 
2009, and the net effect on productivity in 2009 was insignificant. 
Therefore, the effective output per permanent FTE (exclusive of ARRA 
employees) was approximately 85.4.

    B. For fiscal year 2010, what is the expected level of output per 
FTE, including both permanent employees and employees hired with funds 
from the American Recovery and Reinvestment Act?
    Response. In fiscal year 2010 the estimated output per Compensation 
and Pension direct labor FTE is 78 processed claims.

    C. For fiscal year 2011, what is the expected level of output per 
FTE?
    Response. In fiscal year 2011 the estimated output per Compensation 
and Pension direct labor FTE is 79 processed claims.

    D. Is that information contained in the fiscal year 2011 budget 
request?
    Response. While this category is not explicitly stated in the 
fiscal year 2011 budget as it has been in previous budget requests, the 
expected level of output per FTE can be derived by dividing 
`Production' by `C&P Direct Labor FTE.' These categories are included 
in the fiscal year 2011 budget request.

    E. If not, please explain why that information was eliminated from 
this portion of the budget request, while at the same time ``Claims 
Completed Per FTE'' was added to the budget request with regard to 
education claims.
    Response. The Compensation and Pension program direct labor FTE 
includes administrative, public contact, fiduciary, managerial, and 
other employees assigned non-rating workload such as pension 
maintenance and burial claims in addition to those processing 
disability rating claims. VA has found that reporting an output per FTE 
measure that attributes all direct FTE in the program to only a portion 
of the Compensation and Pension workload is difficult to analyze and 
understand, and therefore subject to misinterpretation.

    Question 2. According to the fiscal year 2011 budget request, VA 
seeks funding to retain over 1,800 employees hired with funds from the 
American Recovery and Reinvestment Act and to hire more than 2,000 
additional claims processing staff. In a January 2010 report, the 
Government Accountability Office (GAO) made these observations 
regarding VA's recent hiring initiatives:

    We have reported that adding staff has the potential to improve 
VA's capacity to complete more claims, but an infusion of a large 
number of new staff will also likely pose human capital challenges for 
VA in the near term. VA has processed more claims and appeals decisions 
annually since hiring the additional staff; however, as it has 
acknowledged, individual staff productivity has decreased. 
Specifically, the number of rating-related claims processed per staff 
person declined from 101 in fiscal year 2005 to 88 in fiscal year 2008.

    A. What is a reasonable goal for rating-related claims processed 
per employee?
    Response. VA is currently undergoing a metric study associated with 
rating-related claims processed based upon employee experience levels. 
One key factor being analyzed is the average number of issues addressed 
for rating-related claims. We expect this study to provide us with 
baseline information that will enable us to establish appropriate 
measures and goals for claims processing employees.

    B. What impact would a massive hiring initiative during fiscal year 
2011 have on individual productivity?
    Response. The gross production of claims will continue to increase; 
however, the average individual productivity will decline while new 
employees undergo extensive training. Training and experience will 
increase productivity and gross production.

    C. What specific steps would VA take during fiscal year 2011 to 
deal with the ``human capital challenges'' posed by another hiring 
initiative?
    Response. VBA's training curriculum will be utilized as employees 
are hired in FY 2011. VBA will have appropriate facilities, staff, and 
other resources available for training new hires and will maintain 
consistency with ongoing training programs for existing employees.
    VBA is actively assessing the availability of space to accommodate 
the additional employees. A short-term solution will involve shift work 
in existing facilities until additional space accommodations can be 
arranged.

    D. What factors were considered by VA in deciding to seek large 
increases in employees in fiscal year 2011 rather than focusing on 
increasing productivity of the existing employees?
    Response. VA anticipates continued growth in incoming disability 
claims. VBA experienced a 14.1 percent increase in 2009, and we project 
a 13.1 percent increase in 2010 and 11.3 percent in 2011. Along with 
the addition of three new presumptive conditions, VA determined that 
focusing on increasing productivity of existing employees alone would 
not be sufficient to keep up with the growing workload. By hiring and 
training additional employees now, VA will have a stronger and more 
productive workforce to offset the impact of the expected workload 
increases over the next two fiscal years.

    Question 3. Between fiscal year 2001 and fiscal year 2008 the year-
end inventory of pending rating-related claims never exceeded 400,000. 
According to the fiscal year 2011 budget request, the year-end 
inventory is now expected to increase by 68% from fiscal year 2009 to 
2010 (from 416,335 claims to 700,669 claims) and to increase by 93% by 
the end of fiscal year 2011 (to 804,460 claims). On top of that, the 
time it takes to process claims is expected to deteriorate by nearly 30 
days (from 161 days in fiscal year 2009 to 190 days in fiscal year 
2011). This is despite the fact that staff has more than doubled since 
fiscal year 2005 and a 29% two-year increase in claims processing staff 
is requested between fiscal year 2009 and 2011.

    A. What metrics are used to determine whether these infusions of 
staff are effective?
    Response. While VBA uses a combination of workload management 
indicators to gauge performance, we will closely monitor rating 
quality, inventory, and completed claims to determine the effectiveness 
of our recent hiring initiatives.
    VBA continues to experience a significant increase in new claims 
requiring rating decisions, which adds to the high volume in the 
pending rating inventory. The increased staffing has led to increased 
organizational productivity. VBA aggressively hired across the Nation, 
adding nearly 4,200 new permanent employees between January 2007 and 
September 2009. Additionally, VBA hired 2,000 employees under the 
American Recovery and Reinvestment Act of 2009, many on temporary 
appointments.
    Disability claims received have increased from 838,141 in FY 2007 
to 1,013,712 in FY 2009, an increase of 20 percent. At the same time, 
the number of claims completed has continued to rise. In FY 2009, VBA 
completed 977,219 claims, an 18 percent increase in productivity over 
the 824,844 claims completed in 2007.

    B. What indicators would lead VA to determine that further staffing 
increases should be put on hold?
    Response. Given the dramatic increases in projected workload as 
well as the decision to add three new presumptive conditions for 
Vietnam Veterans exposed to Agent Orange, VA does not believe that 
further staffing increases should be put on hold. At the same time, we 
recognize that infusion of additional staffing alone is not the 
solution to fixing disability claims processing. Our business 
transformation initiative therefore includes policy and process 
changes, as well as new technologies, to address the claims workload.
    We will closely monitor rating quality, inventory, and completed 
claims to determine the need for additional hiring and the overall 
effectiveness of our business transformation initiative.

    C. Do these trends suggest that a new approach is needed now?
    Response. Such dramatic increases in workload will require VBA to 
employ innovative measures to be successful in meeting Veterans' needs. 
VBA is actively engaged with industry leaders to explore process and 
policy simplification and technology initiatives as elements of an 
overall business transformation strategy addressing the growing 
inventory of claims. The Veterans Benefits Management System (VBMS) 
initiative is a large-scale effort to develop an IT solution that is 
built on a scalable, agile architecture. Coupled with VBA's business 
transformation strategy, the VBMS initiative will enable our 
organization to reach its goal of a benefits delivery model that 
provides world-class service to our Nation's Veterans.

    Question 4. According to the January 2010 GAO report, VA has 
reported that some declines in productivity have been due to ``new 
staff who have not yet become fully proficient at processing claims and 
to the loss of experienced staff due to retirements.''

    A. In fiscal years 2010 and 2011, how many claims processing staff 
are expected to retire?
    Response. Approximately 21 percent of the claims processing staff 
(2,300 claims processors) are eligible to retire. In another year, an 
additional 1,700 claim processors will be eligible to retire. However, 
our recent experience is that only 25 percent of those eligible to 
retire actually retire in a given year.

    B. What is the current overall attrition rate for claims processing 
staff?
    Response. From FY 2005 through FY 2009, the attrition rate for VBA 
claims examiners (i.e., personnel in job categories of Veterans Service 
Representative [VSR] and Rating Veterans Service Representative [RVSR]) 
was approximately 10 percent per year.

    C. Since large-scale hiring began in 2007, what has been the 
attrition rate with regard to newly hired staff?
    Response. VBA conducted a review of the attrition rates of 
probationary employees in the VSR and RVSR job categories in February 
2009 for employees hired in FY 2007 through February 2009.

        FY 2007
                <bullet> 1,367 claims processors hired
                <bullet> 12 (1%) terminated
                <bullet> 49 (3.6%) resigned
        FY 2008
                <bullet> 1,785 claims processors hired
                <bullet> 37 (2%) terminated
                <bullet> 110 (6%) resigned
        FY 2009 (through February)
                <bullet> 327 claims processors hired
                <bullet> 5 (1.5%) terminated
                <bullet> 6 (1.8%) resigned
    VBA strives to recruit and select candidates for claims processor 
positions that meet the experience, knowledge, skill, and ability 
requirements necessary to successfully perform in these positions. 
Claims processing is a complex process, and the type of work involved 
is not a good fit for every candidate selected. The Department makes 
every effort to provide probationary employees with the opportunity to 
develop and demonstrate their proficiency.

    D. Of the employees hired since 2007, how many have completed 
initial training and how many have remained with VA until they have 
become fully proficient?
    Response. VBA hired 6,423 Veterans Service Representatives (VSRs) 
and Rating Veterans Service Representatives (RVSRs) between FY 2007 and 
FY 2009. Of the employees hired since 2007, 842 no longer worked for 
VBA after FY 2009 for reasons such as retirement, termination, and 
transfer. VBA considers VSR and RVSR employees initially trained and 
fully proficient based on 24 or more months of experience. Of the 
employees that continued to work for VBA, 2,355 had 24 or more months 
of experience, and 3,226 did not have 24 months of experience at the 
end of FY 2009.

    E. For fiscal year 2011, please provide a breakdown of how many 
claims processing staff are expected to have 0 to 6 months of 
experience, 6 to 12 months of experience, 12 to 18 months of 
experience, 18 to 24 months of experience, and more than 24 months of 
experience.
    Response. As of November 21, 2009, the experience levels of VBA 
claims processors were:

        <bullet> 4,916 VSRs on board:
                 i. 0-6 months experience = 380
                 ii. 7-12 months experience = 442
                iii. 13-18 months experience = 713
                iv. 19-24 months experience = 640
                 v. 24+ months experience = 2,741

        <bullet> 2,288 RVSRs on board:
                 i. 0-6 months experience = 156
                 ii. 7-12 months experience = 298
                iii. 13-18 months experience = 245
                iv. 19-24 months experience = 283
                 v. 24+ months experience = 1,306

    Based on the 10% attrition rate per year, VBA anticipates turnover 
of approximately 490 VSRs and 220 RVSRs positions. These claims 
processors would have varying levels of experience depending on when 
hired, but all less than 12 months in FY 2011. Direct compensation FTE 
will increase from approximately 10,700 in FY 2009 to 14,100 in FY 
2011. These 3,400 employees will also have varying levels of experience 
depending on when they are hired.

    Question 5. In 2001, a task force chaired by Admiral Daniel Cooper 
recommended that VA allocate employees ``to those Regional Offices that 
have consistently demonstrated high levels of quality and productivity 
in relation to workload and staffing levels.''

    A. If the fiscal year 2011 budget request is adopted, would 
additional staff be allocated predominantly to offices that have 
consistently performed well?
    Response. VBA continues to consider consistent high performance in 
allocating staffing to regional offices, as well as factors such as 
support for special missions, participation in pilots and initiatives, 
and physical space limitations. VBA also employs a ``brokering'' 
strategy, which balances the workload by sending cases from regional 
offices with high inventories to regional offices and resource centers 
with additional processing capacity.

    B. Over the past five years, which regional offices have 
consistently performed well and which have consistently underperformed?
    Response. Performance is evaluated against both national and 
individual targets that are established at the beginning of each fiscal 
year. Regional office performance varies as a result of a number of 
factors including workforce experience, local economic and employment 
environment, high cost of living, and staff turnover. Regional offices 
that consistently perform well are in areas where VA is an employer of 
choice, and we are therefore able to recruit and retain high-performing 
employees. Regional offices that have difficulties in meeting 
performance targets are predominantly in high-cost metropolitan areas 
with high employee turnover.

    C. What steps will be taken to deal with offices that consistently 
underperform?
    Response. VBA aggressively monitors regional office performance and 
develops specific action plans to improve identified problem areas. 
Oversight is provided through site visits conducted by both the 
Compensation and Pension Service and the Area Directors. Regional 
office directors are held accountable for performance though annual 
performance evaluations. Special missions such as the processing of 
Benefits Delivery at Discharge and Quick Start claims are assigned to 
regional offices that consistently perform well, creating growth 
opportunities for offices that have proven the ability to handle 
additional workload.

    Question 6. In the fiscal year 2010 budget request, which was 
submitted to Congress in May 2009, VA estimated that, with the 
temporary staff hired with funds from the American Recovery and 
Reinvestment Act, the ``increase in production in 2010 is expected to 
be 10,000 cases.'' Then, in its FY 2009 Performance and Accountability 
Report, which was submitted to Congress in November 2009, VA estimated 
that those temporary employees ``increase[d] by 10,000 the number of 
compensation and pension (C&P) claims processed per month'' (emphasis 
added).

    A. Please clarify the expected increase in productivity per month 
and in total during fiscal year 2010 as a result of employees hired 
with funds from the American Recovery and Reinvestment Act.
    Response. VBA estimated in its May 2009 ARRA program-specific plan 
that 10,000 more claims will be processed in FY 2010 as a result of 
hiring 1,500 claims processors under the American Recovery and 
Reinvestment Act of 2009. The statement in the FY 2009 Performance and 
Accountability Report regarding the increase of 10,000 claims per month 
is misquoted from our original productivity estimate. Our best estimate 
of increased rating-related productivity as a result of the ARRA hires 
continues to be a total of 10,000 claims over the course of the fiscal 
year.

    B. What is the estimated cost per additional case that will be 
processed by the employees hired with funds from the American Recovery 
and Reinvestment Act?
    Response. The additional cost per claim is approximately $12,300, 
when considering an additional 10,000 cases expected to be processed 
and the $123 million carried over into FY 2010 for this program. ARRA 
hires were trained to complete less complex claims processing and 
support activities, removing these administrative duties from 
experienced claims processors who now focus on more difficult claims 
and increased productivity.

    Question 7. For many years, experts have stressed the need to 
modernize the VA disability compensation system, by taking such steps 
as updating the VA Disability Rating Schedule. According to VA's FY 
2009 Performance and Accountability Report, ``VA will contract an 
ongoing review of the VA Schedule for Rating Disabilities beginning in 
2010.'' Also, in a recent response to my questions, VA indicated that 
``[a]s part of the ongoing effort to update at least one to two body 
systems per year, VA developed a Project Management Plan.'' In 
addition, that response indicates that ``[s]even additional medical 
officers and a psychologist will be hired in the future'' to support 
the effort to modernize the Rating Schedule.

    A. Has a contract been entered into for the purpose of conducting 
an ongoing review of the Rating Schedule?
    Response. No; a draft Statement of Work is currently under review 
at VBA.

    B. How much does VA anticipate spending on this review in fiscal 
year 2010?
    Response. VA anticipates spending $750,000 in FY 2010.

    C. How much does VA anticipate spending on this review in fiscal 
year 2011?
    Response. VA anticipates spending $750,000 in FY 2011.

    D. Please provide a copy of the Project Management Plan and any 
other information about what milestones have been set for fiscal years 
2010 and 2011 in terms of updates to the Rating Schedule.
    Response. The Project Management Plan is currently under 
development and will be submitted to Congress as soon as completed.

    E. When will the additional seven employees be hired?
      Response. VBA plans to hire the 7 FTE in FY 2010.

    F. In total, how much funding from the fiscal year 2011 budget 
would be dedicated to updating the VA disability rating schedule?
    Response. VBA plans to dedicate $2.2 million (includes FTE) in FY 
2011 to update the rating schedule.

    G. Does the fiscal year 2011 budget request contain sufficient 
funding for all employees, contracts, and other expenses necessary to 
keep the Rating Schedule up to date?
      Response. Yes, we believe the FY 2011 budget contains sufficient 
funding.

    Question 8. At a Senate Committee on Veterans' Affairs hearing in 
September 2009, the Committee discussed a report prepared by Economic 
Systems, Inc., entitled ``A Study of Compensation Payments for Service-
Connected Disabilities,'' which in part discussed options for 
compensating veterans for loss of quality of life caused by their 
service-related injuries. The Under Secretary for Benefits at that time 
indicated that further study would be necessary before moving forward 
with most of the options in that report. After that, I sent questions 
to VA asking what additional studies would be needed to move forward 
with compensating veterans for loss of quality of life, whether VA has 
sufficient funding to conduct the necessary studies, and when VA would 
move forward with those studies. VA recently provided this response:

        The Advisory Committee on Disability Compensation is currently 
        reviewing and analyzing potential models for compensating for 
        Quality of Life (QOL) loss * * *. Due to the on-going work of 
        the Advisory Committee on Disability Compensation, VA does not 
        believe that additional studies to create a separate system to 
        compensate for [quality of life] loss should be considered at 
        this time. There are existing benefits within VA's current 
        benefits package that implicitly address the [quality of life] 
        of Veterans * * *. For example, one such benefit that provides 
        Veterans with payments over and above the benefits amounts 
        computed from the [Rating Schedule] is Special Monthly 
        Compensation.

    A. Does VA agree that the VA disability system should finally be 
updated to compensate for lost quality of life, as recommended by 
numerous experts over the past five decades, including the Veterans' 
Disability Benefits Commission, the Dole-Shalala Commission, and the 
President's Commission on Veterans' Pensions?
    Response. VA believes there is a statutory framework in place for 
providing compensation based on non-economic loss. This framework is 
codified at title 38, U.S.C. Sec. 1114, and provides special monthly 
compensation that is not linked to average loss in earnings capacity. 
As such, VA believes there is already a mechanism in place for 
additional non-wage-related compensation. However, VA is looking to the 
Advisory Committee on Disability Compensation for input regarding areas 
where additional non-wage-related compensation may be in order. We do 
not believe that fundamental change in the wage-related component of 
VA's disability compensation program is advisable given the inherent 
difficulty in defining overall quality of life across the spectrum of 
disabilities and individuals.

    B. Does VA agree that, particularly for mental impairments, the 
current system of special monthly compensation does not adequately 
compensate for loss of quality of life?
    Response. Veterans with service-connected mental disorders of such 
severity as to require assistance in performing activities of daily 
living may receive special monthly compensation under the current 
statutory framework. The Advisory Committee on Disability Compensation 
is looking at that framework to determine if there are other outcomes 
associated with mental disorders that should receive the benefit of 
special monthly compensation.

    C. What does VA view as a reasonable timeline for the Advisory 
Committee to complete its work on quality of life issues?
    Response. The Committee is required by statute to provide a report 
to the Secretary no later than October 31, 2010, and not less 
frequently than two years thereafter. Given the inherent difficulties 
associated with defining quality of life across the spectrum of 
disabilities and individuals, VA believes that the Committee should 
have a section in that report concerning preliminary findings with 
respect to quality of life compensation.

    D. What steps will VA take to ensure that the Advisory Committee's 
work is completed in a timely manner, and who specifically at VA will 
be charged with monitoring the progress of the Advisory Committee?
    Response. VA's Compensation and Pension Service provides direct 
support to activities of the Advisory Committee. As such, the Director, 
C&P Service, has responsibility for ensuring that the Advisory 
Committee is meeting its charge as outlined in their charter.

    E. What resources will VA make available to the Advisory Committee 
to assist with its efforts?
    Response. VA provides a minimum of two FTE to support the 
activities of the Committee while the Committee meets. In addition, VA 
provides the Committee with information and meets with the Committee as 
requested.

    F. Once the Advisory Committee provides its recommendations 
regarding quality of life, will VA make it a priority to implement all 
appropriate changes, including providing proposed legislation to 
Congress if appropriate?
    Response. VA will make it a priority to implement recommendations 
of the Advisory Committee on quality of life, provided those 
recommendations are appropriate and consistent with the 
Administration's position on this issue. A legislative proposal would 
be developed if necessary to implement any recommendations.

    Question 9. In the portion of the budget request regarding the 
Compensation, Pensions, and Burial programs, it is noted that 
``increased funding for contract medical examinations'' is being 
requested.

    A. How much funding in total will be used in fiscal year 2011 for 
contract examinations?
    Response. In FY 2011, VBA contract exams are estimated to cost 
approximately $189.1 million, including $169.1 million in mandatory 
funding and $20 million in discretionary funding.

    B. Please describe VA's policy for reimbursing contract examination 
providers and the extent to which reimbursement is based on the payment 
system used by Medicare to reimburse health care providers for 
treatment.
    Response. VA does not reimburse the examiners. VA contracts with a 
primary contractor, and the primary contractor then enters into 
separate subcontracts with examination providers. The prime contract 
with VA is a fixed price contract.

    C. Please explain why VA believes the system used by Medicare to 
reimburse health care providers for treatment should also be used to 
reimburse contractors for VA compensation and pension examinations that 
are not being conducted for purposes of treatment.
    Response. The actual examination is billed according to a 
negotiated contract price between VA and the prime contractor, not VA 
and the subcontracted provider. VA only uses the Medicare rates as a 
basis for billing of diagnostic testing and procedures (such as x-
rays), which are billed according the current procedural terminology 
code assigned to each test. A fixed-rate for tests is in VA's best 
interest financially. The Medicare rate is issued by the Federal 
Government, which has already determined the rates for tests and 
procedures to be fair and reasonable according to the region of the 
country.

    D. Is VA aware of any inconveniences or frustrations this practice 
has caused for veterans? For example, if a veteran who requires a 
hearing test has ears that need to first be cleaned and drained, is it 
possible the veteran would be required to make two separate 
appointments with the contractor because the Medicare system would not 
allow reimbursement for cleaning and testing on the same day?
    Response. In cases where a test or procedure would require initial 
or additional work, the contract is amended so the prime contractor is 
allowed to bill VA for the additional labor and preparatory work. This 
type of amendment allows for the tests and procedures to be completed 
the same day so the Veteran will not have to reschedule the 
appointment.

    E. Is VA aware of any complications or frustrations this 
reimbursement practice has caused for contractors?
    Response. There have not been any complications identified by the 
contractor that have caused a delay in services to Veterans related to 
the reimbursement practices under the contracts.

    F. Has VA examined whether an alternative method of compensating 
contract examination providers, such as using a firm fixed price, could 
lead to better customer service and efficiency?
    Response. The contracts currently are firm-fixed price for the 
examination costs. The only portions that are not firm-fixed price are 
the diagnostic tests, which are based on Medicare rates.

    G. Is VA aware of other Federal agencies that use a firm fixed 
price to reimburse contract examinations?
    Response. VA is not aware of any other Federal agency that uses a 
firm-fixed price to reimburse contract examinations.

    Question 10. In addition to processing claims in a timely manner, 
it is essential that decisions are accurate in order to avoid delays 
and frustrations for veterans and their families.

    A. In fiscal year 2011, what level of funding will be dedicated to 
the Systematic Technical Accuracy Review (STAR) program?
    Response. The Systematic Technical Accuracy Review (STAR) program 
is a component of VBA's national quality assurance program that 
assesses the accuracy of disability benefit determinations. This 
national quality assurance program is administered by VBA's C&P 
Service. The FY 2011 allowance for administering this program is 52 
FTE. This represents an increase in staff of 42 percent since FY 2007.

    B. How many full-time employees would be dedicated to that program 
in fiscal year 2011 and how many cases would be reviewed?
    Response. As mentioned above 52 FTE will be dedicated to the STAR 
program in FY 2011.

    C. Will the number of cases reviewed by the STAR program be 
increased further as the level of claims VA is receiving per year 
increases?
    Response. The increase to VBA's Quality Assurance Program staff has 
enabled increased sampling, consistency reviews, and special focused 
reviews in support of the national quality assurance program. The 
Quality Assurance staff is targeted to complete 48,919 reviews for FY 
2011. This is an increase of 30,562 reviews from FY 2007.
    The current level of review is sufficient to provide a 95% level of 
confidence with a 5% margin of error. While VA does not intend to 
increase the sampling, we are considering additional more focused 
reviews. We are also looking forward to the Institute for Defense 
Analyses review of the quality assurance program as mandated by Pub. L. 
110-389, The Veterans' Benefits Improvement Act of 2008, to inform of 
us of areas to improve our national quality assurance program.

    D. What steps would VA take to ensure that quality of 
decisionmaking is not negatively affected by an influx of inexperienced 
claims processing staff?
    Response. In addition to training and coaching received at the 
regional offices, VA is taking steps to ensure the quality of claims 
processing staff through a comprehensive national training program. 
This training program includes pre-requisite, centralized, and home 
station training phases. The integration of a national training program 
has resulted in standardized training modules for all phases of claims 
processing. Additionally, the VA has created training modules for 
recurring training for journey level claim processors.

    Question 11. In light of the Secretary's decision to create 
presumptions of service connection for three additional disabilities, 
VA is requesting a supplemental fiscal year 2010 appropriation of $13.4 
billion to pay for additional disability benefits, including an 
estimated 86,000 retroactive awards based on the Nehmer litigation.

    A. Please provide an overview of what the Nehmer litigation 
requires.
    Response. Nehmer is a long-standing class action (originated in 
1986) on behalf of all Veterans eligible to claim VA disability 
compensation based on alleged exposure to herbicides during military 
service in Vietnam. In 1989, the U.S. District Court for the Northern 
District of California (District Court) invalidated the 1985 VA 
regulation governing claims based on herbicide exposure. Under Nehmer, 
VA must readjudicate previously denied claims for newly added 
herbicide-related presumptive diseases filed by Nehmer class members 
(generally Vietnam Veterans and their survivors) and provide 
retroactive benefits from the date of the prior claim to such 
individual pursuant to 38 C.F.R. Sec. 3.816. This requirement involves 
claims filed or denied during the period from September 25, 1985, to 
the effective date of the VA's final regulation establishing a 
presumption of service connection for the disease(s) claimed.

    B. How are retroactive Nehmer awards calculated? For example, are 
staged ratings assigned?
    Response. Retroactive benefits under Nehmer are calculated based 
primarily upon the 1991 Stipulation and Order requirements providing 
for the readjudication of Nehmer claims, a 2001 Stipulation and Order 
setting forth a timetable for promptly paying Nehmer class members 
retroactive benefits, and VA's corresponding Nehmer regulation at 38 
CFR Sec. 3.816. The regulation sets forth a process for payment of 
benefit claims under the Nehmer court orders. Pursuant to the effective 
date provisions contained in 38 CFR Sec. 3.816(c), benefits are 
generally paid retroactive from the date VA received the original 
service connection claim for the presumptive disease. Death benefit 
claims are handled in a similar fashion. In cases where the disability 
increases or decreases, staged ratings may be assigned.

    C. If a veteran covered by Nehmer is deceased, who would receive 
the retroactive award and how would VA determine what disability rating 
to assign?
    Response. VA's Nehmer regulation at 38 CFR 3.816(f)(1) states that 
if a Nehmer beneficiary is deceased, payment will be made to the first 
individual or entity that is in existence at the time of payment, in 
the following order of priority: (1) spouse, (2) children, (3) parents, 
and (4) estate. Thus, if there is no immediate survivor in categories 
(1)-(3), VA must pay the estate if there is an estate in existence. 
Payments made to estates can result in relatives further removed than 
those in categories (1)-(3) receiving the retroactive benefits. The 
requirement to pay estates, notwithstanding the accrued benefits 
limitations in 38 U.S.C. Sec. 5121(a)(2), is based on judicial 
decisions in Nehmer mandating such payments.

    D. How long will it take to process those 86,000 retroactive 
awards?
    Response. VA currently cannot estimate how long it will take to 
readjudicate these claims. Nehmer claims are more complex than other 
claims, and generally require analysis of VA records that span several 
decades. VBA is therefore taking action to prepare for adjudication of 
these claims as soon as the new regulation becomes effective. A 
training guide and schedule have been completed and are ready for field 
distribution. The Nehmer cases will be adjudicated by 13 VA resource 
centers. Training for personnel assigned to the resource centers began 
May 3, 2010, in Nashville. Upon completion of training, the resource 
centers will begin development of the claims. VBA completed a records 
match with VHA to identify Veterans who received treatment for the 
three new presumptives and therefore reduced the need for VA 
examinations. In addition, VBA has prepared a pre-printed medical exam 
template for Veterans to take to their primary care physician. These 
templates will allow VA to expedite rating decisions based on these 
records without requiring a VA medical examination.

    E. Which VA offices will handle those 86,000 awards and how will 
that work be prioritized?
    Response. VBA currently plans on using 13 Resource Centers to 
consolidate all Nehmer claims. The priority of processing Nehmer claims 
is under development. VBA is seeking every avenue available to 
determine which claims will require the most development, the least 
development, or possibly no development to facilitate the 
prioritization of this workload.

    F. Has VA put out any guidance on how to adjudicate those claims? 
If so, please provide a copy.
    Response. As previously stated, VBA's action plan for 
readjudicating these claims is still under development. Once complete, 
and upon final promulgation of VA's amended regulation adding the three 
new disabilities to the list of other diseases presumptively related to 
herbicides, VBA will provide a copy of its action plan. In the interim, 
VBA provided guidance, whether or not Nehmer applies, on handling 
claims for the new presumptive disabilities prior to implementation of 
a final regulation. That guidance is contained in Compensation and 
Pension Service Fast Letter 09-50, dated November 19, 2009.

    Question 12. Since 2003, cases remanded by the Board of Veterans' 
Appeals have been handled at a centralized entity called the Appeals 
Management Center. In recent years, before a leadership change at the 
Appeals Management Center, veterans' organizations and others had been 
highly critical of this entity.

    A. What level of funding is requested for the Appeals Management 
Center in fiscal year 2011?
    Response. Funding for the AMC is included in the Compensation and 
Pension (C&P) FY 2011 budget request. Resources are determined and 
allocated to the AMC, as appropriate, in the execution year. In FY 
2009, the AMC obligated $11.2 million in payroll and $1.2 million in 
non-payroll expenses.

    B. How many employees will that level of funding support?
    Response. The Appeals Management Center has an assigned staffing 
level of 200 full-time employees for FY 2010. Funding allocations for 
FY 2011 will be determined in the execution year.

    C. What were the key performance outcomes for the Appeals 
Management Center in fiscal year 2009 (such as timeliness and accuracy) 
and what are the expected performance outcomes for fiscal years 2010 
and 2011?
    Response. During FY 2009, the Appeals Management Center (AMC) 
completed 15,396 appeals, the highest production since its 
establishment in 2003. Actual performance exceeded the AMC's production 
target of 12,000 appeals.
    By focusing on the oldest appeals, the AMC reduced the average age 
of its pending inventory from 373 days to 291 days (22 percent 
reduction) during FY 2009. Processing time increased as a result of 
this focus. At the beginning of FY 2009, the average number of days to 
complete an appeal was 437 days. This measure peaked at 578 days in May 
2009, but fell to 477 days by the end of FY 2009.

    D. How many remands is the Appeals Management Center expected to 
receive in fiscal year 2011 and how many remands are expected to be 
completed?
      Response. Estimates for fiscal year 2011 have not been 
determined.

    E. With the requested level of funding, will the Appeals Management 
Center reduce its backlog of pending cases?
    Response. The AMC was authorized to hire an additional 50 employees 
in FY 2010, increasing its staffing from 150 to 200 full-time 
employees. As these employees complete their training and gain work 
experience, the AMC anticipates increased production, with a resulting 
decrease in inventory.

    F. Does the fiscal year 2011 budget request outline the resource 
requirements and performance of the Appeals Management Center? If not, 
will that information be included in future budget requests?
    Response. The FY 2011 budget does not contain a specific line item 
for the Appeals Management Center (AMC). Resources and funding will be 
determined and allocated to the AMC in the execution year. VA does not 
plan to add facility-level resource requirements or performance to the 
budget request.

    G. What factors should be considered in determining whether to 
continue or disband this entity?
    Response. The AMC was established to process appeals remanded from 
the Board of Veterans' Appeals (BVA). Processing remands is the AMC's 
sole mission. All staff members receive specialized training and are 
dedicated to processing these complex claims. One of the primary 
reasons for locating the AMC in Washington, DC was to maintain a close 
physical proximity to BVA, which has improved communications and 
facilitated the identification and resolution of issues. The 
specialized mission of the AMC ensures that trained resources remain 
directed toward completing these complex cases.

    Question 13. In recent years, VA has increased its practice of 
brokering claims between regional offices. However, GAO recently 
reported that VA ``has not collected data to evaluate the effect of 
this practice.''

    A. How many cases does VA expect to broker during fiscal years 2010 
and 2011?
    Response. During the first quarter of FY 2010, 6,143 claims were 
brokered between VBA regional offices. If annualized, VBA projects to 
broker 24,572 rating-related claims between regional offices in FY 
2010. We also expect to send approximately 105,000 rating-related 
claims to VBA's nine resource centers for completion in FY 2010. In 
total, VBA projects to broker approximately 130,000 disability claims. 
Estimates for FY 2011 have not been developed.

    B. How much does VA expect to spend in fiscal year 2010 and fiscal 
year 2011 on shipping brokered cases between offices?
    Response. VBA is unable to provide this information, as we do not 
separate shipping costs associated with brokering from the regional 
offices' overall FedEx allocation.

    C. To what extent would brokering cases be expected to reduce 
delays in providing veterans with decisions or increase the accuracy of 
decisions?
    Response. The brokering strategy is designed to move work from 
offices experiencing workload and/or performance challenges to national 
resource centers and other offices with productive capacity. Brokering 
plans identify and leverage productive capacity to support offices 
where workload assistance is most needed. Regional offices experiencing 
the greatest workload challenges are assisted in regaining a more 
manageable workload balance.

    D. What metrics are in place to gauge the effectiveness of 
brokering?
    Response. Brokering effectiveness is measured through VBA Resource 
Center Performance Standards. Production and timeliness are measured 
locally by brokered sites, and monitored by VBA's area directors. 
Accuracy is measured both internally at brokering sites as well as 
nationally through Systemic Technical Accuracy Review (STAR).

    Question 14. According to the fiscal year 2011 budget request, VA's 
fiduciary program currently supervises over 104,000 incompetent 
beneficiaries and the program ``continues to grow.

    A. In total, what level of funding would be used to support the 
fiduciary program during fiscal year 2011 and how many employees would 
that level of funding support?
    Response. The Fiduciary program level of funding is estimated to be 
$36 million. This supports the salary and benefits of 475 FTE, notable 
programs such as the Accuity Asset Verification System, and planned 
conferences. Accuity Asset Verification System is a secure web-based 
network that automates the processing of financial asset verification 
requests for funds on deposit at financial institutions. Training 
conferences are planned with key staff in FY 2010. These conferences 
and on-site training will significantly enhance oversight and 
protection of beneficiaries' funds

    B. With this level of funding, what size caseloads would individual 
fiduciary program employees carry?
    Response. A standard caseload is not used across all regional 
offices for fiduciary activities. Caseload is based on density of 
population, distance traveled to reach a beneficiary, and the 
experience of the employee. For example, greater caseload can be 
assigned in a metropolitan area because reduced travel time allows more 
time for employees to complete fiduciary activities.

    C. Will the Western Area Fiduciary Hub be continued during fiscal 
year 2011? If so, what impact is that expected to have on the quality 
of fiduciary work?
    Response. The Western Area Fiduciary Hub will continue in FY 2011. 
The Western Area Fiduciary Hub is fully expected to meet or exceed the 
90 percent accuracy rate provided in the budget submission.

    Question 15. According to the budget request, a total of 2,543 
examinations and 1,194 ratings had been completed through the 
Disability Evaluation System (DES) Pilot process as of September 30, 
2009.

    A. How much in total has VA expended with regard to the DES Pilot?
    Response. The joint VA/DOD Disability Evaluation System (DES) Pilot 
program is currently operational at 26 locations, with site 27 entering 
the Pilot on March 31, 2010. VBA spent approximately $11.6 million in 
2009, which included payroll and benefits for 106 FTE, contract medical 
exams, travel, FedEx charges, and space requirements.
    VA and the Department of Defense (DOD) are currently developing 
plans to institute the DES Pilot model as the normal DES process for 
the military services.

    B. How much does VA intend to expend during fiscal years 2010 and 
2011 on the DES Pilot?
    Response. VBA estimates $18.5 million and $28.4 million will be 
spent in 2010 and 2011, respectively. These funds will be used for 
payroll and benefits for 181 FTE in 2010 and 285 FTE in 2011, contract 
medical exams, travel, FedEx charges, and space requirements. 
Additional discretionary funds of approximately $70 thousand will be 
used in 2010 for travel, shipping, and other miscellaneous expenses. 
One-time startup costs such as space and IT infrastructure are 
estimated to cost $5.4 million as the pilot expands. Mandatory funding 
for contract examinations is estimated to be $6.7 million in 2010 and 
$20.3 million in 2011. Examination costs for VHA are estimated to be 
$3.5 million in 2010 and $4.0 million in 2011, with the assumption that 
a cost-sharing agreement will be in place between VA and DOD.

    C. How many servicemembers are expected to complete the DES Pilot 
during fiscal year 2011?
    Response. In 2011 we expect approximately 14,800 new entrants to 
the DES pilot, although not all will actually complete the process 
during the same year.

    D. Please provide any customer satisfaction data that has been 
collected regarding the satisfaction levels with the Pilot process 
compared to satisfaction levels with the traditional process.
    Response. The Defense Manpower Data Center (DMDC) is conducting 
customer satisfaction surveys for the Department of Defense. Through 
January 31, 2010, 4,098 surveys were completed by servicemembers going 
through various stages of the DES Pilot process, and 3,309 
servicemembers going through various stages of the legacy DES process. 
76 percent of DES Pilot members were satisfied with the medical care, 
case management and the general DES process. In comparison, 70 percent 
reported satisfaction with the legacy DES process. Across DOD, 82 
percent of DES Pilot members were satisfied with the fairness of the 
process. In comparison, 67 percent reported satisfaction with fairness 
of the legacy DES process.

    E. What metrics will be used to determine whether the DES Pilot 
process is successful?
    Response. Three metrics have been established to determine the DES 
Pilot success:

    1. Percent of military members participating in a single disability 
evaluation/transition medical exam to determine fitness for duty and 
disability rating.
    2. Average time for wounded, ill, or injured (WII) servicemembers 
to complete the joint DOD/VA disability evaluation system (DES).
    3. Average time after separation/retirement for wounded, ill, or 
injured (WII) participants in the joint DOD/VA disability evaluation 
system (DES) to receive a VA benefits notification letter.

    Question 16. The budget request for Compensation, Pension, and 
Burial programs for fiscal year 2011 includes $38.2 million for travel, 
which is 126% higher than the amount expended on travel during fiscal 
year 2009 ($16.9 million), 108% higher than the amount requested for 
fiscal year 2010 ($18.3 million), and 91% higher than the amount now 
expected to be expended on travel during fiscal year 2010 ($20 
million). According to the budget request, ``[i]ncreased travel funds 
are required for new employee Challenge training.''

    A. How many employees attended Challenge training during fiscal 
year 2009 and how many are expected to attend Challenge training during 
fiscal years 2010 and 2011?
    Response. In FY 2009, 1,161 employees completed Challenge training. 
In FY 2010, approximately 1,500 and in FY 2011, approximately 3,610 
employees will complete Challenge training.

    B. What portion of the $38 million will be used for travel to 
Challenge training?
    Response. Approximately $22 million will be used for Challenge 
training in 2011.

    C. What accounts for any remaining portion of the $38 million?
      Response. The remaining portion is for the base (core) program 
travel.

    D. What is the average travel cost per employee who attends 
Challenge training?
    Response. For three weeks of training, the cost is estimated to be 
approximately $6,000 per employee.

    E. Has VA considered any less expensive alternatives to providing 
necessary training?
    Response. VA considered less expensive alternatives to providing 
necessary training and implemented training with the best balance of 
cost and quality. Nearly three weeks of home-station training is 
completed using standardized lesson materials and computer-based 
training before Challenge participants travel. Home-station follow-on 
training continues after centralized Challenge Training, utilizing 
additional standardized lessons and computer-based training.

    Question 17. The budget request for Compensation, Pension, and 
Burial programs for fiscal year 2011 includes $340 million for Other 
Services, which is 40% higher than the amount expended during fiscal 
year 2009 on Other Services ($242 million), 22% higher than the amount 
requested for fiscal year 2010 ($277 million), and 9% higher than the 
amount now expected to be expended during fiscal year 2010 ($309 
million). According to the budget request, ``[t]he increase to other 
services supports the [Veterans Benefits Management System] Initiative 
and increased funding for contract medical examinations.'' Please 
provide an itemized list of what expenditures would be made with this 
level of funding.
    Response. Increases from 2010 to 2011 to support the Veterans 
Benefits Management System (VBMS) and contract medical exams follow:

    VBMS--An increase is required due to increased scanning and related 
services needed for VBMS pilot activities and additional technical, 
analytical, and engineering support provided by MITRE.
    Contract Medical Exams--An increase is required due to the 
anticipated 6 percent increase in price due to inflation and increased 
Medicare rates, as well as an anticipated 12 percent increase in the 
quantity of exams.

    Question 18. The budget request for Compensation, Pension, and 
Burial programs for fiscal year 2011 includes $32.5 million for 
Supplies and Materials, which is 200% higher than the amount expended 
during fiscal year 2009 ($10.9 million), 168% higher than the amount 
requested for fiscal year 2010 ($12.2 million), and 145% higher than 
the amount now expected to be expended during fiscal year 2010 ($13.3 
million). According to the budget request, ``The increase to supplies 
and materials supports the new 2,050 FTE and the VBA-wide initiative to 
supply employees with a printer to print claims-related documents at 
their desks. The increased funding will be used to purchase printer 
cartridges associated with this effort.''

    A. What factors, if any, other than new employees and printer 
cartridges account for this increase in supplies and materials?
    Response. The increase is attributable only to new employees and 
printer cartridges.

    B. What portion of that over $19 million increase from fiscal year 
2010 to 2011 will be used to provide supplies and materials for new 
employees and what is the expected cost per new employee for those 
supplies and materials?
    Response. Approximately $13 million will be used to provide 
supplies and materials for new employees. The budgeted cost per 
employee is approximately $4,000, which includes not only general 
office supplies, but also increased needs for cubicles and office 
furniture. At the time of the submission of the budget, exact 
requirements of supplies and materials versus equipment was unknown due 
to the uncertainty of the regional office distribution of new FTE and 
the space needs at each location. As such, there may be a shift from 
the supplies and materials category to equipment in the year of 
execution.

    C. What types of supplies and materials would be purchased with the 
requested level of funding?
    Response. Standard office supplies will be purchased, such as 
notebooks, pens, pencils, printer-paper, and toner cartridges. 
Equipment purchases will include employee work stations, which consist 
of cubicles and furniture.

    Question 19. From the fiscal year 2011 budget request, it appears 
that the Compensation and Pension Service carried over more than $19 
million in General Operating Expenses from fiscal year 2009 to 2010. 
How will those funds be used during fiscal year 2010?
    Response. These funds will be applied to additional 21st century 
transformational improvements to VBA's business processes, such as the 
Veteran's Benefits Management System Initiative.
                       board of veterans' appeals
    Question 1. According to the fiscal year 2011 budget request, the 
Board of Veterans' Appeals (Board or BVA) expects to receive 60,000 new 
appeals during fiscal year 2010. It also reflects that additional 
funding is sought to ``reverse the trend of a growing backlog, and 
reduce case disposition time.''

    A. What is the current backlog of appeals at the Board and what is 
it projected to be with funding requested for fiscal year 2011?
    Response. The backlog of appeals at the Board effective March 1, 
2010, is 19,464 cases. The funding requested in FY 2011 supports 557 
employees on board. Assuming the current trend of the growing backlog 
(300 additional cases per month), the projected backlog is 21,564 cases 
at the beginning of fiscal year 2011 and 25,164 cases at the end of 
fiscal year 2011.
    VA has forwarded several legislative proposals to Congress to help 
reduce the backlog and improve the timeliness of appeals processing as 
part of the draft ``Veterans Benefit Program Improvement Act of 2010.'' 
Attached are copies of Secretary Shinseki's letters to the Speaker of 
the House and the Vice President transmitting the proposed legislation 
to Congress, together with a copy of the draft statutory language and a 
description of the proposals. The draft statutory language pertaining 
to appeals is included in Sections 202-207 of the attached draft bill. 
Descriptions of these proposals are included on pages 10-17 of the 
section-by-section analysis.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. During fiscal year 2011, how many appeals is the Board expected 
to receive and how many decisions are expected to be issued?
    Response. As previously reported, the Board expects to receive 
60,000 new appeals in fiscal year 2011. Assuming the Board remains 
staffed at 557 employees, the Board expects to issue 46,800 decisions 
in fiscal year 2011.
    It is important to note that when the Board submitted the FY 2011 
Budget in early 2009, the backlog had been decreasing over an 18 month 
period at what appeared to be a predictably steady rate of 350 cases 
per month, or 4,200 cases per year. That trend reversed unpredictably 
in April and May 2009, and since then the backlog has been increasing 
at the relatively steady rate of 300 cases per month, or 3,600 cases 
per year. A potential cause for this trend is a substantial increase in 
staffing at the Veterans Benefits Administration (VBA), which has 
resulted in an increase in the number of claims adjudicated at the 
Regional Office level. While the appeal rate has remained stable, the 
larger pool of cases adjudicated in the field has resulted in a 
corresponding increase in the number of appeals received by the Board.

    Question 2. The Board submitted several legislative proposals with 
the budget request.

    A. What impact would these legislative proposals have on the 
average time it takes to resolve an appeal?
    Response. The Board of Veterans' Appeals (BVA or Board) submitted 
the following six legislative proposals, all of which are aimed at 
improving timeliness in the processing of Veterans' benefits appeals: 
(1) reduce the time period for initiating an appeal from one year to 
180 days; (2) allow initial Board consideration of evidence submitted 
by a claimant after a substantive appeal has been filed, rather than 
having to remand the case back to the agency of original jurisdiction; 
(3) allow the Board more flexibility in scheduling video conference 
hearings in order to reduce the wait time for Veterans and to minimize 
travel time and expenses related to conducting in-person travel board 
hearings; (4) amend the statute requiring the Board to provide reasons 
and bases for findings and conclusions of law to place more emphasis on 
the Board's ultimate findings of fact and conclusions of law; (5) amend 
the definition of ``prevailing party'' for purposes of establishing 
eligibility to receive fees under the Equal Access of Justice Act 
(EAJA) to protect claimants from attorneys who seek to use the judicial 
process for pecuniary gain without directly benefiting claimants; and, 
(6) amend the statute to make it clear that the filing of a substantive 
appeal within 60 days from the date of the mailing of the statement of 
the case is a requirement for Board jurisdiction over an appeal.
    Collectively, the Board's legislative proposals will result in 
improved timeliness and efficiency of VA's adjudication of claims and 
appeals both at the Regional Office level and at the Board level. The 
Board's cycle time is currently 95 days. This means that on average, 
the Board is able to resolve an appeal within 95 days from the time it 
arrives at the Board, not counting the time that the case may be under 
review by a Veterans Service Organization representative. However, the 
Appeals Resolution Time, which is the time that it takes to resolve an 
appeal beginning with the filing of a Notice of Disagreement at a VA 
Regional Office (RO), is currently 656 days. By reducing the time 
period for initiating an appeal from one year to 180 days, we will see 
more expeditious adjudication of final decisions on appeal because data 
show that appeals in which a Notice of Disagreement is filed more than 
180 days after an adverse decision require on average more development 
than earlier filed appeals, thus delaying appellate resolution for 
later appeals. Additionally, the establishment of an automatic waiver 
of new evidence received after the substantive appeal would also 
improve the timeliness of appeals processing as a whole because many 
more appeals could be more quickly transferred to the Board following 
the receipt of a substantive appeal, and the RO would have to spend 
less time responding to appellants who submit additional evidence 
following the filing of a substantive appeal.
    The Board's proposed changes regarding hearings would allow the 
Board to serve more Veterans, reduce the waiting time for a hearing on 
appeal, and allow increased productivity by the Board in issuing final 
decisions on appeal. By clarifying the ``reasons or bases'' requirement 
for Board decisions, the Board will be able to issue more final 
decisions as the Board would not be required to address factual 
determinations and legal conclusions in such a highly detailed and 
painstaking manner that the decision becomes confusing to a lay reader 
but that is currently required to withstand judicial scrutiny. Changing 
the law to permit an award of EAJA fees only if an appellant actually 
prevails on the merits of a claim and not merely for obtaining a remand 
to correct an administrative error would discourage unnecessary remands 
and encourage more cases to be litigated on the merits before the 
Veterans Court. Because this remand practice fuels the ``hamster 
wheel'' phenomenon (the cycle of appealing, remanding, and appealing 
again claims from the Board to the Veterans Court, from the Veterans 
Court to the Board, from the Board to regional offices, and back again 
to the Board and to the court), this proposal would reduce the number 
of claims remanded to the Board and result in more timely decisions on 
appeal. This proposal is intended to protect claimants from attorneys 
who seek to use the judicial process for pecuniary gain without 
directly benefiting claimants. It would eliminate the incentive for 
appellants' counsel to seek remands only for the purpose of obtaining 
an EAJA award. However, this proposal does not alter the award of EAJA 
fees for a Veterans Court remand that ultimately results in an award of 
VA benefits.
    Finally, by limiting the Board's jurisdiction to timely appeals in 
which the claimant adequately identifies alleged errors by the RO, 
these changes would promote effective and efficient management of the 
VA appeals process by clearly delineating when a decision by the RO 
becomes final, thereby eliminating confusion if a subsequent claim is 
filed.

    B. Would these legislative proposals hinder the ability of veterans 
or their family members to prevail on their claims?
    Response. No, these legislative proposals are designed to help 
Veterans and their families by enhancing efficiency in the appeals 
process. For example, VA must currently wait one year to determine if a 
claimant disagrees with a decision on a claim for benefits. If a 
claimant waits until the end of the one-year period to file a NOD, the 
record becomes stale. VA is often required to re-develop the record to 
ensure the evidence of record is up to date, and this takes more time. 
By reducing the appeal period from one year to 180 days, VA would be 
working with a more current record and the claim would not become 
stagnant. Additionally, because the majority of claimants are able to 
quickly determine if they are satisfied with VA's decision on their 
claim, and because the NOD is a relatively simple document for 
claimants to complete, enactment of this provision would not adversely 
affect claimants for VA benefits.
    The proposed legislative amendment establishing an automatic waiver 
of AOJ review of new evidence received after a substantive appeal would 
allow appeals to move through the system much more quickly, as the AOJ 
would not be required to conduct a fresh review of the appellate 
record, and readjudicate the same claim, each time an appellant 
submitted new evidence following receipt of a substantive appeal. The 
case could instead be transferred to the Board without additional 
delay, where the newly-submitted evidence would be considered by the 
Board in its adjudication of the claim. Thus, the newly-submitted 
evidence would still receive consideration by the Board, but without 
duplicative review by the AOJ following perfection of an appeal. Under 
the Board's proposal, appellants would still be able to request AOJ 
review of the newly-submitted evidence by requesting such review in 
writing. Absent a request for initial AOJ review from the claimant, 
however, the appeal could proceed to the Board without unneeded delay.
    The legislative proposal giving the Board greater flexibility in 
scheduling hearings would also help Veterans by ensuring that 
appellants are scheduled for the type of hearing (in-person or 
videoconference) that can be scheduled the most expeditiously. For 
those appellants dissatisfied with the Board's choice of hearing, the 
legislative proposal includes a good cause exception that allows 
appellants to request an alternative hearing type where there is a 
genuine objection to the type of hearing selected by the Board. 
Notably, there is no statistically significant difference in the 
allowance rate of appeals in which hearings were held in person versus 
those held via videoconference.
    The Board's legislative proposal clarifying the definition of 
``reasons and bases'' as used in 38 U.S.C. Sec. 7104(d)(1) would still 
ensure that Board decisions are more than sufficient to fully explain 
to the appellant and any reviewing court why the Board decided a 
particular case the way that it did, but without the need for the Board 
to address all factual determinations and legal conclusions in such a 
highly detailed and painstaking manner that the decision becomes 
confusing to a lay reader. Thus, appellants would have clearer and more 
concise decisions, while at the same time significantly reducing the 
number of remands from the Veterans Court that do not translate into a 
grant of benefits.
    The Board's EAJA proposal is intended to protect claimants from 
attorneys who seek to use the judicial process for pecuniary gain 
without directly benefiting claimants. While our proposal would still 
ensure that EAJA fees would potentially be available for attorneys 
representing Veterans before the Veterans Court, it would eliminate any 
undue incentive for appellants' counsel to pursue a negotiated remand, 
for which EAJA attorney fees are immediately paid by the government, 
instead of seeking a final answer from the Veterans Court as to a claim 
for benefits. The proposal would therefore assist Veterans by ensuring 
that the efforts of counsel are directed at obtaining benefits, instead 
of securing remands that do not ultimately result in the grant of the 
appeal.
    Our proposal making the timely filing of a substantive appeal a 
jurisdictional requirement for Board review would also promote 
efficiency, and is consistent with the Board's longstanding Rules of 
Practice, which require that a substantive appeal be filed within 60 
days of the statement of the case. Because the Substantive Appeal is a 
relatively simple document to complete, the vast majority of appellants 
have historically had no difficulty with filing this document in a 
timely manner. The proposed changes also allow for an extension to be 
obtained with respect to the 60-day period for filing a substantive 
appeal where good cause is shown, thus providing appellants with a 
mechanism to request additional time where there is a genuine need to 
extend the filing period.

    Question 3. In 2009, the Board published a Veterans Law Review, 
which reflects that it is ``published yearly by appropriated funds by 
authority of the Department of Veterans Affairs and the volunteer 
efforts of attorneys working at the Board of Veterans' Appeals.''

    A. Does the Board plan to publish a law review during fiscal years 
2010 or 2011?
    Response. Yes. We plan to publish one issue in each of those years.

    B. If so, what is the legislative authority relied upon by the 
Board for using appropriated funds for this activity?
    Response. The Veterans Law Review is intended to increase the 
professionalism of attorneys practicing in the Veterans law area, and 
to enhance the professional relationships between different 
constituencies concerned with service to Veterans and Veterans' rights. 
The Veterans Law Review serves a training function for the Board's 
attorneys and Veterans Law Judges and enhances career development and 
professionalism among the Board's employees. The use of appropriated 
funds for this activity is consistent with 38 U.S.C.A. Sec. 7101(a) as 
a function of the Chairman's administrative control and supervision of 
the Board. Greater knowledge shared within the Veterans' bar assists 
all in representing Veterans' interests more effectively.

    C. How much per year does VA anticipate spending on the operation 
and publication of the Veterans Law Review and how many copies are 
expected to be printed?
    Response. The cost of publishing the first issue was approximately 
$34,000 with 3000 copies printed. The cost for the second issue will be 
slightly higher due to increased printing costs. Copies have been 
distributed free of charge to Members of Congress and their staffs, 
senior officials within the Department, the Veterans bar, the Court of 
Appeals for Veterans Claims, the Court of Appeals for the Federal 
Circuit, the VSO community, and interested law school and court 
libraries.

    D. How many Board employees are involved with this activity and how 
much time on an individual and total basis do these employees devote to 
this activity?
    Response. Approximately 70 attorneys and Veterans Law Judges 
volunteer their non-duty time to edit and publish the Veterans Law 
Review each year. All employees involved in the publication of the 
Veterans Law Review are expected to meet all the expectations of their 
jobs at the Board including productivity and quality. All of the 
participants have met those goals.


    E. How does this activity advance the Board's mission to ``conduct 
hearings and dispose of appeals properly before the Board in a timely 
manner''?
    Response. All attorneys who participate in creating the Veterans 
Law Review and those reading its well-respected articles gain insight 
into important and developing issues and decisions that impact cases 
affecting Veterans. The insight gained increases awareness in the 
Veterans bar and will increase the quality of the arguments before the 
Board, the Court of Appeals for Veterans Claims, and the Court of 
Appeals for the Federal Circuit. The Veterans Law Review has also 
raised the interest in Veterans law among legal practitioners and has 
assisted in recruiting the best of our young attorneys to seek 
employment at the Department. Last, the Veterans Law Review provides 
the Board's attorneys and Veterans Law Judges with additional 
experience in researching, editing, and writing, as well as experience 
with the management of a complex project. The training aspect of 
participation in the Veterans Law Review is of great value to the Board 
in accomplishing its mission.

    F. How would VA respond to criticism that articles written by Board 
employees and published by the Board may cause these employees to 
prejudge claims and issues that may come before them?
    Response. All attorneys are bound by their oath to follow the law 
and represent their clients vigorously within the constraints of the 
law. The Veterans Law Review assists in the process of better preparing 
attorneys and judges for this task by addressing complex and important 
issues in peer-reviewed articles, notes, and book reviews. Professional 
reading is a requirement of attorneys for currency in their practice in 
all subject matter areas, not exclusively Veterans law. All appeals 
that come before the Board are judged on the factual basis of that 
appeal, and the state of the law at the time. Since the Board's 
decisions cannot be cited as precedent all of our employee know to 
judge each appeal on its factual and legal merits and there is no 
reason that writing an article will change that, just as there is no 
reason to think that a denial of one appeal, will cause a later 
Veteran's appeal to also be denied.

    Question 4. In 2009, VA began an initiative called Expedited Claims 
Adjudication (ECA) in order to try to speed up the processing time for 
some claims and appeals. In a recent report, GAO found that VA ``has 
not yet established an evaluation plan with specific criteria and 
methods to help assess ECA's impact on non-ECA claims and appeals 
processing and on whether ECA is worthy of expansion.''

    A. How many cases are expected to be processed in fiscal years 2010 
and 2011 through the ECA initiative?
    Response. As of February 22, 2010, the Veterans Benefits 
Administration (VBA) has completed 1,311 ECA claims since the inception 
of the program, with 624 additional ECA claims still pending before one 
of the four pilot VA Regional Offices (ROs). A Substantive Appeal has 
been filed in a total of 41 ECA cases, and 10 ECA appeals have been 
certified and transferred to the Board of Veterans' Appeals (Board). 
The number of appeals certified to the Board should be expected to 
increase as initial appeals processing is completed at the four pilot 
ROs.
    Under governing regulations, claimants may elect ECA participation 
for eligible claims through December 5, 2010. See 38 CFR 
Sec. 20.1500(d) (2009). While claimants may not elect ECA participation 
after that date, claims for which ECA participation has been elected 
will continue to be processed under applicable ECA rules until a final 
decision is issued.

    B. What metrics will be used to gauge whether this initiative is 
successful?
    Response. As recommended by the GAO's Report, the Board is 
currently working with VBA to finalize an ECA evaluation plan. We will 
primarily be evaluating the success of the ECA by comparing the time 
needed to complete each stage of the claims and appeals process for ECA 
claims and non-ECA claims. Our comparison will focus on similar program 
areas (i.e. similar types of cases). In identifying benchmarks for 
success, special attention will be paid to weighing the processing time 
saved for claimants with any potential administrative burdens on VA. We 
are also exploring the ECA's impact on non-ECA claims and appeals 
processing.
    As part of these efforts, VBA currently prepares weekly reports 
comparing the average days to completion for ECA and non-ECA claims. As 
of February 22, 2010, average days to completion was 133 days for ECA 
claims versus 165 for non-ECA claims. These numbers are encouraging, 
representing an almost 20 percent faster processing time for ECA claims 
and coming significantly closer to VBA's strategic target of processing 
rating claims in 125 days on average. More of the time savings built 
into the ECA occurs at the appellate level. We anticipate even greater 
time savings in the appeals process as opposed to the processing of 
initial claims.
    We are also able to track the time needed to complete each stage of 
the appeals process for ECA appeals versus non-ECA appeals by 
enhancements made to the Veterans Appeals Control Locator System 
(VACOLS), the electronic database VA uses to track appeals. Once a 
Notice of Disagreement (NOD) is filed, RO personnel are able to 
essentially check a box in VACOLS indicating that an appeal is an ECA 
appeal. Since ECA appeals are specifically identified in VACOLS, we are 
able to run reports showing the time elapsed between each stage in the 
appeals process for all ECA appeals and compare it to non-ECA appeals. 
Time periods we are able to measure include, but are not limited to: 
the time between the filing of an NOD and the issuance of a Statement 
of the Case (SOC); the time between issuance of an SOC and receipt of a 
Substantive Appeal; the time between receipt of a Substantive Appeal 
and transfer of the appellate record to the Board; and the time between 
the Board's receipt of an appeal and the issuance of a Board decision.
    In addition to gathering quantitative data, we are currently 
soliciting qualitative feedback from RO personnel responsible for 
implementing the program, and from Veterans Service Organization (VSO) 
representatives that have shepherded claimants through the program. 
Such feedback will be critical in determining what parts of the pilot 
program worked well, and which did not. Board personnel will also be 
conducting site visits to each of the four participating ROs to solicit 
additional feedback from VSOs and RO adjudicators in the coming months.
    Based on the data obtained from our ongoing evaluation, both 
quantitative and qualitative, the Board will make recommendations to 
the Secretary regarding potentially expanding the pilot or permanently 
incorporating successful aspects of it. The Board's goal is to have our 
formal evaluation complete, and recommendations to the Secretary, 
before the conclusion of fiscal year 2010. GAO expressed their support 
for the above plan in their recent January 2010 Report, titled 
Veterans' Disability Benefits: Further Evaluation of Ongoing 
Initiatives Could Help Identify Effective Approaches for Improving 
Claims Processing (page 27).

    Question 5. According to the fiscal year 2011 budget request, the 
Board expects to spend $2.9 million for Other Services during fiscal 
year 2010, which is over $960,000 higher than anticipated in the fiscal 
year 2010 budget request. Please provide an itemized list of how these 
funds are expected to be spent.
    Response. The expected expenditure of Other Services for FY 2010 is 
as shown in the table below:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 6. In fiscal year 2009, there were 525 FTE at the Board 
and VA's fiscal year 2010 budget request included funding for 529 FTE. 
Now, the fiscal year 2011 budget request reflects that the Board has 
552 FTE, which is explained as follows: ``BVA was able to increase 
staffing in FY 2010 through carryover.''

    A. In total, how much in carryover funds would be used during 
fiscal year 2010 to support these additional 23 FTE?
    Response. As a result of not reaching hiring targets in FY 2009, 
BVA was able to carryover $4 million into FY 2010 which will allow BVA 
to fund an increase of FTE up to 552 in FY 2010. Because of retirements 
and normal turnover, we anticipate BVA will be able to carryover some 
funding into FY 2011 to sustain the FTE levels.

    B. How many additional appeals does BVA expect to decide during 
fiscal year 2010 as a result of those employees?
    Response. BVA anticipates that 23 employees will result in an 
additional 3,588 decisions.

    C. What is the Board's plan with regard to these 23 FTE in 
subsequent years? Does the Board plan to make permanent this increase 
made with carryover?
    Response. As of June 16, 2010, VBA has recouped approximately 13 
percent of the advance payments made to ineligible individuals.

    Question 7. According to the budget request, the Board expects to 
spend $812,000 more in fiscal year 2010 for travel, supplies and 
materials, and equipment than projected in the fiscal year 2010 budget 
request.

    A. What factors account for those increases?
    Response. The Board is increasing the number of travel boards held 
which increases travel, supply and materials cost. We are also 
experiencing an increase in supply, material and equipment costs to 
deal with the unexpected increase in the number of cases that we are 
receiving. We are also coordinating and paying for an interim solution 
on how to store the additional cases prior to an expected move within 
the next 18 months.

    B. Will any carryover funds be used to pay for those increases?
    Response. At this time we anticipate that all carryover funds will 
be used to pay for salary expenses.
                            general counsel
    Question 1. For fiscal year 2011, VA has requested funding to 
establish two additional litigation teams in Professional Staff Group 
(PSG) VII, which represents VA before the U.S. Court of Appeals for 
Veterans Claims. VA projects that, with these additional resources, 
``it can bring the average active caseload of PSG VII attorneys to a 
number which historically equates to approximately 90% timeliness.''

    A. Currently, what is the average caseload handled by PSG VII 
attorneys?
    Response. For the week ending February 19, 2010, there were 57.9 
active cases per attorney, on average. An active case is defined as one 
in which the Secretary's dispositive pleading is yet to be filed with 
the Court.

    B. What is the projected caseload for these attorneys if the 
requested level of funding is provided?
    Response. We project that the caseload per attorney will average 50 
or fewer active cases.

    C. What would be considered an optimal caseload per attorney?
    Response. Cases continue to evolve and become more complex, so 
there remains some uncertainty. However, based upon our current 
experience, we believe an optimal number of cases per attorney would be 
in the range of 45 to 50 cases, but certainly no more than that.

    D. How many motions for extension of time did PSG VII file with the 
U.S. Court of Appeals for Veterans Claims during the past year, and how 
many additional days did cases remain pending on average as a result of 
those requests?
    Response. PSG VII filed approximately 6,481 extension motions in FY 
2009. We currently do not have a report of the average number of days 
that a case remained pending owing to those extension motions. However, 
the Court's Rules of Procedure provide that a party will not be granted 
more than 45 days of extension time in order to meet a deadline, except 
under extraordinary circumstances. Consequently, the average extension 
motion would have sought no more than 45 days extension time.

    E. How many motions for extension of time does PSG VII project to 
file in fiscal year 2011 if the requested funding is provided and what 
would be the impact on the number of days that cases remain pending?
    Response. We do not have such a projection. Extension motions, by 
their nature, are sought only when an unpredictable event has delayed 
the preparation of a particular pleading. It is inherently difficult to 
predict the unpredictable. However, our attorneys cannot effectively 
manage caseloads above 50. When forced to they must request extensions 
to file pleadings, delaying the resolution of veterans' cases. We are 
currently contributing to delays in court decisions because we are 
meeting our filing deadlines only 75% of the time, as compared to an 
82% timeliness rate by veterans' attorneys. Two more litigation teams 
would allow us to file timely pleadings 90% of the time (see chart that 
follows).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 2. The Independent Budget for Fiscal Year 2011 points out 
that the U.S. Court of Appeals for Veterans Claims encourages parties 
to resolve appeals through its medication process, but in the view of 
the authors of The Independent Budget ``VA general counsel routinely 
fails to admit error or agree to remand at this early stage, yet later 
seeks a remand.''

    A. What percentage of cases handled by PSG VII over the past year 
went through the mediation process without resolution of the appeal and 
later resulted in VA seeking a remand?
    Response. We currently do not have a report showing that 
information.
    To put the question in context, though, we note that there are 
numerous reasons that a case might go through the mediation process 
without resolution, only later to be the subject of a remand motion 
once the case is briefed. For example, the governing law might change 
subsequent to the mediation process, such that an initially defensible 
case might ultimately become indefensible due to the change in law. 
Alternatively, the appellant might offer unpersuasive arguments for 
remand during mediation, but then refine those arguments or offer 
additional arguments in the appellant's brief that produce a remand at 
a later stage. Also, there are times when an appellant will spring an 
argument on the Secretary's counsel during mediation that cannot be 
answered extemporaneously. For example, many cases involve voluminous 
evidentiary and procedural records, and the rule of nonprejudicial-
error offers a potent defense to many alleged errors, so it would be 
incumbent upon the Secretary's counsel in these circumstances to defer 
at the mediation stage in order to review the factual record in detail 
and determine the merits of appellant's argument. Finally, there are 
times when an appellant will demand concessions or relief that the 
Secretary's counsel cannot agree to during mediation, but the 
Secretary's counsel will nonetheless be aware of an alternative basis 
for remand. If, in such circumstances, the appellant does not agree to 
a more limited remand during mediation, then the Secretary's counsel 
will submit a brief to the Court that candidly identifies the 
remandable error, even though the parties could not resolve the case 
during mediation.
    In addition to participating in the Court's mediation process, it 
should be noted that PSG VII also triages all new appeals in order to 
determine, among other things, whether a case should be remanded at the 
earliest stage of litigation, prior to the parties devoting time and 
resources in needlessly preparing the record and briefs. Each of our 
nine existing litigation teams includes a senior attorney who is 
dedicated to the triage function. As a result of successful triage, 
numerous cases are remanded even before the Court's mediation process 
begins.
    The Court's annual report reflects that counsel for the Secretary 
filed 1,758 joint motions for remand in FY 2009. In the previous year, 
counsel for the Secretary filed 1,625 joint motions for remand. These 
joint motions for remand generally signify that counsel for the 
Secretary has conceded administrative error and offered to remand the 
case on grounds agreeable to both parties, thereby expediting 
resolution of the case without the delay involved were the case 
submitted to a judge for decision. Given the magnitude of these 
statistics, there is no cause for concern that counsel is foot-
dragging. Indeed, we are confident that by increasing staff levels in 
PSG VII and reducing caseloads, we will be able to improve upon the 
success of the mediation program even more.

    B. If this is a common occurrence, what steps could be taken to 
resolve additional cases during the mediation process?
    Response. It is not a common occurrence.

    Question 3. The Office of General Counsel's fiscal year 2011 budget 
request includes over $900,000 for Other Services, which is more than 
58% higher than in fiscal year 2009 ($569,000), 29% higher than 
requested for fiscal year 2010 ($699,000), and 26% higher than now 
expected to be expended during fiscal year 2010 ($714,000). Please 
provide an itemized list of what that request would fund in fiscal year 
2011.
    Response. It should be noted that the Other Services account 
comprises less than 1% of OGC's total requested budget authority. Refer 
to the attached sheet for a list of funded accounts under Other 
Services. In FY 2011, our request for Other Services funding is $186K 
(26%) above our FY 2010 Current Estimate. The increase will buy the 
following:

    <bullet> An increase of $15K to maintain and repair equipment & 
furniture
    <bullet> An additional $58K to move our PSG VII offices to new 
space due to expiration of current leases
    <bullet> Payment of a $45K increase in OGC's share of Office of 
Resolution Management (ORM) funding
    <bullet> $65K more for increased costs of training courses

    Question 4. The Office of General Counsel's fiscal year 2011 budget 
request includes over $2.9 million for travel, which is 73% higher than 
in fiscal year 2009 ($1.7 million) and 13% higher than the amount 
expected to be expended during fiscal year 2010 ($2.6 million).

    A. What accounts for that increase in requested travel funds?
    Response. The 13% increase ($300K) in OGC's FY 2011 request for 
Travel is due to a projected rise in travel costs, including the trend 
for airlines to charge for checked bags, as well as increased travel 
for the 34 additional FTE OGC requested in FY 2011.

    B. How many employees are expected to travel during fiscal year 
2011 and how many trips would this level of funding support?
    Response. OGC travel costs include those incurred as part of 
representing the Secretary in a variety of practice areas and also 
costs associated with employees receiving training. When local travel 
costs are considered, nearly every OGC employee travels at some point 
during a fiscal year, with many traveling multiple times.

    Question 5. The Office of General Counsel's fiscal year 2011 budget 
request reflects that, for fiscal year 2010, average employment was 9 
employees lower than originally estimated but expenditures for personal 
services ``is estimated to be $2 million above the original budget 
estimate.'' According to the budget request, this increase ``was 
created in part due to an annualized 2009 pay raise that was higher 
than budgeted.''

    A. What portion of the $2 million increase was due to the higher 
than expected annual pay raise?
    Response. $1.4M (70%)

    B. What factors account for the remainder of the $2 million 
increase?
    Response. The remainder is primarily due to average salaries and 
benefits that are now higher than originally projected.

    Question 6. The Office of General Counsel's fiscal year 2011 budget 
request includes over $1.7 million for Equipment, which is 243% higher 
than the amount spent in fiscal year 2009 ($518,000), 265% higher than 
the amount requested for fiscal year 2010 ($486,000), and 124% higher 
than the estimated expenditures for fiscal year 2010 ($793,000). 
According to the budget request, the fiscal year 2010 estimate is 
higher than originally projected because ``[e]quipment has increased to 
cover the additional furniture and office equipment required for the 
planned relocation of the Bay Pines and Cleveland Regional Counsel 
Offices.''

    A. What factors account for the increase from fiscal year 2010 to 
2011?
    Response. In FY 2011, OGC will consolidate the core and satellite 
offices of its Veterans Court Litigation Group which represents the 
Secretary before the U.S. Court of Appeals for Veterans Claims. Rather 
than move furniture, most of which is at least 10 years old and in need 
of replacement, OGC will purchase new furniture for over 100 existing 
and 20 new employees. In addition, OGC will replace furniture and 
carpeting in some of its 22 Offices of Regional Counsel to maintain a 
modest but professional appearance.

    B. Please provide an itemized list of what would be purchased with 
the requested funds in fiscal year 2011.

    Response:

 
Professional Staff Group VII (DC)......  $920K (New furniture, including
                                          delivery and installation for
                                          over 100 existing employees
                                          and 20 new employees)
Professional Staff Groups I-V (DC).....  $38K (New furniture, delivery
                                          and Installation for 5 new
                                          attorneys)
Region 7 (Cleveland* & Clarksburg).....  $53K (New furniture, delivery
                                          and installation at the
                                          Cleveland core office and
                                          Clarksburg area office.)
Region 8 (Nashville)...................  $41K (New furniture, delivery
                                          and installation)
Region 13 (Waco).......................  $31K (New carpeting)
Region 18 (San Francisco)..............  $98K (New furniture, delivery
                                          and installation)
Region 19 (Phoenix)....................  $30K (New carpeting)
Region 23 (Winston-Salem)..............  $155K (New furniture, delivery
                                          and installation)
Region 23 (Winston-Salem & Roanoke)....  $42K & 15K, respectively (New
                                          carpeting)
 
* The FY 2010 new furniture request for Cleveland was actually for its
  Huntington area office.
Note: The $300K balance would be available for any emergent needs that
  arise during the year.


    C. Please explain how these expenditures will help improve benefits 
or services to veterans, their families, or their survivors.
    Response. The Office of General Counsel seeks to maintain modest 
but professional work spaces to convey the significance of representing 
the Secretary and to aid in recruiting and retaining talented 
attorneys, paralegals and staff. The more skilled the workforce, the 
better OGC can perform its representational responsibilities. OGC 
moderates its furniture and equipment purchases, including authorizing 
repairs whenever possible to extend the useful life of these items and 
delay purchasing replacements.
                               education
    Question 1. In 2009, VA provided advanced payments of education 
benefits to approximately 122,000 individuals. Since then, VA has 
acknowledged that some individuals may have mistakenly applied for and 
received these advanced payments.

    A. How many individuals received advanced payments and were later 
determined not to be eligible to receive the payments?
    Response. Eligibility for VA education benefits for the fall 2009 
enrollment period had not been established for approximately 34 percent 
of the advance pay recipients.

    B. How much in total was disbursed to individuals who were not 
entitled to advanced payments?
    Response. Approximately $120 million was issued to advance payment 
recipients who had not established their benefits eligibility for the 
fall enrollment period.

    C. How much of the funds that were mistakenly paid out have since 
been recouped?
    Response. As of June 16, 2010, VBA has recouped approximately 13 
percent of the advance payments made to ineligible individuals.

    D. Does VA intend to provide advanced payments in the future? If 
so, what additional precautions will be implemented to prevent the 
mistaken disbursement of funds?
    Response. Because spring enrollment certifications are being 
processed timely, VA is not making advance payments for the spring 2010 
semester.

    Question 2. VA created an Education Call Center at the Muskogee 
office to centralize education-related telephone calls. Generally, the 
Call Center accepts calls between 7 a.m. and 5 p.m. (central), Monday 
through Friday. In December 2009, VA began diverting Call Center 
employees to claims processing on Thursdays and Fridays.

    A. During fiscal year 2011, how many full-time employees will be 
assigned to the Education Call Center?
    Response. In February, VA resumed Education Call Center operations 
Monday through Friday. VA also increased the Education Call Center 
staff by 71 percent, raising the staffing level to 297 employees.

    B. Will that staffing level allow the Call Center to expand the 
hours during which calls are accepted, so that it may be more 
accessible to callers living west of the central time zone or living 
overseas?
    Response. The Education Call Center hours were extended to 5:00 
p.m. CST to provide additional accessibility for the West Coast. VA 
temporarily expanded Call Center hours to 6:00 p.m. CST and also opened 
on Saturdays during the heavy fall enrollment period when VA initiated 
the advance payment program. However, there are no current plans to 
expand during the spring term, as timeliness of enrollment processing 
has significantly improved. VA constantly monitors call volumes during 
and outside of business hours. The Call Center has the capability to 
expand hours of operation if the volume reflects sufficient need.

    C. Does the fiscal year 2011 budget request include funding for 
sufficient education claims processing staff so that Education Call 
Center employees will not be redirected to claims processing?
    Response. Yes, the 2011 budget requests funding for additional 
education claims processors. We do not anticipate the need to redirect 
Education Call Center employees to claims processing in 2011.

    Question 3. The fiscal year 2011 budget request for the Education 
Service includes $19 million for Other Services, which is 94% higher 
than the amount expended during fiscal year 2009 ($9.8 million), 131% 
higher than the amount requested for fiscal year 2010 ($8.3 million), 
and 58% higher than the amount now expected to be expended during 
fiscal year 2010 ($12.1 million). According to the budget request, this 
increase ``reflects program management support, contracts, and training 
costs.''

    A. Please provide an itemized list of the expenditures this funding 
would be used to support.
    Response. The 2011 budget request contains funding for contracts to 
provide strategic management and oversight services as well as systems 
engineering support for implementation of the Post-9/11 GI Bill and 
long-term solution, contracts for customer satisfaction surveys to 
measure claimants' satisfaction with the delivery of education 
benefits, and contracts for instructional systems development 
methodology to train and support employee performance of job tasks.
    The increase to other services is due to the allocation of 
management support costs. Management support costs associated with 
human resources, financial management, and centralized training do not 
directly support any specific program. Management support costs for all 
VBA programs are allocated by formula across all business lines based 
on the ratio of direct program FTE to VBA's total direct FTE. Since 
there was a large increase to Education's 2011 direct FTE, a larger 
portion of the total 2011 management support costs were allocated to 
the Education program, resulting in this increase.

    B. What would be the purpose of contracts this funding would be 
used to support and what metrics would be used to gauge whether those 
funds are used effectively?
    Response. Education Service's FY 2011 budget request includes 
funding to support the following contracts:

    A contract with MITRE Corporation's Center for Enterprise 
Modernization federally-Funded Research and Development Center. This 
cost-plus-fixed fee contract has an estimated level of effort of 20,000 
hours for $4.1M. MITRE provides strategic management and oversight 
services as well as systems engineering support. MITRE is responsible 
for a multitude of on-going management tasks as well as a conducting 
special projects and assessments of organizational and business 
processes.
    An indefinite delivery indefinite quantity contract (currently with 
Associated Veterans, Inc) to be competitively awarded in Q4 FY 2010. 
Nine (9) contractor resources will be supported, with an estimated cost 
of approximately $1.3M.
    The primary responsibilities of the program management support 
contracts include developing and managing project schedules in 
Microsoft Project, tracking, recording and reporting on task/objective 
achievement, facilitating information transmission between disparate 
project teams and sites, and ensuring that management has sufficient 
information to make informed program management decisions. Other key 
tasks include providing output products to communicate program status, 
tracking program risks, issues and action items, and recommending and 
implementing new tools or methods for managing program implementation.
    VBA gauges the effectiveness of these contracts through regular 
communication with the business line receiving support. The quality 
assurance surveillance plan established by VBA specifies this 
monitoring based upon negative or positive feedback from the various 
business lines. The contract's value can also be measured tangibly 
through program management and strategic planning artifacts produced 
and maintained during program implementation. VBA can also estimate 
value by tracking the number of contract staff engaged in vital program 
implementation roles throughout VBA.
    Outcome and Customer Satisfaction Survey, $312,413: The purpose of 
this contract is to measure claimants' satisfaction with the delivery 
of education benefits by VA and whether or not those benefits were 
helpful or very helpful in achieving their educational goal. The metric 
used to gauge whether funding is used effectively will be the 
successful completion of the survey and delivery of the results to VA. 
Information is needed for Program Assessment Rating Tool (PART).
    Training Performance Support Systems (TPSS) $578,525: TPSS is a 
web-based multimedia training technology. TPSS is an implemented 
national training system for Veterans Claims Examiners, Education Case 
Managers, Education Liaison Representatives, and Education Compliance 
and Survey Specialist, and TIMS Clerks and applies instructional 
systems development methodology to train and support employee 
performance of job tasks. The metric used to gauge whether funding is 
used effectively will be the successful delivery and acceptance of the 
training technology at our Regional Processing Offices.
    National Student Clearinghouse Match (MGIB Benefit Completion 
Rate), $52,748: The Office of Management and Budget required Education 
Service to develop a Program Assessment Rating Tool (PART) outcome 
measure that identifies a rate or percentage of veterans that use their 
educational assistance benefit to readjust to civilian life. VA 
contracted with the National Student Clearinghouse to complete an 
analysis report that generates degree completion characteristics based 
on a population of 5,000 beneficiaries.
    Education State Approving Agency Contract Review, $111,540: The 
contract between Education Service and the State Approving Agencies 
must be reviewed and revised to ensure that it complies with all 
Federal Acquisition Regulations (FAR), VA Regulation, and title 38 
U.S.C. Performance measures must be also be added to ensure that VA 
receives the most value for each contract dollar spent. This project 
will update the current SAA Contract to include all attachments, 
develop performance measures and consequences for non-performance, and 
ensure that everything in the contract is accurate and correct.

    Question 4. The fiscal year 2011 budget request for the Education 
Service includes $3.1 million for Supplies and Materials, which is 154% 
higher than the amount expended during fiscal year 2009 ($1.2 million) 
and 183% higher than the amount expected to be expended during fiscal 
year 2010 ($1.1 million). According to the budget request, this 
``increased funding will be used to purchase printer cartridges.''

    A. Is the Education Service expecting to expend nearly $2 million 
on printer cartridges during fiscal year 2011?
    Response. Education Service's share of the printer cartridges 
initiative is $1.2 million.

    B. If not, what other factors account for the increased funding for 
Supplies and Materials?
    Response. In addition to increased supplies and materials funds for 
printer cartridges, additional resources are allocated to Education 
program based upon increased share of management support costs (see 
response above to question 3A).

    C. After the long-term solution for the Post-9/11 GI Bill is in 
place, how often will individual employees of the regional processing 
offices print and mail documents to education benefits recipients?
    Response. The Post-9/11 GI Bill long-term solution (LTS) will not 
eliminate the need for employees to print and mail documents to benefit 
recipients. The fourth and final release of the LTS will include a 
Veteran self-service interface that will display benefit related 
information; however, VA is still required to provide written 
notification of all actions taken.
                         general administration
Office of the Secretary
    Question 1. In fiscal year 2009, there were 32 FTE in the Office of 
the Secretary, and VA's fiscal year 2010 budget request included 
funding for 40 FTE. Now, the fiscal year 2011 budget request reflects 
that the Office of the Secretary has 50 FTE, which is explained as 
follows: ``The current estimate for obligations is greater than the 
original 2010 budget due to available carryover to support an 
additional 10 FTE within the Immediate Office of the Secretary.''

    A. In total, how much in carryover funds would be used during 
fiscal year 2010 to support these additional 10 FTE?
    Response. $1.4 million will be used in FY 2010 to support the FTE 
and necessary travel, training, supplies and required equipment.

    B. What justifies an over 56% increase in staffing for the Office 
of the Secretary since fiscal year 2009?
    Response. In previous administrations, staff from other VA offices 
were detailed to the Office of the Secretary of Veterans Affairs (OSVA) 
to assist the Secretary in overseeing the workload and programs within 
the office. After his arrival, Secretary Shinseki mandated that the 
budget for the OSVA be an accurate reflection of the salaries, travel 
and all other expenses for the immediate office, as well as for the 
subsidiary offices that report to the Secretary. The FY 2011 budget 
request now accurately reflects the costs and number of employees 
working in the immediate Office of the Secretary. Approximately half of 
the staff increase reflected since 2009 was required to directly 
support VA's ongoing effort to transform itself into a 21st century 
organization. These positions are engaged in the direct oversight and 
coordination of the VA's strategic plan and major initiatives.

    C. What is the average salary for personnel within the Office of 
the Secretary?
    Response. The average salary for employees in the Office of the 
Secretary is $109,000. The remainder of the funding in personal 
services is for retirement and health insurance and other related 
Federal personnel benefits. This average salary includes the higher 
salaries of senior officials such as the Secretary, as well as the 
General Schedule (GS) salaries of program and administrative support 
staff. The average salary falls within the overall range of average 
salaries within the General Administration account.

    D. What specific functions would be performed by the additional 10 
FTE if funding for those positions is continued in fiscal year 2011?
    Response. The FY 11 budget continues the work from FY 2010, when 
the Office of the Secretary was realigned to fit the Secretary's new 
strategic framework that is people-centric, results-driven, and 
forward-looking. These positions are engaged in the direct oversight 
and coordination of the Secretary's effort to transform VA into a 21st 
Century organization to ensure that the Department cares for Veterans 
over a lifetime, from the day the oath is taken until the day they are 
laid to rest. The Secretary's transformational efforts include 13 major 
initiatives and 75 other organizational specific initiatives.

    E. Will this staffing level, which was attained using one-time 
carryover funds, also be requested in future years?
    Response. Yes, the funding requested in the FY 2011 budget would 
remain in the base in order to continue accurately reflecting the 
number of employees working in the Office of the Secretary.

    Question 2. The fiscal year 2011 budget request for the Office of 
the Secretary includes a request for $592,000 for travel, which is 28% 
higher than the funding requested for fiscal year 2009 ($464,000). What 
accounts for that increase?
    Response. Travel increases in FY 2011 are directly related to the 
Secretary's initiatives to transform VA into a 21st Century 
organization. Consistent with direction from the Secretary, the OSVA 
travel budget was reviewed carefully in order to ensure the request was 
an accurate reflection of program needs. In developing the FY 2011 
budget, the OSVA carefully reviewed travel requirements and budgets of 
prior years to determine appropriate levels to accomplish the 
Secretary's new integrated strategies to transform the Department. It 
should be noted that Secretary's 2011 travel request is only 2% higher 
than the actual travel expenses of this office in FY 2008.

    Question 3. According to the budget request, VA is seeking $576,000 
for the Center for Faith-Based and Neighborhood Partnerships. In part, 
that funding would be used for ``[p]romoting responsible fatherhood.'' 
Please explain how this would further VA's mission of caring for 
veterans, their families, and their survivors.
    Response. Of the $576,000 budgeted in the Center for Faith-Based 
and Neighborhood Partnerships, $497,000 is for salaries and personnel 
benefits for 3 FTE. The remaining $79,000 is for equipment, supplies 
and contracts, including funding for VA's Fatherhood Mission. In FY 
2010, VA is conducting a Fatherhood Forum--A National Conversation on 
Responsible Fatherhood and Healthy Families to provide a venue for 
military and veteran fathers and families to share the challenges they, 
their families, and communities face in reintegrating into their roles 
as fathers, mothers, spouses, etc. The Forum brings together local and 
national leaders and community organizations to discuss programs 
available and research being conducted that can inform public policy 
and programs that will better serve the needs of Veterans. The Forum 
allows the VA, in very tangible ways, to provide information and 
resources to Veterans and their families.
Office of Management
    Question 1. The fiscal year 2011 budget request for the Office of 
Management includes the following paragraph:

    VA completed the initiative to centralize payments of certified 
invoices at the FSC in 2008. This centralization resulted in an 8 
percent improvement in interest paid per million dollars disbursed from 
$51 per million in 2008 to $47 per million in 2009. At the same time, 
VA earned nearly 94% ($8.5 million) of its available discounts--a 33 
percent increase in discounts earned over 2008 levels.

    A. In total, how much did VA spend on these interest payments 
during fiscal year 2009?
    Response. Total VA interest paid was $899,541. Of this total, 
$547,745 was related to commercial payments; the remainder of $351,796 
was related to Veterans Health Administration purchased care payments.

    B. In total, how much is expected to be spent during fiscal years 
2010 and 2011 on these interest payments?
    Response. Total VA interest for FY 2010 is projected to be 
$989,300. Of this amount, $516,900 is related to commercial payments; 
the remainder of $472,400 relates to VHA purchased care payments.
    Total VA interest for FY 2011 is projected to be $974,600. Of this 
amount, $509,100 is related to commercial payments; the remainder of 
$465,500 relates to VHA purchased care payments.

    C. What is VA's goal for discounts earned during fiscal years 2010 
and 2011?
    Response. VA's goal is 91.5 percent. Process improvements already 
undertaken leave little opportunity for additional improvements in 
discounts earned percentage. If VA is able to replicate FY 2009 results 
in FY 2010, we will adjust this goal in the future.

    Question 2. The fiscal year 2011 budget request for the Office of 
Management includes over $37.8 million for Other Services. It also 
reflects that the current estimated expenditures for Other Services 
during fiscal year 2010 will be more than $13 million higher than the 
original estimate. Please provide an itemized list of what expenditures 
these funds would be used to support during fiscal years 2010 and 2011.
    Response. The Office of Management estimates $46.2M in Other 
Services obligations in FY 2010 which includes $27M for the Defense, 
Finance and Accounting Services (DFAS) contract with DOD for payroll 
processing, $2.6M for A-123, Appendix A Testing and Remediation 
Contracts, $3.6M for the Audit Readiness Contract. Other contracts 
include Department level transformation initiatives, annual recurring 
contracts, Department wide billings and staff training.
    The office of Management has budgeted $37.8 million in FY 2011 
including $27M for DFAS payroll processing, $2.6M for A-123, Appendix A 
Testing and Remediation Contracts, $1.2M for a contract for the Non VA 
Care (Fee) Program, and other contracts which include recurring 
billings and annual contracts.

    Question 3. The fiscal year 2011 budget request for the Office of 
Management includes over $2 million for travel, which would be 48% 
higher than the amount expended during fiscal year 2009 ($1.4 million), 
29% higher than the amount requested for fiscal year 2010 ($1.6 
million), and 14% higher than the amount now estimated to be expended 
during fiscal year 2010 ($1.8 million). The budget request indicates 
that some increases are due to travel related to FLITE testing and 
deployment.

    A. How many Office of Management employees are expected to travel 
during fiscal year 2011 and how many trips would this level of funding 
support?
    Response. In FY 2011, 293 employees are expected to travel for a 
total of 491 trips.

    B. In total, how much is expected to be spent during fiscal years 
2010 and 2011 on travel related to FLITE?
    Response. FY 2010 travel to support the FLITE Program is estimated 
to be $688,000. FY 2011 travel to support the FLITE Program is 
projected to be $1,105,000.

    C. Other than travel related to FLITE, what accounts for this two-
year increase in travel funds?
    Response. The vast majority of the travel increases are related to 
FLITE for increased preparation of BETA site implementation. Other 
smaller levels of travel increases are related to field site reviews 
and financial oversight visits.

    D. Has VA considered whether there are alternatives that could help 
VA oversee this project without extensive travel?
    Response. Teleconferences and video teleconferences are used to the 
maximum extent possible. Face-to-face meetings are used specifically to 
address complex issues requiring an in-depth exchange of information or 
data between government and contractors to ensure precise information 
required to be communicated is clearly understood so the project 
schedule can be maintained and the risk to re-work is minimized.

    Question 4. The budget request indicates that the Office of 
Management carried over about $12 million from fiscal year 2009 to 
fiscal year 2010.

    A. During fiscal year 2010, does the Office of Management plan to 
expend those carryover funds?
    Response. Yes.

    B. If so, please provide an itemized list of how those funds are 
expected to be expended.
    Response. Carryover within the Office of Management will be used 
for the Audit Readiness contract and other contracts that support 
transformation initiatives, such as Cost Accounting and fiscal 
oversight.
Office of Human Resources & Administration
    Question 1. In fiscal year 2009, there were 505 FTE in the Office 
of Human Resources and Administration and VA's fiscal year 2010 budget 
request included funding of $64.8 million for 539 FTE. The budget 
request reflects that during fiscal year 2010 the Office of Human 
Resources and Administration expects 715 FTE and expects to expend over 
$87 million, over $22.2 million more than originally requested.

    A. What funds are being used for this 34% increase in staffing 
during fiscal year 2010? Are any carryover funds being used?
    Response. The staffing level of 715 FTE in 2010 will not only 
provide the ongoing services of HR&A, but also provide 165 FTE funded 
from reimbursements to support implementation of the Human Capital 
Investment Plan (HCIP) and 18 FTE funded from VA Learning University 
(VALU) reimbursements. Carry over funds are not being used for the 
payroll costs associated with new FTE.

    B. What is the average salary of the 176 additional employees VA 
now plans to have on board during fiscal year 2010?
    Response. The FY 2010 average salary for the additional HCIP and 
VALU employees is $96,681.

    C. Please provide a breakdown of what types of positions are 
included in that 176-employee increase, where the employees will be 
located, and what specific goals VA plans to accomplish with the 
additional staff.
    Response. These positions include the following types: Training 
Consultants, eLearning Specialists, Instructor/Course Designers, H.R. 
Specialists, Training Evaluators, Content Quality Assurance 
Coordinators, Career Development Managers, EEO Specialists, Labor 
Relation Specialists, Delegated Examiners, Strategic Planners, 
Management Analysts, and Program Analysts. Of this increase, 64 FTE are 
projected for field facilities and the remainder for VACO. Please see 
page 5F-8 in Volume 3 of the FY 2011 Budget Submission for a 
description of each initiative associated with the staffing increase.

    Question 2. The fiscal year 2011 budget request for the Office of 
Human Resources and Administration includes over $17.6 million for 
travel, which would be 820% higher than the amount expended during 
fiscal year 2009 ($1.9 million), 630% higher than the amount requested 
for fiscal year 2010 ($2.4 million), and 5% more than the amount now 
expected to be expended during fiscal year 2010 ($16.8 million).

    A. How many employees are now expected to travel during fiscal year 
2010 and how many trips would $16.8 million support?
    Response. Over 150,000 ``training instances'' are projected using 
various modalities. The travel increase is allocated for travel 
associated with training programs sponsored by the HCIP. Training will 
be conducted through various modalities including online training, 
training hubs in the field, and at various existing VA training 
facilities (such as the VA Acquisition Academy, IT Training Academy, 
etc.)

    B. What accounts for the over $14 million increase in travel 
expenditures for fiscal year 2010?
    Response. See response to question 2A.

    C. How many employees are expected to travel during fiscal year 
2011 and how many trips would the requested level of funding support?
    Response. See response to question 2A.

    D. What accounts for this increase in travel funds from fiscal year 
2010 to 2011?
    Response. See response to question 2A.

    E. Has VA considered whether there are alternatives that could 
accomplish the intended goals without the need for extensive travel?
    Response. See response to question 2A.

    Question 3. For fiscal year 2010, VA requested $425,000 for 
Equipment for the Office of Human Resources and Administration. Now, 
the fiscal year 2011 budget request reflects that VA expects to expend 
over $2.8 million during fiscal year 2010 for equipment for that 
office.

    A. What factors account for this 567% increase in the amount 
expected to be spent during fiscal year 2010 on equipment?
    Response. The equipment increase reflects $2.8 million required for 
the purchase of commercial software to support workforce management and 
workforce planning of managers throughout VA. This software will be 
used along with developed occupational competencies to identify groups 
of employees in the most need of training and development.

    B. Please provide an itemized list of how that $2.8 million would 
be expended.
    Response. The entire $2.8 million will be expended on tools and 
services for workforce planning and workforce management.
    VA is not looking for OI&T to build or develop a new system. The 
contractor will assess our current workforce planning system as it 
applies to each Administration and Staff Office, benchmark VA against 
best practice public and private sector organizations and systems 
recommend ``enhancements'' to our current system as well as a corporate 
approach to VA Workforce planning--contractor will be working closely 
with OI&T to ensure compatibility to PAID system and movement to the 
new HRIS system once it has been selected. Software will not be 
developed by OI&T, VA is looking for COTS software or ProClarity/VSSSC 
data cubes to be created to enhance current reports and provide 
forecasting capabilities. Software will be available to managers on 
desktop to assist in assessing performance and developmental status 
needs.

    C. Please explain how these expenditures will help improve benefits 
or services to veterans, their families, or their survivors.
    Response. Workforce planning tools will be used in the training and 
development of employees within occupational series shown to have the 
most need. Training funds can then be focused on areas where needs are 
greatest, thus strengthening VA's workforce and capacity to meet the 
needs of Veterans and their families. This supports transformation of 
VA. This integrated workforce planning initiative is based on 
identifying and managing competencies and skills required to serve 
Veterans in some 300 occupations. VA will be able to effectively plan 
for its future workforce by determining the skill-mix of the current 
workforce, the skills likely needed n the future and skills VA needs to 
focus on developing or recruiting for. This initiative will directly 
impact VA's ability to achieve its mission.

    D. If VA were asked to prioritize its budget request, how high 
would this $2.8 million for office equipment be on that priority list?
    Response. Inclusion of this $2.8 million in the department's budget 
request already reflects the deliberate reprioritization of needs 
within the Human Resource management domain and its importance relative 
to our strategic goal of improving internal customer satisfaction with 
management systems and support services to achieve mission performance 
and make VA an employer of choice by investing in human capital.

    Question 4. The fiscal year 2011 budget request includes $7.6 
million for a ``Corporate Senior Executive Management Office.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this office is 
effective?
    Response:

    <bullet> Stand up office through transfer of staff from VBA/BHA 
plus hiring of new employees.
    <bullet> Transfers completed
    <bullet> Vacancies/new hires
    <bullet> Train staff on use of USA Staffing and utilize USA 
Staffing for all SES announcements and hiring
    <bullet> # of staff trained
    <bullet> # of SES announcements through USA Staffing
    <bullet> Standardize forms and procedures; develop SES orientation 
program and conduct orientations for new SES personnel
    <bullet> # of forms standardized
    <bullet> # of procedures standardized
    <bullet> Completion of the development of the SES orientation 
program
    <bullet> # of orientations conducted for new SES Personnel
    <bullet> # of highly qualified candidates selected for positions ( 
quality)

    Question 5. The fiscal year 2011 budget request includes $83.7 
million for an initiative called the ``Development and Certification of 
Leaders.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Development of program completed
    <bullet> # successfully certified
    <bullet> Positive assessment of the application of skills learned 
to the operational environment, and retention of those skills overtime.
    <bullet> Demonstrated reduction of skill gaps in the targeted 
population
    <bullet> Detail of quality control and assurance, risk planning and 
appropriateness of risk mitigation
    <bullet> Viewpoint survey results
    <bullet> Reduction in EEO Complaints

    Question 6. The fiscal year 2011 budget request includes $98.5 
million for a ``Mission Critical Training'' initiative.

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Mission critical and key occupations are identified
    <bullet> Available training is assessed
    <bullet> # of COTS training
    <bullet> # of specific designed training
    <bullet> % of employees in mission critical and key occupations who 
completed a competency-based training program within 12 months
    <bullet> # of trained professional retained
    <bullet> Reduction in the number of occupations on mission critical 
list

    Question 7. The fiscal year 2011 budget request includes $31.8 
million for a ``Program Based training'' initiative.

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Timely delivery of quality, instructionally effective 
final training products
    <bullet> Adherence to agreed upon product delivery schedules
    <bullet> Adherence to project cost estimates
    <bullet> Adherence to agreed upon design standards and test 
protocols
    <bullet> Completion of training project/task order in accordance 
with plans and specifications.
    <bullet> Final eLearning products to function without problem 
within the VA LMS operating environment
    <bullet> Timely implementation of training program curriculum that 
teaches content that is compliant with relevant lesson or course 
objectives
    <bullet> Positive assessment of the application of skills learned 
to the operational environment, and retention of those skills overtime.
    <bullet> Demonstrated reduction of skill gaps in the targeted 
population
    <bullet> Detail of quality control and assurance, risk planning and 
appropriateness of risk mitigation

    Question 8. The fiscal year 2011 budget request includes $661,000 
for a ``Knowledge Management office.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this office is 
effective?
    Response:

    <bullet> Adherence to agreed upon product delivery schedules
    <bullet> Adherence to project cost estimates
    <bullet> Adherence to agreed upon design standards and test 
protocols
    <bullet> Completion of training project/task order in accordance 
with plans and specifications.
    <bullet> Detail of quality control and assurance, risk planning and 
appropriateness of risk mitigation

    Question 9. The fiscal year 2011 budget request includes $6.5 
million for an ``Enhancement of VA's Learning Management System'' 
initiative.

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Track expenditure of funds, courses and personnel trained
    <bullet> # of competencies entered in VA LMS
    <bullet> # of courses mapped to competencies
    <bullet> # of employees using VA LMS electronic Individual 
Development Plans
    <bullet> # of employees using VA LMS 360 degree assessment tool

    Question 10. The fiscal year 2011 budget request includes $14.5 
million for ``the Evaluation initiative.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response. VA established an Intra agency Agreement (IA) with the 
National Center for Organization Development (NCOD), Veterans Health 
Administration (VHA), both Department of Veterans Affairs (VA) 
organizations, to evaluate projects that achieve goals for HRA related 
to VA's organizational health and transformation and to make most 
efficient use of VA resources. NCOD will evaluate the human capital 
investment activities to develop supervisors, managers, and mid and 
entry level leaders through the analyses of self-report of candidates, 
progress on closing gaps on their 360 degree assessments pre-, during, 
and post- training, and through analysis of organizational performance 
metrics effected by the candidates.
    For details regarding metrics for each of the underlying 
initiatives, please see the corresponding Part B. for each question.

    Question 11. The fiscal year 2011 budget request includes $23.5 
million for a ``Workforce Planning'' initiative.

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Expedited implementation of T21 with cooperation of our 
Labor Partners
    <bullet> Reduction in traditional indicators of a challenged labor 
environment to include ULP's or Unfair Labor Practices, Local and 
National Grievances
    <bullet> Employee Satisfaction and Attrition Rates.
    <bullet> # of Labor Management training sessions for managers
    <bullet> # of joint Labor/Management training sessions
    <bullet> # of participants
    <bullet> # of Labor-management forums for managers, employees and 
union reps
    <bullet> # of participants
    <bullet> # of local level interventions
    <bullet> # of service agreements w/internal customers

    Question 12. The fiscal year 2011 budget request includes $3 
million for a ``Health and Wellness initiative.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether that initiative is 
successful?
    Response:

    <bullet> # of employees using online health and wellness tools
    <bullet> # of employees using health and wellness coaching services
    <bullet> FOH will provide evaluation of aggregate Health Risk 
Assessment (HRA) data and health promotion programming to meet the 
specific needs of the population.
    <bullet> Evaluation of program, progress and utilization reports 
will be provided quarterly.
    <bullet> Decrease in rate of absenteeism

    Question 13. The fiscal year 2011 budget request includes $2.7 
million to ``focus on labor-management partnership.''

    A. Please provide an itemized list of how these funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response:

    <bullet> Expedited implementation of T21 with cooperation of our 
Labor Partners
    <bullet> Reduction in traditional indicators of a challenged labor 
environment to include ULP's or Unfair Labor Practices, Local and 
National Grievances
    <bullet> Employee Satisfaction and Attrition Rates.
    <bullet> # of Labor Management training sessions for managers
    <bullet> # of joint Labor/Management training sessions
    <bullet> # of participants
    <bullet> # of Labor-management forums for managers, employees and 
union reps
    <bullet> # of participants
    <bullet> # of local level interventions
    <bullet> # of service agreements w/internal customers

    Question 14. The fiscal year 2011 budget request includes $1.2 
million for the Office of Occupational Safety and Health to conduct 
various initiatives.

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). A breakdown of these 
costs is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What metrics would be used to gauge whether those initiatives 
are successful?
    Response:

    <bullet> Implement functional improvements to the Workers' 
Compensation-Occupational Safety and Health/Management Information 
System
    <bullet> Launch new training for Workers' Compensation Best 
Practices
    <bullet> Complete Safety Benchmarking/Perception Survey
    <bullet> Increased # of employees returning to work capacity
    <bullet> Improved case management of workers compensation files
Office of Policy and Planning
    Question 1. The fiscal year 2011 budget request for the Office of 
Policy and Planning includes over $16.8 million for Personal Services, 
which is over 84% higher than the amount expended during fiscal year 
2009 ($9.1 million), 26% higher than the amount requested for fiscal 
year 2010 ($13.3 million), and 19% higher than the amount now expected 
to be expended during fiscal year 2010 ($14.1 million). That level of 
funding for fiscal year 2011 is projected to support 10 more FTE than 
the fiscal year 2010 level (93 FTE) and 41 more FTE than the fiscal 
year 2009 level (62 FTE).

    A. What specifically accounts for the $830,000 increase in personal 
services expenditures expected during fiscal year 2010?
    Response. The FY 2010 current estimate is now a more accurate 
depiction of the types and level of personnel required to implement the 
Secretary's transformation initiatives described in the President's 
Budget. More recent average salary data is also contributing to the 
difference between the original and current estimates.

    B. How much in carryover funds will be used to fund that increase 
in personal services expenditures during fiscal year 2010?
    Response. No carryover funds will be used to fund the increase in 
personal services expenditures during FY 2010. The carryover funds are 
allocated for contracts in support of the newly established 
Transformation and Innovation Service; the contract support will be 
used to help stand up the new office.

    C. What is the average salary of employees of the Office of Policy 
and Planning?
    Response. The average salary (without benefits) of an employee in 
the Office of Policy and Planning (OPP) is $116,000.00.

    D. Other than salaries for new staff, what factors account for the 
$2.7 million increase in expenditures on personal services from fiscal 
year 2010 to 2011?
    Response. The $2.7 million is for salaries and associated benefit 
costs for the 10 new staff in FY 2011; to fully fund the existing 93 
staff including normal benefits increases; and to support the budgeted 
2.0 percent pay raise for existing personnel.

    E. What factors were considered in determining that a 66% two-year 
increase in personnel should be requested for this office?
    Response. The Office of Policy and Planning (OPP) is using these 
new resources to drive the Department transformation; to facilitate the 
implementation of the Department of Veterans Affairs (VA) strategic 
plan across the Department; to execute the Secretary's policy, 
management, and programmatic priorities; and to collaborate with the 
Department of Defense (DOD) to enhance services and benefits to 
Servicemembers as they transition to civilian status. The increase in 
personnel permits the development of two new services that provided new 
capabilities to the Department. In addition the increase augments 
existing services. OPP is standing up a Corporate Analysis and 
Evaluation Service to provide new planning capabilities that will allow 
VA to better anticipate demand for its services. OPP is also standing 
up the Transformation and Innovation Service which will manage the 
Department transformation efforts and lead the Departmental innovation 
process to identify and anticipate new trends among policy issues 
affecting Veterans. The increase in FY 2010 has allowed the VA to 
expand the VA/DOD Collaboration Office. Last, the increase will permit 
VA to acquire predictive modeling capabilities.

    F. Please explain how these increased expenditures would improve 
benefits or services for veterans, their families, or their survivors.
    Response. The Office of Policy and Planning (OPP) is using these 
new resources to drive the Department transformation into a people-
centric, results-driven, forward-looking organization. The Corporate 
Analysis and Evaluation (CA&E) Service will analyze investment options 
for the Department and provide an analytical basis for deciding among 
investments in ongoing programs as well as new investments to ensure 
that funds are going to programs that are results driven and effective 
at meeting Veterans needs. The Transformation and Innovation Service 
(TIS) will ensure that the initiatives identified by the 
Administrations and staff offices are Veteran-centric, forward-looking 
and results-driven and that these initiatives have valid operating 
plans and that those operating plans are implemented. TIS will also 
ensure that innovations are identified that anticipate the future needs 
of Veterans and that those needs are institutionalized through policy 
and program design and implementation. The expansion of the VA/DOD 
Collaboration Office will improve the support that a wounded warrior is 
provided throughout recovery, rehabilitation and reintegration; as well 
as address the needs of Servicemembers as they transition to civilian 
status. OPP will also establish a Business Intelligence Program 
Management Office which will implement a set of VA-wide tools, 
technologies, and processes to turn data into information and 
information into knowledge that optimizes VA's services to Veterans.

    Question 2. VA requested $10.2 million for Other Services for the 
Office of Policy and Planning for fiscal year 2010. The fiscal year 
2011 budget now reflects that VA expects to expend over $13.5 million 
on Other Services during fiscal year 2010, a 33% increase.

    A. What factors account for that $3.3 million increase in Other 
Services for fiscal year 2010?
    Response. The upward revision in other services reflects an 
increased need to use contractor support in setting up the two new 
offices (CA&E and TIS) within OPP. OPP used carryover from FY 2009 to 
help fund these additional services.

    B. Please provide an itemized list of how that $13.5 million would 
be expended.
    Response. See table that follows.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 3. For fiscal year 2010, the Office of Policy and Planning 
requested $2 million for rent, communications, and utilities. Now, the 
fiscal year 2011 budget request reflects that the amount that office 
expects to expend on rent during fiscal year 2010 is ``lower than 
anticipated'' and those funds ``will be directed to Other Services to 
support Secretarial transformation initiatives.''

    A. How much in total is expected to be spent on rent during fiscal 
year 2010?
    Response. The total we are expecting to spend on rent, 
communications, and utilities during FY 2010 is $850,000.

    B. How much in total is VA planning to redirect to the Other 
Services account?
    Response. VA is planning on redirecting $1,150,000 to the other 
services account.

    C. Please explain the ``transformation initiatives'' that these 
funds would be used to support.
    Response. The $3,000,000 carryover is more in direct support of the 
transformation initiatives, while the $1,150,000 that is being 
redirected will be used to support the Business Intelligence 
Implementation. Contractor support will be acquired to provide data 
asset inventory commercial best practice expertise and assist the 
inventory activities.

    Question 4. The fiscal year 2011 budget request for the Office of 
Policy and Planning reflects that ``[c]arryover funding will be used * 
* * to support Secretarial initiatives.''

    A. Please provide an itemized list of how any carryover funds from 
fiscal year 2009 will be expended for that purpose.
    Response. The $3,000,000 in carryover funds are allocated for 
contracts in support of the newly established Transformation and 
Innovation Service; the contract support will be used to help stand up 
the new office. The contractor will provide support in developing and 
initiating the Operational Management Review Process. This is the 
process by which the progress of the major Departmental initiatives is 
tracked, and provides detailed assessments of the major initiatives as 
needed.

    B. Please explain the ``Secretarial initiatives'' that these funds 
would be used to support.
    Response. The carryover funds are currently allocated for contracts 
in support of Transformation and Innovation Service; the contract 
support will be used to help stand up the new office.
Office of Operations, Security & Preparedness
    Question 1. The fiscal year 2011 budget request for the Office of 
Operations, Security, and Preparedness includes $12.6 million to 
support 102 FTE, which is 55% higher than the level of staffing in 
fiscal year 2009 (66 FTE) and 7% higher than in fiscal year 2010 (95 
FTE).

    A. What factors were considered in determining that a 55% two-year 
increase in staff should be requested for this office?
    Response. In FY 2010 and continuing in FY 2011, the Office of 
Operations, Security, and Preparedness identified increased mission 
requirements to comply with various Homeland Security Presidential 
Directives to include: HSPD (5, 8, 12, 20); Executive Orders (10450 and 
12968); 5 CFR 731 (Suitability Regulations); 5 CFR 732 (National 
Security Positions); and CIA Directive 6/4. There were 24 new FTE's 
authorized in FY 2010 appropriations act. The final 7 FTE are requested 
in FY 2011 to complete the staffing of the HSPD-12 Program Office. In 
FY 2009 there was one FTE added during this execution period.

    B. What is the average salary of employees of this office?
    Response. The average salary (without benefits) for the Office of 
Operations, Security, and Preparedness is $90.4K

    Question 2. The fiscal year 2011 budget request for the Office of 
Operations, Security, and Preparedness includes over $1 million for 
travel, which is 56% higher than the expenditures on travel during 
fiscal year 2009 ($655,000) and 5% higher than the amount expected to 
be expended during fiscal year 2010 ($980,000).

    A. What factors account for that increase?
    Response. For FY 2010-2011, the factors for this increase include 
participation in VA and Federal Interagency Continuity of Operations 
and Continuity of Government Exercises. In addition, this increase 
involves mission requirements which will include program inspections of 
police units and executive protection service for leadership.

    B. How many employees are expected to travel during fiscal year 
2011 and how many trips would that level of funding support?
    Response. An estimated 85 employees are planned to travel during FY 
2011, with an estimated number of trips to equal 485.

    Question 3. The fiscal year 2011 budget request for the Office of 
Operations, Security, and Preparedness includes over $8 million for 
Other Services, which is 121% higher than the level of funding for 
fiscal year 2009 ($3.6 million), 176% higher than the amount originally 
requested for fiscal year 2010 ($2.9 million), and 29% higher than the 
amount now expected to be expended during fiscal year 2010 ($6.2 
million). The budget request reflects that the increase during fiscal 
year 2010 is for contractual costs.

    A. Please provide an itemized list of how these funds would be 
expended.
    Response. Funds will be expended on:

    <bullet> Current working estimate for FY 2011 Guards Contract is 
$4.2 Million
    <bullet> Contracted support for the HSPD-12 Program Office is 
budgeted for $3.3 Million in FY 2011

    B. What factors account for the expected $1.8 million increase in 
expenditures from fiscal year 2010 to 2011?
    Response:

    <bullet> An increase in the Department of Homeland Security Federal 
Protection Service contract for security guards at VA Central Office.
    <bullet> National Security planning, testing, training and 
contractual support.
    <bullet> Increased contractual support for the HSPD-12 Program 
Office to ensure compliance with various directives and regulatory 
requirements.
    <bullet> Inflation.

    C. How much would be expended on contractor services during fiscal 
years 2010 and 2011 and what services would be performed by those 
contractors?
    Response. Expenditures for FY 2010 are planned at $6.2 million and 
$8.0 million for FY 2011. Services obtained include guard's security 
from Federal Protection Service, program support for the HSPD-12 
Program Office, and National Level Exercises.

    D. What metrics would be used to gauge whether those funds for 
contractors are used effectively?
    Response. The metrics for the Federal protective service includes 
the number of post checks per day on each guard post, the number of 
complaints received, and time and attendance evaluated daily. The 
metrics for the HSPD-12 includes the number of PIV cards processed 
daily in accordance with regulations.
Office of Public and Intergovernmental Affairs
    Question 1. The fiscal year 2011 budget request for the Office of 
Public and Intergovernmental Affairs includes $11.8 million to support 
82 FTE, which is 21% higher than the level of staffing in fiscal year 
2009 (68 FTE) and 9% higher than the level of staffing expected during 
fiscal year 2010 (75 FTE).

    A. What factors were considered in determining that a 21% two-year 
increase in staff should be requested for this office?
    Response. OPIA's request reflects Secretary Shinseki's priorities. 
Principally, OPIA is leveraging technology and improving partnerships 
to educate and empower Veterans and their families.

    B. Please explain how this increase in staff would improve benefits 
or services for veterans, their families, or their survivors.
    Response. The increase in staff is central to OPIA's mission to 
make sure Veterans and their families are aware of the benefits and 
services to which they are entitled. It is essential that VA continue 
to pursue aggressive outreach strategies to connect Veterans and their 
families to all appropriate VA services.
    The Office of New Media will provide additional avenues to 
communicate with Veterans--especially OEF/OIF--and their families. By 
utilizing the most current technology VA will continue to broaden our 
audience and reach Veterans.
    The Office of Tribal Government Relations will work with tribal 
leaders, Indian Health Service (IHS), the Bureau of Indian Affairs, and 
VA's three Administrations to improve service delivery and access to 
services on tribal lands.

    Question 2. The budget request for the Office of Public and 
Intergovernmental Affairs includes funding to ``establish an Office of 
New Media.'' The budget request indicates that this office would 
``manage VA's social and new media presence.''

    A. What specific functions would employees of this office perform?
    Response. The specific functions to be performed by the employees 
of this office are:

    <bullet> Support VA presence on social media sites like Facebook 
and Twitter where Veterans and their families will be able to get up-
to-the-minute news from VA.
    <bullet> Place VA informational videos, training guides (e.g. GI 
Bill Hip Pocket Guide) and photos on sites such as YouTube and Flickr.
    <bullet> Blog on sites where Veterans and their families visit.
    <bullet> Develop and implement strategies and establish unified 
policies and procedures to help VA administrations and staff offices 
use new media to communicate with Veterans and their families.
    <bullet> Conduct outreach to online media outlets to ensure the 
Department's message to Veterans is disseminated as widely as possible.
    <bullet> Monitor and report on coverage of the Department 
throughout the blogosphere and social media sphere so that VA can 
better target its efforts to reach Veterans and make sure accurate, 
timely information about benefits and services is reaching Veterans.
    <bullet> Research, develop, and produce content for all of VA's 
online communications platforms.

    B. How many employees now perform those tasks?
    Response. OPIA has only one employee working in new media.

    C. What is the expected salary for the requested employees?
    Response. New Media Technologist GS-13 ($100,000) and New Media 
Communications Officer GS-9/11 ($70,000).

    D. What are the expected accomplishments of this office and what 
types of metrics are in place to gauge the effectiveness of this new 
office?
    Response. The office is expected to increase use of VA services by 
Veterans by creating new media and social networking tools to reach 
Veterans and their families; organizing the feedback VA receives via 
new media and social networking and funnel this information to the 
appropriate VA offices; and developing new online techniques for 
soliciting feedback from Veterans. To gauge metrics, the office tracks 
its reach across all social media platforms by measuring the number of 
followers, fans, etc., that it gains from the targeted population in 
relation to comparable organizations.

    Question 3. The fiscal year 2011 budget request for the Office of 
Public and Intergovernmental Affairs includes $800,000 for travel, 
which is 85% higher than the amount expended on travel during fiscal 
year 2009 ($435,000), 35% higher than the funding level requested for 
fiscal year 2010 ($595,000), and 15% higher than the amount now 
expected to be expended during fiscal year 2010 ($700,000).

    A. What factors account for this expected increase in travel funds 
during fiscal year 2010?
    Response. OPIA's FY 2009 budget underestimated travel costs. 
Several key leadership positions within OPIA remained unfilled in FY 
2008 and FY 2009 so travel expenditures were less, as necessary travel 
was postponed. Because of her personal story as a disabled Iraq War 
Veteran, and as a Veteran who has undergone the transition from DOD to 
VA, Assistant Secretary Duckworth is asked to speak to Veterans, their 
families, and people who provide services to Veterans across the 
country. Part of the Assistant Secretary's responsibility is to travel 
and communicate VA services, goals and priorities to Veterans, VSO's, 
State and local governments, and other stakeholders. Due to her 
extensive disability, she is accompanied by a staff person to ensure 
accessibility and staffing support. Additionally, OPIA staff are 
traveling more as part of our new priority to conduct outreach to 
encourage greater use of VA services by Veterans and their families.

    B. What factors account for the expected increase from fiscal year 
2010 to 2011?
    Response. Native Americans and Pacific Islanders have the highest 
per capita of Veterans, yet live in some of the most remote regions of 
our Nation. In order to better serve these Veterans, OPIA will expand 
the Office of Tribal Government Relations in FY 2011. The FTE in this 
office will spend much of their time traveling to remote tribal lands.

    C. How many employees are expected to travel during fiscal year 
2011 and how many trips would this level of funding support?
    Response. Approximately 30 FTE will travel for a total of over 500 
trips (single-day and multiple-day) during FY 2011.

    Question 4. The fiscal year 2011 budget request for the Office of 
Public and Intergovernmental Affairs includes $834,000 for Other 
Services, which is 319% higher than the expenditures on Other Services 
during fiscal year 2009 ($199,000) and 34% higher than the amount now 
expected to be expended during fiscal year 2010 ($622,000). Please 
provide an itemized list of how these funds would be expended during 
fiscal year 2011.
    Response. See table below.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 5. For fiscal year 2010, the Office of Public and 
Intergovernmental Affairs requested $9.1 million to support 76 
employees. Now, the fiscal year 2011 budget request reflects that this 
office expects to have 75 employees during fiscal year 2010 but expects 
to expend an additional $1.3 million for personal services, a 15% 
increase. According to the budget request, this increase reflects ``an 
average salary adjustment.'' Please explain what salary adjustments led 
to this $1.3 million increase.
    Response. The increase in personal services was due to pay raises, 
normal personnel benefits and career ladder increases, and the salaries 
associated with an additional 7 FTE requested in the budget to help 
implement OPIA's transformation initiatives--specifically 5 new FTE for 
the Office of Tribal Government Relations and 2 new FTE for the Office 
of the New Media.
Office of Congressional & Legislative Affairs
    Question 1. The fiscal year 2011 budget request for the Office of 
Congressional and Legislative Affairs includes funding for 50 FTE, 
which is 52% higher than the staffing level in fiscal year 2009 (33 
FTE) and 19% higher than the staffing level expected during fiscal year 
2010 (42 FTE).

    A. What factors were considered in determining that a 52% two-year 
increase in staffing should be requested for this office?
    Response. The principal factor that drives VA's need to increase 
the Office of Congressional and Legislative Affairs (OCLA) staffing 
level is a recognized need to enhance this office's ability to perform 
its primary mission--improving the lives of Veterans and their families 
by advancing legislative communication and relationships with Congress. 
We do this primarily by supporting the Committee's execution of its 
congressional oversight responsibilities. Congressional relations 
activities--meetings, briefings, site visits, and hearings--are people-
intensive. However, Congress is on pace to request approximately 120 
hearings, over 240 briefings, and nearly 100 escorted visits in fiscal 
year 2010. This tempo places a strain on our current workforce, and we 
anticipate that our pace for communicating and engaging with Congress 
at all levels will exceed the same period last year. Expanding 
congressional relations capacity by building from an FY 2009 executed 
level of 33 personnel to a 50-person team of professionals at end state 
in FY 11 will properly position this organization to more effectively 
execute OCLA's mission and dramatically improve communications between 
the Department and Congress.

    B. Please explain how this increase in staff would improve benefits 
or services for veterans, their families, or their survivors.
    Response. Additional staffing would allow VA to be more responsive 
to congressional requests and, in turn, help Congress to better assist 
the VA in improving benefits and services to Veterans, their families, 
or their survivors. The top two strategic priorities underpinning VA's 
2011-2012 budget request are: (1) improving the quality and 
accessibility of health care, benefits, and memorial services while 
optimizing value; and (2) increasing Veteran client satisfaction with 
health, education, training, counseling, financial, and burial benefits 
and services. These strategic goals cannot be achieved without the 
necessary authorities and funding enacted by Congress. OCLA enables the 
Department to progress toward these goals by coordinating the 
development of pro-Veteran legislation by maintaining healthy and 
effective relationships with the Congress and the Government 
Accountability Office, its investigative arm.

    Question 2. For fiscal year 2010, the Office of Congressional and 
Legislative Affairs requested $5.46 million to support 50 employees. 
Now, the fiscal year 2011 budget request reflects that this office 
expects to have less employees (now estimated at 42) during fiscal year 
2010 but expects to spend more than originally estimated (now estimated 
at $5.54 million). According to the budget request, estimates were 
changed ``due to average salary re-estimates.''

    A. Please explain the original salary estimates for fiscal year 
2010 and how those estimates were changed.
    Response. The change in salary estimates was the direct result of 
the deliberate decision to transform OCLA.
    When the original salary estimates for the FY 10 budget were 
developed in fall of 2008, OCLA's organizational design distributed 
staffing resources as follows: (1) 29% toward congressional relations 
work; (2) 29% toward executive correspondence and reporting work; (3) 
20% performing liaison work from offices located in the Rayburn and 
Russell buildings; (4) 11% fulfilling executive leadership 
responsibilities of the Assistant Secretary and; (5) 11% to execute the 
administrative support functions of the office.
    At the time, the size and composition of the organizational design 
was deemed sufficient to meet the projected workload needs of OCLA at 
an average salary of $81,900. This average salary is roughly equal to 
the annual earnings of a GS-12/Step 4 employee in the Washington, DC 
area. As recent experience informs us, the department is under-
performing relative to the performance goals that we have set for 
ourselves in the area of effective and responsive communication with 
Congress (see page 5J-5, Volume 3, of VA's FY 2011 Budget Submission). 
The FY 2011 budget request demonstrates our commitment to improving our 
performance in this important area.
    The FY 2011 budget request demonstrates our commitment to improving 
communications between VA and Congress through an organizational 
transformation designed to build the capacity necessary to meet 
anticipated increases in workload by shifting staffing resources toward 
congressional relations functions and away from tasks that are viewed 
as being administrative in nature. Upon completion of OCLA's 
transformation, more than 60% of the workforce will be aligned against 
OCLA's primary mission of congressional relations and executive 
correspondence and reporting work, with another 24% performing liaison 
duties, 7% in executive leadership roles, and 7% in administrative 
support.
    As discussed in the response to Question 1.a. above, Congressional 
relations activities are people-intensive. To efficiently coordinate 
these activities while building and sustaining effective relationships 
with congressional staff requires management and interpersonal 
competencies generally found above the journeyman-level of the Federal 
workforce. Skilled and seasoned professionals command higher salaries. 
The net result is a shift in average salary estimates for FY 2010 from 
$81,900 (submitted budget request) to $98,900, which is the average 
salary level we expect to execute this year. This dollar amount closely 
approximates the annual salary a GS-13 (Step 5) Federal employee earns 
in the National Capital Region.

    B. What is the average salary for employees of this office 
projected to be in fiscal year 2011?
    Response. The average salary projected for employees in 2011 is 
$100,400. To better understand the justification for this number, it is 
useful to view OCLA's work and the services we provide--effective 
communications and responsive support of Congress--through the lens of 
the classic project management concept known as the ``triple 
constraint'' paradigm. This paradigm describes the choices that must be 
made between cost, schedule and performance, and in the business of 
OCLA, performance is defined as the sharing of quality information. If 
you want good service cheap, it won't be fast; if you want cheap 
service fast it won't be good; and if you want good service fast it 
won't be cheap.
    In the context of congressional relations, schedule and performance 
are paramount--the value of information diminishes if not available to 
congressional decisionmakers when needed.
    With Congress on pace to request approximately 120 hearings, over 
240 briefings, and nearly 100 escorted visits in fiscal year 2010, the 
demands placed on our current workforce have increased, and we 
anticipate that our pace for communicating and engaging with Congress 
at all levels will exceed the same period last year.
    As we strive to improve the timeliness and quality of our work 
product, we have requested sufficient funding to hire and retain 
qualified employees to provide Congress with timely and accurate 
information.

    Question 3. The fiscal year 2011 budget request for the Office of 
Congressional and Legislative Affairs includes $270,000 for travel, 
which is 143% higher than the amount expended during fiscal year 2009 
($111,000) and 23% higher than the amount requested for fiscal year 
2010 ($220,000).

    A. What factors account for this increase?
    Response. Staff from the Senate Veterans Affairs' Committee and 
House Veterans' Affairs committee travel extensively throughout the 
country to visit VA medical facilities and Regional Offices in their 
oversight. The majority of this travel is paid from OCLA's general 
operations funding, as is authorized by law, 31 U.S.C. 1108(g).
    The basic factors driving travel costs are: (1) the number of 
congressional staff travelers; (2) duration of visits; and (3) location 
and venue of congressional staff visit. Travel is mostly within the 
Continental United States but several trips have been made to Hawaii, 
Samoa, and other remote locations.
    In addition, it is advantageous for the Department to have an OCLA 
representative accompany congressional staff on their oversight visits 
in order to hear firsthand what is discussed, what issues and concerns 
are raised, and what information will be brought back to the Committee 
Chairmen, Ranking Members, and VA leadership.

    B. How many employees would travel during fiscal year 2011 and how 
many trips would this level of funding support?
    Response. The number of VA employees that will travel in FY 2011 is 
dependent upon the number of trips requested by Congress. Accompanying 
congressional staff on their oversight visits in order to hear 
firsthand what is discussed, what issues and concerns are raised, and 
what new information is learned improves OCLA's ability to support the 
congressional committees in the performance of their oversight duties. 
Generally, one congressional relations officer will accompany each 
congressional staff delegation on site visits and field hearings. In FY 
2009, however, several congressional member and staff delegations were 
not joined by an OCLA employee due to the personnel resource 
limitations of OCLA. Travel increases contained in OCLA's FY 2011 
budget request assumes sufficient OCLA employee participation in 
congressional member and staff visits will be achieved as a result of 
enhanced staffing levels of OCLA.

    Question 4. The fiscal year 2011 budget request reflects that the 
Office of Congressional and Legislative Affairs ``created an internal 
tracking system for use as a management tool to determine the status 
and timeliness of questions for the record to Congress.''

    A. How many responses currently are past due?
    Response. Since January, 2010, the OCLA staff has intensely managed 
33 sets of post-hearing questions through internal and OMB 
concurrences. As of May 7, 2010, 21 sets of post-hearing questions have 
been completed and transmitted to the Committees. Of the 12 sets in the 
Department, 10 are past due.

    B. When will those responses be submitted to Congress?
    Response. The Department is making a concerted effort to deliver 
these responses to the Committee not later than May 31, 2010.

    Question 5. Part of my job as Ranking Member is to conduct 
oversight regarding VA's activities. I do this both in the context of 
Committee hearings and throughout the course of the year as events 
unfold. That frequently leads me or my staff to request information 
from VA. During the confirmation process for various VA nominees, I was 
assured that I would receive timely answers to these requests. 
Unfortunately, that has not always been the case. In fact, some 
responses are long overdue. As just one example, back in October 2009 I 
sent VA a number of questions after a hearing on various exposures and 
I have not yet received a response. I believe these types of delays are 
simply unacceptable.
    A. When will I receive a response to those questions?
    Response. VA's responses to the questions received from the Senate 
Veterans' Affairs Committee on October 22, 2009 regarding the October 
8, 2009 hearing on VA/DOD Responses to Certain Military Exposures was 
delivered to the Committee on May 7, 2010.
    B. What efforts will be made to ensure that I, and other Members of 
the Committee, receive timely responses to our requests?
    Response. OCLA has already implemented procedures to intensely lead 
the improvement of the department's responsiveness to congressional 
requests, with VA responsiveness to post-hearing questions being one of 
the focus areas. Additionally, the deliberate shift in mission focus--
more congressional relations capacity and commensurate addition of 
resources (funding and FTEs)--will enable OCLA's execution of its 
mission and dramatically improve communications between the Department 
and Congress. Technology tools are being sought that will allow member 
requests to be easily accessed and process improvements will ensure 
more timely sharing of status of deliverables with members and 
committees.
    C. What efforts will be made to determine who is responsible for 
these delays and to hold them accountable?
    Response. Responsibility and accountability are essential elements 
of OCLA's plan to improve the timely delivery of responses to the 
Committee's oversight inquiries. By providing OCLA employees with the 
manpower and tools to succeed in aggressively responding to an 
increasing workload, we will eliminate the structural deficiencies that 
currently prevent OCLA from satisfying the needs of the Committee. 
Doing so will allow OCLA to isolate potential future problems and 
resolve them once identified in a responsible and accountable manner.
Office of Acquisition, Logistics, and Construction
    Question 1. The fiscal year 2011 budget request for the Office of 
Acquisition, Logistics, and Construction includes $6.3 million for 
travel, which is 179% higher than the amount expended on travel during 
fiscal year 2009 ($2.3 million) and 72% higher than the amount 
projected to be expended during fiscal year 2010 ($3.7 million).

    A. What accounts for this increase?
    Response. The FY 2011 budget request for the Office of Acquisition, 
Logistics, and Construction includes an increase of 165 FTE over the FY 
2010 budget. The implementation of the VA Facilities Management T-21 
initiative increases Office of Construction and Facilities Management 
(CFM) staff to expand regional and local support for planning, 
construction, leasing, and engineering support. The increase in FTE 
will be predominantly for staff who provide support to VA medical 
centers, Regional Offices and National Cemeteries and who will often 
travel to those sites to deliver that support. Six regional offices 
will be located throughout the country, and field staff will travel 
between various locations to provide these additional supporting 
services. The expansion of these services is the basis for the increase 
in travel costs. In addition, a large percentage of the new staff will 
require Permanent Change of Station (PCS) moves, which also contributed 
to the increase in this account.

    B. How many employees are expected to travel during fiscal year 
2011 and how many trips would this level of funding support?
    Response. On average, up to 80 percent, or 306 field staff, travel 
six times per year at an average of $2,500 per trip totaling 
approximately $4.6M. Fifty-four percent, or 71 FTE, Central Office 
staff are likely to travel three times a year at an average cost of 
$2,500 for a total of $533,000.

    Question 2. According to the budget request for the Office of 
Acquisition, Logistics, and Construction, that office expects to spend 
over $9 million more during fiscal year 2010 than originally projected. 
The budget request indicates that these increases are ``a result of 
additional reimbursements and funds carried over from 2009.'' Please 
provide an itemized list of how any 2009 carryover funds would be 
expended.
    Response. The majority of the $2.4M in FY 2009 carryover funds will 
be expended for contracts related to the implementation of the VA 
Facilities Management T-21 initiative including the following:

    <bullet> Contract to identify IT needs related to the VAFM T-21 
initiative--Approximately $500,000.
    <bullet> Personnel support/competency contract to implement the 
competency model for CFM in support of the enterprise solution--
Approximately $400,000.
    <bullet> National Institute of Building Sciences (NIBS) contract 
for the development of the plan to implement the VAFM T-21 initiative 
and process map across the enterprise--Approximately $850,000.
    The remainder of the carryover will be used for additional 
contracts not specifically related to the VAFM T-21 transformation.

    Question 3. The fiscal year 2011 budget request for the Office of 
Acquisition, Logistics, and Construction includes $23.6 million for an 
``Acquisition Improvement Initiative.''

    A. Please provide an itemized list of how those funds would be 
expended.
    Response. Funds will allow for execution of key facets of this 
initiative which are:

    <bullet> Continue to hire additional experienced and well qualified 
Acquisition professionals to strengthen the competence of the 
Acquisition workforce.
    <bullet> Improve the availability, quality, and delivery of 
Acquisition training to the career acquisition workforce to maximize 
knowledge standardization and enhance core contract specialist and 
program project management competencies.
    <bullet> Support Acquisition professionals with the right tools to 
provide the flexibility and agility in the delivery of products, 
systems, and services to our VA customer.
    <bullet> Develop and stand up a strategic acquisition center to 
strengthen the management and control in the support of enterprise wide 
VA programs.

    B. What metrics would be used to gauge whether this initiative is 
successful?
    Response. Measuring success of this initiative will be accomplished 
as follows:

    <bullet> Procurement Administrative Lead Time (PALT) reporting 
would be used to identify the effectiveness of the initiative.
    <bullet> User satisfaction surveys will gauge improvement to 
service provided to the VA customer.
    <bullet> Workload reporting will identify the management of the 
acquisition workforce to balance the incoming VA customer workload.
    <bullet> Utilization of competency assessments to enhance training 
programs and career development plans.
                  information and technology--benefits
    Question 1. The budget request for Information and Technology for 
fiscal year 2011 includes $145 million for the Paperless Delivery of 
Veterans Benefits initiative, now called the Veterans Benefits 
Management System. According to the budget request, this investment 
will help ``improve the benefits claims process and ensure VA's claims 
decisions are timely, accurate, fair, and consistent.''

    A. How much in total has already been expended on this initiative?
    Response:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    B. How much in total will be expended on this initiative?
    Response:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    C. How many VA employees will be dedicated to this effort in fiscal 
years 2010 and 2011?
    Response. 48 employees in FY 2010 and 60 employees in FY 2011.

    D. Please describe the major milestones of this initiative that are 
expected to be accomplished during fiscal years 2010 and 2011.
    Response:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    E. Once the Veterans Benefits Management System is in place, what 
impact is it projected to have on the time to complete decisions on 
claims for disability benefits and the quality of those decisions?
    Response. Projected effects of VBMS are:

    <bullet> Reducing the average days to complete a case to the 
strategic target of 125 days and zero cases backlogged by 2015.
    <bullet> Better timeliness and consistency of delivery of veteran 
services with anticipated 21% reduction in processing time.
    <bullet> Improved veteran access to VBA services through enhanced 
web-based information processing.
    <bullet> Improved claims adjudication processes through file 
redundancy, efficient workflow management, and workforce flexibility.
    <bullet> Heightened control over the acquisition and movement of 
veteran data throughout VBA and among stakeholders.
    <bullet> Reduced costs through the use of imaged folders and data 
in an electronic repository to mitigate the risks associated with the 
shipment and storage of irreplaceable records.
    <bullet> Enhanced secure and private access to health care and 
benefits information across VBA, VHA, Veterans Service Organizations, 
and Department of Defense (DOD).

    Question 2. The fiscal year 2011 budget request for Information and 
Technology includes the following information:

          The planned Chapter 33 [Service Oriented Architecture] 
        infrastructure improvements overlapped the planned developments 
        of The Education Expert System (TEES). Thus the monies and 
        requirements for TEES were redirected into the Chapter 33 
        development effort.

    A. How much in total had been previously expended on The Education 
Expert System?
    Response:
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    B. Has all work related to The Education Expert System been 
discontinued?
    Response. TEES development requirements have been integrated into 
Chapter 33 development efforts as this is the long term environment for 
education applications. Chapter 33 includes the $1.937M of FY 2010 
funds originally budgeted for TEES development. Existing systems 
produced under the TEES investment that are currently live are 
maintained under the Education Application Maintenance line of the 
Benefits IT Support investment. This line is a sub-component of the 
larger Benefits IT Support investment.
    Education Application Maintenance is broken out as follows:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    C. What value was gained through the prior expenditures?
    Response. TEES produced multiple applications. These systems 
include the Work Study Management System (WSMS), the Flight-On the Job 
Training-Correspondence and Apprenticeship System (FOCAS), Electronic 
Certification Automated Processor (ECAP), The Image Management System 
(TIMS), VA Online Certification of Enrollment (VA ONCE), Web Automated 
Verification of Enrollment (WAVE), the National Education WAVE Mass 
Address Navigator (NEWMAN), and the Web Enabled Approval Management 
System (WEAMS).
    TEES also formed the basis for requirements that are now a part of 
the Chapter 33 investment. TEES as an investment no longer exists, but 
the systems produced are still active and the requirement work products 
are still in use.
    Question 3. VA is in the process of developing a long-term solution 
for processing education claims under the Post-9/11 GI Bill.

    A. Please provide a detailed description of the major milestones 
expected for this initiative during fiscal years 2010 and 2011.
    Response:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    B. In total, how much is expected to be expended on developing and 
implementing the long-term solution for the Post-9/11 GI Bill?
    Response:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    C. What is the expected output per direct education FTE before the 
long-term solution for the Post-9/11 GI Bill is in place and after it 
is in place?
    Response. Production per direct FTE includes Education staff 
engaged in all activities, not only those engaged in processing claims. 
For FY 2010, estimated production is approximately 1,100 completed 
claims per FTE. This annual rate of productivity will continue until 
the long-term solution is deployed in December 2010. Estimated annual 
productivity per FTE is expected to rise to an overall production per 
FTE in FY 2011 of approximately 1,500 claims per FTE.
    general medical care/medical construction/information technology
    Question 1. VA's FY 2011 appropriation for VA medical care was 
provided in advance. It was based on estimates provided to Congress in 
June 2009 that included very little detail on the programs and 
initiatives which justified the advance appropriation. For FY 2011, the 
budget simply reflects the appropriation Congress provided but, in 
contrast to the June 2009 justification, it includes detailed spending 
plans for that money, to include new spending, i.e., spending above 
baseline projections, on homeless veteran programs, rural health 
initiatives, and programs that require legislative enactment (such as 
health care for family caregivers).

    A. Because the request for FY 2011 is the same as what was provided 
in advance appropriation, is it safe to assume that the detail about 
how that money was to be spent was also known last year, but was simply 
not transmitted to the Congress? If so, why not?
    Response. The FY 2011 estimates provided to Congress in June 2009 
only included the top-line estimates for each of the three medical 
appropriations and did not include any additional detail at that time. 
The FY 2011 President's Budget request includes the additional details 
for both the FY 2011 budget and the FY 2012 advance appropriations 
request.

    B. Is the advance request for FY 2012 simply a baseline estimate 
based on projected user demand, or are there specific policy 
initiatives contemplated that go above what baseline demand is? If so, 
what are those initiatives?
    Response. The FY 2012 advanced appropriations request is based 
largely on our actuarial estimates using FY 2008 data as the base year. 
The request does not include additional resources for any new 
initiatives that would begin in FY 2012.

    Question 2. One of the challenges of advance funding is getting the 
number ``right'' using data that are relatively old by the time the 
fiscal year being funded begins. Again, your estimate for VA medical 
care in FY 2011 has not changed from what was provided to the Congress 
in June 2009.

    A. Please outline any differences in projections from using the 
Enrollee Health Care Projection model in June 2009 versus projections 
from the model for the 2011 budget submission.
    Response. There are no differences in the model projections in June 
2009 and the budget submission in February 2010. Both estimates are 
based on the same actuarial estimates using FY 2008 data as the base 
year. The actuarial model is updated in the Spring of each year.

    B. Please outline differences, if any, in any non-model 
projections.
    Response. The differences in the non-model projections for Long-
Term care ($5 million), Civilian Health and Medical Program of the VA 
(CHAMPVA) ($77 million), and Readjustment Counseling ($-23 million) 
were revised based on the best information available at the time of the 
submission which included FY 2009 actuals.

    Question 3. VA's budget assumes that no money for medical care will 
be carried over from fiscal year 2010 to fiscal year 2011.

    A. Is that correct?
    Response. Yes, that is correct.

    B. Is that a rational assumption given VA's past experience?
    Response. Yes, VA's budget assumes that no medical care funds will 
be carried over from fiscal year (FY) 2010 to FY 2011. This is because 
the budget request for FY 2011 represents VA's estimate of the 
resources needed to meet the actuarially projected demands of health 
care services for Veterans in that year. Even though VA may carry over 
some funds from FY 2010 to FY 2011, those funds are related to the 
projected demands for health care services related to FY 2010, not FY 
2011. It would not be appropriate to reduce the FY 2011 request by any 
funds carried over from FY 2010 unless we also increased the FY 2011 
request for funds anticipated to be carried over to FY 2012; otherwise, 
the resources in FY 2011 would not be sufficient to meet the projected 
demand for health care services.

    Question 4. VA's fiscal year 2010 budget request assumed a 6% 
increase in the number of unique veteran users, and Congress provided 
funding for fiscal year 2010 based on that assumption. However, based 
on the actual number of users so far, VA now projects that the increase 
in users will be just over 3%.

    A. If Congress provided VA funding based on an assumed 6% increase 
in the number of unique veteran users, but the increase is only 3%, how 
does VA account for the excess funding in the budget?
    Response. The FY 2010 submission estimated a 6% increase in unique 
patients from FY 2008 (5,576,689) to FY 2009 (5,929,059). The FY 2009 
actual (5,744,693) represents a 3% increase over the FY 2008 actual 
(5,576,689). Nearly $1.9 billion in unobligated funds was carried over 
into FY 2010 of which almost $739 million were from the American 
Recovery and Reinvestment Act of 2009.

    B. The FY 2010 budget assumed no carryover of funds but, as you 
know, there was considerable carryover from fiscal year 2009 into 2010. 
Does the combination of unbudgeted carryover and a downward reestimate 
of the number of users suggest that VA has a surplus of appropriation? 
If so, how was the surplus considered in this budget?
    Response. Over half of the carryover funds were attributable to 
funds provided by the American Recovery and Reinvestment Act of 2009 or 
for the Congressionally-directed rural health initiative. Both were 
appropriated as two-year funds with the expectation that some of these 
funds would be carried over to FY 2010. The remaining amount of 
carryover funds are typically for certain planned expenditures are not 
fully obligated due to unanticipated delays in acquisition, personnel 
recruiting, or other reasons. This does not mean that the funds are 
available for new requirements in the subsequent fiscal year, because 
they have already been committed to existing requirements that could 
not be obligated at the end of the current year but will be obligated 
early in the next fiscal year and were not included in the formulation 
of the budget request for that subsequent year.

    Question 5. VA has revised the estimate on the number of Priority 
1-6 veterans in fiscal year 2010 so that growth in this population of 
users is just over .5% from 2009 to 2010. However, VA estimates growth 
in this population of 2.4% in 2011 and 2.1% in 2012. To what does VA 
attribute the increase in Priority 1-6 users in 2011 and 2012 given 
that the increase in 2010 was minimal?
    Response. The 2011/2012 patient projections in the 2011 Budget were 
developed from the base year (BY) 2008 Model, which was based on the 
2008 actual patients. Actual patients in Priorities 1-6 in 2009 were 
slightly higher than the BY 2008 Model had projected for 2009. This 
reflects a significant shift in the actual distribution of enrollees 
between Priority Groups 1-6 and 7 and 8, which occurred in FY 2009. One 
possible explanation for the shift was a spike in the number of current 
enrollees who were re-assessed at a higher service-connected status.

    Question 6. For fiscal year 2010, VA estimates approximately $145 
million more in collections than the original budget estimate. What is 
VA's plan for this money?
    Response. The $145 million increase in collections is the result of 
a 9% increase in the 3rd party insurance collections. These collections 
will be used at the medical centers that generate the collections as 
part of their operating budget.

    Question 7. VA has yet to provide views to comprehensive 
legislation on homelessness (S. 1547) the Committee received testimony 
on in October 2009. Notwithstanding the absence of views, the Committee 
favorably reported many provisions of that bill as part of S. 1237. The 
President's budget has since proposed significant investments in 
homeless programs for FY 2011.

    A. Does VA support the provisions of S. 1547?
    Response. The Administration will provide an official position on 
S. 1547 shortly.

    B. Are the legislative provisions of S. 1547 necessary to effect 
the spending proposed in the President's budget request? If so, which 
provisions?
    Response. At this time the Administration cannot comment of the 
provisions of S. 1547.

    C. Do any of the legislative requests proposed in the budget seek 
increases in any of the chapter 20, title 38, authorized levels for 
homeless veteran programs?
    Response. There are no legislative requests in the budget that 
address chapter 20, title 38.

    Question 8. VA has a legislative proposal that seeks to impose a 
requirement on 3rd party insurance companies, such as health 
maintenance organizations, to reimburse VA for the cost of non-service-
connected care provided to veterans. What analysis was done on the 
effect this policy might have on premiums veterans pay for insurance?
    Response. In forecasting the effects this proposal may have on 
premiums Veterans pay for insurance, VA analyzed data from both the 
Centers for Medicaid and Medicare (CMS) and Milliman USA and concluded 
that this policy change will not have a significant impact on premiums 
Veterans pay for insurance. VA is a relatively small part of the 
overall number of claims that insurance companies pay each year and the 
expected revenues from this proposal should not present a significant 
change for the insurance industry. Similar concerns regarding the 
potential impact of VA's revenue program on insurance premiums were 
raised when VA first initiated its medical care collections fund (MCCF) 
program in 1986. However, even as VA revenues have increased over the 
years, there has been no indication that these concerns have become 
issues for insured Veterans receiving health care from VA and is not 
correlated with changes in health insurance premiums based on data 
provided by CMS. Additionally, a study conducted by Milliman shows that 
since at least 1965 health insurance premium increases exhibit a 
pattern of ``several years of gains followed by several years of 
losses--a phenomenon often referred to as the underwriting cycle of 
insurance.'' A major factor contributing to this cycle is competition 
among insurers to gain market share. In periods of underwriting gains, 
some insurers may seek to build market share by reducing premiums. 
Other insurers will follow suit to protect their market share. As 
premiums fall relative to health care costs, many insurers may 
experience underwriting losses. Premiums will continue to decline 
relative to medical benefits until a lead insurer with market power 
raises premiums to restore at least ``break even'' revenues. Finally, 
38 U.S.C. Sec. 1729 requires insurance companies to provide evidence 
that they are paying the VA the same as non-governmental providers for 
the same service in the same geographic area. Actual amounts collected 
may be less than projected if legislative authority does not clearly 
state third party payers, including Health Maintenance Organizations, 
have an obligation to pay VA for all non-service-connected care.

    Question 9. In fiscal year 2003, VA spent $334 million on its HIV/
AIDS program. In fiscal year 2011, the budget projects spending of over 
$900 million.

    A. What accounts for the near tripling of program spending in such 
a short time period?
    Response. The estimated cost for patients identified with HIV 
infection is based on the most recent four years of actual data with FY 
2009 being the most recent year. Based on this data, the number of 
patients and the cost of care are projected for each separate 
enrollment priority group to produce the estimates in the budget. VA 
also changed policy to enhance HIV testing availability.

    B. Please provide a breakdown of the number of patients treated 
during this period, the cost of medicines, and any other costs which 
explain this increase.
    Response. The requested data will take longer to produce and will 
be provided when available.

    Question 10. The ``Energy/Green Management'' Program is slated to 
increase funding from $53 million in fiscal year 2010 to $252 million 
in fiscal year 2011.

    A. Please detail the justification for such a large increase.
    Response. Including NRM projects that incorporated energy 
efficiency, the FY 2010 amount for Energy/Green Management is $132M. 
The Energy/Green Management program also received $204M under the 
American Recovery & Reinvestment Act. The FY 2011 level is $252 
million, a change of $120 million, including approximately $93M that 
are NRM projects that incorporate energy efficiency. As VA's physical 
infrastructure is over 60 years old and needs repair, so does VA's 
energy infrastructure.
    Together, with all Federal agencies, VA must comply with the Energy 
Policy Act of 2005 (EPAct 2005); Executive Order 13423: Strengthening 
Federal Environmental, Energy, and Transportation Management; Energy 
Independence and Security Act of 2007 (EISA 2007); and most recently 
the requirements of Executive Order 13514: Federal Leadership in 
Environmental, Energy, and Economic Performance. VA will implement 
energy efficiency and renewable energy projects to meet the 
requirements of energy efficiency, renewable energy, sustainable 
building mandates, and Greenhouse Gas emissions reduction goals in a 
timely manner.

    B. Is it imperative that all of this spending occur immediately or, 
in light of a tough fiscal climate, is there an alternative plan to 
phase in this initiative?
    Response. Early investment in these programs will likely reduce 
out-year energy costs. The proposed funding is needed to make 
sufficient progress in meeting existing laws and executive order 
requirements, mandates, and goals referenced above. Volume 4 of the FY 
2011 budget submission, Chapter 7.2: Management Initiatives, details 
the many efforts under way in the Energy/Green Management Program to 
increase renewable energy and energy efficiency. The Energy/Green 
Management Program will enable VA to reduce energy consumption and 
lower energy costs, which totaled $517 million in 2009. Each year, VA 
procures energy related projects to meet energy related Federal 
mandates as identified in Table 1-6: Real Property Performance Results 
in Volume 4 of the FY 2011 budget submission, Chapter 7.1: VA's Capital 
Asset Management Program.

    Question 11. For fiscal year 2010 it appears there was a dramatic 
overestimation of the ``Home & Community Based Care'' Average Daily 
Census (ADC). What was an estimated ADC of 90,654 is now projected to 
be 38,240.

    A. Why did VA expect such a large ADC increase from fiscal year 
2009 to 2010?
    Response. The increase from FY 2009 to FY 2010 was driven by 
anticipated double digit growth in State Home and Contract Adult Day 
Health Care, Home-Based Primary Care, Other Home Based Programs, 
Homemaker/Home Health Aide Programs, and Care Coordination/Home Tele-
health and is the result of emphasis being placed on Non-Institutional 
Long-Term Care. Individuals needing long-term care, including Veterans, 
have clearly indicated their desire to receive these services at home 
or in their community, rather than in a nursing home. Therefore, 
expansion of Home and Community Based Care services will assist in 
reducing VA's reliance and demand for nursing home care.

    B. Why did that estimate appear to be so far off the mark?
    Response. The estimate is not off of the mark. The FY 2010 Average 
Daily Census estimate for Non-Institutional Long-Term Care in the FY 
2010 submission was 90,654 and 93,935 in the FY 2011 submission, an 
increase of 3.6% from the earlier estimate (reference Volume 2, Medical 
Programs and Information Technology Programs, page 1K-15).

    C. What funding was attached to this overestimation?
    Response. There was no overestimation.

    D. How do you account for the excess funding in the budget?
    Response. There was no excess funding in the budget.

    Question 12. As mentioned, VA forecast 6% growth in the number of 
unique veteran users of the health care system in FY 2010, but VA has 
revised it downward to approximately 3% growth. However, despite the 
downward reestimate in users, it appears VA has revised upward its 
estimate in the number of outpatient visits and patients treated in 
inpatient facilities.

    A. How does VA explain the number of unique users growing at a rate 
slower than expected, but the number of outpatient and hospital visits 
increasing above the number that was projected (a projection that was 
based on 6% growth in unique veteran users, not 3%)?
    Response. The FY 2010 submission estimated a 6% increase in unique 
patients from FY 2008 (5,576,689) to FY 2009 (5,929,059). The FY 2009 
actual (5,744,693) represents a 3% increase over the FY 2008 actual 
(5,576,689). Outpatient visits increased by 10% from FY 2008 to FY 2009 
(67.640 million to 74.662 million). The Outpatient visits estimate 
increases of 5% from FY 2009 to FY 2010 and FY 2010 to FY 2011 are 
based on historical trends. Patients treated increased by 4% from FY 
2008 to FY 2009 (804,859 to 877,093). The Patients treated estimates 
increases of 3% from FY 2009 to FY 2010 and FY 2010 to FY 2011 are also 
based on historical trends.

    B. If the answer is that unique users are making more frequent 
visits, what does VA attribute that to?
    Response. The ratio of outpatient visits to unique patients was 12 
visits per unique patient in FY 2008 and 13 visits per unique patient 
in FY 2009. The ratio of outpatient visits to unique patients remains 
steady at 13 visits per unique patient in FY 2010 and FY 2011.

    Question 13. For the FY 2012 advance funding request it appears 
that VA projects similar increases in the number of unique users, 
outpatient visits, and patients treated in inpatient facilities, that 
it projects for FY 2011. Please explain what factors influenced this 
projection.
    Response. Factors influencing workload projections are net 
enrollment growth, demographic mix changes, utilization and intensity 
trends.

    Question 14. Why is the Average Daily Census for the FY 2012 
Advance Appropriation set at ``0'' for Home and Community Based Care?
    Response. The Average Daily Census for Non-Institutional Long-Term 
Care in FY 2012 was not ``0'' but 116,198 (reference Volume 2, Medical 
Programs and Information Technology Programs, page 1K-15).

    Question 15. The ADC for State Home Domiciliary Care was expected 
to increase substantially from FY 2009 to FY 2010, yet has been revised 
downward to remain flat through FY 2012. Please explain what happened 
here.
    Response. VA adopted an improved method and data source for 
counting State Home Domiciliary workload. The revised estimate is based 
on past census trends, existing census levels and estimates for future 
changes.

    Question 16. Please explain the expected 74% increase in ``State 
Nursing Home'' obligations from FY 2009 to FY 2012.
    Response. The 74% increase is based on a 4% increase in Average 
Daily Census and reflects a per diem increase of 21% from FY 2008 to FY 
2009 which is accounted for in subsequent years. The substantial 
increase in the State Nursing Home per diem is largely due to higher 
per diem payments made to State Homes for P1A Veterans. Since the 
Federal law came into effect mid-fiscal year 2009 (April 29, 2009), VA 
estimates that approximately 50% of the State Homes have begun to 
request higher per diem payments for P1A Veterans. These payments are 
not a separate line item in the budget and are rolled into the overall 
State Home Nursing obligations. Prior to FY 2009, the State Home 
expenditures and per diem only reflected the lower per diem rate paid 
to State Homes. Beginning in FY 2009 and onward, the State Home 
expenditures and per diem will capture both the lower per diem for non-
P1A Veterans and the higher per diem for P1A Veterans.

    Question 17. The budget proposes a 9% increase for VA mental health 
programs, including $309 million for Post Traumatic Stress Disorder 
(PTSD) treatment for Operation Enduring Freedom/Operation Iraqi Freedom 
(OEF/OIF) veterans.

    A. Are the investments made in this area working to improve the 
mental health of veterans? What metrics does VA use to measure these 
improvements?
    Response. Enhanced mental health funding is focused on programmatic 
improvements and staffing enhancements designed to improve services to 
Veterans. We have not created metrics to specifically measure the 
impact of enhanced funding, since it becomes a part of overall mental 
health services, not something specific and separate. Rather, our 
metrics primarily measure overall mental health care, not 
subcomponents. For example, the metric to assess timeliness of 
appointments was affected by enhanced mental health staffing, but in 
the context of staffing that was already addressing mental health care. 
That metric demonstrates that over 96 percent of all new mental health 
referrals are sent for a full diagnostic evaluation and, when 
indicated, initiation of treatment within 15 days of the referral being 
made. Certainly mental health enhanced funding has contributed to the 
level of staffing that allows us to set and meet this metric, which 
goes well beyond community standards in other health care settings. 
However, the impact of enhanced staffing as compared to the continued 
staffing of overall mental health providers cannot be disentangled to 
demonstrate the specific impact of increased mental health funding.
    Two examples of funded service enhancements are the dissemination 
of evidence based psychotherapies for PTSD and other mental disorders, 
and the establishment of the Suicide Prevention Hotline. Details on 
each of those follow.
    One major investment being made is the national dissemination and 
implementation of evidence-based psychotherapies for PTSD, depression, 
and serious mental illness in VHA. As part of this effort, VA has 
developed centralized, competency-based training programs for VA mental 
health staff in Cognitive Processing Therapy (CPT) and Prolonged 
Exposure Therapy (PE) for PTSD, Cognitive Behavioral Therapy and 
Acceptance and Commitment Therapy for depression and Social Skills 
Training for serious mental illness.
    Significantly, CPT and PE for PTSD are recommended in the VA/
Department of Defense (DOD) Clinical Practice Guidelines for PTSD at 
the highest level, indicating ``a strong recommendation that the 
intervention is always indicated and acceptable.'' Moreover, in 2007, 
the Institute of Medicine (IOM) conducted a review of the literature on 
psychological and pharmacological treatments for PTSD and concluded 
that CPT and PE were efficacious treatments for PTSD, thereby 
validating VA's dissemination of these treatments, which had already 
begun as part of an effort to bring these treatments to Veterans who 
can benefit from them as soon as possible. As of April 30, 2010, VA has 
trained more than 2,700 mental health staff in the delivery of CPT or 
PE. This has greatly increased VA's capacity to offer these efficacious 
treatments to returning Veterans.
    A part of initial monitoring efforts conducted by the Office of 
Mental Health Services (OMHS) regarding these efforts were process 
metrics: a survey was sent in February 2009, to all VA medical centers 
to assess the extent to which CPT and PE were available at and being 
provided by medical centers to OEF/OIF Veterans with PTSD. The results 
of the survey revealed that 94 percent of facilities were providing CPT 
or PE, and 72 percent were providing both therapies. This level of 
availability is considerably higher than that documented within VHA 
prior to VHA's Evidence-Based Practice (EBP) dissemination efforts 
(Rosen et al., 2004). Furthermore, standardized medical record template 
progress notes have been developed for documenting the delivery and 
impact of the treatments and are currently being piloted, with national 
deployment planned for this summer.
    In addition, in FY 2010, VHA began routinely administering the PTSD 
Checklist (PCL), a well-validated PTSD assessment and outcomes measure 
as a clinical outcome measure including both impact of treatment; in 
particular evidence based psychotherapies on symptoms and also on 
patient function. Returning OEF/OIF Veterans will be administered this 
assessment tool at the beginning of their treatment for PTSD, and will 
have it re-administered periodically while they remain in active 
treatment. The change in the severity of the assessed symptoms will be 
used to determine if the Veteran is benefiting from the current 
treatment, or if the current treatment plan needs to be changed.
    The VA Suicide Prevention Hotline, an initiative developed in 
conjunction with the Department of Health and Human Services (HHS), is 
designed to reinforce increased suicide prevention staffing in VA 
medical centers and improve care for Veterans at risk for suicide. A 
key metric for this initiative is number of calls to the Hotline which, 
as of March 31, 2010, was over 250,000 calls since its inception almost 
3 years ago. The professional staff at the Hotline also has provided 
thousands of referrals back to facility Suicide Prevention Coordinators 
for on-going care. Most important are over 4,000 rescues of imminently 
suicidal Veterans based on Hotline contacts. In July 2009, a Suicide 
prevention online Chat Service was established, through which Veterans 
can send text messages to Hotline professional staff, rather than 
placing a call. This Chat Service has had over 4,000 chatters and over 
400 transfers to the Hotline.

    B. For the service-connected population, is VA seeing a 
stabilization, or even a reduction, in disability levels for PTSD?
    Response. Between fiscal years 2005 and 2008, the number of 
Veterans receiving compensation for PTSD increased by more than 40 
percent. A special data run is required to identify changes in average 
degree of disability for PTSD. Information will be provided as soon as 
it is available.

    C. For service-connected veterans, does VA track whether 
investments made to treat any health condition, e.g., diabetes, are 
improving their health?
    Response. Yes. VA tracks health care and health status broadly and 
has a number of systems that track performance measures/results 
relative to different diseases and procedures. We track over time the 
Healthcare Effectiveness Data and Information Set (HEDIS) measures 
related to diabetes and can demonstrate improvement.

    Question 18. In the medical services appropriation (Volume 2, Page 
1C-20), please explain the justification for ``Employee Travel and 
Transportation of Persons'' increasing by 43% from FY 2009 to FY 2010, 
and the proposed increase of 43% for FY 2011, and another 43% increase 
for FY 2012. What justification is there for this type of spending to 
triple in a 3-year period?
    Response. The increase in travel referenced above includes all 
patient and employee travel. From FY 2008 to FY 2009 overall travel 
increased by 60% and was driven in most part by a 69% increase in 
beneficiary travel (patient travel). This reflected the increase in the 
beneficiary travel mileage reimbursement rate from 28.5 cents to 41.5 
cents per mile, a 46% increase. The subsequent increase in FY 2010 
through FY 2012 takes into consideration the increase in beneficiary 
travel mileage reimbursement rate from 28.5 cents to 41.5 cents per 
mile and anticipated usage by Veterans.

    Question 19. In the medical services appropriation (Volume 2, Page 
1C-20), please explain the justification for Communications increasing 
by 12% from FY 2009 to FY 2010, and the proposed increase of 12% for FY 
2011, and another 12% increase for FY 2012.
    Response. The 12% increase is based on historical trends from FY 
2005 through FY 2009 (a 4-year average from FY 2005 to FY 2009). The 
percent change from FY 2005 to FY 2006 was 25%, since that time the 
percent has decreased and remained relatively steady at 12%.

    Question 20. I am going to highlight obligations found on Volume 2, 
Page 1C-20, and would like VA's comments on each. I then would like an 
explanation as to why the proposed increases in these areas have 
identical percentage increases for each fiscal year.

    A. Please explain why ``Outpatient dental fees'' is expected to 
increase 30% from FY 2009 to FY 2010; 30% from FY 2010 to FY 2011; and 
30% from FY 2011 to FY 2012.

    B. Please explain why ``Medical and Nursing Fees'' is expected to 
increase 22% from FY 2009 to FY 2010; 22% from FY 2010 to FY 2011; and 
22% from FY 2011 to FY 2012.

    C. Please explain why ``Repairs to furniture/equipment'' is 
expected to increase by 22% from FY 2009 to FY 2010; 22% from FY 2010 
to FY 2011; and 22% from FY 2011 to FY 2012.

    D. Please explain why ``Contract hospital'' is expected to increase 
by 18% from FY 2009 to FY 2010; 18% from FY 2010 to FY 2011; and 18% 
from FY 2011 to FY 2012.

    E. It would appear that the budgeting for these items (and others 
on that page) was not done based on a historical trend but, rather, by 
simply taking the percentage increase projected for the current year 
and applying it to the subsequent two fiscal years. Is that common 
practice?
    Response to A-E: The percentage increase from FY 2009 to FY 2010 of 
30 percent for Outpatient dental fees, 22 percent for Medical and 
Nursing Fees, 22 percent for Repairs to furniture/equipment, and 18 
percent for Contract hospital is based on a review of the actual 
historical spending trends from FY 2005 to FY 2009 for each of these 
separate items to develop the estimated percentage increase from FY 
2009 to FY 2010. We then use that same estimated rate of increase for 
FY 2011 and FY 2012 because there is no more current actual information 
available to suggest, or inform, a different estimate. These annual 
estimated rates of increase will be updated annually in each budget 
submission based on the most recent actual historical experience 
available at that time.

    Question 21. In Volume 2, Page 1D-4, the budget shows two tables 
associated with obligations for Medical Support and Compliance.

    A. Please explain why the first table shows an obligation increase 
of 28%, over $600 million, for ``Outpatient Care,'' but the table below 
shows an FTE decrease for ``Outpatient Care.''
    Response. The increase of $600 million from the FY 2009 actual 
($2,257,790,000) to FY 2010 estimate ($2,884,966,000) reflects a 58% 
increase to Other Services, the bulk of which would be provided through 
contract services, not VA FTE.

    B. What is the relationship between those two tables and why does 
it appear as if there is no correlation with respect to Outpatient 
Care?
    Response. The Summary of Obligations by Activity chart depicts by 
activity break the sum of pay and non-pay costs. The Summary of FTE by 
Activity chart shows the FTE associated with each activity. The two 
charts do not depict the individual line items which constitute pay and 
non-pay. These individual line items are shown on the Obligations by 
Object table (reference page 1D-7).

    Question 22. Referencing Volume 2, Page 1D-7, please explain the 
justification within the Medical Support and Compliance account for the 
20% increase in ``Employee Travel'' from FY 2009 to FY 2010; the 20% 
increase proposed for FY 2011; and the 20% increase proposed for FY 
2012.
    Response. The percentage increase from FY 2009 to FY 2010 of 20 
percent for employee travel is based on a review of the actual 
historical spending trends from FY 2005 to FY 2009. We then use that 
same estimated rate of increase for FY 2011 and FY 2012 because there 
is no more current actual information available to suggest, or inform, 
a different estimate. These annual estimated rates of increase will be 
updated annually in each budget submission based on the most recent 
actual historical experience available at that time.

    Question 23. Referencing Volume 2, Page 1D-7, please explain the 
justification within the Medical Support and Compliance account for the 
24% increase in Communications from FY 2009 to FY 2010; the 24% 
increase proposed for FY 2011; and the 24% increase proposed for FY 
2012.
    Response. The percentage increase from FY 2009 to FY 2010 of 24 
percent for communications in the medical support and compliance 
appropriation is based on a review of the actual historical spending 
trends from FY 2005 to FY 2009. We then use that same estimated rate of 
increase for FY 2011 and FY 2012 because there is no more current 
actual information available to suggest, or inform, a different 
estimate. These annual estimated rates of increase will be updated 
annually in each budget submission based on the most recent actual 
historical experience available at that time.

    Question 24. After expenditure of the remaining American Recovery 
and Reinvestment Act appropriation for non-recurring maintenance (NRM) 
projects, and assuming enactment of the requested funding level for FY 
2011, what is the remaining backlog of NRM projects (in number and 
dollar amount)?
    Response. On a rotating basis over a three year period, VA performs 
a Facility Condition Assessment (FCA) of all its facilities. Based on 
these assessments, VA estimates the ``backlog'' cost of addressing all 
the deficiencies rated as ``D'' (Poor Condition) and ``F'' (Critical 
Condition). This FCA backlog is the best measure we have available of 
future requirements for maintenance and restoration of VA facilities as 
it covers items in need of maintenance or items that have reached the 
end of useful life and require modernization or restoration. These 
restorations and maintenance items are primarily funded using the Non-
Recurring Maintenance program, but also can be addressed through the 
major and minor construction programs. As of February 2010, VA had a 
total of 34,313 deficiencies graded with a ``D,'' costing $8.1 billion, 
and a total of 3,432 deficiencies graded with an ``F,'' costing $1.4 
billion, for a total remaining backlog cost of $9.5 billion.

    Question 25. At a June 10, 2009, Committee hearing a VA witness 
testified that ``within the next few months we anticipate to award at 
least 40% of the stimulus funding.'' However, I see that roughly $738 
million of the $1 billion allocated for emergency stimulus was carried 
over into FY 2010.

    A. As of today, how much of the $1 billion has been obligated?
    Response. As of January 31, 2010 over $432 million or 43% of the $1 
billion appropriated for this purpose has been obligated. Veterans 
Health Administration American Recovery and Reinvestment Act State 
Construction Grant obligations as of January 31, 2010 were over $140 
million or 94% of the $150 million appropriated for this purpose.

    B. What is the schedule for the remainder?
    Response. The remainder is scheduled to be obligated by the end of 
FY 2010.

    Question 26. For the medical facilities appropriation (Volume 2, 
Page 1E-9), please explain why ``employee travel'' is proposed to 
increase by 28% from FY 2009 to FY 2010, by 28% in FY 2011, and by 
another 28% in FY 2012.
    Response. The percentage increase from FY 2009 to FY 2010 of 28 
percent for employee travel is based on a review of the actual 
historical spending trends from FY 2005 to FY 2009. We then use that 
same estimated rate of increase for FY 2011 and FY 2012 because there 
is no more current actual information available to suggest, or inform, 
a different estimate. These annual estimated rates of increase will be 
updated annually in each budget submission based on the most recent 
actual historical experience available at that time.

    Question 27. For medical facilities, please explain why 
Communications is proposed to increase by 50% from FY 2009 to FY 2010; 
by another 50% in FY 2011, and by yet another 50% in FY 2012.
    Response. The percentage increase from FY 2009 to FY 2010 of 50 
percent for communications in the medical facilities appropriation is 
based on a review of the actual historical spending trends from FY 2005 
to FY 2009. We then use that same estimated rate of increase for FY 
2011 and FY 2012 because there is no more current actual information 
available to suggest, or inform, a different estimate. These annual 
estimated rates of increase will be updated annually in each budget 
submission based on the most recent actual historical experience 
available at that time.

    Question 28. In Volume 2, beginning on Page 4A-7, there are 20 
``Transformation into the 21st Century'' initiatives proposed for FY 
2010 and FY 2011. For FY 2010, the $354 million proposed for these 
initiatives was carried over from FY 2009.

    A. Were any of these initiatives ever officially requested? If so, 
when and to whom?
    Response. The FY 2011 Congressional Budget Justification (CBJ) 
served as the initial notification to Congress of some new information 
technology initiatives related to transforming the VA into a 21st 
century organization. The 2011 CBJ provides estimates for both FY 2010 
and FY 2011. Consistent with the FY 2010 Consolidated Appropriations 
Act, VA submitted to the Committees on Appropriations, on February 22, 
2010, its FY 2010 Baseline Reprogramming notification. This 
notification details, by budget and program line, the application of 
funding sources to these initiatives.

    B. If they were not requested, and in light of the current fiscal 
climate, why does it make sense to simply find a use for unobligated 
money that was carried over into the current fiscal year? Shouldn't 
that money have been returned to the Treasury or, at least, requested 
for the specific use VA now assumes it will be used for?
    Response. Notification to Congress of changes in FY 2010 
information technology projects and costs was accomplished through the 
FY 2011 budget justification and submission of the baseline 
reprogramming notification to Congress. As noted in the 2011 
Congressional Budget Justification, President Obama charged Secretary 
Shinseki with transforming VA into a high-performing 21st century 
organization. The VA will release information on the VA's Strategic 
Plan for achieving this goal by improving access, increasing quality, 
lowering or controlling costs, and enhancing performance of the VA very 
soon. These goals are being addressed now through immediate investments 
in an ongoing transformation of the VA, and the Department's 
information technology budget reflects those emerging priorities.
    The VA FY 2010 budget provides a significant increase in resources 
for information technology projects and is a down payment for 
transforming VA into a 21st Century organization. Our largest 
transformation investments are in direct services to Veterans. These 
initiatives will help to transform the VA in order to better serve our 
Nation's Veterans.
    What follows is a description of some of the VA's transformation 
initiatives that begin in FY 2010 and for which funding continues in FY 
2011:

    <bullet> Quality initiatives are underway with a focus on such 
goals as providing better preventative care, rolling out a new Veteran-
Centric Care Model, and dramatically increasing VA services for women 
Veterans.
    <bullet> Access is being increased through opening the VA to 
Priority 8 Veterans, as well as newer initiatives that include expanded 
tele-health and home care and a plan to end homelessness among 
Veterans.
    <bullet> Performance will improve. Veterans can expect to see their 
VA perform better when we implement a truly interoperable electronic 
records system that will provide each member of our Armed Forces a 
Virtual Lifetime Electronic Record (VLER) that will serve them from the 
day they put on the uniform through their time as Veterans, enabling 
better continuity of care and healthier outcomes. We are also working 
with the President's top technology and performance professionals in 
developing a records system that will revolutionize our claims process 
and eventually connect Veterans to their complete account with us, 
covering health care, education, insurance, home loans, counseling, 
employment, and cemetery services.
    <bullet> Cost remains a critical component in a transformed VA so 
that we can direct more of our resources to better healthcare and 
benefits for Veterans. Transformation of the VA is incomplete if we do 
not take a hard look at how we steward taxpayers dollars for the 
greatest outcomes by controlling costs. VA will initiate new 
initiatives in 2010 that address VA's massive energy costs by shifting 
to renewable energy sources and implementing energy efficiency 
measures, as well as enhanced management controls that protect privacy 
and reduce the costs of operating the VA in the 21st century.

    C. The description of each of these initiatives is sparse. For 
example, $65 million is proposed for the ``Veteran Relationship 
Management Program'' in fiscal year 2010, but only one sentence is used 
to describe the initiative. Please provide greater detail on exactly 
what these initiatives are, how exactly the money will be spent, and 
what deliverables VA has for each of them.
    Response. Details of IT support to Transformation Initiatives 
follow:
                   corporate analysis and evaluation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: This initiative will provide objective, data-driven, 
transparent analysis to facilitate strategic investment decisions by 
senior leadership. Successful implementation will incorporate VA 
programs into a multi-year program where outcome based analysis and 
resource recommendations can be provided to VA leaders.
    In late February 2009, the Office of Policy and Planning was 
assigned responsibility for establishing a Program Analysis and 
Evaluation (PA&E) capability within the Department of Veterans Affairs. 
This capability would be similar to the Department of Defense PA&E that 
has been in place for decades. As part of the analysis process, 
interviews were conducted with senior subject matter experts and 
leaders representing the largest and most complex Federal departments. 
Additionally, a cross-functional team was established which produced an 
inventory of current VA analysis and evaluation capabilities as well as 
corporate PA&E capability development recommendations.
    The Office of Corporate Analysis and Evaluation (CA&E) is an 
independent body dedicated to aligning VA resource allocations with 
investments that best serve our Veterans, their families, dependents 
and survivors. CA&E informs capital investment decisionmaking 
activities and enables development of resourcing options and 
priorities. Specific missions include:

    <bullet> Multi Year Programming
    <bullet> Analytic Agenda
    <bullet> Independent Cost Analysis
    <bullet> Long Term Projections

    CA&E provides the objective, data-driven, transparent analysis to 
facilitate strategic investment decisions by VA Secretary and Deputy 
Secretary.
    Benefit to the VA Organization: Successful implementation of the 
Office of Corporate Analysis and Evaluation (CA&E) will result in the 
near-term ability to effectively analyze programs and allow VA leaders 
to consider investment options and prioritize resources to deliver 
results consistent with the Secretary's Vision for a 21st Century VA. 
CA&E would provide the Secretary and Deputy Secretary the analytical 
basis for deciding among investments not only in ongoing programs but 
also in new initiatives.
    Longer term, a CA&E capability will allow VA leaders to identify 
and address long-term trends in resource requirements and explore 
excursions from a baseline based on changes in assumptions on Veteran 
health and benefits needs as well as changes in the national health 
care environment.
Deliverables:
            Analytic Agenda:
    <bullet> Conformity to fiscal guidance
    <bullet> Executability
    <bullet> Cost/Benefit Analyses
    <bullet> New Starts
    <bullet> Current Programs
    <bullet> Develop alternative programmatic courses of action
    <bullet> Analyze effectiveness of current operations
            Independent Cost Analysis:
    <bullet> Selected Acquisition Programs
                          corporate ses office
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: Information and Technology (IT) infrastructure will 
establish a Corporate Senior Executive Management Office, in support of 
the VA initiative to standardize, streamline and enhance staffing 
actions for Senior Executive Service and Title 38 positions. This 
office will assist the VA with the selection, development, utilization 
and management of our strategic human capital to lead the Department 
and most effectively serve our Nation's Veterans. The establishment of 
this office the Corporate Senior Executive Management Office is 
consistent with the need for centralized management and has been vetted 
through the appropriate governance structures (Senior Review Group, 
Strategic Management Council, and VA Executive Board). A single office 
provides a corporate, standardized approach to the recruitment, 
selection, and management of senior executives and Senior Executive 
Service positions in VA, which will ensure consistency and excellence 
in VA's leadership ranks.
    This initiative will be designed to create a regional IT network to 
allow data sharing and aggregation along a continuum that involves VA, 
DOD and the private sector. It will have a proof of concept to be 
scaled to other regions prior to full development and integration. This 
initiative aligns to VA Strategies to build our internal capacity to 
serve Veterans, their families, our employees, and other stakeholders 
efficiently and effectively and to recruit, hire, train, develop, 
deploy, and retain a diverse VA workforce to meet current and future 
needs and challenges.
         enterprise energy cost reduction efforts (greening va)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: VA's Departmental Green Management Program has a FY 
2009 budget of $ 278.9 M ($73.4 M Program, $205.5 M in ARRA).
    VA purchases large quantities of commodities such as natural gas, 
electricity and water to operate healthcare and other facilities at a 
cost of approximately $550M annually. Individual facilities purchase 
commodities locally without taking advantage of regional and other 
opportunities that could save VA operating dollars annually.
    VA facility and regional energy managers serve as stewards of VA 
facility energy operation, maintenance, and physical enhancement. 
Increased organizational visibility is needed to ensure the greening of 
VA, including green awareness education for all staff.
    An objective of this initiative is to optimize Clean-Energy 
investments in physical and knowledge infrastructure to reduce VA's 
dependence on fossil fuels while supporting the VA mission of serving 
the Nation's Veterans and their families.
    Benefit to the Veteran: As part of the clean-energy transformation, 
the following Veteran benefits are key steps in reducing VA's carbon 
footprint:

    <bullet> Purchase commodities from competitive suppliers where 
possible, creating new opportunities for Veteran-owned and service-
connected disabled Veteran-owned businesses.
    <bullet> Green investments helps to reduce adverse impacts to the 
environment, conserve energy and other natural resources, improve 
public health and safety, and create new markets and jobs.
    <bullet> Construction initiatives support the establishment of 
complex Medical Centers requiring a substantial investment in IT 
Systems and infrastructure in order to provide effective long-term 
healthcare service delivery to Veterans.
    Benefit to the VA Organization: In conjunction with the investments 
in green projects that VA is making through its clean-energy 
transformation, these benefits are key steps in reducing VA's carbon 
footprint:

    <bullet> Reduction in VA's dependency on fossil fuels through 
energy infrastructure improvements and renewable energy projects with 
the same level of investment to continue and enhance the greening of 
VA.
    <bullet> Enhanced training for energy managers in energy efficiency 
and renewable energy technologies and best practices in energy 
management.
    <bullet> Strengthen program Departmental oversight to ensure best 
use of skills and abilities in service to all VA facilities in the 
greening of VA.
    <bullet> Improved Department energy performance as cost-effectively 
as possible.
    <bullet> Establishment of regionally-based boards comprised of 
internal technical experts to advise individual facilities on 
negotiating for the best possible utility rates, terms and conditions.
    <bullet> Make continuing investments in educating energy managers 
and VA staff in Green Management.
    <bullet> Optimize investments in physical and knowledge 
infrastructure to reduce VA's dependence on fossil fuels while 
supporting the VA mission of serving the Nation's Veterans and their 
families.
                  enterprise-wide cost accountability
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: VA must increase the cost-effectiveness of VA programs 
by enabling strategic financial decisionmaking with a robust activity 
based cost accounting system. Key steps will generate and integrate all 
activity based cost accounting information into VA's Decision Support 
System in order to standardize costing, as well as assist in budget 
execution and forecasting within VA.
    This effort will provide resources for both employees and 
contractors to support the consistent implementation of cost accounting 
methodology. Uniform implementation across VA ensures cost accounting 
outcomes are understood by decisionmakers and furnish VA Leadership 
with performance measurement information to make data-driven decisions. 
This cost accounting system will ensure that senior leadership has 
access to accurate cost data for budget formulation, as well as 
providing effective and flexible tools for overall management analyses.
    Benefit to the Veteran: This initiative provides Veterans and their 
families with integrated access to the most appropriate services from 
VA and our partners.
    Benefit to the VA Organization: It will provide resources for both 
employees and contractors to support the consistent implementation of 
cost accounting methodology. Uniform implementation across VA ensures 
cost accounting outcomes are understood by decisionmakers and furnish 
VA Leadership with performance measurement information to make data-
driven decisions. This cost accounting system will ensure that senior 
leadership has access to accurate cost data for budget formulation, as 
well as providing effective and flexible tools for overall management 
analyses.
                      fiscal responsibility review
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: Fiscal Responsibility Review is an initiative to 
realize savings by improving management processes throughout the 
organization. It consists of four parts, Organizational Structure, 
Cost, Transparency and Accountability Review, VA Employee Payments 
Review, Management Process Savings, and VA Innovative Processes Board. 
This multi-faceted initiative has five parts that enable an ongoing 
review and improvement effort of management processes throughout the 
organization including: structure, cost, transparency, and 
accountability reviews; VA employee payments; management process 
savings; and an innovative processes board. This initiative will help 
to realize savings by improving management processes throughout VA. The 
Department will conduct a comprehensive assessment of current practices 
and spending, establish new and consistent management standards, roll 
out improved process management, and provide tracking of progress and 
meaningful cost reductions.
    Objective: Large organizations in the public sector are prone to 
expansion, duplication, and redundancies with few opportunities to 
assess the fit between organizational structure and mission 
effectiveness in the political economy of the Federal Government. 
Fiscal Responsibility Review's primary objective is to improve the 
efficiency and effectiveness of VA operations by employing the optimal 
organization supported by well-functioning components.
    Benefit to the Veteran: The Fiscal Responsibility Review aligns 
with the Secretary's guiding principal of being a forward-looking 
organization. It looks to eliminate waste and inefficiency and seeks 
opportunities to deliver the best services with available resources.
    Benefit to the VA Organization: The Fiscal Responsibility Review 
initiative will reduce organizational redundancies and low visibility 
into costs and will create opportunities to streamline both 
organizational units and processes that produce cost savings or cost 
avoidance. It will also increase accountability across all 
organizational components by evaluating organizational duplications and 
redundancies in functional areas and associated costs of operating.
                     hospital quality transparency
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Hospital Quality Transparency (HQT) initiative is 
designed to allow consumers to make informed choices about obtaining 
health care services by promoting transparency with regard to the 
quality and safety of health care. VA is making a commitment to provide 
Veterans with information about the care they can receive. We will make 
the quality and safety of health care more transparent, allowing 
Veterans to make the best choices for their care. This initiative 
provides Veterans and health care providers with important information 
about VA's health care quality, outcomes, patient safety, and patient 
satisfaction. This will make it easier for Veterans to compare VA 
quality and safety performance with other medical care providers.
    Objective: HQT has three main objectives. The first is to increase 
internal and external communications. The second is to develop metrics 
to allow VA to benchmark against existing external quality and safety 
dashboards or when not available, internal benchmarks. The final 
objective of HQT is to develop an organizational risk management 
structure to manage large scale disclosures.
    Benefit to the Veteran: HQT will address policymakers' desire that 
VA become more transparent about the quality and safety of health care. 
HQT will also provide a better understanding of gaps in the quality and 
safety of health care services provided. This information will allow 
targets for quality improvement activities within facilities, VISNs or 
nationally to be identified.
    Benefit to the VA Organization: With increased transparency 
regarding the quality and safety of health care services, HQT will 
enhance the knowledge base of VA health care providers and create an 
appreciation by the American people and Congress of the scope and 
quality of the health care provided by Veterans Health Administration.
    HQT will also improve relationships with private sector and 
community organizations in order to negotiate an exchange of quality 
and safety data. The infrastructure required to support the increased 
technical support necessary to implement this plan is already in place 
within the Office of Quality and Safety.
                      integrated operation center
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The VA IOC provides a fusion point for Unified 
Command, integrated planning, and predictive analysis to present 
recommendations to VA Senior Leaders and to coordinate with 
stakeholders, Federal, State, and local partners. The VA IOC will 
support VA's strategic goals by ensuring that the Department can 
continue mission essential functions during an all hazard disaster. The 
Department of VA is the second largest Federal Agency with nearly 
300,000 employees. The Department provides emergency support in regards 
to mass care and several emergency functions in support of the National 
Response Frame Work. In addition, as a TIER II agency the Department 
must be ready to respond to All Hazard Events including the Continuity 
of Government. The Department of VA would not be able to perform its' 
Primary Mission Essential functions effectively during a crisis if the 
VA IOC is not successfully established.
    The VA IOC will be the nucleus for information gathering. 
Nontraditional collectors such as public safety entities and private 
sector organizations possess important information (e.g., risk 
assessments and suspicious activity reports) that can be ``fused'' with 
law enforcement data to provide meaningful information and intelligence 
about threats and criminal activity. It is recommended that the fusion 
of public safety and the private sector information with law 
enforcement data be electronic through networking and utilizing a 
search function. Examples of the types of information incorporated into 
these processes are threat assessments and information related to 
public safety, law enforcement, public health, social services, and 
public works. Federal data that contains personally identifiable 
information should not be combined with this data until a threat, 
criminal predicated, or public safety need has been identified. The Ops 
Center normally (routine, non-crisis basis) hosts 8-12 VA staff, mostly 
24x7. During a crisis, there will be a total of 20-30 staff, not 
including additional Principals. VA Office of Information and 
Technology will provide the necessary IT equipment for the operation of 
this command center with desktops, laptops, blackberries, audio visual 
monitors and network support.
                        preventive care program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: To accommodate the expectations of our newest 
generation of Veterans and their families, VA will need to expand 
health promotion and wellness services tailored to their specific 
needs. Such services are primarily delivered through health coaches to 
provide activation, support, and on-going contact, including serving as 
a referral liaison to community health resources that support healthy 
behaviors. Such services are oriented to the person as a whole, rather 
than targeting these changes for management of a specific disease, 
which has been the traditional focus of most lifestyle or self-
management programs. These programs have the opportunity to be aligned 
with the Veteran-centered medical home model. This program will 
establish the infrastructure, policies, and procedures to implement 
comprehensive health promotion and wellness programs within VA.
    MyHealtheVet (MHV) is a nationwide initiative intended to improve 
the overall health of all Veterans. It provides an eHealth portal, a 
secure environment where Veterans can view and manage their Personal 
Health Record (PHR), as well as access their health information, health 
assessments, and electronic services. On-line health resources will 
enable and encourage patient/provider collaboration, as clinicians will 
be able to communicate with Veterans more easily. The on-line 
environment will complement existing VA clinical business practices, 
and transform the way healthcare is delivered and managed.
    Veterans will be able to view key portions of their VA electronic 
health record and store it in a secure, personalized eVault. They will 
be able to delegate viewing and managing all or part of the information 
in their accounts to healthcare providers, both inside and outside VA, 
as well as to family members or others of their choosing. MHV also 
provides a secure eHealth portal where Veterans can view and manage 
their PHRs and access their health information (treatment locations, 
health insurance information, military health history, medications 
(e.g., prescription and over-the-counter), allergies, tests, medical 
events, immunizations, etc.), health assessments, and electronic 
services. MHV provides them the ability to access care that is better 
tailored to their specific individual needs, especially in the area of 
preventive healthcare services. MHV has the potential to dramatically 
improve the quality and outcome of care available to our Nation's 
Veterans through increased access, information, education, co-
management and advocacy.
    Benefit to the Veteran: Veterans will be better served through an 
interactive health risk assessment as a starting point for assessing 
individual patient strength and opportunities with respect to general 
health, comprehensive health promotion and wellness services with the 
structure and support to make healthy lifestyle choices that will 
improve their overall health.
    Benefit to the VA Organization: The goal is to conduct clinical 
demonstration projects at 10-15 sites to establish optimized structure, 
policies, and processes before national dissemination. As the Health 
Promotion and Wellness needs of Veterans continue to expand and be 
standardized, increased access and increasing awareness are criteria 
for success.
                   readjustment counseling for women
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: There are currently over 1.8 million Women Veterans in 
the US, and approximately 270,000 of these used VA healthcare in 2008. 
Women comprise the fastest growing cohort of Veterans utilizing VA 
health care services. Over 400,000 women have been deployed to recent 
conflicts and the overall number of women, as well as their 
proportional representation, is increasing in both the military and 
Veteran populations. The number of women serving in combat zones is 
increasing significantly and there is a greater need for personal, 
confidential services to treat these Veterans. This initiative also 
reviews and modifies, as needed, readjustment counseling for women 
Veterans at Vet Centers to ensure sufficient scope and intensity of 
specialized services that help women experiencing trauma from combat 
situations, reporting military sexual trauma, and contemplating 
suicide.
    Women Veterans entering the VA system are younger and have health 
needs distinct from their male counterparts. Women Veterans have higher 
physical and mental health burdens than their female civilian 
counterparts and health burdens comparable to or worse than that of 
male Veterans. Women have substantial chronic disease and mental health 
burdens with higher rates of mental health diagnoses when compared to 
men.
    This shift in demographics has presented a challenge to VA. The 
provision of routine primary care to Women Veterans is fragmented 
across multiple providers and sites of care, resulting in uncoordinated 
and underutilized VA healthcare services compared to men. The current 
delivery model for Women Veterans is fragmented, requiring multiple 
appointments with different providers to receive basic annual health 
services.
    Transformation of the delivery of women's health care as it 
comprehensively prepares for high quality continuum of care delivery to 
eligible women Veterans will become the delivery model for national 
benchmarking.
    This new definition and redesign of comprehensive women's health 
delivery places a strong emphasis on Comprehensive Primary Care Clinic 
Models: 1) achievement of Comprehensive Primary Care for Women Veterans 
within General Primary Care Clinics, 2) Comprehensive Primary Care for 
Women Veterans in Separate but Shared Space, and 3) Comprehensive 
Primary Care for Women Veterans in a Women's Health Center. The 
redesign is in line with the care platform concept addressed in the 
Universal Services Task Force Report of April 2009, which focuses on 
improved coordination of care for Women Veterans, continuity, and 
patient-centeredness.
    Benefit to the Veteran: High-Quality Continuum of Health Care for 
Women Veterans can be achieved through defined actions which ensure 
that every Woman Veteran has access to a VA primary care provider who 
can meet all of her primary care needs, including gender-specific and 
mental health care, in the context of a continuous patient-clinician 
relationship. Veteran-centered treatment plans and self management, 
create a safe and secure environment that assures privacy and dignity.
    Fully implemented comprehensive primary care for Women Veterans 
will significantly improve as a result of eliminating and reducing 
fragmented primary care, raising the proficiency of providers, 
implementing state-of-the art technology, and creating an 
infrastructure that is constructed and equipped based on specialized 
needs.
    Improvements in gender quality can be achieved by increasing the 
number of women Veteran counselors at RCS/Vet Centers and providing a 
range of emergency, acute, and chronic healthcare services, sun-
specialty care, tele-health/telemental health, and medical and IT 
equipment needed by women.
    Benefit to the VA Organization: Decreased fragmentation of 
comprehensive primary health care for women will lead to increased 
women Veteran satisfaction with clinical care and is critical to build 
a cadre of interested and proficient women's health providers.
            safety and security initiative (piv for hspd 12)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: Homeland Security Presidential Directive-12 (HSPD-12) 
mandated a ``Policy for a Common Identification Standard for Federal 
Employees and Contractors'', secure and reliable identification issued 
by Federal agencies for their employees and contractors. The VA PIV 
program is to establish an enterprise standards-based authentication 
and authorization infrastructure framework to support secure and 
seamless transmission of business transactions and information through 
the use of smart card technology and Public Key Infrastructure (PKI). 
PIV addresses the expanded E-Government PMA through the use of an 
electronic credential (identity) used for identification such as PKI 
for digital signing, E-Authentication, and physical and logical access 
through the use of various factors such as PINS, biometrics, and PKI.
    PIV deployment will complete in July 2010. The expenses outlined in 
this IT Activity Resource Proposal (ITARP) are for operation and 
maintenance (O&M) through 2014 to include contract support for Verizon 
card management (PKI certificates) infrastructure and enhancements, 
software licensing and maintenance for CA tools and card management 
solution (CMS). Technology refresh covers workstations, printer, 
biometric readers, cameras and central server systems (production and 
DR).
    The Safety and Security Initiative supports improvements needed in 
the quality and safety of VA health care by providing more transparency 
in the health care provided to Veterans. By the use of external 
dashboards and new quality metrics, VA will readily identify targets 
for improving quality within facilities, VISNs and nationally. This 
initiative aligns with VA Strategies to improve and integrate services 
across the Department in addition to increasing reliability, speed, and 
accuracy of delivering services. This initiative will provide Veterans 
and their families with integrated access to the most appropriate 
services from VA and our partners. The Safety and Security Initiative 
will provide clear, accurate, consistent, and sensitive messages to 
build awareness of VA's benefits among our employees, Veterans and 
their families, and other stakeholders.
    Benefit to the Veteran: The compliance of agencies with Homeland 
Security Presidential Directive 12 and the FIPS-201 standard ensures 
interoperability across the Federal Government.
    Benefit to the VA Organization: As outlined in M-05-24 memorandum 
from OMB, PIV protects access to information by providing ``Secure and 
reliable forms of identification for purposes of this directive means 
identification that (a) is issued based on sound criteria for verifying 
an individual employee's identity; (b) is strongly resistant to 
identity fraud, tampering, counterfeiting, and terrorist exploitation; 
(c) can be rapidly authenticated electronically; and (d) is issued only 
by providers whose reliability has been established by an official 
accreditation process.''
    Cost avoidance includes the costs of each facility to develop and 
maintain an independent infrastructure for controlling logical and 
physical access. These costs are replaced by the ROI benefits of an 
enterprise standard for credentialing, identification, background 
investigation, and controlling access to both logical and physical 
Federal property.
       sterile processing & distribution (spd) scope action plan
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Sterile Processing and Distribution (SPD) Scope 
Action Plan initiative will ensure that SPD functions consistently meet 
the standards and documentation required for high reliability systems. 
This plan promotes a well-controlled SPD process allowing consistent 
performance--day to day, facility to facility, and employee to 
employee. All biomedical procedures must be performed to exacting 
standards to ensure that sterile processing and distribution of VA 
medical equipment consistently meets the highest standards and most 
thorough documentation. This initiative ensures that such standards are 
met and creates a highly controlled environment with uniform practices 
for reprocessing across our medical facilities.
    Objective: The objective of the SPD Scope Action Plan is to create 
a highly controlled environment with uniform practices for 
reprocessing. Exacting standards to perform all biomedical procedures 
will include: highly controlled workflow processes, meticulous 
documentation including document change control tracking and 
verification, education, training and competency management, quality 
management systems and functional preventive and corrective action 
systems.
    Benefit to the Veteran: Implementation of the Sterile Processing 
and Distribution Scope Action Plan will provide strict adherence to new 
systems and a carefully documented decrease in incidents resulting from 
sub-standard reprocessing. Veterans will directly benefit from highly 
trained and qualified employees performing reprocessing.
    Benefit to the VA Organization: Veterans Affairs will benefit from 
the Sterile Processing and Distribution (SPD) Scope Action Plan 
initiative through the implementation of a VHA system-wide standardized 
software solution that ensures regulatory compliance, quality 
assurance, improvement efficiency/effectiveness, and risk mitigation 
for all SPD processes. SPD ensures good manufacturing processes are in 
place and that they support/sustain an organizational migration toward 
ISO 9001 certification for the SPD enterprise at all facilities.
                strategic human capital investment plan
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Strategic Human Capital Investment Plan (HCIP) 
initiative will cultivate a 21st Century Workforce to serve our 
nations' Veterans by creating and deploying learning systems to support 
employees' development and training and their workforce and succession 
planning. HCIP will provide high-quality service to Veterans by 
recruiting, hiring, developing, and retaining the best employees. VA's 
workforce includes nearly 300,000 employees, volunteers, and 
contractors. Investing in them is to invest in our mission. To serve 
our Veterans, this workforce needs to have the skills and tools 
necessary to meet Veterans' needs today and in the future. This VA-wide 
initiative helps to offer the highest quality in medical care, 
benefits, and memorial services by creating a talent pool of trained, 
certified, and inspired employees to ensure high-level care and 
services. VA will develop training needs assessments, recruitment 
programs, certification programs, leadership assessments, and on-line 
training platforms.
    Objective: The objective of the Human Capital Investment Plan is to 
create the talent pool of trained, certified, and inspired employees 
necessary to ensure the high-level of care and services to Veterans and 
their families.
    Benefit to the Veteran: VA's workforce must have the skills and 
tools necessary to serve those who have served our Nation. The Human 
Capital Investment Plan will increase VA's capacity to better serve 
Veterans and their families by offering the highest quality in medical 
care, benefits, and memorial services.
    Benefit to the VA Organization: The benefits to VA of the Strategic 
Human Capital Investment Plan are numerous and include improved 
internal and external customer satisfaction; increased scores on three 
key indicators (leadership, performance, and tools to do job well) on 
the ``Best Places to Work'' survey; increased employee technical 
proficiency and; increased applicant pool desiring employment in 
mission critical positions.
              transformed construction facility management
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: VA Facility Management Transformation initiative 
involves the establishment of an enterprise method for managing VA 
Facilities. The enterprise system will address life cycle costing; 
recapitalization; sustainment; acquisition of facilities and real 
property and disposal of VA real property. The transformation will 
integrate the minor and major construction programs for each 
administration with the sustainment effort to allow VA to assure 
dollars are allocated strategically to the most critical areas. The 
initiative will also address facility funding required to effectively 
manage life cycle cost.
    The initiative includes a corporate system of policies and 
processes and a decentralized approach to project execution. The 
selection of software tools to facilitate the transformation is a 
critical element.
    The benefit to the VA is effective management of resources. These 
resources are allocated to advance VA's strategic goals and effective 
life cycle management of facilities. The benefit to the Veteran is the 
right facilities in the right locations to deliver the health care 
needed.
    Benefit to the VA Organization: Under this structure, VA will 
integrate facilities management functions to maximize life-cycle 
performance. This will include a corporate system of policies and 
processes and a decentralized approach to project execution. This 
approach will help VA achieve the following:

    1. Effectively Meet Facilities Needs (Current and Future)
        <bullet> Locate facilities to best support service delivery
        <bullet> Provide highly functional facilities
        <bullet> Provide highly adaptable facilities
        <bullet> Support ``new mission'' requirements

    2. Effectively Manage Existing Facility Assets
        <bullet> Right Size facility footprint
        <bullet> Recapitalize overage infrastructure
        <bullet> Eliminate life-safety deficiencies
        <bullet> Sustain existing infrastructure
        <bullet> Programmatic investment to meet requirements

    3. Reduce Cost
        <bullet> Minimize life-cycle cost
        <bullet> Minimize energy consumption
        <bullet> Business case for own vs. lease
            transport for immobilized and remote va patients
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: Those Veterans who are visually impaired, elderly, or 
immobilized due to disease or disability--particularly those living in 
remote and rural areas--may have limited ability to travel to receive 
health care. This initiative will provide transportation to immobilized 
and remote Veterans to facilitate access to health care using a range 
of transportation opportunities including contracts, joint ventures 
and/or partnerships with local communities.
                      va point of service (kiosks)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Kiosks System has automated the patient check-in 
process. The system allows a patient to self-check in for appointments 
by using his or Veteran Identification Card and touch screen input at a 
kiosk. The veteran answers a series of prompts regarding next of kin, 
date of birth, and insurance carrier. If the information is correct, 
the patient merely responds by pressing ``yes'' and a printout with the 
name, location, and time of the patient's clinic appointment for that 
day is printed. This initiative will enable Veterans to take care of 
important administrative activities when visiting a VA facility. To 
achieve this, a system of Self-Service Kiosks will interface with VistA 
and other national VA systems to help manage patient flow, provide 
patient education, and capture vitals and patient administrative 
information. This system will empower Veterans with greater access to 
their information, their medical records, and scheduling data.
    Objective: By using the Kiosks System, VA will implement a 
standard, efficient method for performing streamlined check-in. The 
system will improve accuracy of VA insurance, demographics and patient 
information (medications, allergies). The Kiosks will reduce VA staff's 
efforts performing administrative functions, and reliance on collecting 
patient information. Veterans will have a simpler, faster access to 
their electronic health records and take care of other VA business at 
the same time. VA plans to install simple, user-friendly automated 
kiosks--similar to ATMs--at all VA health-care facilities. This will 
reduce lines--unless you get behind a slow reader--and increase 
privacy.
    Benefit to the Veteran: This investment improves the direct 
delivery of quality health care by providing a secure, reliable mode of 
veteran self service at all medical facilities. A standard product will 
improve the veterans' ability to manage his/her own appointment related 
information including demographic, insurance, appointment specific 
medical questionnaires, and related information. Improved data quality 
will also positively affect the billing and collection figures by 
identifying insurance and patient billing information.
                   va tele-health and home care model
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: VA Tele-health and Home Care Model initiative will use 
technology to remove barriers to Veterans and increase access to and 
use of VA services. This initiative will enable VA to become a national 
leader in transforming primary care services to a medical home model of 
health care delivery that improves patient satisfaction, clinical 
quality, safety and efficiencies. This initiative will help Veterans 
gain better access to and use of VA services by enhancing the ability 
to deliver care in the Veteran's home. The goal of VA's Tele-health and 
Home Care Model is to achieve increased Veteran satisfaction with 
clinical care, reduce the need for hospitalizations by patients with 
chronic disease, and increase Veteran contact with VA through 
electronic measure and other communications tools.
    VA Tele-health and Home Care Model will develop a new generation 
communication tools (i.e. social networking, micro-blogging, text 
messaging, and self management groups) that can be used to disseminate 
and collect information related to health, benefits and other VA 
services. An extensive expansion of the OneVA Enterprise network is 
necessary to provide adequate infrastructure and capabilities for the 
ever-growing communication and collaboration needs supporting VA 
veteran-facing functions. This project supports improved access for 
veterans for a greater variety of VA services from formerly single-
purpose VA offices and from remote, rural, home locations. The enhanced 
telecommunications infrastructure will improve home health care 
delivery for real-time vital statistics monitoring and other purposes, 
provide rapid access to emergency or critical information and services, 
enable real-time medical data flow and video consultations, and improve 
data exchange with the Department of Defense (DOD) and other agencies 
through the Federal Health Information Exchange (FHIE). Veteran Service 
Center connectivity is also enhanced through this effort.
    The technology developed or expanded with this initiative will 
increase Veteran connectivity with VA, improve satisfaction, increase 
clinical quality, promote efficiency and provide tools for 21st century 
primary care. The VA Tele-health and Home Care Model will provide a 
clinic team supporting the Veteran.
    It is a virtual medical home model that deploys secure messaging 
within My HealtheVet to empower Veterans with the ability to 
communicate with their VA health care providers and staff for non-
urgent and administrative needs.
    This initiative will increase current home monitoring of chronic 
disease programs through increased investment in tele-health. Online 
interactive health assessments and other resources will be provided to 
Veterans which will enable them to receive personalized information and 
recommendations on health promotion and disease prevention services. 
Use of simulation training will increase in order to expand and promote 
provider expertise for critical services. The virtual home care model 
will optimize primary health care delivery systems by fully integrating 
VHA and community resources to enhance the focus on the Veteran. It 
will provide IT support for primary care tools including ability to 
analyze patient panels, robust collection and use of quality and safety 
data in decisionmaking. Purchased care guidelines will change to allow 
the medical home team to refer Veterans outside of VA to anywhere in 
the country, if the analysis shows better outcomes in the private 
sector and also provide the means to access, analyze, and track that 
care.
    Benefit to the Veteran: The goals of this project are directly 
related to providing services to veterans: 7,500 home-serviced patients 
utilizing real-time encrypted, secure G3 video technology and data 
transport by 2011, 68,000 patients with active home monitoring using 
traditional analog phone service by FY 2011, 150,000 patient encounters 
for remote tele-health between medical centers and their associated 
community based outpatient clinics (CBOCs) by FY 2011, and 30,000 
patient encounters using non-VA consultative services through secure 
remote video telecommunications by FY 2011. VA Tele-health and Home 
Care Model supports the development of new generation communication 
tools to empower veterans with the ability to communicate with their VA 
health care providers and staff for non-urgent and administrative needs 
through electronic measures (texts, web traffic, etc.) This initiative 
will have the capabilities to provide online health assessments, 
simulation training, and primary care tools to assess, analyze and 
track patient care.
    Benefit to the VA Organization: VA Tele-health and Home Care Model 
directly supports the mission by enhancing access to and quality of 
health care for veterans and improving data exchange capability between 
VA, DOD, and other Federal agencies. It will improve the efficiency and 
quality of remote communications with veterans. It will improve and 
integrate services across VA which will increase reliability, speed, 
and accuracy in delivering healthcare services. This initiative will 
use clear, accurate, consistent, and sensitive messages to build 
awareness of VA's benefits among our employees, Veterans and their 
families, and other VA stakeholders.
                      veteran centered care model
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Veteran Centered Care Model will improve health 
outcomes and the care experience for Veterans and their families. The 
model will standardize health care policies, practices and 
infrastructure to consistently prioritize Veterans' health care over 
any other factor without increasing cost or adversely affecting the 
quality of care. Veteran-Centered Care delivers better health outcomes 
through a fully engaged partnership between Veteran, family, and health 
care team, established through healing relationships and provided in 
optimal healing environments.
    In 2010, VA will establish the programmatic standards, operational 
policies, and other support services and materials to implement the 
Veteran Centered Care Model.
    Objective: The Veteran Centered Care Model will help VA accomplish 
the following strategic business objectives:

    <bullet> Programmatic standards, operational policies, and other 
support services/materials to roll out the Veteran Centered Care model.
    <bullet> Pilot field-based Centers that will serve as expert 
consultants in Veteran Centered Care to local facilities, assist in 
ongoing training, and scientifically evaluate patient outcomes and 
effectiveness in an effort to determine best practices. These centers 
will systematically evaluate and implement patient preferences (e.g., 
evening and weekend clinics).
    <bullet> National Clinical Inventory that details services 
availability at each care delivery site and use it to standardize 
infrastructure requirements and services.
    <bullet> Customized handbook/web information which is 
individualized and tailored for each Veteran.

    Benefit to the Veteran: Deploy a patient centered care model called 
Veteran Centered Care, based on best practices in private sector health 
care, which will result in a fully engaged partnership between veteran, 
family, and health care team, established through healing relationships 
and provided in optimal healing environments.
                     veteran innovation initiative
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The purpose of the Veteran Innovation Initiative (VII) 
is to improve support of VA's core business processes with IT platforms 
that are coherent, cohesive, and cost-effective. VII is designed to 
create a transferable process to ensure a steady pipeline of new 
innovations (including organic initiatives) by creating management 
mechanisms that incentivize and support forward leaning service 
delivery and by establishing and supporting an innovation investment 
fund.
    Objective: The objectives of the Veteran Innovation Initiative are 
timely identification of Web-based resources that will improve 
productivity and reliability, rapid evaluation to determine 
applicability, rapid evaluation to determine use-models, rapid 
determination of business case and return on investment (ROI), and 
tighter integration of more flexible production platforms.
    Benefit to the Veteran: In order to provide better service at lower 
cost, VA must be able to surface, qualify, and invest in promising 
information and technology (IT) based process innovations. VII aligns 
with the strategic mission of OI&T to better meet the Secretary's 
vision of ``veteran-centered'' services.
    Benefit to the VA Organization: From strategic planning to project 
management, and from remote configuration to social networking, there 
are a host of new IT support tools--many very inexpensive or free--that 
when properly implemented can have a tremendous impact on IT 
infrastructure availability and reliability, project visibility and 
scale, and workforce productivity and effectiveness. VII will 
substantially improve up-time, security, and accessibility of core IT 
functions. Additionally, it will create platforms for VA employees that 
provide easy-to-use self-service and self-care.
                veteran relationship management program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: The Veterans Relationship Management Program (VRM) 
will provide the capabilities required to achieve on-demand access to 
comprehensive VA services and benefits in a consistent, user-centric 
manner to enhance Veterans, their families, and their agents' self-
service experience through a multi-channel customer relationship 
management approach. This transforming initiative is designed to 
improve the speed, accuracy, and efficiency in which information is 
exchanged between Veterans and the VA, regardless of the communications 
method (phone, web, email, social media). This focus will include 
modernization of voice telephony, unification of public contact 
representative desktops, implementation of Identity and Access 
Management (IAM), development of cross VA knowledge management systems, 
implementation of customer relationship management systems (CRM), and 
integrating self-service capabilities with multiple communication 
channels.
    The VRM initiative is led by VBA's Director, Office of Facilities, 
Access, and Administration, who shares business sponsor 
responsibilities with VHA's Deputy Chief Business Officer for Member 
Services, NCA's Associate Director, Office of Field Programs, OI&T's 
Assistant Deputy CIO for Program Management, Office of Enterprise 
Development, Board of Veterans' Appeals, and VBA's Executive Management 
Officer, Office of Policy and Program Management.
    The VRM initiative is a multi-year effort that will provide the 
full range of services and benefits by June 2014, with initial 
capabilities being delivered in FY 2010. These initial FY 2010 
capabilities include:

    <bullet> Expansion of web-based self-service capabilities for 
veterans through the eBenefits portal. There are multiple releases 
planned for FY 10 to enhance personalized access to benefits 
information. Access will be provided for information maintained by VA 
and DOD, including access to VA benefit claims for housing, 
compensation, and pension. In addition, single-sign-on for My 
HealtheVet users will be enabled, and veterans will have self-service 
capability to update mailing and payment addresses. In addition, 
capabilities will be put in place to enhance outreach (for example, 
notifications to states as servicemembers separate from active duty).
    <bullet> Implementation of telephony enhancements to the contact 
call centers. This will include changing providers to deliver higher 
quality service and adding capabilities to transfer calls. Call 
recording, national queue, and Health Resource Center phase 1 
capabilities will be incrementally rolled out beginning in September 
2010 through December 2010.
    <bullet> Initiation of common identity management services. VA will 
adopt common identity-management patterns (to include person identity 
management) and begin to incorporate that common identity with 
standardized authentication and authorization capabilities so that 
access to sensitive information is consistently controlled throughout 
the enterprise. VA will establish a VA/DOD correlation framework where 
VA and DOD can link Veterans and beneficiaries with enterprise 
identifiers, providing seamless coordination of services from accession 
through all stages of life. VA will allow Veterans and beneficiaries to 
access VA applications using DOD-issued credentials, and support 
integration efforts between VA and DOD for a common identity and access 
management framework (pilot North Chicago, Nationwide Health 
Information Network, and eBenefits). A framework will be established 
for development of a pilot to expand the eBenefits in-person proofing 
process to VHA and VBA.

    The VRM Program will help VA accomplish the following strategic 
business objectives:

    <bullet> Improve VA's ability to successfully resolve Veterans and 
beneficiaries' issues on the first call.
    <bullet> Streamline and improve internal business processes in 
order to provide high quality experiences for Veterans and their 
beneficiaries.
    <bullet> Improve transparency and provide seamless support across 
all touch points.
    <bullet> Improve consistency and quality across all Veteran 
interfaces through the sharing of knowledge.
    <bullet> Become more veteran-focused and information-centric by 
providing a single 360 view of the Veteran to all stakeholders.
    <bullet> Ensure that Veterans and beneficiaries have access to 
timely, accurate, and consistent information on benefits and services.
    <bullet> Improve ability to measure service quality.

    VA will use an iterative approach and a phased implementation to 
integrate the capabilities that will leverage all the initiatives in 
the VRM Program. The iterative framework of the VRM Program assumes 
that Phase 1 will be complete at the end of fiscal year 2010, Phase 2 
will be complete at the end of fiscal year 2011, and Phase 3 will be 
complete at the end of fiscal year 2012. The focus of the 2013 and 2014 
fiscal years will be to fine tune and maintain the VRM Program.

    <bullet> This program will leverage numerous principals and subject 
matter experts from programs within VA to include joint initiatives 
between the Veterans Benefits Administration (VBA), Veterans Health 
Administration (VHA), National Cemetery Administration (NCA), Board of 
Veterans Appeal (BVA), and the Department of Defense (DOD). The 
initiatives include Customer Relationship Management, Voice Access 
Modernization, Knowledge Management, Unified Desktop, and Veteran and 
Beneficiary Self-Service.
    <bullet> Contributions from outside the agency include initiatives 
that will continue to leverage joint programs conducted with DOD under 
the auspices of the Joint Executive Council and the Benefits Executive 
Council.
    <bullet> A multi-organizational VRM governance strategy and 
management structure will need to be established. Once established, 
oversight will be conducted by internal chains of command within each 
business line, and elevated to committees established by the multi-
organizational governance strategy, to include the Joint Executive 
Council and the Benefits Executive Council.

    Benefit to the Veteran: It will provide veterans, their families 
and agents with greater awareness of the full range of VA programs and 
direct, easy access to those programs through an efficient, effective 
and responsive multi-channel program.
    It will expand opportunities for VA client self-service. This 
initiative will achieve significant cost efficiencies across benefit 
programs. It will provide significant improvement in timely, efficient 
and effective service delivery and improved delivery of benefits across 
the VA enterprise. In addition to providing Veterans with accurate, 
complete, and consistent answers to VA program questions.
    Benefit to the VA Organization: The VRM Plan will transform VA into 
a forward-looking, 21st century organization focused on meeting 
emerging needs that will change the way VA accomplishes its mission. 
Implementing VRM will result lower costs by eliminating unnecessary 
data entry while enhancing the delivery of services by reducing errors 
in both health care and benefits delivery. Further, it will streamline 
the ``reuse'' and usability of data to lessen the burden on VA 
employees and veterans.
    VBA, NCA and VHA will effectively integrate their major contact 
centers, allowing for a Veteran's call to be received at one center and 
to be seamlessly resolved at another center without requiring the 
Veteran to call another number and without losing the context of the 
Veteran's issue. VA envisions a framework that provides Veterans with 
the ability to:

    <bullet> Access VA through multiple channels.
    <bullet> Uniformly find information about VA's benefits and 
service.
    <bullet> Complete relevant business processes within VA.
    <bullet> Be quickly identified by VA without having to repeat 
information
    <bullet> Seamlessly access VA across multiple service lines 
(health, compensation, education, etc.).
                    zero homelessness among veterans
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Description: VA is the Nation's largest integrated health care 
system and the largest single provider of homeless treatment and 
benefits assistance services to homeless Veterans in the Nation. VA 
provides health care to more than 100,000 homeless Veterans each year. 
We do this by aggressively reaching out and engaging Veterans in 
shelters and in soup kitchens, on the streets and under bridges. Last 
year we reached out and conducted clinical assessments on more than 
40,000 homeless Veterans. Our effort is designed to encourage them to 
utilize VA's health care and benefits and to engage them with community 
resources and services. Once they are enrolled, we provide access to 
quality primary health care, psychiatric evaluations and treatment, and 
admission in treatment programs for substance abuse disorders. VA has 
adopted strong performance measures and a Mental Health Uniform Service 
Package to ensure that all homeless Veterans receive prompt access to 
mental health and substance abuse care. Our objective is to help 
Veterans receive coordinated care and benefits, which, in turn, improve 
their chances of obtaining and maintaining independent housing and 
gainful employment. Providing this assistance should enable Veterans to 
live as independently as possible given their individual circumstances.
    We expect to spend nearly $400 million in 2009 on VA homeless 
specific programs and an additional $2.4 billion for health care 
treatments that assist homeless Veterans supported through the Veterans 
Health Administration (VHA). Services and treatment for mental health 
and substance abuse disorders are essential both to the already 
homeless Veteran and to those at risk for homelessness. VA's mental 
health services funding increased by nearly $400 million this year, and 
the proposed budget calls for an increase of nearly $300 million. Those 
funds are used to enhance access to mental health services and 
substance abuse treatment programs. Increasing access and availability 
to mental health and substance abuse treatment services are critical to 
ensure that those Veterans who live far away from VA health care 
facilities are able to live successfully in their communities.
    VA will partner with the University of Pennsylvania and the 
University of South Florida to create the first Center that will give 
our Department the research capacity to improve our programs and become 
more effective in the future. The National Center on Homelessness Among 
Veterans' primary goal is to develop, promote, and enhance policy, 
clinical care research, and education to improve homeless services so 
Veterans may live as independently and self-sufficiently as possible in 
a community of their choosing. It will improve the quality and 
timeliness of services delivered to at risk or homeless Veterans and 
their dependents. VA's extensive nationwide network enables it to have 
one of the best program monitoring and evaluation capabilities in the 
Nation. The new Center will allow us to use much of the data systems 
within VA and across the country to improve VA and community service 
providers' effectiveness in reaching out, treating and improving long 
term discharge outcomes of the Veterans we serve.
    The President has committed to expanding proven programs and 
launching innovative services to prevent Veterans from falling into 
homelessness. The FY 2010 budget of $1.3 million includes funds for VA 
to work with the Departments of Housing and Urban Development, Labor, 
Education, Health and Human Services, and the Small Business 
Administration, in partnership with non-profit organizations, to 
improve the well-being of Veterans. This effort focuses on reducing 
homelessness and increasing employment opportunity among Veterans, and 
includes a pilot program aimed at maintaining stable housing for 
Veterans at risk of homelessness while also providing them with ongoing 
medical care and supportive services. The FY 2010 funding will be used 
to VA and the partner organizations with administrative IT support 
including laptops, desktops blackberries, printers, cell phones, and 
other IT equipment.
    The FY 2011 budget request includes an additional $300,000 above FY 
2010 for further IT support as well as network support, blackberries, 
cell phones, desktops and laptops for VA and partner organizations such 
as Homeless Grant and Per Diem Program & Liaisons, Domiciliary Care 
(Health Residential Rehabilitative Treatment Programs), Supported 
Employment/Compensated Work Therapy, and Veterans Justice Outreach to 
provide programs and services to end homelessness.
    Benefit to the Veteran: It is important to note that VBA's Loan 
Guaranty Service program allows non-profit entities to purchase VA 
acquired properties. More than 200 homes have been sold to non-profit 
and faith-based organizations to help provide thousands of nights of 
shelter to homeless Veterans and other homeless individuals.
    VA works closely with many of our Federal partners especially those 
at the Departments of Housing and Urban Development (HUD), Health and 
Human Services (HHS), and Department of Labor (DOL) to ensure those 
Veterans who want and need housing, alternative access to health care 
and supportive services and employment have an opportunity to become 
productive members of society. Housing and employment are very 
important because we understand from many formerly homeless Veterans 
that having opportunities for gainful employment was vital to their 
being able to overcome psychological barriers that contributed to their 
homelessness.
    Community Homeless Assessment Local Education and Networking Groups 
(CHALENG) for Veterans helps to establish, as part of local needs, the 
number of Veterans who are homeless on any given night. The number of 
homeless Veterans is declining. Three years ago, VA estimated there 
were approximately 195,000 homeless Veterans on any given night. In 
fiscal year 2007 the population dropped to 154,000, a 21 percent 
reduction. Based on estimates from last year, we estimate that on any 
given night in 2008 there were approximately 131,000 Veterans among the 
homeless, an additional 15 percent decline from the previous year. This 
represents a 33 percent reduction over the last three years.
    VA's largest program involving local communities is the Homeless 
Providers Grant and Per Diem Program. This successful program allows VA 
to provide grants to state and local governments, as well as faith-
based and other non-profit organizations, to develop supportive 
transitional housing programs and service centers for homeless 
Veterans. The Fiscal Year 2009 of Funding Availability (NOFA) has $15 
million for new grant programs. Organizations may also use VA grants to 
purchase vans to conduct outreach and provide transportation for 
homeless Veterans to health care and employment services.
    Since the Grant and Per Diem Program were authorized in 1992, VA 
has fostered the development of nearly 600 programs with more than 
10,500 operational beds today. Plans have already been approved or are 
in process to develop at least 3,500 more transitional housing beds. We 
already have 23 independent service centers and provide funding for 
more than 200 vans to provide transportation for outreach and 
connections with services. Applications are under review and we hope to 
award funding to new programs that will add 1,000 or more additional 
transitional beds by late summer.
    VA also provides grants to its health care facilities and existing 
grant and per diem recipients to assist them in serving homeless 
Veterans with special needs, including women, women who care for 
dependent children, the chronically mentally ill, the frail elderly, 
and the terminally ill. We initiated this program in FY 2004 and 
awarded $15.7 million to 29 organizations; we followed up that effort 
with two notices of funding availability on February 22, 2007, which 
resulted in $8.8 million to continue funding and expanding special 
needs grants.
    The Department appreciates Congress' renewal and expansion of 
authority that allows VA and DOL to reduce homelessness among Veterans 
discharged from institutional settings. Each year more than 50,000 
Veterans are discharged from institutional settings such as: long-term 
mental and substance abuse rehabilitative centers; correctional 
facilities; and other long-term care settings. This transition is 
difficult for many Veterans, and this initiative will provide these at 
risk Veterans with increased tools for reintegration into the 
community. Public Law 110-387 Sec. 602 authorizes no less than 12 
demonstrations pilots be established. These demonstration sites are to 
be initiated in Fiscal Year 2010. An estimated 2-4,000 Veterans are 
expected to be aided through this effort annually. Our Department 
expects to spend $4-6 million to carry out this homeless prevention 
activity.
    As of April 2009, we have screened 14,250 Veterans for placement, 
placed 9,300 under our case management, and referred 8,600 Veterans to 
public housing authorities for vouchers. Of these, 7,300 have received 
vouchers and 3,500 are in housing with VA case managers. Our 
preliminary information shows 12 percent of units are occupied by women 
Veterans and 14 percent have one or more children in the unit. This is 
a fantastic opportunity to offer Veterans with families, including 
children, housing services. HUD's funding in March 2009 has allowed VA 
and HUD to work on adding an additional 10,000 HUD-VASH vouchers for 
Veterans and their families, a huge step toward ending homelessness 
among Veterans.
    Benefit to the VA Organization: VA is expanding in dynamic ways to 
not only keep that commitment but to extend and to enhance our outreach 
efforts with new tools to prevent homelessness for those Veterans at 
risk of becoming homeless. These unprecedented strides are continuing 
and creating new opportunities to bring together Veterans in need of 
assistance through a wide range of direct services and treatment VA 
provides, as well as those services we offer in partnership with 
others.

    Question 29. Assuming the FY 2011 Major Construction request is 
appropriated, there will remain over $4 billion in unfunded liability 
for projects that will have received some, but not all, of their total 
required appropriation. The projects in VA's 5-year capital plan have 
an unfunded liability of $7.7 billion and, presumably, still more 
projects will be added to next year's 5-year capital plan.

    A. What is the plan to address over $12 billion in major 
construction needs?
    Response. While the Department does submit a Five Year Capital Plan 
with its Congressional justifications each year, this plan will most 
likely change in the out-years based upon various factors including: 
the actual annual major construction funding appropriation provided; 
schedule changes for any current partially-funded projects, and the 
incorporation of additional new projects added and scored during the 
capital investment process in future budget cycles. That said, it is 
the Department's policy to prioritize partially funded projects from 
previous years, provided those projects are ready to execute within the 
budget year.

    B. Please provide a detailed breakdown of how these projects will 
be completed in a timely manner if VA's major construction 
appropriation request remains consistent with historical patterns.
    Response. While it will take some time to fund the backlog, the 
Department will be positioned to execute these projects as rapidly as 
possible once funding is available.

    Question 30. Please provide a detailed status report on the 
progress being made to construct new Health Care Centers in 
Fayetteville, Charlotte, and Winston-Salem.
    Response. VA is engaging a Broker and Architectural/Engineering 
firm, establishing the delineated areas and revalidating the space 
plans for each of the three Health Care Center (HCC) projects. These 
projects will follow the two-step acquisition process with VA pre-
selecting the site before competing for a developer. The anticipated 
schedule for all three HCCs calls for advertising for sites in late 
Spring 2010, issuance of the Solicitation for Offers in Winter 2010/11, 
lease award in Summer 2011, and delivery of the HCC in Summer 2013. 
Once each project is actively in procurement this schedule will be 
amended to fit the individual project needs and will be available to 
share with the Senator.

    Question 31. In 2004, new outpatient clinic leases were authorized 
for Greenville and Wilmington, North Carolina. We are six years removed 
from these authorizations, yet still await the opening of the clinics.

    A. What is the delay attributable to?
    Response. Delays associated with the opening of these two 
outpatient clinics resulted from concerns about the population size to 
be served. These concerns led the VISN to recommend that the project 
development for the Wilmington, NC, Community Based outpatient Clinic 
(CBOC) wait until 2006 and that the project development for the 
Greenville, NC, CBOC wait until 2009.

    B. Will VA commit to getting these projects moving as swiftly as 
possible? Please provide a timetable on completion of each.
    Response. The Wilmington CBOC project began in March 2006, with the 
approval of an updated space plan which increased the CBOC size to 
80,761 square feet. In August 2006, Congressional Notification letters 
were dispatched informing Congress of an increase in scope and rental 
rates. This project followed the two-step process, with VA pre-
selecting a site before competing for a developer. The scarcity of 
suitable parcels at the desired acreage required VA to make three 
separate attempts to secure a preferred site. In November 2007, 
negotiations with the third preferred site began and resulted in a 
successful assignable ground lease that was executed in October 2008. 
Once the site was selected, the solicitation for offers was developed 
and issued. VA awarded the lease in April 2010. VA anticipates CBOC 
delivery in early 2012.
    The acquisition of the Greenville CBOC project began in March 2009, 
with the approval of an updated space plan which increased the CBOC 
size to 106,614 square feet. The acquisition of the new CBOC was timed 
to allow VA to appropriately administer local resources. As an interim 
step, the current CBOC was expanded in-place in 2008 to meet the needs 
of Veterans in Greenville. This project is now moving forward following 
the two-step process, with VA pre-selecting a site before competing for 
a developer. A site survey was conducted in August 2009, and due 
diligence, including survey, geotechnical and environmental studies, is 
underway. Issues with site due diligence have caused delays in the 
initial, aggressive Greenville timeline. The current timeline calls for 
the issuance of the Solicitation for Offers in summer 2010, lease award 
in early 2011 and space delivery in early 2013. VA will continue to 
work toward an expedited completion of the Greenville CBOC. VA is 
committed to ensuring a successful and timely implementation of this 
CBOC to enhance access for Veterans in the Greenville area.

    Question 32. In some VA facilities, local contracts have been 
established in which VA and a dialysis provider have agreed to a 
negotiated rate. However, VA is considering an amendment to the current 
regulation that would mandate all non-VA, non-contracted care be paid 
at rates not higher than Medicare. That proposed rule was published in 
the Federal Register on February 18, 2010.

    A. What kind of impact analysis was conducted, and what were the 
results, regarding the possible effects of this proposed rule?
    Response. As required by the Office of Management and Budget (OMB), 
VA conducted a detailed impact analysis of this proposed regulation. 
While there are known impacts, VA does represent a small portion of the 
overall health care market (1.6%). Initial estimates show 5 year cost 
avoidance (at full implementation of all Medicare schedules) at $1.5B, 
with the initial year at approximately $251M. This includes 6 specific 
Centers for Medicare and Medicaid Services (CMS) schedules, one of 
which is the schedule governing dialysis payments. (VA currently has 
authority to pay inpatient hospital and outpatient physician fees using 
the CMS schedule.)

    B. Specifically, what impact would this regulation have on access 
to care in rural areas? Please provide the Committee a copy of that 
analysis.
    Response. This regulation would not impact access to health care in 
rural areas because it does not negate VA's ability to contract locally 
with health care providers if access is negatively impacted. The 
analysis can be found in Vol. 75, No. 32 of the Federal Register, 
published on February 18, 2010.

    Question 33. North Carolina has one of the highest VA End Stage 
Renal Disease (ESRD) populations. There are some very rural areas of my 
State and I am concerned about access to care for these and all 
veterans who are and will be receiving dialysis treatment in the 
community.

    If the pending rule to require Medicare rates would be applied to 
all Fee Basis dialysis payments, I've been informed that this will tip 
the balance of some rural clinics that will result in their being 
unsustainable--resulting in some clinics having to possibly close. 
Since that would significantly impact access to care for rural veterans 
with ESRD, what will you do to avoid this situation?
    Response. VA has the authority to contract for services to avoid 
this situation. In fact, VA has awarded a contract in 8 Veterans 
Integrated Service Networks (VISNs) to test our ability to improve 
access to care while still stabilizing costs. This full and open 
competition resulted in award to 7 vendors (all offerors were awarded 
under the contract).

    Question 34. A major dialysis provider has talked with VA and my 
staff about implementing a disease management program for dialysis that 
could be piloted or implemented nationwide. This approach would have 
the contracted dialysis provider be responsible for all kidney-related 
care of veterans in the program, including monitoring, preventive care, 
and other oversight that would create a veteran-centric care management 
program for veterans receiving dialysis in the purchased care program. 
It has been described as potentially saving money and improving the 
health status for these veterans. The majority of costs for ESRD 
patients are not for dialysis. Avoiding life threatening emergency room 
and other hospital stays might save significant dollars, and improve 
quality of life.

    I am interested in learning more about this concept and would like 
VA's comments about how it would work in a state with many veterans 
with ESRD, such as North Carolina.
    Response. VA has also been approached about the possibility of such 
a pilot, although specific details were not provided. We have requested 
additional information to assess our ability to improve the health 
status of Veterans through the use of this program. We are very open to 
implementing any actions that improve Veterans' health care.
                                 ______
                                 
Response to Follow-up Post-Hearing Questions Submitted by Hon. Richard 
 Burr to Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1. In response to question 1 under ``General Medical Care/
Medical Construction/Information Technology'' VA responded that no 
detail was provided to Congress in June 2009 on its FY 2011 advance 
appropriation request because the estimates only included ``top-line 
estimates for each of the three medical appropriations.''

    a. How is that possible given the significant new spending proposed 
on homeless initiatives, rural health, and certain legislative 
initiatives within the FY 2011 request submitted in February?
    Response. While the overall funding level of $48.183 billion for VA 
medical care did not change between the Advance Appropriations request 
and the FY 2011 Budget, there were numerous funding adjustments made at 
the activity level due to more recent administrative actions, or the 
availability of more current workload and funding data.
    For example, the FY 2011 Budget includes funding for new 
initiatives, not assumed in the Advance Appropriations request. The 
cost for these initiatives are covered under the overall medical care 
funding level through reductions/savings identified in: 1) 
Institutional Long Term Care (due to lower 2009 actual workload and 
costs than originally estimated); 2) Ambulatory health care (savings 
which will be achieved due to a recently developed regulation to lower 
VA's contract payments to Dialysis providers); and 3) lower-priority 
infrastructure improvements. As additional resources, which are 
anticipated but not reflected in the budget, become available (e.g. 
carryover funding from FY 2010, a governmentwide initiative to reduce 
contract spending), the Department will be able to increase funding for 
infrastructure improvements.

    b. Again, if the top-line estimate requested in June 2009 is the 
same resource level requested in VA's February budget submission, it 
stands to reason that VA knew of these proposed spending initiatives 
but simply did not provide the detail to Congress. Is that true?
    Response. See response to 1a.

    Question 2. In response to question 6 under ``General Medical Care/
Medical Construction/Information Technology'' VA responded that it 
plans to use the extra $145 million it expects in collections on 
operating budget expenses at medical centers. As you know, VA received 
from Congress what it requested for FY 2010 in appropriations, had 
money from FY 2009 carried over to FY 2010 even though the FY 2010 
budget assumed no carry over, and (as VA's answer confirms) expects a 
higher level of collections than it budgeted for.
    All other things being equal, if VA is receiving more money than it 
budgeted in collections it stands to reason that there must be a 
specific, unanticipated use it will spend this money on, correct? If 
so, what is that specific use?
    Response. Changes in Obligations from the FY 2010 Budget Estimate 
to the FY 2010 Current Estimate are reflected in the FY 2011 Funding 
and FY 2012 Advance Appropriations Request on page 1A-6, VA Medical 
Care Obligations by Program. The FY 2010 Budget Estimate was revised 
based on FY 2009 actuals and an updated actuarial model. The increase 
in collections will help address increases in Health Care Services and 
Long-Term Care.

    Question 3.  Referencing VA's response to question 7 under 
``General Medical Care/Medical Construction/Information Technology,'' 
we have now received the Administration's views on S. 1547. It appears 
VA does support an increase in the grant and per diem authorization at 
a minimum, which makes the response to question 7C confusing.

    a. Again, what legislative changes are necessary to effect the 
President's spending plan on homeless veterans' programs?
    Response. The FY 2011 Senate Military Construction, Veterans 
Affairs (VA) and Related Agencies Appropriation bill, which addresses 
the need to increase the Grant and Per Diem spending cap is currently 
being considered in the Senate. VA will continue to monitor this 
appropriation bill and re-evaluate legislative needs once a 
Congressional decision has been made.
    VA continues to enhance existing programs to meet the objectives of 
the Five-Year plan. Additionally, VA is working in conjunction with 
other Federal partners to align efforts of the Interagency Council on 
Homelessness Federal Strategic Plan to meet the goal of ending 
homelessness. As a result of these efforts, VA anticipates there may be 
regulatory and possibly legislative changes required and VA is 
evaluating specific policy and current legislation to identify needed 
revisions.

    b. VA deferred to HUD in its views on S. 1547 regarding additional 
HUD-VASH vouchers. If VA case management complements the vouchers HUD 
issues, does VA's 5-year plan assume additional vouchers? Specifically, 
does the administration's plan assume a ramp-up in authorized HUD-VASH 
vouchers over the next several years, from 30,000 to 60,000, as the 
legislation proposes?
    Response. VA's Five-Year plan to End Homeless among Veterans does 
assume a ramp-up in authorized HUD-VASH vouchers over the next several 
years from 30,000 to a total of 60,000 HUD-VASH vouchers by fiscal year 
2014.

    Question 4. In response to question 14 under ``General Medical 
Care/Medical Construction/Information Technology'' VA referred to page 
1K-15 of Volume 2. Please refer to page 1C-15 of Volume 2 for what 
appears to be a FY 2012 Average Daily Census of ``0'' for Home and 
Community Based Care, then please provide an explanation of not only 
that number, but also how it relates to the number VA provided in its 
original response.
    Response. The Home and Community-Based Care line on page 1C-15 is a 
misprint and should have read as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This line is reflective of the actual/estimates found for Home and 
Community-Based Care in the Long-Term Care section of Selected Program 
Highlights, page 1K-15.

    Question 5. In response to question 18 under ``General Medical 
Care/Medical Construction/Information Technology'' VA asserted that the 
increases attributable to travel are for both employee AND beneficiary 
travel. However, the original question was specific to employee travel, 
and the subheading for travel by employees shows a 43% increase from FY 
2009 to FY 2010; a 43% increase for FY 2011; and a 43% increase for FY 
2012. Again, please explain this increase that the budget table 
attributes specifically to employee travel.
    Response. Increases found under Medical Services are based on a 4-
year average. Employee travel consists of training for employees, 
travel of witnesses, permanent duty travel and administrative reasons. 
Estimates are based on the best information available at the time of 
the submission. Projections for FY 2011 and FY 2012 will be reviewed 
again pending submission of the FY 2012 submission.
                             vba responses
    Question 6. In response to question 5(B) under ``Compensation and 
Pension,'' VA responded in part that ``Regional offices that 
consistently perform well are in areas where VA is an employer of 
choice'' and that ``Regional offices that have difficulties in meeting 
performance targets are predominantly in high-cost metropolitan areas 
with high employee turnover.'' Please provide the names of specific 
regional offices that, over the past five years, would be considered to 
have consistently performed well or would be considered to have 
difficulties in meeting performance targets.
    Response. The chart below summarizes the regional offices that 
performed well and those experiencing difficulties in meeting 
performance targets over the past five years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 7. Question 10(A) under ``Compensation and Pension'' 
requested that VA provide the level of funding that would be dedicated 
to the Systematic Technical Accuracy Review (STAR) program in fiscal 
year 2011. VA's response indicates how many employees will be 
administering this program, but it does not identify a level of 
funding. What level of funding will be dedicated to that program?
    Response. The Systematic Technical Accuracy Review (STAR) program 
is a component of VBA's national quality assurance program that 
assesses the accuracy of disability benefit determinations and is 
administered by VBA's C&P Service. The FY 2011 budget request includes 
52 FTE to administer this program, and their associated cost is 
approximately $6.0 million.

    Question 8. In response to question 14(B) under ``Compensation and 
Pension,'' which inquired about the size caseloads expected in fiscal 
year 2011 for fiduciary program employees, VA noted in part that ``[a] 
standard caseload is not used across all regional offices for fiduciary 
activities.'' Please provide the caseload standard for each regional 
office.
    Response. A specific caseload standard is not used for each 
regional office. The Compensation and Pension Service is developing a 
staffing model that will be used for resource allocation in FY 2011. 
Until the model is finalized, we are unable to provide exact caseload 
standards for fiduciary program employees.

    Question 9. Question 17 under ``Compensation and Pension'' 
requested an itemized list of the expenditures that would be made with 
$340 million requested for Other Services for the Compensation, 
Pension, and Burial programs. VA's response does not provide such a 
list. Please provide a list of the types of expenditures that would be 
made with this $340 million and the amounts that would be spent on each 
type of expenditure.
    Response. An itemized list of Other Services is shown below. An 
increase in contract medical exams funding is required due to an 
estimated 12 percent increase in the quantity of exams as well as the 
anticipated six percent price increase caused by inflation and 
increased Medicare rates. An increase in VBMS funding is also required 
due to increased scanning and related services needed for pilot 
activities and additional technical, analytical, and engineering 
support provided by MITRE.
    Half of the funding included in the Management Support line item is 
C&P Service's portion of must-fund contracts to internal and external 
customers, including the Department of Homeland Security, the 
Department of Treasury, the National Archives and Records 
Administration, and several VA customers (Debt Management Center, 
Financial Services Center, etc.). The remaining Management Support 
funding is for C&P Service's portion of the Veterans Relationship 
Management initiative; VBA infrastructure investments such as the co-
location or relocation of facilities and associated equipment contract 
costs; and equipment operations, maintenance, and repair services 
contracts. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 10. Question 19 under ``Compensation and Pension'' 
requested information on how $19 million in carryover funds would be 
used. VA's response indicates that ``[t]hese funds will be applied to 
additional 21st century transformational improvements to VBA's business 
processes, such as the Veterans Benefits Management System 
initiative.'' Please provide additional details as to the specific 
nature and amounts of expenditures expected to be made from these 
carryover funds.
    Response. These funds will be applied to additional 21st century 
transformational improvements to VBA's business processes, such as the 
Veterans Benefits Management System Initiative and other items as shown 
below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Response to Additional Follow-up Post-Hearing Questions Submitted by 
Hon. Richard Burr to Hon. Eric K. Shinseki, Secretary, U.S. Department 
                          of Veterans Affairs
                        compensation and pension
    Question 1. Question 7(A) asked whether VA has entered into a 
contract ``for the purpose of conducting an ongoing review of the 
Rating Schedule.'' In response, VA indicated that ``a draft Statement 
of Work is currently under review'' at the Veterans Benefits 
Administration. What is the timeline for entering into a contract for 
this purpose?
    Response. The Statement of Work for an Earnings Loss study, which 
is one component of the review of the VA Schedule for Rating 
Disabilities (VASRD), was approved within VBA. VBA expects the contract 
to be awarded in September 2010. VBA does not expect to award other 
contracts.

    Question 2. VA had previously indicated that, ``[a]s part of the 
ongoing effort to update at least one to two body systems per year, VA 
developed a Project Management Plan'' and that ``VA's Project 
Management Plan provides for all body systems to be updated by the end 
of FY 2016.'' Question 7(D) requested that VA provide a copy of that 
Project Management Plan. In response, VA indicated that ``[t]he Project 
Management Plan is currently under development and will be submitted to 
Congress as soon as completed.'' When did VA begin developing the 
Project Management Plan? What is the projected timeline for finishing 
the Project Management Plan?
    Response. VA began developing the Project Management Plan in 
September 2009 and expects to complete the plan in April 2016. However, 
after completion of the 15th body system, the plan continues 
indefinitely because VA is required to systematically update the VASRD 
on a continuing basis.

    Question 3. In part, question 11(C) asked VA to explain how VA 
would determine what disability rating to assign for purposes of a 
retroactive award of benefits under Nehmer if the veteran is deceased. 
VA's response did not address that portion of the question. Please 
explain how VA would determine what disability rating to assign under 
these circumstances.
    Response. In accordance with the Nehmer court orders, VA will 
review the evidence in the claims file and notify the surviving spouse 
of his or her right to submit any additional evidence (medical records, 
treatment plans, death certificate, etc.) that will assist VA in 
deciding the case. VA will subsequently use the evidence of record to 
determine the level of disability compensation to award and what 
effective date VA will assign to such retroactive entitlement. VA will 
further award death benefits as appropriate. VA evaluates all available 
evidence when making a determination

    Question 4. In response to question 13(B), which asked how much VA 
expects to spend on shipping brokered cases, VA indicated that it is 
``unable to provide this information, as we do not separate shipping 
costs associated with brokering from the regional offices' overall 
FedEx allocation.'' How much in total are the regional offices expected 
to spend on FedEx services during fiscal years 2010 and 2011?
    Response. VA has allocated $4,242,070 in FY 2010 budget and 
$4,302,473 in FY 2011 for all express mail sent to and from regional 
offices, including brokering expenses.
                               education
    Question 1. In response to question 1(B), VA indicated that 
``[a]pproximately $120 million was issued to advance payment recipients 
who had not established their benefits eligibility for the fall 
enrollment period.'' To clarify, did any of those recipients establish 
eligibility after receiving an advance payment?
    Response. That $120 million excludes anyone who established 
eligibility after receiving an advance payment.

    Question 2. Question 2(A) asked how many full-time employees will 
be assigned to the Education Call Center during fiscal year 2011. The 
answer provided by VA appears to reflect the number of employees 
currently assigned to the call center. To clarify, will the current 
staffing level be maintained in fiscal year 2011?
    Response. Yes, we expect to maintain the current staffing of 297 
employees during the fall enrollment period.

    Question 3. Question 3(A) requested an itemized list of the 
expenditures that would be made with $19 million requested for Other 
Services. VA's response discusses the planned expenditures but does not 
provide such a list. Please provide a list of the types of expenditures 
that would be made with this $19 million and the amounts that would be 
spent on each type of expenditure.
    Response. The table below provides a list of the types of 
expenditures that would be made with the $19 million and the amounts 
that would be spent on each type of expenditure.

Education Service 2011 President's Budget Other Services Funding Request
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Post-9/11 GI Bill Support..................................       $6.5M
Instructional Systems Development & Training...............       $2.7M
Execution of Public Laws 101-237 & 105-368: Outreach              $1.2M
 pamphlets and letters.....................................
Customer Satisfaction Surveys..............................       $0.4M
State approving agency contract review.....................       $0.1M
Management support.........................................      *$8.1M
                                                            ------------
      Total Other Services Funding Request.................      $19.0M
------------------------------------------------------------------------
* Over half of this amount is Education Service's portion of must-fund
  contracts to internal and external customers. For example, the
  Department of Homeland Security, the Department of the Treasury, the
  National Archives and Records Administration, and several VA customers
  (Debt Management Center, Financial Services Center, etc). The
  remaining funds consist of Education Service's portion of the Veterans
  Relationship Management initiative; VBA infrastructure investments,
  such as the co-location or relocation of facilities and associated
  equipment contract costs; and equipment operating, maintenance, and
  repair services contracts.


    Question 4. Question 4(C) asked how frequently individual employees 
at the regional processing offices would be expected to print and mail 
documents after the long-term solution (LTS) is in place. VA's response 
indicates that the long-term solution ``will not eliminate the need for 
employees to print and mail documents'' but does not discuss the 
expected frequency of those mailings or which employees would be 
responsible. Please explain whether employees at the regional 
processing offices would be personally sending letters to 
beneficiaries, what types of letters they would be sending, and how 
frequently they would be expected to send those types of letters after 
the long-term solution is in place.
    Response. The LTS will not impact the number or frequency of 
letters sent to students. VA receives an average of three enrollments 
and one change of enrollment annually from each student, requiring the 
RPOs to mail an average of 3.3 award letters to each student. The award 
letters inform the student of the action taken on their claim. In 
addition, development letters are sent by the RPOs to acquire 
additional information needed from the student to process the claim.
                        office of the secretary

    Question. In response to question 2, VA noted that a 28% increase 
in the travel budget for the Office of the Secretary is ``related to 
the Secretary's initiatives to transform VA.'' How many trips would 
that level of funding support and what is the expected cost per trip? 
What method of travel is anticipated for these trips (such as 
commercial airlines or military air)?
    Response. VA notes that the 28% increase in the travel budget for 
the Office of the Secretary (OSVA) is based on a two-year period. The 
FY 2011 travel budget reflects anticipated costs based on previous 
travel experience with adjustments based on anticipated conferences and 
visits necessary for existing and new initiatives. Given the great 
disparity in distance, duration and travel staff size that can occur 
with each visit, a notional expected cost per trip would be impractical 
for any use. For example, a two-person one-day site visit to Boston 
would be equated with a four-person three-day conference in Seattle. VA 
notes OSVA includes not only the immediate senior VA leadership and 
support staff, but a number of other staff offices and Centers that 
report to the Office of the Secretary. Government travel regulations 
address the allowable modes of travel for reimbursement purposes, but 
the predominant method of travel has and will continue to be commercial 
airlines.
               office of human resources & administration

    Question 1. Question 2(A) asked how many trips would be supported 
by the $16.8 million this office now projects to spend during fiscal 
year 2010 on travel and how many employees are expected to travel. VA's 
response indicates that ``[o]ver 150,000 `training instances' are 
projected using various modalities'' but does not provide information 
about the number of employees expected to travel or the number of trips 
expected to be funded. During fiscal year 2010, how many employees are 
expected to travel using the $16.8 million, how many trips are expected 
to be funded, and what is the expected cost per employee per trip?
    Response. During fiscal year 2010, we expected that $16.8 million 
would fund the travel of 8,400 trips at one trip per employee at an 
expected cost of $2,000 per employee per trip. The Human Capital 
Investment Plan (HCIP) is an investment in the VA workforce to recruit, 
train, develop and retain the right people with the right skills.

    Question 2. Question 2(B) asked what accounts for the over $14 
million increase between the amount of travel funds requested for 
fiscal year 2010 ($2.4 million) and the amount now expected to be spent 
on travel during fiscal year 2010. VA's response refers to the answer 
to question 2(A), which mentions that ``[t]he travel increase is 
allocated for travel associated with training programs sponsored by the 
HCIP'' but does not address why there is a $14 million difference 
between the amount requested for fiscal year 2010 and the amount now 
expected to be expended during fiscal year 2010. Please provide such an 
explanation.
    Response. The Human Capital Investment Plan (HCIP) was developed 
subsequent to the submission of the FY 2010 President's Budget. The 
HCIP is an investment in the VA workforce to recruit, train, develop 
and retain the right people with the right skills. Under VA's new 
corporate level training program, all travel and training are managed, 
obligated and reported by the HCIP at the corporate level. Costs that 
previously may have been obligated and reported at the field level are 
now reported at the corporate level under HCIP.

    Question 3. Question 2(c) asked how many trips would be supported 
by the $17.6 million requested for travel during fiscal year 2011 and 
how many employees are expected to travel. VA's response refers to the 
response to question 2(A), which indicates that ``[o]ver 150,000 
`training instances' are projected using various modalities'' during an 
unspecified period of time. The response does not provide information 
about the number of employees expected to travel or the number of trips 
expected to be funded. During fiscal year 2011, how many employees are 
expected to travel using the $17.6 million, how many trips are expected 
to be funded and what is the expected cost per employee per trip?
    Response. During fiscal year 2011, we expect that $17.6 million 
will fund the travel of 8,800 trips at one trip per employee at an 
average expected cost of $2,000 per employee per trip.

    Question 4. Question 2(D) asked what accounts for the increase in 
travel funds from fiscal year 2010 to fiscal year 2011. VA's response 
refers to the response to question 2(A), which does not explain why 
there is an increase in travel funds between fiscal years 2010 and 
2011. Please provide such an explanation.
    Response. The HCIP was implemented during the course of fiscal year 
2010. FY 2011 will be the first full year of operations for HCIP 
training events. We anticipate more employees will avail themselves of 
training opportunities requiring HCIP travel funding in fiscal year 
2011.

    Question 5. Question 2(E) asked whether VA's goals could be 
accomplished without the need for extensive travel. VA's response 
refers to the question 2(A), which does not explain whether VA's 
training goals could be accomplished without extensive travel. Please 
provide such an explanation.
    Response. Training is being conducted through various modalities, 
including online training, video conferencing, training hubs/clusters 
in the field, and at various existing training facilities (such as the 
VA Acquisition Academy, IT Training Academy, Office of Personnel 
Management, etc.) HCIP travel dollars are being used to pay for 
employee travel to field hub sites and to classes requiring a 
traditional instructor-led classroom setting. This is only 6.5 percent 
of the 135,000 training opportunities being offered by the HCIP in 
fiscal year 2010.

    Question 6. Question 4(A) asked for an itemized list of how $7.6 
million would be spent with regard to a ``Corporate Senior Executive 
Management Office.'' VA's response indicates that the office would have 
24 FTE and payroll costs of $4,996,000 and that $2.2 million would be 
spent on contracts. What is the expected average salary of those 24 
FTE? What is the purpose of those contracts and what metrics would be 
used to gauge whether those funds are used effectively?
    Response. The Corporate Senior Executive Management Office 
continues to hire staff this fiscal year. In July, the CSEMO office had 
22 employees with an average salary and benefit cost of $120,881.
    Contracts funded in fiscal year 2010 include:

          SES Performance Management: Contract used to train members of 
        the SES on the new requirements of the Performance Management 
        System. This contract provided assistance in developing and 
        implementing effective SES performance plans with quantifiable 
        measures that align with VA's strategic goals and objectives 
        and also provided subject matter expertise to ensure 
        recertification of VA's SES appraisal system with the Office of 
        Management and Budget and the Office of Personnel management.
          SES Forums: Contract funds were used to host four SES Forum/
        Training Sessions where CSEMO implemented a new SES Orientation 
        Program and conducted the training sessions. In 2010 all VA SES 
        attended a mandatory SES Forum; there were four held with about 
        100 executives in attendance at each session. The Secretary and 
        the Deputy presented their transformation vision for VA and VA 
        Principals, to include Under Secretaries, addressed each group 
        to talk about leadership challenges. This was the first time in 
        VA history that VA's entire leadership cadre was called 
        together to share challenges and network across functional and 
        organizational lines. The Forums were highly effective--
        executives responded very positively and appreciated the 
        opportunity to hear and understand critical leadership issues 
        and concerns. This was a strong start to the Secretary's goal 
        to break silos and work across functional lines in order to 
        deliver outstanding service to the Nation's Veterans.
          SES Collaborative Management Tool: Interactive web 
        application to facilitate exchange of information between VA 
        SES members across program areas. New technology will address 
        senior management communication and leadership challenges 
        around VA transformation initiatives. This will include a 
        central repository of knowledge capable of providing ongoing 
        resources to enhance performance and assist with VA 
        transformation efforts.
          SES Talent Management System: Contract to develop a 
        streamlined and automated process for operational oversight of 
        executive talent requirements, development and assignments. The 
        contract will include analysis of existing workflow processes, 
        practices and tools to identify system capabilities and 
        development necessary to deploy an executive dashboard, 
        rosters, profiles and biographies, competency assessments and 
        performance data.
          Metrics used to gauge effective use of funds include number 
        of orientations/training conducted for SES personnel, 
        assessment of VA's SES performance management process, number 
        of forms standardized, number of procedures standardized, and 
        completion of Talent Management System.

    Question 7. Question 5(A) asked for an itemized list of how $83.7 
million would be expended with regard to a ``Development and 
Certification of Leaders'' initiative. VA's response indicates that 
over $83 million would be spent on contracts described as follows: 
Leadership Assessments, Leadership Development, Supervisory Training, 
Transformational Leadership, Competency Mapping, and other Leadership 
Training. Please provide an explanation of the purpose of each of these 
contracts and what metrics would be used to gauge whether those funds 
are used effectively.
    Response. The budget request included descriptions of the Human 
Capital Investment Plan initiatives along with the 2010 resource 
requirements (beginning on page 5F-8 of Volume 3). As previously noted, 
the chart below provides a breakdown of the budgeted contract cost for 
the Development and Certification of Leaders initiative.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    During the fiscal year 2010 contracting process, the Development 
and Certification of Leaders initiative resulted in the advancement of 
the following programs:

          Leadership Assessment/Competency: This contract is aimed at 
        assessing and developing leaders across VA to ensure a 
        continuously strong, capable leadership corps, and that VA 
        leaders have the skills and proficiency to lead people and 
        progress. The initiative will assess the leadership 
        competencies of newly selected and current leaders in the 
        Department, prescribe developmental activities designed to 
        build on identified strengths and improve identified 
        weaknesses, and create a valid and reliable certification 
        program for qualified leaders within VA.
          The effectiveness of the Leadership Assessment and 
        Certification Program shall be evaluated in parallel with its 
        development and implementation. The program evaluation will 
        complement organizational leadership evaluation and assessment 
        performed by the National Center for Organizational 
        Development. Evaluation activities will include a review and 
        acceptance of the proposed certification and standards by VA 
        and OPM general counsel and other key reviewers within OPM and 
        VA that ensure all potential employee management issues are 
        resolved; demonstrated reduction of skill gaps and increase in 
        key leadership skills in the targeted population; and positive 
        student and facilitator assessment of processes.
          Leadership Infusion: The purpose of this project is to 
        procure up to, but not limited to 2,236 seats in pre-designed 
        and custom leadership and management training programs through 
        the U.S. Office of Personnel Management (OPM) Center for 
        Leadership Capacity Services (CLCS). These seats shall be in a 
        variety of pre-designed training programs that result in 
        increased proficiency in each competency and enable 
        optimization of performance for leaders at the supervisor, 
        manager, and executive levels of leadership from across the 
        Department. Given the anticipated need to quickly satisfy 
        critical learning and development gaps, VA is seeking to place 
        participants in program offerings with pre-determined dates, as 
        well as customized offerings for targeted cohort groups.
          Performance assessment will include an assessment of the 
        training program curriculum that teaches content that is 
        compliant with relevant lesson or course objectives; positive 
        assessment of the application of skills learned to the 
        operational environment and retention of those skills over 
        time; demonstrated reduction of skill gaps in the targeted 
        population; and availability and positive student and 
        facilitator assessment of highly qualified instructors.
          Basic/Advanced Supervisory Management Training: VA has 
        implemented an enterprise-wide, corporate university approach 
        to supervisory and management training. All supervisory and 
        management training will be aligned to competency models, 
        implemented on an enterprise-wide basis, and tracked using the 
        VA Learning Management System. This initiative includes 
        development of all aspects of competency-based basic and 
        advanced supervisory and management training programs, 
        development and delivery of training using multiple modalities 
        and production of documents and materials needed to conduct 
        instructor-based training, and analysis, design, and 
        development support to VA production staff to produce video, VA 
        knowledge network satellite, graphics, and eLearning materials. 
        In addition, the project will include the testing of training 
        materials and implementation of training programs and 
        evaluations.
          Performance effectiveness will be assessed based on the 
        training approach, methods and modalities used to close the gap 
        between performance requirements and current performance levels 
        through conduct of formative and summative evaluations to 
        monitor the outcomes of training. Assessment will determine the 
        level of knowledge transfer and the individual application of 
        training to measure the quality of a learner's knowledge and 
        performance as compared to training objectives.
          Transformational Leadership: The Transformational Leadership 
        Training Task Force was a multi-disciplinary VA team created to 
        address learning needs that flow from the VA Strategic Plan and 
        are integral to achieving the Department's transformation. 
        Through focused workgroups, the team developed the concepts and 
        competencies that were further refined by a smaller design 
        team, resulting in a comprehensive Transformational Leadership 
        Training strategy. This contract will enable design, 
        development, and delivery of training programs that result in 
        increased proficiency in each competency and enable 
        optimization of performance for leaders at the supervisor, 
        manager, and executive levels of leadership. The proposal 
        reflects five major facets of work: (a) development of a 
        Transformational Leadership Competency Model, (b) a framework 
        for senior leader training identified as the Senior Leadership 
        Academy, (c) options for manager and supervisor training, (d) 
        objectives for program related assessment and evaluation 
        through engagement with the National Center for Organizational 
        Development and (e) linkages with the VA Transformation 
        Communication Strategy.
          Effectiveness of this program will be assessed based on the 
        training approach, methods and modalities used to close the gap 
        between performance requirements and current performance levels 
        through conduct of formative and summative evaluations to 
        monitor the outcomes of training. Assessment will determine the 
        level of knowledge transfer and the individual application of 
        training to measure the quality of a learner's knowledge and 
        performance as compared to training objectives.
          Executive Coaching: This contract provides for the design and 
        implementation of coaching interventions for selected VA 
        executives across the country. Executive Coaching opportunities 
        will focus on career SES and Title 38 equivalents who have 
        demonstrated outstanding leadership for the Department. This 
        experience is for those individuals within selected program 
        cohorts such as The Executive Fellow Program as well as for 
        those individual SES or Title 38 equivalents not aligned with a 
        specific executive development program. Individual supervisors 
        will nominate executives or executives within a particular 
        program and the VALU Dean and Associate Dean will oversee the 
        nomination and selection process to ensure a strong business 
        case is made for executives wishing to access the coaching 
        experience.
          Evaluations of individual coaching intervention effectiveness 
        shall be conducted at two intervals during the 12 month 
        performance period, to include a mid-term and summary 
        evaluation at end of the 12 month period. The evaluations shall 
        include, but may not be limited to the following:

        <bullet>  Availability and willingness of executives to 
        participate in coaching;
        <bullet>  Development of meaningful coaching relationships that 
        are assisting executives in meeting the objectives of his/her 
        Professional Development Plan (PDP);
        <bullet>  PDP is conceptualized and in development by 
        completion of the fifth hour of the Executive's coaching 
        program;
        <bullet>  Usefulness of assessment instruments utilized;
        <bullet>  Review of coaching schedule/summary coaching hours 
        utilized to date and remaining hours; and
        <bullet>  Recommendations for future action.

    Question 8. Question 6(A) asked for an itemized list of how $98.5 
million would be expended with regard to ``Mission Critical Training'' 
initiative. VA's response indicates that over $83 million would be 
expended on contracts described as follow: IT Training, Project 
Management Training, Customer Service, H.R. Academy, and Other Mission 
Critical. Please provide an explanation of the purpose of each of those 
contracts and what metrics would be used to gauge whether those funds 
are used effectively.
    Response. During fiscal year 2010, the Mission Critical Training 
Initiative focused on the following contracts and agreements:

          National Center for Organizational Development (NCOD): NCOD 
        will expand the VHA All Employee Survey (AES) to encompass all 
        VA employees once per year and will provide the necessary 
        coordinator training, organizational mapping, marketing 
        activities, administration coordination, data analysis and 
        presentation, and support for action plan development. Also, 
        NCOD will implement the Civility, Respect, and Engagement in 
        the Workforce (CREW) initiative across all of VA to include 
        site selection, pre- and post-organizational assessments, train 
        the trainer activities, CREW tool development, and ongoing, 
        dedicated support for each site by an NCOD companion. NCOD will 
        conduct onsite Organizational Assessments for identified VA 
        Organizations to assess specific areas of focus (e.g., 
        Information Technology, Human Resources). Results from the 
        assessments will guide and support training development to 
        ensure that curriculum meets identified gaps. These assessment 
        efforts will in turn support the evaluation of training 
        provided.
          The effectiveness of the HCIP training initiatives will be 
        monitored by NCOD. NCOD will evaluate the human capital 
        investment activities to develop supervisors, managers, and mid 
        and entry level leaders through the analyses of self-report of 
        candidates, progress on closing gaps on their 360 degree 
        assessments pre-, during, and post-training, and through 
        analysis of organizational performance metrics effected by the 
        candidates. NCOD will conduct assessments utilizing multiple 
        measures (surveys, focus groups, interviews, etc.) to 
        objectively evaluate organizations within VA, including 
        employees and leadership.
          Office of Information and Technology (OI&T) Workforce 
        Training Program: Contractor support is needed to both maintain 
        VA's OI&T Supervisor competency model and implement it for CIOs 
        and application software developers. The scope of the required 
        role-specific professional development activities covers the 
        following primary tasks:

        <bullet>  Provide administrative support for the establishment 
        of a program office to establish processes and provide 
        administrative support for program review, development of 
        program milestones, resource allocation, and monitor milestone 
        progress;
        <bullet>  Provide operations and maintenance support for the 
        Information Security Officer (ISO) Competency Model and develop 
        courseware to fill gaps in the supervisor curriculum;
        <bullet>  Implement the CIO Professional Development Program;
        <bullet>  Initiate and implement Application Software 
        Developers Professional Development Program;
        <bullet>  Provide operations and maintenance support for the 
        OI&T Supervisory Program and develop courseware to fill gaps in 
        the Supervisory Training Program curriculum;
        <bullet>  Develop and implement an On-Boarding Program to 
        orient and integrate new employees into the Office of 
        Information and Technology;
        <bullet>  Develop and implement an intern program to begin 
        building bench strength and a labor pool in newer technologies; 
        and
        <bullet>  Develop and implement a vendor-supplied certification 
        and voucher program that includes IT-related technical and 
        professional development certification.

          Effectiveness may be determined by delivery of training 
        courses, progress on closing gaps based on the CIO competency 
        model, number of CIO certifications, and roll out of CIO 
        Community Portal. Assessment will determine the level of 
        knowledge transfer and the individual application of training 
        for ISOs, application software developers, supervisors, and 
        participants in the IT certification program. OI&T will use a 
        new employee satisfaction survey focusing on each component of 
        the hiring and on-boarding process to analyze return on 
        investment data.
          HR Academy: The H.R. Academy will support the more than 3,800 
        VA H.R. professionals ranging from GS-7 to GS-15 in their 
        career development, skills, and abilities. A gap analysis of 22 
        core competencies and specialized skills determined several 
        areas in need of improvement. By closing the known gaps through 
        a standardized, organized H.R. Academy and associated 
        curricula, VA H.R. professionals will gain the ability to 
        advance their proficiencies in order to provide improved 
        service to clients and customers. Academy plans call for the 
        implementation of certification programs as well the creation 
        of a cadre of exemplary H.R. professionals who can provide 
        consultation and operational service at the highest levels of 
        industry standards. The H.R. Academy will be a virtual 
        ``Academy'' that provides course curricula at three levels of 
        practice: Practitioner, Expert Practitioner, and Advanced/
        Leader. The curricula will consist of online and classroom 
        training programs that are easily available through a variety 
        of vendors and modalities, cost-effective, and demonstrably 
        able to close proficiency gaps.
          The success and effectiveness of the H.R. Academy shall be 
        evaluated by analyzing pre/post end of course assessment 
        scores; end of curriculum evaluation; longitudinal self and 
        supervisor evaluations of learning and the Academy experience; 
        and increased scores on the Hiring Managers Survey, over time.
          VA Acquisition Academy: Specifically mandated by the Office 
        of Federal Procurement Policy, is the requirement to establish 
        Federal Acquisition Certification-Program/Project Managers 
        (FAC-P/PM) as a structured career development program for P/PMs 
        throughout Federal civilian agencies. This project will enable 
        VA's FAC-P/PM Program to train the Acquisition and Information 
        Technology workforce and other employees requiring project and 
        program management training and/or certification to meet the 
        FAC-P/PM competencies. In addition, the project will acquire 
        commercial or government training in support of Supply Chain 
        Management (SCM) and other acquisitions and logistics 
        management curricula, provide training for employees requiring 
        Contracting Officer's Technical Representative (COTR), and 
        support the formation of the VA Facilities Management Academy 
        program.
          Effectiveness determination may include the number of FAC-P/
        PM certifications as well as the number of training experiences 
        and verification of total program completion by the 
        participants. Assessments will determine the level of knowledge 
        transfer and the individual application of training to measure 
        the quality of a learner's knowledge and performance as 
        compared to training objectives and full delivery of courses to 
        close FAC-P/PM competency gaps.

    Question 9. Question 7(a) asked for an itemized list of how $31.8 
million would be expended with regard to ``Program Based training'' 
initiative. VA's response indicates that over $30 million would be 
expended on ``Contracts''. Please provide a more detailed explanation 
of how those funds would be expended and the purpose of any such 
contracts.
    Response. During fiscal year 2010, the Program Based Training 
Initiative focused on two primary contracts as described below.

          Program Based Training: The purpose of this project is to 
        design, develop, and implement program based training for 
        cross-cutting career fields not previously identified for 
        action. Examples of career fields include all VA Staff Offices 
        and new groups set up to implement the 13 major initiatives, 
        which represent the Department's highest priorities and include 
        Management Analysts, Program Analysts, Budget Analysts, 
        Accountants, Auditors, Executive and Staff Assistants, Human 
        Resources Liaisons, Paralegals and Legal Assistants, Project 
        Managers, and Contracting Officers Technical Representatives. 
        Training programs will meet the immediate needs of about 40,000 
        professionals in critical and core functional career fields. 
        Examples of topics appropriate to these immediate needs include 
        Decision making and supporting analysis tools, organizational 
        analytics, problem-solving, security and emergency 
        preparedness, procedures, standards and requirements for 
        various professional fields, and legal limitations and 
        ramifications. These training programs shall be offered in a 
        wide variety of training methodologies including e-Learning, 
        facilitated and instructor-led group events, and independent 
        study.
          In addition, Executive Order 13522 established a cooperative 
        and productive form of labor-management relations and requires 
        implementation of Labor-Management Forums throughout the 
        executive branch. This contract will train VA managers and 
        supervisors, senior officials, labor relations specialists and 
        union officials throughout the agency on how to establish and 
        maintain effective labor management forums, and how to work in 
        collaboration with the unions. This contract will provide 
        instructor-based training interventions regarding the EO and 
        all required instructional equipment and materials for the 
        training sessions. Web-based versions of all instructor-based 
        training materials shall also be created. The selected 
        contractor shall also develop and deliver train-the-trainer 
        training sessions in Washington, DC to 400 students. Union 
        representatives shall comprise 200 of the 400 students while VA 
        labor relations specialists will comprise the remaining 200. 
        These 400 students along with appropriate numbers of contractor 
        instructors shall deliver joint training on EO 13522 to 26,000 
        VA managers and supervisors and approximately 10,000 union 
        officials.
          Career Mapping: The overarching goal is to ensure that all VA 
        employees have access to the functional training and education 
        necessary to enhance their job performance and their 
        development as leaders. There are existing programs within the 
        VA that identify education, training and development 
        requirements and administer them. Our goal is to have a system 
        of recruitment, training, education and development which will 
        support the right person for each job. This includes the 
        ability for those whose positions are phased-out to be 
        retrained for another position. The initial focus is on 
        mission-critical positions that target approximately 44,000 VA 
        employees. This contract will survey, collect and analyze data 
        to assess VA workforce (non-clinical) and collect and analyze 
        existing career development programs to develop the ``as-is'' 
        and ``to-be'' model for the VA Career Mapping and Development 
        Program; develop a framework and model for the Career Mapping 
        and Development Program that will build capacity for VA 
        management and create a centralized talent pool; develop and 
        define broad career groups that promote the growth of 
        multifunctional employees and leaders across the VA; and career 
        mapping to create the cross link from career groups to the 
        competency models.

    Question 10. Question 9(A) asked for an itemized list of how $6.5 
million would be expended with regard to an ``Enhancement of VA's 
Learning Management System'' initiative. VA's response indicates that 
over $5.5 million would be expended on ``Contracts.'' Please provide a 
more detailed explanation of how those funds would be expended and the 
purpose of any such contracts.
    Response. Enhancement of VA's Learning Management System (LMS) will 
not be implemented in fiscal year 2010 using funding provided through 
the General Operating Expenses appropriation. In FY 2011, the Office of 
Information and Technology has budgeted $433,000 for development of a 
system upgrade (version 6.2), almost $2.7 million for development and 
sustainment costs of Individual Development Plan/360 Assessment 
Installation, and $4.1 million for development and sustainment costs 
for annual maintenance, LMS hosting, I-content and custom courses, LCMS 
Learning and OPM support. These enhancements will strengthen the 
existing system and develop further capabilities to meet OPM's 
requirements for agency competency management. VA LMS is a web-based 
tool that provides a single point of access for managing learning 
activities and sharing learning resources across the entire Department.

    Question 11. Question 10(A) asked for an itemized list of how $14.5 
million would be expended with regard to ``the Evaluation initiative.'' 
VA's response indicates that $14 million would be expended on contracts 
described as follows: Evaluation design/Development and Evaluation 
Reporting. Please provide an explanation of the purpose of those 
contracts and what metrics would be used to gauge whether those funds 
were used effectively.
    Response. The Evaluation initiative will not be implemented in 
fiscal year 2010 using funds provided in the General Operating Expenses 
appropriations. However, in FY 2011, the Office of Information and 
Technology has budgeted $14.4 million to develop, stand up and 
integrate with the VA LMS an enterprise evaluation system to quantify 
the effectiveness and return on investment of department training 
initiatives. These funds will be used to develop a rating system for 
LMS courses and enable electronic course evaluations and employee 
feedback to compare the quality of one course over another course. 
Effective use of funds will be determined through development of a 
fully functioning system able to collect data necessary to quantify 
training effectiveness. Real-time and transparent ratings of courses 
will assist employees to select courses appropriate to their needs and 
over time develop a library of recommended courses.

    Question 12. Question 11(A) asked for an itemized list of how $23.5 
million would be expended with regard to a ``Workforce Planning'' 
initiative. VA's response indicates that over $2.8 million would be 
expended on 20 FTE and $18 million would be expended on ``Contracts.'' 
What is the average salary of those 20 FTE? With respect to funds for 
contracts, please provide a more detailed explanation of how those 
funds would be expended and the purpose of any such contracts.
    Response. The average annual salary with personnel benefits for the 
Workforce Planning staff was estimated to be $107,776. The contract 
will create a workforce planning program that will centrally coordinate 
and roll up a workforce plan for the entire Department, allowing for 
corporate analysis, organizational learning, and the ability for VA 
continuously to meet the demands of its critical missions using 
expertise ``on the ground'' and high-level information. This program 
will allow VA to effectively plan for its future workforce by 
determining the exact skill-mix necessary to meet the future needs of 
the organization. The workforce planning system shall at a minimum:

    <bullet>  Identify VA workforce competency/skill needs;
    <bullet>  Provide focus for workforce demographics, retirement 
projections, and succession planning;
    <bullet>  Provide a clear rationale and strategy for linking 
compensation for recruitment, training, employee development, 
retention, and other human resource programs to the organization's 
long-term goals and objectives;
    <bullet>  Provide managers with tools to address changes in program 
direction that impacts and changes the type of work being performed;
    <bullet>  Assist managers in creating a high quality workforce 
capable of continually growing and changing in response to evolving 
challenges and requirements; and
    <bullet>  Assist managers in identifying partnering, outsourcing, 
delivering, and reorganizing opportunities.

    Question 13. Question 12(A) asked of an itemized list of how $3 
million would be expended with regard to a ``Health and Wellness'' 
initiative. VA's response indicates that $3 million would be expended 
on ``Contracts.'' Please provide a more detailed explanation of how 
those funds would be expended and the purpose of any such contracts.
    Response. This Health and Wellness initiative is a contract 
implemented through an interagency agreement between VA and the 
Department of Health and Human Service, Federal Occupational Health 
(FOH). The objective of the Wellness/Fitness program is to promote 
positive life-style changes, promote health and fitness and where 
possible, prevent illness. This service will provide VA the ability to 
encourage employees to engage in healthier lifestyles, resulting in 
higher rates of recruitment and retention. The FOH Wellness/Fitness 
Program includes access for all VA employees to an on-line health 
information program offering: a comprehensive lifestyle management 
center, on-line health risk assessment, tracking programs, personal 
improvement programs, and an online health encyclopedia. Also, FOH 
offers educational seminars and the availability of coaching provided 
by Wellness/Fitness Specialists.

    Question 14. Question 13(A) asked for an itemized list of how $2.7 
million would be expended with regard to an initiative to ``focus on 
labor-management partnership.'' VA's response indicates that $2 million 
would be expended on ``Contracts.'' Please provide a more detailed 
explanation of how those funds would be expended and the purpose of any 
such contracts.
    Response. This contract was combined with the Program Based 
Training contract. Executive Order 13522 established a cooperative and 
productive form of labor-management relations and requires 
implementation of Labor-Management Forums throughout the executive 
branch. This contract will train VA managers and supervisors, senior 
officials, labor relations specialists and union officials throughout 
the agency on how to establish and maintain effective labor management 
forums, and how to work in collaboration with the unions. This contract 
will provide instructor-based training interventions regarding the EO 
and all required instructional equipment and materials for the training 
sessions. Web-based versions of all instructor-based training materials 
shall also be created. The selected contractor shall also develop and 
deliver train-the-trainer training sessions in Washington, DC to 400 
students. Union representatives shall comprise 200 of the 400 students 
while VA labor relations specialists will comprise the remaining 200. 
These 400 students along with appropriate numbers of contractor 
instructors shall deliver joint training on EO 13522 to 26,000 VA 
managers and supervisors and approximately 10,000 union officials.
           office of acquisition, logistics, and construction
    Question 1. Question 3(A) requested an itemized list of how $23.6 
million would be expended with regard to an ``Acquisition Improvement 
Initiative.'' VA's response provides an explanation of how the funds 
would be used but does not include a list of specific expected 
expenditures. Please provide a list of the types of expenditures that 
would be made with the $23.6 million and the amounts that would be 
spent on each type of expenditure.
    Response. The following list provides the types of expenditures VA 
plans for the $23.6 million and their respective amounts.

    <bullet> Wounded Warrior Program.............................$3,913K
    <bullet> Non-resident Intern Program.........................$4,825K
    <bullet> Improve VA Acquisition Academy Training Model:
        - Contracting Professional School........................$4,888K
        - Program Management School..............................$1,748K
    <bullet> Tuition Reimbursement for VA Professionals..........$2,080K
    <bullet> Funding assistance for Logistics Transformation for 
      the VHA Medical/surgical Prosthetics Advanced Supply Chain 
      Capability Project.........................................$6,148K
    general medical care/medical construction/information technology
    Question 1. In response to question 3 you assert it is a rational 
assumption to assume no carryover of funds despite VA's past history. 
The definition of ``obligation'' according to the Office of Management 
and Budget is ``a binding agreement that will result in outlays, 
immediately or in the future.'' Therefore, if VA's budget submission 
assumes that all obligations will be incurred in a given fiscal year, 
i.e., there will be no unobligated balances, and that does not happen 
(as it regularly does not * * * in considerable amounts), is it not 
true that VA has more resources than it budgeted for available for 
obligation to meet medical care needs in the subsequent fiscal year? 
Further, since you raised the issue in your answer, why shouldn't 
appropriations be adjusted should it be the case that VA carries money 
over that it didn't expect to? Is this kind of accounting common in 
other Federal agency budget submissions, i.e., the assumption that 
there will be no unobligated balances carried over into a subsequent 
fiscal year?
    Response. Our response to question 3 does not mention obligations. 
It refers only to demands and requirements. The fact is we do not 
reflect any carryover into the budget year and we also do not reflect 
any carryover out of the budget year. If we were to reflect both the 
start of the year carry-in and the end of the year carry-out, the 
effect would be the same as the current practice of not recognizing any 
carryover unless the amounts were dramatically different. Yes, VA's 
budget assumes that no medical care funds will be carried over from 
fiscal year (FY) 2010 to FY 2011. This is because the budget request 
for FY 2011 represents VA's estimate of the resources needed to meet 
the actuarially projected demands of health care services for Veterans 
in that year.

    Question 2. In response to question 9 you assert that the estimate 
I asked about is ``not far off the mark.'' Please reference page 1C-15 
of Volume 2 of the VA Budget Submission. You will see the FY 2010 
Budget Estimate for the Average Daily Census for Home & Community Based 
Care at 90,654 and the Current FY 2010 Estimate of 38,240, a 
significant downward re-estimation. Please clarify your response to 
question 9 in light of this information.
    Response. The Home and Community-Based Care line on page 1C-15 is a 
misprint and should have read as follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


This line is reflective of the actual/estimates found for Home and 
Community-Based Care in the Long-Term Care section of Selected Program 
Highlight, page 1K-15.

    Question 3. In response to question 12 it appears you have provided 
information based on years I was not asking about. The question relates 
to the information provided on page 1C-14 of Volume 2 of the Budget 
Submission. Under unique veteran users (not total users) the FY 2009 
actual is 5,221,583 and the original FY 2010 Budget Estimate is 
5,535,755, 6% estimated growth. With the current estimate in FY 2010 at 
5,392,896, the estimated growth is now slightly over 3%. Again, please 
explain the upward revision of FY 2010 outpatient visits and inpatients 
treated in light of the downward revision of unique veteran users.
    Response. The faster growth in outpatient visits and inpatients 
treated over the slowing growth of Veteran unique patients is 
reflective of the medical services associated with an aging Veteran 
population that is demonstrating increasing utilization of health care 
services.

    Question 4. In response to questions 19 and 20 it appears your 
estimates for FY 2010, FY 2011, and FY 2012 for the items specified in 
those questions are based on 4-year averages of actual data from FY 
2005 to FY 2009. Is this the methodology VA has always used to budget 
for these items? Wouldn't an abnormally high, one-time expenditure skew 
the picture of what the actual budgetary need is for these items?
    Response. In the past, estimates were based on the percent change 
reflected in latest actual obligation data. This methodology was 
revised to a 4-year average to take into consideration highs and lows 
which may occur from one year to the next. In order to keep from 
skewing results, abnormally high or abnormally low one-time 
expenditures are excluded.

    Question 5. In response to question 21 you attribute the large 
increase in medical support and compliance ``outpatient care'' 
obligations to a 58% increase in contract services. Please explain the 
justification for the large increase in contract services.
    Response. We have not identified a discernable cause for this 
increase. We only know that budget object class 2580 (non-medical 
contracts and agreements with institutions and organizations) increased 
by 58%. This object class includes contractual services with public or 
another Federal agency. Examples include contracted security guards; 
transcription services contracts; advertising expenses; licensing for 
bus drivers; and court reporter contracts for EEO cases. To obtain the 
granularity necessary to determine exactly where the increase occurred 
we will have to send a inquiry to each field location.

    Question 6. Your responses to questions 18, 22, and 26 with regard 
to employee travel focuses on the methodology used in arriving at the 
estimates, but do not discuss the justification for these substantial 
increases. What kinds of expenditures are categorized as ``employee 
travel'' under these accounts? Notwithstanding the methodology used, 
are the significant increases in this kind of spending plausible? If 
so, please explain.
    Response. The increase in Employee Travel and Transportation of 
Persons in Medical Services from FY 2008 to FY 2009 was 60% and was 
driven in most part by a 69% increase in beneficiary travel (patient 
travel) which reflected the increase in the beneficiary travel mileage 
reimbursement rate from 28.5 cents to 41.5 cents per mile, a 46% 
increase. The subsequent increase in FY 2010 through FY 2012 takes into 
consideration the increase in beneficiary travel mileage reimbursement 
rate from 28.5 cents to 41.5 cents per mile and anticipated usage by 
Veterans. Increases found under Medical Support and Compliance and 
Medical Facilities are based on a 4-year average. Employee travel may 
consist of training for employees, travel of witnesses for 
Congressional hearings, permanent duty travel and administrative 
reasons. Estimates are based on the best information available at the 
time of the submission. Projections for FY 2011 and FY 2012 will be 
reviewed again pending completion of the FY 2012 submission.

    Question 7. Your responses to questions 23 and 27 with regard to 
communication expenditures focuses on the methodology used in arriving 
at the estimates, but do not discuss the justification for these 
substantial increases. What kinds of expenditures are categorized as 
``communications'' under these accounts? Notwithstanding the 
methodology used, are the significant increases in this kind of 
spending plausible? If so, please explain.
    Response. The Communications line item consists of telephone and 
wireless services and regular and express mail services. The 12 percent 
increase is based on historical trends from FY 2005 through FY 2009. 
The majority of the obligations are for mail services, which reflects 
the continued increase in postal rates. Projections for FY 2011 and FY 
2012 will be reviewed again pending submission of the FY 2012 
President's Budget.

    Question 8. In your response to question 28 you indicate you have 
found new uses for money appropriated in prior fiscal years. You 
``release'' this money by simply notifying Congress that you are using 
it for a different purpose, consistent with the requirements of the FY 
2010 Consolidated Appropriations Act. Section 221 of the Act states 
that transfers may occur ``between projects'' after notification, but 
it appears you have instead created entirely new projects with 
transferred money. Is it VA's legal opinion that VA can transfer 
previously appropriated money to newly invented projects that didn't 
exist when the money was appropriated in the first place? Was any money 
spent on these new projects prior to the Congressional notification? 
What projects received ``decreased'' spending so that these new 
projects could be funded?
    Response. (1) The Consolidated Appropriations Act, 2010, Public Law 
111-117 authorized the Department of Veterans Affairs (VA) $3.307 
billion plus reimbursements for necessary expenses for information 
technology systems and telecommunications support, including 
developmental information systems and operational information systems; 
for pay and associated costs; and for the capital asset acquisition of 
information technology systems, including management and related 
contractual costs of said acquisitions, including contractual costs 
associated with operations authorized by section 3109 of title 5, 
United States Code.
    The appropriation language provides VA with the authority to move 
funds after Congressional notification to meet the priorities of the 
Department. Specifically, the following proviso contained in the 
appropriations act grants VA this authority:

        Provided further,
        That not later than 30 days after the date of the enactment of 
        this Act, the Secretary of Veterans Affairs shall submit to the 
        Committees on Appropriations of both Houses of Congress a 
        reprogramming base letter which sets forth, by project, the 
        operations and maintenance costs, with salary expenses 
        separately designated, and development costs to be carried out 
        utilizing amounts made available under this heading.

    (2) No. Funds were not spent on any new projects prior to 
Congressional notification.
    (3) In February 2010, we provided the Fiscal Year (FY) 2010 
reprogramming baseline plan in accordance with the Consolidated 
Appropriations Act, 2010, Public Law 111-117. This plan set forth VA's 
projects and initiatives to be executed in FY 2010. It also provided 
notification of those VA projects to be accomplished with FY 2009 
carryover funds.

    Question 9. In response to question 29B you assert that the 
Department is ``well positioned'' to execute projects once funding is 
available. However, as I outlined in the question, the administration's 
requests (and Congress's historical trend of funding for major 
construction), makes timely execution unlikely because funding in the 
amounts required will likely not be available. Given this reality, what 
is the plan to address the needs expressed in the 5-year capital plan 
going forward?
    Response. The Department is currently implementing a Strategic 
Capital Planning (SCIP) process by adopting a future-oriented view of 
capital assets. Beginning with the FY 2012 budget submission, the 
process will be the basis for VA's budget request. The 10-year SCIP 
Plan will replace the 5-Year Capital Plan which is submitted along with 
the Departments annual budget submission.
    The SCIP plan will ensure VA's capital programs and related 
resources (major construction, minor construction, non-recurring 
maintenance, and leasing) are prioritized and integrated in a manner 
which provides the optimum benefit to Veterans. The SCIP process and 
plan will improve the quality, access, and cost of providing care and 
benefit services. It will also be updated annually to fully reflect 
changes to the Veteran demographics, medical and non-medical 
technology, and health care and benefit service delivery.
    Regarding your concern about the ability to execute construction 
projects, VA requested an increase of resident engineers in FY 2011. 
These additional FTEE will help VA perform the timely execution of 
appropriated funds.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Jon Tester to Hon. 
    Eric K. Shinseki, Secretary, U.S. Department of Veterans Affairs
              education liaison representative for montana
    Question 1. Secretary Shinseki, you stated that one of your 
strategic goals that you've established in your plan is to ``increase 
Veteran-Client satisfaction with health, education, training, 
counseling, financial and burial benefits and services.'' I strongly 
support you in this effort. However, as we discussed in my office, I am 
not convinced that veterans in Montana are getting that satisfaction 
when it comes to pursuing their GI Bill benefits. One part of the 
problem is that when Montana veterans call their Veteran's Education 
Liaison Representative, they get someone based out of Denver. That 
person comes to Montana one time a year, which means they have no 
opportunity to help schools build the expertise they need to 
efficiently handle education claims. For example, none of the schools 
on Indian reservations are trained to use the VA database for education 
claims processing.
    We need folks in Montana serving Montana veterans. If you haven't 
been there and you don't understand the distances and the frontier 
nature of the state, it's really hard to understand the unique needs 
facing our veterans. I understand that the ELR for Montana is retiring 
soon. Will you look at putting that person's replacement in Helena?
    Response. The St. Louis Regional Processing Office (RPO) has an 
Education Liaison Representative (ELR) that is responsible for Montana. 
While the ELR is physically located in Denver, she is dedicated to 
assisting Veterans and schools in Montana. Montana currently has 30 
active institutions of higher learning and 16 non-college degree 
programs. The ELR coverage for Montana is comparable to other states.
    The ELR is available on a daily basis by telephone and email, and 
she is required to make annual visits to ensure school compliance and 
fulfill liaison activities. In addition to services provided by the 
ELR, VA contracts with the State of Montana to approve programs for 
Veterans in Montana. As part of the contracted services, the State 
Approving Agency provides outreach services for Veterans and schools.
    Management from the St. Louis RPO also meet annually with the State 
Approving Agency for Montana to address any concerns. As an additional 
method of communication, VA has monthly calls with the school 
certifying official (SCO) from Montana State University Bozeman, one of 
the largest universities in the area. This SCO represents all of 
Montana's SCOs during the meeting and provides information on any 
Veterans' issues. VA also disseminates information to the other SCOs in 
Montana. This outreach effort has been in effect for several years and 
successfully keeps lines of communication open between VA and schools.
    Montana's ELR will retire in the near future. The St. Louis RPO 
will find a replacement for the Montana ELR as soon as possible. The 
new ELR will continue to work to strengthen communications with 
Veterans, educational institutions, and other stakeholders.
                 yellowstone county, montana, cemetery
    Question 2. I appreciate your plan to reduce the required 
population density for national cemetery construction. You and I 
discussed briefly the Yellowstone County Veterans Cemetery in my 
office. What stage is the VA at in conducting the study required by the 
FY 10 appropriations bill to evaluate the feasibility of siting a new 
national VA cemetery in the northern tier?
    Response. The National Cemetery Administration (NCA) was asked to 
address the lack of any open VA national cemeteries in North Dakota, 
Montana, Idaho, Wyoming and Eastern Washington and to examine the 
feasibility of increasing access to a national cemetery burial option 
in this area by establishing a new national cemetery with consideration 
given to the current Yellowstone County Veterans Cemetery in Laurel, 
Montana. VA's current policy is to establish new national cemeteries in 
areas of the country in which 170,000 or more unserved veterans live 
within 75 miles of a proposed cemetery. The FY 2011 budget submission 
includes new burial policies that lower the population threshold to 
80,000. Veterans who live within 75 miles of a national or State 
Veterans cemetery that has unoccupied gravesites for either casketed or 
cremated remains are considered to have reasonable access to a burial 
option.
    NCA applied the current and proposed policies in assessing service 
to Veterans in the above referenced area. NCA's analysis showed that 
16,400 Veterans are estimated to live within 75 miles of the 
Yellowstone County Veterans Cemetery located in Yellowstone, Montana as 
of the end of fiscal year 2010, well short of the 170,000 or 80,000 
veteran population thresholds for establishing a new national cemetery.
    Since 1987, VA has contracted four independent studies to determine 
areas of the country that are most in need of a new national cemetery. 
The 1987 and 1994 studies provided the 10 areas with the largest number 
of unserved Veterans (as of the years 1990 and 1996, respectively). No 
locations in the northwestern U.S. areas of North Dakota, Montana, 
Wyoming, Idaho, or Eastern Washington were identified in these reports. 
In 2000, VA contracted for an independent study that provided a list of 
all areas of the country with projected unserved Veteran populations of 
at least 70,000 within a 75-mile service area between the fiscal years 
2005-2020. In this report, only Spokane, WA with an estimated FY 2005 
Veteran population of approximately 74,000 was identified. No locations 
in North Dakota, Montana, Wyoming, or Idaho were identified in this 
study. In 2008, VA contracted for a study to determine the top 10 
unserved Veteran populations as of the fiscal years 2010-2030 in 5-year 
increments. In this study, the Spokane area in Eastern Washington, with 
an estimated FY 2010 Veteran population of 83,600, was identified. As 
with the 2000 study, no locations in North Dakota, Montana, Wyoming, or 
Idaho were identified.
    VA currently serves Veterans in North Dakota, Montana, Wyoming, and 
Idaho through several state owned and operated Veterans cemeteries that 
have received funding through VA's State Cemetery Grants Program 
(SCGP). Montana currently operates three State Veterans cemeteries 
supported by the SCGP. North Dakota, Idaho, and Wyoming each operate 
one State Veterans cemetery that has received SCGP funding. At present, 
construction is under way on a new State Veterans cemetery supported by 
the SCGP in Medical Lake, WA that will serve Veterans in eastern 
Washington (Spokane). The Medical Lake State Veterans Cemetery is 
expected to begin interments in late FY 2010. VA is also processing 
applications for two new State Veterans cemeteries in Idaho in Kootenai 
and Benewah Counties and an application to develop additional 
gravesites that will extend the service life of the State Veterans 
cemetery in Evansville, WY.
    The table that follows illustrates the scope of burial access in 
the states referenced:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    VA works closely with states to help ensure that State Veterans 
cemeteries adopt the same high operational and maintenance standards 
that NCA uses to maintain VA national cemeteries as national shrines. 
VA also provides funding through the SCGP for gravesite expansion and 
improvement projects at State Veterans cemeteries to ensure that 
Veterans continue to be served by these cemeteries for years to come. 
As such, VA considers State Veterans cemeteries to be an effective 
complement to VA's network of national cemeteries to ensure that the 
burial needs of Veterans and their eligible family members are met.
                         information technology
    Question 3. If I have one area of serious concern with this budget 
request, it is in the area of information technology. I know that the 
VA is working with DOD and private partners on the lifetime electronic 
records initiative. At the same time, I understand that there are other 
ongoing IT initiatives at the VA covering everything from GI Bill 
implementation to paperless benefit claims. This Committee also 
recently approved the inclusion of amendment that would direct the VA 
to create an automatic enrollment program.
    How will flat-funding the IT budget affect these critically 
important initiatives? I know that IT is not as flashy as some other 
aspects of the VA, but after looking at the reams of paper required for 
disability claims and the belated emphasis on DOD/VA interaction, I 
firmly believe that this is one of the most critical ways that the VA 
can achieve long-term cost savings.
    Response. Within the $3.307 billion budget request, funding for 
maintenance and operations costs will be sustained to keep the systems 
at current capability and acceptable performance level. Within this 
funding level VA will also develop several new initiatives highlighted 
below.
    Project Management Accountability System (PMAS) with an incremental 
development and fiscally responsible approach, will slow down 
development spending and ensure early identification and correction of 
failing IT programs.

    <bullet> By halting programs that fail to meet their delivery 
milestones, VA will prevent wasteful spending and manage with 
accountability in delivering technologies to help transform the VA.

    Our Major Investments will continue to increase above the FY 2010 
level to meet the on-going demands for our Veterans and transforming 
VA:

    Veterans Benefits Management System (VBMS) with $145.3 million 
request, is an 104% increase of above 2010, will be designed to 
transition from paper-intensive claims processing to a paperless 
environment.
    The Post-9/11 GI Bill (Chapter 33) with $44 million request, a 28% 
increase above 2010, will provide the long term solution to deliver an 
end-to-end solution to support the delivery of tuition, university fee 
payments, housing allowance and yearly books and supply stipend.
    Financial and Logistics Integrated Technology Enterprise (FLITE) 
with $120 million request, a 52% increase above 2010, will effectively 
integrate and standardize financial/asset management data and processes 
across the VA.
    Virtual Lifetime Electronic Record (VLER) with $52 million request 
, a 23.42% increase above 2010, will have the capability for VA and DOD 
to electronically access and manage the health, personnel, benefits, 
and administrative information needed to efficiently deliver seamless 
health care, services, and benefits to Servicemembers and Veterans.
    Tele-health and Home Care Model with $48.6 million request, will 
enable VA to become a national leader in transforming primary care 
services to a medical home model of health care delivery with a new 
generation of communication tools that can be used to disseminate and 
collect information related to health, benefits and other services.
             quality versus quantity for disability claims
    Question 4. Given the Inspector General's recent assessment of more 
than 200,000 disability claims being incorrectly decided. Properly 
adjudicating claims certainly plays a role in your main priorities such 
as Eliminating Veteran Homelessness and it directly ties into your 
strategic goals of improving quality and accessibility to health care, 
benefits and client satisfaction.
    I'm interested in hearing how you are going to address quality and 
not just quantity, when it comes to claims processing. Additionally, we 
recently held a hearing on the benefits appeals process. As you explore 
the ideas of process simplification, are you considering whether the 
appeals process can be simplified as well? Obviously, any changes must 
preserve the rights of veterans to challenge VA rulings, but I also 
know that these cases get tied up for--routinely--anywhere from 2 to 5 
years, and that furthers the perception that the VA is being 
antagonistic to the veteran or, as one guy told me at a town hall 
meeting, that the VA is trying to ``outlive'' him.
    Response. VBA will continue to require quality performance metrics 
in the performance plans of all employees, including decisionmakers as 
well as managers from the Director level down. Appeals targets are 
included in the performance measurements for each regional office. VBA 
has also established two Appeals Resource Centers to expedite the 
processing of appeals claims. VBA believes that improvements that will 
be made to the claims process in general will simplify the appeals 
process as well. For example, calling the Veteran to expedite the 
receipt of evidence needed to make a decision in his/her claim is a 
strategy that will work both in the claims process and in the appeals 
process.
                                 ______
                                 
  Response to Post-Hearing Questions Submitted by Hon. Mark Begich to 
 Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans Affairs
    Question 1. How is the Veterans' Affairs Regional offices preparing 
for the surge of Veterans returning in 2010 and 2011?
    Response. VA projects the volume of incoming disability claims to 
continue to dramatically increase. This volume of new claims will 
require VA to employ innovative measures to be successful in meeting 
Veterans' needs. VBA has aggressively hired across the Nation, adding 
nearly 4,200 new permanent employees between January 2007 and September 
2009. Additionally, VBA hired 2,000 employees under the American 
Recovery and Reinvestment Act of 2009, many on temporary appointments. 
The increased staffing has led to increased organizational 
productivity. In FY 2009, VBA completed 977,219 ratings claims, an 18 
percent increase in productivity over the 824,844 claims completed in 
2007. We recognize that hiring more employees alone will not be 
sufficient to address the continued growth in claims workload. We are 
actively exploring process and policy simplification, short-term 
technology enablers, as well as the traditional approach of hiring 
additional employees to address this demand.

    Question 2. The unemployment rate of new veterans is increasing. I 
have heard from some veterans that employers are wary of hiring members 
of the National Guard and Reserves who have been mobilized at 
unprecedented rates. What can we do in Congress to counter the stigma 
associated with hiring this cohort and help veterans find more gainful 
employment?
    Response. Congress has authorized the Work Opportunity Tax Credit 
(WOTC) program to help individuals who qualify as members target groups 
to get a job, and to help employers who hire qualified individuals by 
giving them a credit on their Federal taxes. The tax credit includes 
Veterans who are members of a family that is receiving or has recently 
received food stamps and certain qualified disabled Veterans 
participating in or completing vocational rehabilitation programs. 
Continued support should be provided to programs that target disabled 
and disadvantaged Veterans, including the WOTC program, VA Vocational 
Rehabilitation and Employment services for disabled Guard and Reserve 
members, and the DOL VETS employment services. In addition, Congress 
may consider expanding WOTC and eligibility for employment assistance 
from VA and DOL programs to include members of the guard and reserve, 
regardless of disability conditions. The tax incentive would be 
expected to serve as a motivator for employers to hire and retain Guard 
and Reserve members and broader availability of employment services 
would allow VA and DOL to work with the employment community to 
increase job opportunities for qualified Guard and Reservists.

    Question 3. I understand the Departments of Defense, Labor and 
Veterans Affairs recently launched a new and improved National Resource 
Directory, which is designed to serve a broad base of users including 
wounded warriors, servicemembers, Veterans, their families and 
caregivers by providing a useful tool for supporting service providers, 
such as Recovery Care Coordinators, Federal Recovery Coordinators, 
health care providers and case managers at Veterans Service 
Organizations. Can you tell us a little more about this National 
Resource Directory?
    Response. The National Resource Directory 
(www.nationalresourcedirectory.gov) is an online tool for wounded, ill 
and injured Service Members, Veterans, their families, and those who 
support them. It provides access to more than 11,000 services and 
resources at the national, state and local levels to support recovery, 
rehabilitation and community reintegration.
    The National Resource Directory (NRD) is a collaborative 
partnership among the Departments of Defense, Labor and Veterans 
Affairs. The information contained within the NRD is from Federal, 
state and local governmental agencies; Veterans service and benefit 
organizations; non-profit and community-based organizations; academic 
institutions and professional associations that provide assistance to 
wounded warriors and their families.
    The NRD was created to support the needs identified by wounded, ill 
and injured Service Members, Veterans, and their families by providing 
a comprehensive online tool of available resources. The new features 
allow the Military and Veteran community to identify and stay informed 
about the thousands of resources that are available to them as well as 
browse for information they may not have known about in the past. 
Additionally, a faster, more accurate search engine provides the tools 
to sort results by subject area, audience and government or non-
government resources to ensure users locate exactly what they want, 
without having to sort through thousands of links themselves.
    For more than a year, the National Resource Directory has provided 
Wounded Warriors, transitioning Service Members and Veterans, and those 
who support them, with quick and easy access to resources they need. 
Resources on the National Resource Directory are vetted and must meet 
the participation policy standards before being added. This ensures 
that all the posted resources are relevant and from reputable sources.
    The new National Resource Directory is simple, easy-to-navigate and 
even more relevant to the needs of the Wounded Warrior, Veteran and 
caregiver communities. It also contains ``In the News'' and 
``Spotlight'' features to highlight important news and updates. To tell 
friends and family about the new National Resource Directory, use the 
``Bookmark and Share'' function to post updates on more than 200 social 
media networks such as Facebook or Twitter.
    The NRD is part of a larger effort to improve wounded warrior care 
coordination and access to information on services and resources, key 
goals identified by both the President's Com-mission on Care for 
America's Returning Wounded Warriors (Dole-Shalala Commission) and 
Title XVI, ``Wounded Warrior Matters,'' of the 2008 National Defense 
Authorization Act.
    The National Resource Directory offers information on the 
following:

    <bullet> Benefits & Compensation
    <bullet> Education & Training
    <bullet> Employment
    <bullet> Family & Caregiver Support
    <bullet> Health
    <bullet> Homeless & Housing
    <bullet> Transportation
    <bullet> Other Services & Resources
    <bullet> Key Contact Information

    Question 4. VA claims processing continues to be a challenge across 
the board. I understand the Department of Veterans Affairs recently 
selected 10 winners in a competition that solicited ideas from VA 
employees and co-located Veterans service organizations to improve 
claims processing and provide greater transparency to Veterans. What is 
the next step for these solicited ideas? What can we do in Congress to 
assist in implementing some of these ideas to improve the claims 
process?
    Response. More than 3,000 ideas from VA employees and co-located 
Veterans service organizations were submitted to the competition. The 
finalists were selected by Admiral Patrick W. Dunne, former VA Under 
Secretary for Benefits; Craig Newmark, the founder of craigslist.com 
and a well-known technology visionary; Dr. Peter Levin, Senior Advisor 
to the Secretary and VA Chief Technology Officer; and Garry Augustine, 
Deputy National Service Director for Disabled American Veterans.
    The Innovation Initiative winners are the Atlanta, Pittsburgh, and 
Togus regional offices. We are working with these regional offices to 
refine costs, timelines, and resource requirements. Plans for 
implementation of these proposals are being developed.
    Additional winners are the St. Louis Records Management Center, VA 
Central Office/St. Paul Pension Management Center, and the Phoenix and 
San Diego regional offices. Their ideas are identified for future 
implementation.
    VA has identified dedicated resources for the implementation of 
these innovation initiatives within the base request.

    Question 5. We understand your budget request for FY 11 has an 
increase in both discretionary resources and mandatory funding. I 
believe the discretionary budget request represents a 7.6 percent 
increase from the 2010 enacted level. In your opinion, where are you 
assuming risk in your funding request?
    Response. The 2011 budget request clearly reflects the President's 
commitment to Veterans. It is the second year of large increases in 
VA's discretionary budget. With this budget, total discretionary 
funding will increase almost 20 percent between 2009 and 2011.
    The 2011 budget distributes risk in order to maintain an 
appropriate balance of resources for Departmental priorities. Large 
funding increases received in 2010 for some programs, such as minor 
construction and information technology, were taken into account in 
developing the 2011 budget estimates. This allows VA to focus increased 
effort in other critical programs, including the disability 
compensation program. The 2011 budget includes an unprecedented 
increase in funding for the Veterans Benefits Administration of 27 
percent.
    The estimate for medical care costs in FY 2011 related to the new 
presumptions for Agent Orange exposure and Amyotrophic Lateral 
Sclerosis (ALS) is $205 million. To the extent that this is too low, we 
are assuming risk. The current backlog of Facility Condition Assessment 
(FAC) deficiencies is $9.4 billion. To the extent that this backlog 
continues to exist, we are assuming risk.

    Question 6. I know in our meeting on yesterday you discussed four 
pilots that are currently underway that focuses on improving VA care 
and systems. Can you tell us a little more about those pilot programs?
    Response. The Veterans Benefits Administration (VBA) has 
established pilot initiatives to improve claims processing and service 
to Veterans at the Little Rock, Providence, Pittsburgh, and Baltimore 
regional offices (ROs).
    In July 2009, VBA began a pilot in the Little Rock RO to test 
changes to claims processing, leveraging lean process improvement 
methods. Employees have been reorganized into teams that cover the end-
to-end claims process. This team structure and the process changes 
tested help establish a basis for future business process, 
organization, and technology requirements. The Little Rock claims 
processing pilot is an integral component of VBA's business process 
transformation and transition to paperless processing. The pilot 
concluded in May 2010.
    Best practices and lessons learned from the Little Rock pilot are 
being exported to the Providence RO, which has been designated as VBA's 
Business Transformation Lab (BTL). VBA is developing the capacity to 
store veterans' information, benefits applications and supporting 
documents electronically, supported by information systems that enable 
VBA employees to process, evaluate, and pay benefits without the use of 
paper-based forms. The BTL is serving as a testing ground of paperless 
processes in a live environment, including automated processing of 
incoming mail, evaluation of technological changes on performance 
metrics, and documentation and standardization of best practices for 
VA-wide implementation.
    In January 2010, the Pittsburgh RO began a Case-Managed Development 
Pilot. This pilot is identifying opportunities to improve service 
delivery to Veterans by reducing the time required to gather the 
evidence needed to support Veterans' claims. The pilot enhances the 
evidence-gathering process through proactive and individualized 
communications with Veterans via telephone, e-mail, and face-to-face 
meetings. The Pittsburgh RO anticipates a significant reduction in 
development time, resulting in more timely benefits delivery to 
Veterans and enhancing Veterans' confidence and trust in the Agency.
    The Virtual Regional Office (VRO) was co-located with the Baltimore 
and involved subject matter experts from around the country who 
provided input into the development of a new user interface. The VRO 
was active from January 6, 2010 until May 5, 2010, at which time VA 
received the documented business requirements and system specifications 
from the software vendor. These documents are then incorporated into a 
larger document, which will be used to develop the paperless production 
system, the Veterans Benefits Management System (VBMS). The larger 
business requirements document incorporates not only the system 
specifications, but also business requirements based upon lessons 
learned at the Business Transformation Lab in Providence, Rhode Island.

    Question 7. Alaska's Veterans need additional mental health 
services. The Alaska VA system's participation in the Alaska Psychiatry 
Residency would improve access to mental health care for Alaska's 
Veterans. What financial and political support is necessary for the 
Alaska VA system to be able to participate in the Alaska Psychiatry 
Residency?
    Response. VA is eager to enhance mental health services for all 
Veterans, including those in Alaska. Clinical education programs have 
been shown to be an important source for producing a pipeline of health 
care professionals in a particular geographic area, and should be 
encouraged in under-served areas.
    The Alaska VA Healthcare System (HCS) is actively exploring the 
possibility of participating in a psychiatry residency program. In 
general, the requirements for such participation are as follows:

    <bullet> An Accreditation Council for Graduate Medical Education 
(ACGME) accredited psychiatry residency program is willing to associate 
with the Alaska HCS.
    <bullet> The Alaska HCS is found to be a good learning site with 
experienced psychiatrists who are willing to teach.
    <bullet> Educational resources for trainees are available; these 
include space, technology, and information resources to support the 
training program.

    The Office of Academic Affiliations could support trainees in a 
psychiatry training providing the above minimum standards are met. The 
financial considerations should not be considered a major barrier in 
this endeavor.
    Recently, VA opened a Psychology Internship Program at the Alaska 
VA HCS. This is currently the only psychology internship program in 
Alaska, and is also a potential program for expansion to meet the 
mental health needs of the Alaskan veterans.

    Question 8. Rural Veterans are a major concern in my state and 
across the country. What are your plans to coordinate with the IHS and 
Community Health Centers in rural areas to provide ``seamless'' 
services for rural vets? For example, the vet should be able to go to 
the clinic in their village and not have to worry about paperwork or 
denials or to travel over 500 miles for an appointment.
    Response. Since the signing of a Memorandum of Understanding (MOU) 
between VA and Indian Health Service (IHS) in 2003, there have been and 
continue to be a number of cooperative arrangements and agreements. For 
example, tele-psychiatry clinical demonstration pilots are currently 
serving Native Americans on rural reservations in 8 sites covering 13 
tribes in 4 western states. In Alaska, a similar initiative is located 
at the Yukon-Kuskokwim Regional Hospital in Bethel. The same initiative 
is under negotiation at the Kotzebue Regional Medical Center. The Care 
Coordination Store and Forward (CCSF) project, in Kenai, Alaska 
includes tele-retinal imaging to screen for diabetic retinopathy, tele-
dermatology and tele-pathology. The Veterans Health Administration 
(VHA) has also initiated a project to expand fee-based authority for 
primary and mental health care serving Native Alaskans in the highly 
rural areas, a project with potential national implications.
    VA and IHS are partnering to allow IHS staff to view (read-only) 
VA's electronic medical record on the Rosebud Reservation in South 
Dakota. A project at the VA Outreach Clinic in Saipan, Commonwealth of 
the Northern Marianas Islands includes the use of contracted part-time 
providers, with on-island tele-health capability, negating the need for 
Veterans to travel to more distant locations for routine examinations. 
In collaboration with VA, IHS has developed a patch for Bar Code 
Medication Administration, which has been tested at Fort Defiance, AZ 
and connectivity has been established with the Tucson VA Centralized 
Mail Out Pharmacy (CMOP).
    In addition to supporting one another in the shared delivery of 
care to rural Veterans who are located on Native lands, the VA and IHS 
have embarked on an ambitious cooperative educational program. In FY 
2009, VA provided 133 training episodes to Tribal health care and IHS 
providers. In the first quarter of FY 2010, VA has already provided 80 
training programs. These educational sessions are conducted through 
satellite, video teleconferencing and web-based technologies 
strengthening our shared use of technology, and are highly valued by 
both Tribal and IHS providers.
    In closing, the Under Secretary for Health and the Chief Medical 
Officer for IHS agreed in January 2010 to update the 2003 MOU between 
VA and IHS.
                   regarding facilities/construction
    Question 9. Please provide a list of unfunded new construction 
priorities (location, amount, etc.) through FY 2015.
    Response. Below is a list of unfunded, new construction 
requirements, in priority order, that were considered for inclusion in 
the FY 2011 budget. Each year this list is reviewed and re-prioritized 
to allow for the inclusion of newly identified deficiencies, updates to 
safety and security standards, or facilities impacts of emerging health 
issues, such as the H1N1 virus and avian flu. Once Congress 
appropriates funds for a project, it no longer competes in the 
Department's construction prioritization process.

 
------------------------------------------------------------------------
                                                   Total       FY 2011
    Project Location--Description     Priority   Estimated     Request
                                          #     Cost ($000)     ($000)
------------------------------------------------------------------------
     FY 2011 Scored Projects\1\
 
Alameda Point, CA--Outpatient Clinic         1      210,600       17,332
 and Columbarium\2\.................
Omaha, NE--Replacement Facility.....         2      560,000       56,000
Lexington, KY--Leestown Campus               3      304,130            0
 Realignment........................
Lebanon, PA--Replacement Facility...         4      421,000            0
Reno, NV--Seismic & Life Safety              5       58,650            0
 Corrections B1.....................
West Los Angeles, CA--New Tower/B500         6      795,000            0
 Seismic Correction.................
Columbia, SC--Specialty Care                 7       59,930            0
 Renovation.........................
Northport, NY--Mental Health........         8       58,490            0
Asheville, NC--Seismic Corrections/          9       80,000            0
 Outpatient Expansion...............
Wichita, KS--Healthcare                     10       61,000            0
 Transformation.....................
San Francisco, CA--Seismic Bldgs 1,         11      128,370            0
 6, 8, and 12.......................
Hines, IL--Acute Inpatient Care             12      210,610            0
 Center.............................
Hampton, VA--Outpatient Care                13       66,000            0
 Addition...........................
West Los Angeles, CA--New Research          14      198,000            0
 Bldg...............................
Long Beach, CA--Building Demolition         15       50,000            0
 & Admin Consolidations.............
Castle Point, NY--Psych & NHCU              16       92,000            0
 Integration........................
Providence, RI--Specialties Addition        17      186,000            0
 & Main Hospital Repair.............
Coatesville, PA--Replacement                18      321,780            0
 Facility...........................
Columbia, MO--Ambulatory Care               19       39,000            0
 Addition...........................
Washington, DC--Outpatient Clinic           20      287,000            0
 Expansion..........................
Kansas City, MO--Ambulatory Care            21       80,000            0
 Addition...........................
Philadelphia, PA--Behavioral Health         22       34,000            0
 Bldg...............................
Brockton, MA--Mental Health.........        23      182,000            0
Portland, OR--Seismic Corrections           24      130,700            0
 Buildings 100 & 101................
South Bend, IN--Multi-specialty             25       72,780            0
 Health Care Center.................
Miami, FL--Clinical Add/Ren.........        26      161,870            0
Tampa, FL--Prim Care & Mental Health        27      168,110            0
Bay Pines, FL--Hurricane & Homeland         28       91,200            0
 Security Deficiencies..............
Waco, TX--Consolidate Outpatient            29      100,170            0
 Services...........................
Boston, MA--Clinical Addition at            30      471,000            0
 West Roxbury.......................
Salt Lake City, UT--B1/B12 Patient          31       40,360            0
 Complex Expansion/Renovation.......
Jackson, MS--New SCI/D Center.......        32       50,000            0
Baltimore, MD--Consolidation of             33      110,520            0
 Outpatient, Benefits and Research..
Ft. Wayne, IN--Multi-specialty Care         34      139,570            0
 HCC................................
Buffalo, NY--Clinical Addition......        35       28,000            0
Fargo, ND--Specialty Care Clinic            36       20,000            0
 Addition...........................
Hampton, VA--Extended Care Rehab            37       45,000            0
 Care Ren/Add.......................
Waco, TX--Mental Health & Rehab             38       81,000            0
 Center.............................
Waco, TX--Support Services and              39       41,000            0
 Education..........................
San Francisco, CA--Mental Health/           40      139,930            0
 Research Bldg......................
West Haven, CT--Clinical Ward Tower.        41      126,020            0
El Paso, TX--Joint DOD Amb Care.....        42      549,700            0
Boise, ID--Clinical Building........        43       73,000            0
Phoenix, AZ--Outpatient Ren/Exp.....        44       32,000            0
Atlanta, GA--Mental Health, Spec            45       41,190            0
 Care & Parking.....................
Chattanooga, TN--HCC................        46       54,300            0
Albuquerque, NM--Outpatient and             47       49,000            0
 Clinical Building..................
San Diego, CA--OR Renovation 5E.....        48       32,000            0
Temple, TX--Clinical Replacement....        49      130,000            0
Beckley, WV--NHCU...................        50       46,550            0
Charleston, SC--Naval Hosp Seismic..        51      210,790            0
Mesa, AZ--OPC and VISN 18 Offices...        52       55,000            0
St. Albans, NY--New Facility........        53      355,000            0
Loma Linda, CA--Behavioral Medicine         54       46,290            0
 Center.............................
Jacksonville, FL--Replacement OPC...        55       99,830            0
Tucson, AZ--ICU, Spec Care, Imaging         56       44,000            0
 & Diagnostic Bldg..................
Waco, TX--Enhance/Consolidate Long          57       39,000            0
 Term Care..........................
Ft. Harrison, MT--Billings HCC......        58       23,000            0
Charleston, SC--Hurricane                   59       19,000            0
 Mitigation--Chiller Plant..........
San Francisco, CA--ADA and Parking..        60       63,890            0
Seattle, WA--BRAC FLARC Purchase/           61       18,200            0
 Transfer...........................
------------------------------------------------------------------------
\1\ Total estimated cost may be revised based on completed design of the
  project.
\2\ Non-construction costs of $2,000,000 for niche covers are included
  in the Compensation & Pensions appropriation.


    Question 10. Please provide a list/monetary amount of unfunded 
(deferred) maintenance, sustainment, modernization and restoration 
requirements through FY 2015.
    Response. On a rotating basis over a three year period, VA performs 
a Facility Condition Assessment (FCA) of all its facilities. Based on 
these assessments, VA estimates the ``backlog'' cost of addressing all 
the deficiencies rated as ``D'' (Poor Condition) and ``F'' (Critical 
Condition). This FCA backlog is the best measure we have available of 
future requirements for maintenance and restoration of VA facilities as 
it covers items in need of maintenance or items that have reached the 
end of useful life and require modernization or restoration. These 
restorations and maintenance items are primarily funded using the Non-
Recurring Maintenance program, but also can be addressed through the 
major and minor construction programs. As of February 2010, VA had 
34,313 ``D'' deficiencies, with a remaining cost of $8.1 billion, and 
3,432 ``F'' deficiencies, with a remaining cost of $1.4 billion, for a 
total remaining backlog cost of $9.5 billion. These totals exclude 
deficiencies being addressed by already funded projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 11. Does the VA have the authority to issue bonds for 
maintenance (my guess is no so I would suggest dropping a bill or 
putting in the jobs bill as an approps measure).
    Response. VA does not have authority to issue bonds for capital 
improvements.

    Chairman Akaka. Thank you very much, Secretary Shinseki.
    At the outset I am delighted to see an increase in staffing 
for regional offices. However, we need to be vigilant that the 
quality of decisions will not suffer. Committee oversight has 
identified errors which appear to be caused by the emphasis on 
production rather than the product. For example, critical 
evidence from Government records is simply not obtained or 
evidence in the file is not properly addressed in the decision.
    I am also concerned that the addition of new claims 
personnel faced with thousands of new Agent Orange claims could 
make the situation worse.
    My question to you is: What steps can the Department take 
to avoid errors while training a new workforce of claims 
processors?
    Secretary Shinseki. Mr. Chairman, thank you for that 
question. Let me ask Secretary Walcoff to begin answering on 
the training piece since that is something he works with 
closely, and then I will try to address the broader issues you 
posed.
    Chairman Akaka. Thank you.
    Secretary Walcoff?
    Mr. Walcoff. Thank you, Mr. Chairman. We share your concern 
that, in adding a lot of inexperienced claims examiners, this 
would have a negative impact on the quality of the work that is 
being produced. It is certainly something that we are very 
aware of and very concerned about. There are several things 
that we do to try to make sure that this does not happen.
    First of all, we require every new employee who is going 
into a decisionmaking position to go to a centralized training 
course where they learn the fundamentals of adjudicating a 
claim the same way so that we do not have it where they are 
learning it differently in 57 places. We feel that is a very 
important part because that foundation is what everything is 
built on.
    Second, when they go back to their regional offices, we 
make sure that the rest of their training is done with a 
standardized curriculum that is developed in Washington by the 
C&P service. That way it does not vary because of the 
individual instructing them at their particular regional office 
so that we do not have different people learning different 
things just because of the place where they happened to be. 
Everybody is learning from the same book, so to speak.
    Third, before any adjudicator would be able to work a case 
without any review, we make sure that we have had an 
experienced adjudicator reviewing every case that is produced 
by the new employee, and that is not changed until the 
supervisor is convinced that the work of this new employee has 
reached the level where certain types of actions can be done on 
single signature. But that is not an automatic thing, and it is 
something that we keep a very close eye on.
    And, fourth, in the past, we have not expanded our quality 
assurance program--the overall review of quality done in 
Nashville by our STAR group--as much as we have increased the 
number of new employees. We are committed to making a 
significant increase in that quality assurance program to make 
sure that we are identifying trends in the work where maybe 
that consolidated training, that foundation that we talked 
about, is not enough in terms of making sure that the work is 
done correctly. So, that STAR group will be increased, and they 
will increase the oversight of the work done by the new 
employees and then have a feedback to the original offices to 
make sure that these issues are addressed.
    Secretary Shinseki. Mr. Chairman, may I just add to this, 
since this sort of touches a little bit on the question that 
was posed by Senator Burr. So, if I might, let me just try to 
touch on both of these because they in part touch on the chart 
as well. And then if there are other follow-ups, I will be 
happy to address them.
    This is an interesting chart, and, you know, I always look 
at charts like this, as they are instructive. They are 
instructive to where we are. [Pointing at the chart:] This is a 
projection. It goes out--we are not done with 2010. It is 
projecting my effectiveness in 2011, and I would just ask the 
Senator to give me 2010 and 2011 to at least challenge the 
chart by performance, and I will do that.
    When you go back to 2005, the high productivity here--101 
claims--I think part of what I learned in the last year is you 
can push a lot of claims through. In some cases--and not to be 
pejorative about our workforce, but if we have got a stack of 
work and we have got to get it out, we also have to look at 
quality. I find that there are a lot of cases that have been 
recirculated over time because they were pushed so quickly to 
meet a time standard, to get an answer out, yet it did not 
serve the veteran. So, I want to be sure that as we work this 
process, both for the Chairman and the Ranking Member, that I 
can explain to you what we are doing with the increased 
workload.
    Inside the VA, we have two anomalies. One, in the Health 
Administration, we have the country's--I will say that--and 
maybe the world's best electronic health record, but in our 
Benefits Administration, we are paperbound.
    Now, it is difficult for me to explain why resourcing was 
not equally distributed so that the benefits processing to get 
people through that gate was also automated at the same time to 
provide them access to health care. Something happened. I 
cannot go back and revisit it. And so right now, without 
electronic tools, we are sort of a brute force exercise, and 
that involves hiring more people.
    If you want to go faster at quality, you have to hire more 
people and train them. And I think Senator Burr's suggestion--
there is a time investment needed to get people to the point 
where you are comfortable about their ability to hit the 
quality marks we are looking for. I accept that.
    What we do not want is to artificially suppress the 
workforce to get claims out but not meet that quality. We are 
trying to find the balance here, Senator.
    Four other things we are doing. As I have mentioned, a 
hugely complex process which I spent a year looking at. I am 
convinced this is complex--not to use the term pejoratively, 
but also convoluted in some ways. What we have done is pulled 
the processing of claims apart and created four pilots to go 
after the pieces. We want to refine what we are doing in each 
of those pieces and then put them back together again.
    I will not go into detail, but as Members know, one, there 
is a pilot in Pittsburgh intending to build the best high-
quality claim possible, to win an argument on behalf of the 
veteran. And in this case, the claim is ours. We work with the 
veteran, with the VSOs, to put together this claim that we 
submit and expect a high outcome--for a single pass through the 
system--high potential good on behalf of the veteran.
    Two, business process re-engineering in Little Rock; and 
three, automated tools being worked on in Providence. We can 
talk more about what those tools are intended to do. And then, 
finally, in Baltimore, the fourth pilot: how do we bring all of 
this together to create the new virtual regional office of the 
future that has fully automated tools--electronic tools; a new 
relationship with veterans; and re-engineered business 
processes which also allow us to do what Secretary Walcoff is 
describing--manage the quality across the entire VA disability 
benefits spectrum.
    We have 57 regional offices, and I can tell you there is a 
number 1, there is a 57. What we want to do is have all 57 sort 
of massed around 29-30, so that we have a standard across VA. A 
typical case being adjudicated in San Diego getting the same 
outcome--and we can see it, we can manage it because we have 
the tools to do that--the same outcome in Charleston, WV. We 
need these tools to go after increasing productivity while not 
slipping on quality.
    Chairman Akaka. Thank you very much, Mr. Secretary. Let me 
now pass it on to our Ranking Member for his questions.
    Senator Burr. Thank you, Mr. Chairman, and thank you for 
that explanation, Mr. Secretary. I would say for the record 
that the numbers used in the chart were, in fact, reflective of 
the estimates provided in the VA budget submission. So I plead 
with your budget staff as well to provide you the ability to 
prove them wrong, too.
    Secretary Shinseki. I am going to prove them wrong.
    Senator Burr. I hope you would agree with me that if you 
were in theater and you saw a trend line that alarmed you, it 
would be something you would take very seriously. I think you 
see that trend line on productivity. I know it alarms you that 
you want to figure out how to drive that in the opposite 
direction. So I think we share the same end goal.
    A couple of questions, if I could, Mr. Secretary. Staying 
on the claims topic, the American Recovery and Reinvestment Act 
added 1,800 temporary employees. The budget proposes additional 
claims staff of 2,000. Again, in the past few years we have 
seen a trend line on productivity that is alarming. In fact, a 
recent IG report found that the VA expects Recovery Act 
employees to adjudicate four claims per adjudicator in 2010.
    Are you expecting the claims in individual or overall 
productivity with this massive hiring in 2011? Or do you think 
that the IG's trend estimate--I heard the comments from Mr. 
Walcoff of what we have to go through, and I agree with your 
sentiments on accuracy. What should we expect?
    Secretary Shinseki. I will go back and look at what the 
IG's estimates are based on. The increase in budget--a 27-
percent increase to VBA--is intended to fix some longstanding 
issues, and right now if I want to increase productivity, it is 
people I need because I still do not have the tools. They are 
coming.
    Part of the anticipated increased workload is the Agent 
Orange decision that was made last October. I am not sure 
whether the IG was able to calculate that into their figures, 
but I will go check.
    We expect there are going to be roughly 200,000 additional 
cases--and that is an estimate--that will come in with Agent 
Orange: something on the order of 185,000 in year one; and then 
perhaps 40,000 to 50,000 in year two. So, we see a huge surge. 
We need to get ready to take that on and then adjust ourselves 
as that plays out.
    We are trying to fast-track Agent Orange, as I explained, 
and not let that compound the complex work we are doing with 
the claims that already exist--fast-track in the sense that we 
need to validate the veteran was in Vietnam, has a disease, and 
the extent to which the disease is advanced, which is one of 
the critical bits of information to make decisions and be able 
to extend benefits to veterans who have been waiting for a long 
time.
    So, part of the estimate for the budget in 2001, the 
increase, 27 percent, is factoring in Agent Orange as well.
    Senator Burr. Well, let me say you covered in depth with me 
personally what you intend to do to expedite the Agent Orange 
claims, and I agree with the strategy that you have undertaken. 
These individuals should have some type of expedited process.
    Mr. Secretary, in 2008, Congress passed a law that directed 
the Secretary of Veterans Affairs to submit a report to 
Congress regarding the compensation of veterans for the loss of 
earning capacity--quality-of-life--as a result of service-
connected disabilities and on long-term transition payments to 
veterans undergoing rehabilitation due to such disabilities. 
The law gave the VA 210 days, until May 2009, to submit their 
plan and the compensation table to Congress. VA submitted a 
study, but the study did not include any recommendations or 
proposed compensation table. The recommendations are way 
overdue. In September of last year, I asked Admiral Dunn about 
it in a hearing and he said that the VA needed to further study 
it and would get back to me. He did not get back to me. No one 
has provided a satisfactory answer.
    I would just like to read something to you. This is 
verbatim from a letter that I received from the American Legion 
Post Commander in one of my North Carolina posts. He states, 
and I quote, ``This lack of response should not be acceptable 
to the Veterans' Affairs Committee. I am sure it is not. Why 
isn't other action taken to resolve the issue, such as 
requiring the VA Secretary to appear with answers? Why can't 
the VA Secretary be held in contempt of Congress for not 
following the law of 210 days?''
    How should I answer him?
    Secretary Shinseki. Well, Senator Burr, in your earlier 
remarks you had some concerns about some of the growth that is 
occurring in my office, the Office of Legislative Liaison 
Affairs. I will tell you, when I arrived a year ago, people, 
some on this Committee, described to me some of the challenges 
that they had with responsiveness--getting complete reports on 
time. I would say there is no good reason why that suspense 
date was not met fully. I will assure you I will get on it 
today. But I will also tell you that is part of the reason why 
you see the growth in my headquarters: to address some of these 
longstanding issues; to take care of being responsive, not just 
to Members of this Committee, but other Members of Congress and 
to the VSOs when they ask questions of us.
    I would just tell you last year we were called upon to 
participate in 107 congressional hearings; 293 briefings, 80 
visits with staff to various locations; and, frankly, we did 
not have enough staff to cover all of that and do it well. And 
here is another example of a dropped ball. Right now we are 
scheduled for 120 hearings this year.
    So we will do better, and on this particular issue I will 
have you an answer next week as to where we are.
    Senator Burr. I appreciate that, and I will work with my 
friend next to me to make sure that we do not overtask your 
folks coming up here. I think we can do a much better job of 
consolidating and not requiring your leadership team to spend 
more time on The Hill than they spend in the office trying to 
solve veterans' issues. And I think that goes across the full 
scope of the agencies. It is not limited just to the VA.
    Secretary Shinseki. This was not a complaint about this 
Committee. This is just a fact of life.
    Senator Burr. My time is almost up, but I have got to ask 
this question. The budget request includes a $13.4 billion 
supplemental appropriations, again, 2010, for the disability 
benefits of three new Agent Orange-related presumptions. And I 
understand what you have told me yesterday and what you have 
said about that today, and I understand the unknown factor of 
how many we are facing.
    But in 2009, there were significant carryover funds that 
were used for personal staff, and I guess I would have to ask: 
Did you ever consider, with the imminent need of Agent Orange 
presumptions, that the carryover funds might go to that so that 
we minimized the size of the emergency supplemental?
    Secretary Shinseki. Senator Burr, I assure you I look at 
these things very hard. I cannot tell you I sat down and looked 
at carryover and compared Agent Orange versus personal staff. 
And they are not personal staff. They work in the Office of the 
Secretary, and they answer to a lot of requirements.
    I would just tell you what I have learned is that the VA is 
the second largest Federal department, usually described as 
about 300,000 people who come to work every day. VA is also 
second only to the Department of Education in funding provided 
for education programs--$9 billion a year. We underwrite $1.3 
trillion in insurance for 7.2 million clients, and we have a 96 
percent satisfaction rating amongst those clients. Most of 
those clients are active-duty military personnel.
    We hold $175 billion in guaranteed mortgages for veterans 
and servicemembers. We have the lowest foreclosure rate of any 
financial institution in the country. We run the largest 
cemetery system--131 cemeteries. And, frankly, to make sure we 
got this right, to get the best value of the dollar that 
taxpayers provide us turned in ways that veterans benefit, I 
just thought this was the right set of circumstances to deal 
with at this time. A year from now, if you were to ask me that 
same question, I might have a slightly different answer, and I 
will be happy to answer it then.
    Senator Burr. Well, my time has run out. I thank you for 
reminding us of the things we are not typically focused on up 
here which VA does day in and day out and does it pretty damn 
well.
    Secretary Shinseki. Thank you, sir.
    Senator Burr. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Now I would call on Senator Begich for your questions.
    Senator Begich. Thank you very much. Mr. Secretary, thank 
you again for your team to be here and working through the 
process of your second budget. I have a few questions. I just 
want to kind of follow up on our conversation yesterday when we 
talked about rural health care and the opportunities--
especially in Alaska--and how difficult it is, in some cases, 
to get services or notification of services in a variety of 
ways.
    I was just glancing at another memo here that I received, 
and it actually was very good. It was from someone within our 
State on the Post-9/11 GI Bill and all the great benefits that 
provides.
    One thing that we learned in the field hearings as we 
talked about employment was regarding access to VA in rural 
Alaska. I am guessing this may be a similar thing in other 
rural States. I think we had a similar conversation about this, 
and I guess I would like you to expand, if you could, on what 
efforts you see in the long term as well as in the medium term 
of how veterans access services where they are starting to live 
more and more, and that is in rural America. In Alaska, it is 
extreme rural. As you know, in some cases we can only get in by 
plane, and only weather permitting in some cases.
    Could you give me a little bit of your thoughts? Then I 
have some very specific questions relating to our conversation 
yesterday.
    Secretary Shinseki. Thank you, Senator. I would just say 
this has always been the challenge. If you go back 15 years, 
some very bright people who were running things in VA began to 
change VA's attitude about delivering health care. We used to 
be 153 large medical centers, and the approach was, ``Here we 
are. Come see us.''
    We began to change that when we realized that serving the 
veteran was not quite what it needed to be, and so we created 
community-based--or outpatient clinics and then outreach 
clinics and then mobile clinics. All of that works if you have 
roads, and what you are describing is a place where there are 
no roads.
    Senator Begich. Right.
    Secretary Shinseki. And so we need to find better ways of 
partnering, and I look forward to working with other great 
organizations that have health care concerns--the Indian Health 
Service for one, and there are others--in which we can partner 
our resources and maybe satellite with them as we go out to do 
this work and arrange a way to do that.
    Telehealth is a huge investment for us. We see this as the 
next step in the delivery of health care in VA, even the 
country. And so our ability to link specialists located at 
medical centers with these remote sites is something that we 
are interested in. We already have 40,000 veterans, chronically 
ill veterans, who are living at home and being monitored in 
their own homes through telehealth back to the medical centers.
    I will defer now to Dr. Petzel and let him provide any 
other insights he might have.
    Senator Begich. Thank you very much. Doctor?
    Dr. Petzel. Thank you very much, Senator Begich. The 
Secretary covered this topic very well, just to add a couple of 
things.
    In a place like Alaska, which, as you mentioned, is 
probably the most extremely remote area that we are responsible 
for, such things as telemedicine and tele-home health and 
outreach clinics where you bring the providers into the 
community on a limited basis--that is, they come in, they do a 
clinic, and they leave--are probably the ways that we are going 
to have to be looking at delivering care.
    Tele-home health allows a chronically ill patient to 
basically be cared for in their home. The monitoring devices 
provide information back to the physicians. There is a video 
connection to the provider, and it is really, I think, going to 
be the method that we deal with, the most important method that 
we deal with, with the extensive ruralness. We are seeing 
40,000 patients on average per day involved in that program, 
and I am expecting to see this grow exponentially over the next 
several years.
    We also have, as you know, through the generosity of 
Congress, been granted about $250 million a year in rural 
health money, and much of this is being spent in developing our 
telehealth and tele-home health capabilities.
    I do also, as the Secretary said, look forward to working 
with you to explore innovative and new ways that we can treat 
these extremely remote patients.
    Secretary Shinseki. Senator, let me just put some numbers 
here: $42 million in telehealth is the investment right now, 
and fee basis, which is another option, where we have 
competent, qualified capability, medical capability in 
communities, we are increasing fee basis between 2009 and 2010 
by 20 percent. So this will go up.
    Senator Begich. If I can follow up and again extend on our 
conversation we had yesterday and both of your conversations 
now, and that is, as we talked about Indian Health Services as 
well as--oddly enough, later that afternoon, Mr. Secretary, I 
met with our community health clinic organization. They were 
primary care clinics which are federally chartered--very high 
quality--throughout all of Alaska, and I will give you the 
scenario that we talked about just for the record here. It is 
the individual who lives in a village who has to get on a plane 
to go to the hub--in this case Kotzebue, as an example; that is 
where we did one of the hearings--spends $230 for a one-way 
ticket just to get to the hub. And then they have got to go 
from Kotzebue to Anchorage to get their assessment done. That 
whole plane trip, by the time they are done, is about $1,000. A 
sizable amount may come out of their pocket because of the way 
the reimbursement rates work. All for an assessment.
    Now, in the village, they had a clinic right there that 
probably could have done the assessment because they are 
certified clinics that have to go through the rigorous testing 
of the Indian Health Services; or if they are a community 
health clinic, through the other methods of the Federal 
Government. Both are very high-quality clinics. But what is 
also very interesting is they have knowledge of all the 
services that are available, which I know we talked a little 
bit about that. In my campaign I called it the ``Heroes Health 
Card''--which I know some veterans organizations get nervous 
about that, thinking, you know, it's about privatizing the VA. 
That is not what this is about. It is the case where a veteran 
cannot get access to a facility and it is not economical for 
the VA to go build a brand-new hospital. For example, the 
Indian Health Services will build a hospital starting this 
March using stimulus money. Employing hundreds of people to 
build it, hundreds of people will get work. It will be a state-
of-the-art facility in Nome, Alaska. Maybe I am just new and 
naive about this, but it seems like there must be a way that we 
can have that veteran walk through the IHS door. And I know 
there are a couple of pilot programs, but to be honest with 
you, we have talked little about it. They have not really--they 
are just not there. So, it seems like there must be a way to 
allow that veteran to take a card, walk in there, and get their 
services. Then all of us figure out how to make those bills go 
back and forth and pay for it.
    I know you showed some interest in that, Mr. Secretary; 
and, Doctor, like you, I think there is a way to do it--to 
deliver efficiently, and use this massive Federal system 
between the Indian Health Services, community health clinics, 
and the VA--to really network and deliver what I consider high-
quality, first-stage care. Some people call it primary care, 
though I call it first-stage care because it may be a little 
more extensive using telemedicine and other systems.
    Any additional comment on that?
    Secretary Shinseki. Just to close out, Senator, I agree 
with you. We ought to look for every opportunity to get this 
thing right for veterans. I usually find when there are 
contending views about why you can or cannot do something, if 
you focus on the mission, which is care for the veteran, all 
the rest of it gets sorted out.
    Senator Begich. Right. Absolutely.
    Secretary Shinseki. If you can focus on that and provide 
what that veteran needs, which is right across the street--as 
opposed to having to incur a $1,000 travel fee to go to the VA 
medical center--we need to find a way to do this. And we will 
go to work and see if we can find the right arrangement here 
with the Indian Health Service for one, and there may be 
others. This is part of the fee process.
    Senator Begich. Right. I did not think of it when we talked 
yesterday--community health clinics--because they are federally 
chartered and they have some great relationships I think 
between Indian Health Services and VA--they do now--that we 
could figure it out here. So I really appreciate that.
    I had some other questions, but I will submit those for the 
record. It was timely because we just held our field hearings, 
and this was something that really popped up pretty high in 
Alaska.
    Thank you very much.
    Secretary Shinseki. Thank you, Senator.
    Chairman Akaka. Thank you, Senator Begich.
    Now, Senator Johanns, your questions.
    Senator Johanns. Thank you, Mr. Chairman.
    Let me, if I might, just start by adding words of support 
for what Senator Begich is trying to get to. Even though our 
States are very different in some respects, in some respects we 
are kind of the same. We have very large rural areas, and 
although there are roads in Nebraska and it is easier than what 
the Senator is talking about, we still have that challenge--and 
many States do--of how to get services to the far reaches of a 
State like Nebraska or Montana or whatever. So, I think you are 
on the right track there, and I am more than willing to try to 
help facilitate that.
    I also appreciate the whole idea that there is great 
concern that we do not want this to evolve into a situation 
where we are offloading all of our services onto somebody else. 
We have got a good system. We do not want to lose that. But 
there really are some issues here where, if you put the needs 
of that veteran as the paramount issue, then there is no reason 
why that community health care center cannot provide those 
services. Again, I hope we can continue to work in that area, 
and I want to help.
    Let me, if I might, though, return to the backlog 
question--well, before that, I had something I wanted to ask, 
and maybe this is a question that really sets some context 
here. This is not a question to try to cast blame on anybody. 
It is a question to try to get some context.
    It just occurs to me as I think about the terrific changes 
our country has gone through since 9/11--with Afghanistan and 
Iraq and the needs of those veterans--and then I think about 
the existing veterans that were in the system before that; one 
of the things that we are trying to do, and maybe play a little 
bit of catch-up here, is the system was not quite ready for all 
we have had to face.
    When I look at the decision to go to war or to engage in 
Iraq or Afghanistan, for me I look at the whole system. Do we 
have the right equipment and the right technology to help the 
men and women in uniform that are on the ground? Are we able to 
meet their needs when they are injured? When they come back 
home, can we deal with their mental health issues? Can we deal 
with their injuries? Do we have the system in place to deal 
with that?
    I would like to hear your thoughts on that. Is part of what 
we are trying to do with this budget--and probably some budgets 
for the foreseeable future--just trying to get the system up to 
a level where we can meet what turned out to be some pretty 
significant needs just because of the size and scope of what we 
are dealing with in terms of terrorism?
    Secretary Shinseki. Well, Senator, that is really a very 
insightful question. I would offer to you that we probably have 
always had a longstanding challenge on this level of 
synchronization. As I say, very little of what we deal with in 
VA originates in VA; therefore, we work very hard to 
collaborate and coordinate with DOD to make sure that we 
understand what is going on. Then we can begin to anticipate 
things and find ways to work together whenever we think there 
is a medical problem that is going to have downstream issues; 
that we begin the dialog early so we are not ending up 40 years 
after Agent Orange was used wrestling with how to care for 
veterans, or Gulf War illness, the same kind of thing, or, as 
Senator Burr brought up, Camp Lejeune issues. This requires 
both DOD and VA to be well joined on these discussions.
    To the degree that we may or may not have done this very 
well in the past, we are now trying to make sure that we invest 
in the ways that change this for the future, and that is what 
transformation is intended to do. My argument always is that 
DOD and VA are joined in caring for one thing--the youngster 
who wears the uniform today--is the veteran. If we focus on 
what is right for that individual, we will come at this 
properly.
    Senator Johanns. My hope is that as we think about not just 
this budget but the future and where we are going from here 
that relationship becomes more seamless. Like I said, it is one 
thing to make a decision--let us go to war. It is quite another 
thing to recognize whether the system is ready for that 
decision across the board from the day that person wears the 
uniform to the day of their discharge to what happens next. And 
it occurs to me that as we think about the future that 
seamlessness is critical, terribly important, or you are going 
to have fraying around the edges everywhere in terms of meeting 
the needs of the veteran.
    Secretary Shinseki. I share your concern here, Senator. If 
I could just interrupt before you go to your next question. 
Secretary Gates and I agreed a year ago that we were going to 
put our heads together to work on this seamless transition. And 
I use the term with a little caution because we do not have the 
tools to make that happen. Seamless transition is an electronic 
medium that we are both working to bring together, both DOD and 
VA. We have been mandated by the President to create something 
called the Virtual Lifetime Electronic Record which will do 
this seamlessly. So, just to assure you, we are working on 
that.
    Senator Johanns. Yes. Now getting to the backlog issue--the 
additional people and the effort to try to get to that, and the 
pilot projects--all of those things, as I have said, are just 
things I think you have got to do to try to deal with these 
numbers. They are just incredible.
    But let me ask you a question about bottlenecks. If we do 
that, but we have another bottleneck in the system that we 
cannot force any more through, then we are not going to have 
much success here.
    Talk to me about the court of appeals--and maybe it is not 
just the court of appeals that I should be focused on. Are 
there other areas in this system where even doubling the number 
of people is not going to solve the problem because you just 
run right into that bottleneck where it is just going to back 
up?
    Secretary Shinseki. Again, a good point. When we talk about 
looking fundamentally and comprehensively at the way we process 
claims inside VA, we have a Board of Veterans Appeals, and that 
is what is in my jurisdiction. So it is not just talking about 
the Veterans Benefits Administration that Mr. Walcoff is the 
head of. It is also talking about the Board of Veterans 
Appeals. They are linked in this discussion about how do we 
improve the process, because it does not do any good to process 
things in one portion and have them hit that wall.
    When you get to the court, it is a little bit outside my 
jurisdiction, and I will assure you that I will work with the 
court--in fact, I am going to go give a speech here shortly. 
Maybe this will be a good topic to raise during that 
presentation. But you are right, we need to have a full-
spectrum look--again, focusing on the veteran--at how that 
veteran is treated from the moment the claim is submitted until 
it runs the life cycle.
    Senator Johanns. I see I am running out of time here, but 
here is what I want to get to with your request and the 
additional personnel and all of the other things. The worst 
thing that would happen is if we get 18 months down the road 
and the veterans' groups are coming to us saying the backlog 
has not improved.
    Now, I appreciate Agent Orange. I think we all do. We 
understand the additional folks that will come in. But, you 
know, it is going to be no solace to them that I said, well, my 
goodness, we approved a big budget increase, we have hired 
additional people, and they are saying nothing is working right 
yet.
    So, my hope is that you can help us identify that. I do not 
know if there is a way of charting that or analyzing it so in a 
kind of quick review the Chairman or I or the Ranking Member or 
whoever can look at that and say, look, this now is starting to 
move through the system to a conclusion for the veteran. That 
is the key issue for me. It will not help if we bring you back 
a year from now, and you say, well, we have got all these 
people, and they are moving paper. We have got to get the 
veteran to a point where they get finality in that 
decisionmaking process. Does that make sense?
    Secretary Shinseki. It does. I can tell you, as I have said 
elsewhere, that 2010 is focused on the backlog for me--the 
pilots, automating that process--and I am happy if you have 
questions about what the automation efforts are; what we need 
to get done this year.
    I am heartened by one thing. We got off to a slow start on 
the Post-9/11 GI Bill. I will just use that as an example, 
though it is a separate topic. We started out in August with no 
students enrolled, and we finished the semester with 173,000 
students enrolled, with no automation tools. But what it forced 
us to do is to go back and challenge the things we were 
requiring in that justification on the part of the student to 
receive VA funds. It forced us to refine that process. The 
automated tools are coming this year--one April, one July, 
November, and December. We will be fully automated, but we have 
gone through challenging the process and getting the bugs out 
of it, getting it to be a high-level performer. We intend to do 
the same thing with the backlog this year. I think that we need 
to provide--be able to see ourselves--a simple metric like the 
one that Senator Burr had up that showed productivity. But in 
it we have to have that quality factor as well. Where quality 
is missing is where you generally see the appeals going 
through, and that is why we have to address this.
    Senator Johanns. Thank you.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Johanns.
    I am going to do a second round of questions. I am going to 
limit myself to two questions, and then submit many of the 
questions for the record.
    Mr. Secretary, for the first time we have before us a 
budget containing funding for future VA health care spending. 
That said, I want to be candid about the fact that the fiscal 
year 2012 budget may need to be enhanced.
    Mr. Secretary, would you be willing to ask for more for 
fiscal year 2012 if the demand and other needs demonstrate that 
more is necessary?
    Secretary Shinseki. Senator, to answer your question, I 
have two strong budgets in 2010 and 2011. We are off to a good 
set of priorities, achievable priorities. I think here after a 
couple years, you should expect me to provide return on 
investment on those two budgets.
    I am not concerned at this point on the 5 percent in 2012. 
I know if you look at it individually, it grabs your attention. 
But if you look at 2010, 2011, and 2012 together that 3-year 
period is a 25 percent increase above the 2009 budget. So, I am 
suggesting that I am taking the view over that period, and I 
expect that I am going to provide results.
    Having said that, 5 percent in 2012 is a start point for 
the deliberation--the dialog that goes on in building the 2012 
budget. And to answer your question, if it is not sufficient, I 
will provide the compelling arguments that it needs to be 
adjusted.
    Chairman Akaka. Thank you, Mr. Secretary.
    Now, what is your strategic vision regarding the future of 
VA construction projects? How do you plan on balancing large 
inpatient facilities, a long backlog of projects currently 
underway, and smaller clinics as well?
    Secretary Shinseki. Part of the piece that I did not add in 
there when I was explaining to Senator Burr the span of 
responsibilities that go along with the VA was: the 153 
hospitals, something in the neighborhood of 780 outpatient 
clinics, 232 Vet Centers, and 50 mobile vans, totaling 1,400 
points of care. The average age of our facilities is 60 years. 
The design is generally about 50 years. That is a design. There 
are lots of Government buildings that are older than their 
design. My responsibility is to ensure that we are properly 
footprinted, that we are where veterans are, and we are 
providing the care and services that veterans need.
    So, we are going to have a strategic look at our 
infrastructure. We have some infrastructure that is not fully 
utilized today, and we need to understand whether they can be 
used for other purposes, things like homeless programs, things 
like long-term care for those veterans who have given so much, 
and we are going to have to care for them for a long time.
    We have got to be looking at ways we recycle our 
facilities, and when we do that, then we need to bring them up, 
not to adequacy but to the high standard that those veterans 
deserve.
    Having said that, this major construction request in 2011 
is not much different than the request in 2010. In 2010, we 
requested and were granted $1.19 billion. The 2011 request is 
$1.15 billion. So, a small decrease, but it funds three ongoing 
medical facility projects, two new projects for design (medical 
facilities), and three cemetery expansions.
    The minor construction budget, if you look at 2010 and 
2011, you could criticize the 2011 budget for being a 30-
percent decrease. I would just offer that the 2010 budget was 
such a huge plus-up, it was the President's first budget. It 
was scored at $600 million. And while the 2011 minor 
construction budget is 30 percent smaller, it is still at $468 
million. It is the second largest minor construction budget 
requested. And so taking those 2 years together, we have done 
well.
    The 2011 non-recurring maintenance request is $1.1 billion 
to get after the things that you are concerned about, which is 
the facility and the footprint and the upkeep. Between 2000 and 
2008, the average non-recurring maintenance budget submission 
was about $555 million. So at $1.1 billion, we have put a lot 
of energy into restoring our house, bringing it back to order. 
It is the largest request by a President for non-recurring 
maintenance for VA facilities.
    I say that and I also tell you that we have about $9 
billion of backlog non-recurring maintenance. It has been there 
for years. If I am able to put--if we are able to put $1 
billion to it every year, it's still a long-term investment. 
So, we need to find ways to go after this, and I am hopeful 
that VA might be a candidate for the jobs bill.
    Chairman Akaka. Thank you, very much, Mr. Secretary. I will 
submit my questions for the record.
    Senator Burr, do you have any comments or questions?
    Senator Burr. Mr. Chairman, I want to thank you. I am going 
to submit all my further questions for the record. I want to 
thank the Secretary and his leadership staff for being here.
    Mr. Chairman, I want to take this opportunity to tell the 
second panel that I am sorry I cannot be here for their 
testimony. As the Chairman knows, this hearing was rescheduled 
because of the weather, and, unfortunately, I could reschedule 
part of my day, but I have got to return to North Carolina, and 
I have got a 5-minute window to work with. I would also say to 
the second panel that I may submit questions to you for the 
record and look very forward to the input you can give.
    Senator Burr. Thank you, Mr. Secretary.
    Secretary Shinseki. Thank you, Senator.
    Chairman Akaka. Thank you very much, Senator Burr, and I 
wish you a safe trip. Thank you.
    Senator Begich, any comments or questions?
    Senator Begich. No additional questions. I do have some for 
the record I will submit. Again, I want to thank the panel, the 
Secretary, and the doctor. Thank you all for being here, and I 
look forward to working with you on the rural issues of health 
care.
    Senator Johanns, thank you very much for your interest, 
too. I know we have commonality on rural issues, and it seems 
between this Committee, Commerce, and others, we are finding 
some joint efforts. So, again, thank you for your comments and 
thank you all for being here today.
    Chairman Akaka. Thank you very much, Senator Begich.
    Senator Johanns?
    Senator Johanns. I will wrap up here, too. Again, I want to 
express my appreciation for what you are doing for veterans. 
That really is the bottom line. We dig into these things, and 
they concern all of us. But at the end of the day, I have never 
doubted, Mr. Secretary, that your team and this Committee are 
really trying to figure out how to solve these problems. And 
some of them are just--we work on them from a constituent 
standpoint. Lost records, they are such a huge issue for the 
veteran. You know, Agent Orange is a perfect example. We have 
veterans who came back from Vietnam, tried go on with their 
lives, then all of a sudden they have health problem after 
health problem after health problem. I think, finally, we have 
an opportunity to make some success there. But that is just an 
example of what we deal with out there and what you deal with.
    I appreciate your commitment. There is a lot of work to do, 
and I get a sense that we have a pretty good start. Thanks.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Johanns.
    Mr. Secretary, I want to say mahalo, thank you and your 
staff so much for your testimony and what you are looking 
forward to doing for our veterans across the country. I look 
upon your goals of increasing access and reducing the claims 
backlog, as well as taking care of the homeless in 5 years, as 
huge goals to meet. And I want you to know we want to work 
together with you in trying to accomplish that. With the 
increased funding that we are expecting as well as increased 
FTEs or employees that you will be taking on and training, we 
look forward to this working out so that, without question, 
this will benefit every veteran that comes forward and asks for 
service from our country. Without question, we owe our veterans 
so much, and what we are doing--really the bottom line is to 
help every veteran who needs that service. So, that is where we 
focus. I am glad we are all together, and we will continue to 
focus there as we move on.
    We have done--I would tell you, unexpectedly--pretty well 
as far as fundings are concerned and with our advanced funding 
program, and what you are doing for it I think we are moving 
really well. And we want to see that it goes all the way down 
to the veterans as quickly as we can.
    Thank you very much. If you have any final comments, Mr. 
Secretary, we will hear them and then excuse the panel.
    Secretary Shinseki. Mr. Chairman, just to say thank you 
again for the opportunity for the VA team to appear before the 
Committee. I thank all the Committee Members, collectively and 
individually, for tremendous support to veterans. Thank you.
    Chairman Akaka. Thank you very much. Thank you, panel.
    Let me call a 5-minute recess at this time.
    [Recess.]
      
    Chairman Akaka. This hearing will again come to order. I 
want to welcome our second panel. First, I welcome the 
witnesses who are here on behalf of the Independent Budget: 
Carl Blake, the National Legislative Director of the Paralyzed 
Veterans of America; John Wilson, Assistant National 
Legislative Director for the Disabled American Veterans; 
Raymond Kelley, the National Legislative Director of AMVETS; 
and Eric Hilleman, the National Legislative Director for 
Veterans of Foreign Wars.
    I also welcome Steve Robertson, Director for the National 
Legislative Commission of the American Legion; and Rick 
Weidman, Director of Government Relations of the Vietnam 
Veterans of America.
    A very warm welcome and aloha to each of you. Mr. Blake, 
will you begin, then we will move down the table in order. The 
Independent Budget witnesses will have 20 minutes total to make 
their presentation. The American Legion and Vietnam Veterans of 
America will be recognized for 5 minutes each. Your prepared 
remarks will, of course, be made a part of the record.
    Mr. Blake, will you please begin?

    STATEMENT OF CARL BLAKE, NATIONAL LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Thank you, Mr. Chairman.
    Chairman Akaka, Senator Begich, on behalf of the co-authors 
of The Independent Budget and Paralyzed Veterans of America, I 
am pleased to be here today to present our views regarding the 
funding for the Department of Veterans Affairs health care 
system for fiscal year 2011.
    Despite the fact that Congress has already provided advance 
appropriations for fiscal year 2011, the Independent Budget has 
chosen to still present budget recommendations for the medical 
care accounts specifically for fiscal year 2011. Included in 
Public Law 111-117 was advance appropriations for fiscal year 
2011. Congress provided approximately $48.2 billion in 
discretionary funding for VA medical care. When combined with 
the $3.3 billion administration projection for medical care 
collections in 2010, the total available operating budget 
provided by the appropriations bill is approximately $51.5 
billion. Accordingly for fiscal year 2011, the Independent 
Budget recommends approximately $52 billion for total medical 
care, an increase of $4.5 billion over the fiscal year 2010 
operating budget level established by Public Law 111-117. We 
believe that this estimation validates the advance projections 
that the administration developed last year and has carried 
forward into this year. Furthermore, we remain confident that 
the administration is headed in a positive direction that will 
ultimately benefit the veterans who rely on the VA health care 
system to receive their care.
    For fiscal year 2011, the Independent Budget recommends 
approximately $40.9 billion for Medical Services. Our Medical 
Services recommendation includes approximately $39 billion to 
maintain current services; $1.3 billion to address our 
projected increase in patient workload; $275 million to address 
the significant increase in prosthetics expenditures; and, 
last, a $375 million initiative to restore the VA's long-term 
care average daily census to the level mandated by Public Law 
106-117, the Veterans Millennium Health Care Act.
    Finally, for Medical Support and Compliance, the 
Independent Budget recommends approximately $5.3 billion, and 
for Medical Facilities, we recommend approximately $5.7 
billion.
    The Independent Budget recommendation also includes a 
significant increase in funding for Information Technology. For 
fiscal year 2011, we recommend that the VA IT account be funded 
at approximately $3.55 billion. This amount includes 
approximately $130 million for an Information Systems 
Initiative to be carried out by the Veterans Benefits 
Administration. We are concerned that the administration is 
shortchanging this account for fiscal year 2011 in a budget in 
which the VA and the Department of Defense are called on to 
jointly implement the Virtual Lifetime Electronic Record, and 
in which the administration proposes to automate claims 
processing to improve the accuracy and timeliness of veterans' 
benefits, particularly disability compensation and the new 
Post-9/11 GI Bill.
    Public Law 111-81 required the President's budget 
submission to include estimates of appropriations for the 
medical care accounts for fiscal year 2012 and the VA Secretary 
to provide detailed estimates of the funds necessary for these 
medical care accounts in his budget documents submitted to 
Congress. Consistent with the advocacy by the Independent 
Budget, the law also requires a thorough analysis and public 
report of the administration's advance appropriations 
projections by the Government Accountability Office to 
determine if that information is sound and accurately reflects 
expected demand and costs to be incurred in fiscal year 2012 
and in subsequent years.
    We are pleased to see that the administration has followed 
through on its responsibility to provide an estimate for the 
Medical Care accounts of the VA for fiscal year 2012. It is 
important to note that this is the first year the budget 
documents have included such advance appropriations estimates. 
The Independent Budget looks forward to examining all of this 
new information and incorporating it into future budget 
estimates.
    Last, Mr. Chairman, I would just like to say thanks to you 
and your staff, as well as to Senator Burr's staff, for 
allowing us the opportunity, as in years past, to get together 
what is now a month ago to discuss The Independent Budget prior 
to the administration's budget coming out. It is a useful 
opportunity that we take advantage of, and we look forward to 
the opportunity every year.
    So, again, Mr. Chairman, I would like to thank you, and I 
would be happy to answer any questions that you might have.
    [The prepared statement of Mr. Blake follows:]
   Prepared Statement of Carl Blake, National Legislative Director, 
                     Paralyzed Veterans of America
    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
as one of the four co-authors of The Independent Budget (IB), Paralyzed 
Veterans of America (PVA) is pleased to present the views of the 
Independent Budget regarding the funding requirements for the 
Department of Veterans Affairs (VA) health care system for FY 2011.
    When looking back on 2009, it is fair to say that the 111th 
Congress took an historic step toward providing sufficient, timely, and 
predictable funding, and yet it still failed to complete its 
appropriations work prior to the start of the new fiscal year on 
October 1. The actions of Congress last year generally reflected a 
commitment to maintain a viable VA health care system. More important, 
Congress showed real interest in reforming the budget process to ensure 
that the VA knows exactly how much funding it will receive in advance 
of the start of the new fiscal year.
    As you know, for more than a decade, the Partnership for Veterans 
Health Care Budget Reform (hereinafter ``Partnership''), made up of 
nine veterans service organizations, including the four co-authors of 
The Independent Budget, advocated for reform in the VA health care 
budget formulation process. By working with the leadership of the House 
and Senate Committees on Veterans' Affairs, the Military Construction 
and Veterans Affairs Appropriations Subcommittees, and key members of 
both parties, we were able to move advance appropriations legislation 
forward. Congress ultimately approved and the President signed into law 
Public Law 111-81, the ``Veterans Health Care Budget Reform and 
Transparency Act.'' A review of recent budget cycles made it evident 
that even when there was strong support for providing sufficient 
funding for veterans medical care programs, the systemic flaws in the 
budget and appropriations process continued to hamper access to and 
threaten the quality of the VA health care system. Now, with enactment 
of advance appropriations the VA can properly plan to meet the health 
care needs of the men and women who have served this Nation in uniform.
    In February 2009, the President released a preliminary budget 
submission for the Department of Veterans Affairs for FY 2010. This 
submission only projected funding levels for the overall VA budget. The 
Administration recommended an overall funding authority of $55.9 
billion for the VA, approximately $5.8 billion above the FY 2009 
appropriated level and nearly $1.3 billion more than the Independent 
Budget had recommended.
    In May, the Administration released its detailed budget blueprint 
that included approximately $47.4 billion for medical care programs, an 
increase of $4.4 billion over the FY 2009 appropriated level and 
approximately $800 million more than the recommendations of the 
Independent Budget. The budget also included $580 million in funding 
for Medical and Prosthetic Research, an increase of $70 million over 
the FY 2009 appropriated level. By the end of the year, Congress 
enacted Public Law 111-117, the ``Consolidated Appropriations Act for 
FY 2010,'' that provided funding for the VA to virtually match the 
recommendations of the Administration. While the importance of these 
historic funding levels coupled with the enactment of advance 
appropriations legislation cannot be overstated, it is important for 
Congress and the Administration to continue this commitment to the men 
and women who have served and sacrificed for this country.
                          funding for fy 2011
    Despite the fact that Congress has already provided advance 
appropriations for FY 2011, the Independent Budget has chosen to still 
present budget recommendations for the medical care accounts 
specifically for FY 2011. Included in P.L. 111-117 was advance 
appropriations for FY 2011. Congress provided approximately $48.2 
billion in discretionary funding for VA medical care. When combined 
with the $3.3 billion Administration projection for medical care 
collections in 2010, the total available operating budget provided by 
the appropriations bill is approximately $51.5 billion. Accordingly for 
FY 2011, the Independent Budget recommends approximately $52.0 billion 
for total medical care, an increase of $4.5 billion over the FY 2010 
operating budget level established by Public Law 111-117, the 
``Consolidated Appropriations Act for FY 2010.'' We believe that this 
estimation validates the advance projections that the Administration 
developed last year and has carried forward into this year. 
Furthermore, we remain confident that the Administration is headed in a 
positive direction that will ultimately benefit the veterans who rely 
on the VA health care system to receive their care.
    The medical care appropriation includes three separate accounts--
Medical Services, Medical Support and Compliance, and Medical 
Facilities--that comprise the total VA health care funding level. For 
FY 2011, the Independent Budget recommends approximately $40.9 billion 
for Medical Services. Our Medical Services recommendation includes the 
following recommendations:

    Current Services Estimate........................... $38,988,080,000
    Increase in Patient Workload........................  $1,302,874,000
    Policy Initiatives..................................    $650,000,000
                    --------------------------------------------------------
                    ____________________________________________________
        Total FY 2011 Medical Services.................. $40,940,954,000
                    ========================================================
                    ____________________________________________________

    Our growth in patient workload is based on a projected increase of 
approximately 117,000 new unique patients--Priority Group 1-8 veterans 
and covered non-veterans. We estimate the cost of these new unique 
patients to be approximately $926 million. The increase in patient 
workload also includes a projected increase of 75,000 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF) veterans at a 
cost of approximately $252 million.
    Finally, our increase in workload includes the projected enrollment 
of new Priority Group 8 veterans who will use the VA health care system 
as a result of the Administration's plan to incrementally increase the 
enrollment of Priority Group 8 veterans by 500,000 enrollments by FY 
2013. We estimate that as a result of this policy decision, the number 
of new Priority Group 8 veterans who will enroll in the VA will 
increase by 125,000 in each of the next four years. Based on the 
Priority Group 8 empirical utilization rate of 25 percent, we estimate 
that approximately 31,250 of these new enrollees will become users of 
the system. This translates to a cost of approximately $125 million.
    As we have emphasized in the past, the VA must have a clear plan 
for incrementally increasing this enrollment. Otherwise, the VA risks 
being overwhelmed by significant new workload. The Independent Budget 
is committed to working with the VA and Congress to implement a 
workable solution to allow all eligible Priority Group 8 veterans who 
desire to do so to begin enrolling in the system.
    Our policy initiatives have been streamlined to include immediately 
actionable items with direct funding needs. Specifically, we have 
limited our policy initiatives recommendations to restoring long-term 
care capacity (for which a reasonable cost estimate can be determined 
based on the actual capacity shortfall of the VA) and centralized 
prosthetics funding (based on actual expenditures and projections from 
the VA's prosthetics service). In order to restore the VA's long-term 
care average daily census (ADC) to the level mandated by Public Law 
106-117, the ``Veterans Millennium Health Care Act,'' we recommend $375 
million. Finally, to meet the increase in demand for prosthetics, the 
IB recommends an additional $275 million. This increase in prosthetics 
funding reflects the significant increase in expenditures from FY 2009 
to FY 2010 (explained in the section on Centralized Prosthetics 
Funding) and the expected continued growth in expenditures for FY 2011. 
The funding for prosthetics is particularly important because it 
reflects current services and represents a demonstrated need now; 
whereas, our funding recommendations for long-term care reflect our 
desire to see this capacity expanded beyond the current services level.
    For Medical Support and Compliance, the Independent Budget 
recommends approximately $5.3 billion. Finally, for Medical Facilities, 
the Independent Budget recommends approximately $5.7 billion. Our 
recommendation once again includes an additional $250 million for non-
recurring maintenance (NRM) provided under the Medical Facilities 
account. This would bring our overall NRM recommendation to 
approximately $1.26 billion for FY 2011. While we appreciate the 
significant increases in the NRM baseline over the last couple of 
years, total NRM funding still lags behind the recommended two to four 
percent of plant replacement value. Based on that logic, the VA should 
actually be receiving at least $1.7 billion annually for NRM (Refer to 
Construction section article ``Increase Spending on Nonrecurring 
Maintenance).
    For Medical and Prosthetic Research, the Independent Budget 
recommends $700 million. This represents a $119 million increase over 
the FY 2010 appropriated level, and approximately $110 million above 
the Administration's request. We are particularly pleased that Congress 
has recognized the critical need for funding in the Medical and 
Prosthetic Research account in the last couple of years. Research is a 
vital part of veterans' health care, and an essential mission for our 
national health care system. We are extremely disappointed in the 
Administration's decision to virtually flat line the research budget. 
VA research has been grossly underfunded in contrast to the growth rate 
of other Federal research initiatives. At a time of war, the government 
should be investing more, not less, in veterans' biomedical research 
programs.
    The Independent Budget recommendation also includes a significant 
increase in funding for Information Technology (IT). For FY 2011, we 
recommend that the VA IT account be funded at approximately $3.553 
billion. This amount includes approximately $130 million for an 
Information Systems Initiative to be carried out by the Veterans 
Benefits Administration. This initiative is explained in greater detail 
in the policy portion of The Independent Budget. This represents an 
increase of $246 million over the FY 2010 appropriated level as well as 
the Administrations request. We are greatly concerned that the 
Administration is shortchanging this account in a budget in which the 
VA and the Department of Defense are called on to jointly implement the 
Virtual Lifetime Electronic Record, and in which the Administration 
proposes to automate claims processing to improve the accuracy and 
timeliness of veterans' benefits, particularly disability compensation 
and the new Post-9/11 GI Bill.
    As explained in The Independent Budget, there is a significant 
backlog of major and minor construction projects awaiting action by the 
VA and funding from Congress. We have been disappointed that there has 
been inadequate follow-through on issues identified by the Capital 
Asset Realignment for Enhanced Services (CARES) process. In fact, we 
believe it may be time to revisit the CARES process all together. For 
FY 2011, the Independent Budget recommends approximately $1.295 billion 
for Major Construction and $785 million for Minor Construction. The 
Major Construction recommendation includes approximately $100 million 
for research infrastructure and the Minor Construction recommendation 
includes approximately $200 million for research facility construction 
needs.
    We note that the Budget Request reduces funding for Major 
Construction and slashes funding for Minor Construction. Despite 
additional funding that has been provided in recent years to address 
the construction backlog and maintenance needs facing VA, a great deal 
remains to be done. We cannot comprehend what policy decisions could 
justify such a steep decrease in funding for Minor Construction.
                   advance appropriations for fy 2012
    Public Law 111-81 required the President's budget submission to 
include estimates of appropriations for the medical care accounts for 
FY 2012 and the VA Secretary to provide detailed estimates of the funds 
necessary for these medical care accounts in his budget documents 
submitted to Congress. Consistent with advocacy by the Independent 
Budget, the law also requires a thorough analysis and public report of 
the Administration's advance appropriations projections by the 
Government Accountability Office (GAO) to determine if that information 
is sound and accurately reflects expected demand and costs to be 
incurred in FY 2012 and subsequent years.
    We are pleased to see that the Administration has followed through 
on its responsibility to provide an estimate for the Medical Care 
accounts of the VA for FY 2012. It is important to note that this is 
the first year the budget documents have included advance 
appropriations estimates. This will also be the first time that the GAO 
examines the budget submission to analyze its consistency with VA's 
Enrollee Health Care Projection Model, and what recommendations or 
other information the GAO report will include. The Independent Budget 
looks forward to examining all of this new information and 
incorporating it into future budget estimates.
    In the end, it is easy to forget, that the people who are 
ultimately affected by wrangling over the budget are the men and women 
who have served and sacrificed so much for this Nation. We hope that 
you will consider these men and women when you develop your budget 
views and estimates, and we ask that you join us in adopting the 
recommendations of the Independent Budget.

    This concludes my testimony. I will be happy to answer any 
questions you may have.

    Chairman Akaka. Thank you very much, Mr. Blake.
    Mr. John Wilson.

   STATEMENT OF JOHN WILSON, ASSISTANT NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Wilson. Thank you, sir. Mr. Chairman and Senator 
Begich, my testimony addresses a variety of VA benefits 
programs today in The Independent Budget. This Committee has 
acted favorably on many of our recommendations to improve 
services to veterans and their families. We ask that you give 
our recommendations serious consideration again this year.
    My oral testimony today will focus on: one, concurrent 
receipt of compensation and military longevity retired pay; 
two, the Survivor Benefit Plan to Dependency and Indemnity 
Compensation offset; three, automobile grants; and, four, the 
disability claims process.
    One, concurrent receipt. Current law still provides that 
service-connected veterans rated less than 50 percent who 
retire from the Armed Forces on length of service will not 
receive both the VA disability compensation and full military 
retired pay. The IBVSOs recommend Congress enact legislation to 
repeal this inequitable requirement.
    Two, the offset of SBP compensation to DIC benefits. Under 
current law, a recipient's SBP income is reduced by an amount 
equal to any DIC for which they are otherwise eligible. This 
offset is inequitable because no duplication of benefits is 
involved. It penalizes survivors of military retired veterans 
whose deaths are under circumstances warranting indemnification 
from the Government which must be separate from the annuity 
funded by premiums paid by veterans from retired pay. It is the 
recommendation of the IBVSOs that Congress repeal the offset 
between DIC and SBP.
    Three, automobile grants. The current $11,000 automobile 
grant is only 39 percent of the average cost of a new 
automobile. To restore equity between the cost of an automobile 
and an allowance based on 80 percent of today's average new 
vehicle cost, the allowance should be $22,800. It is the 
recommendation of the IBVSOs that Congress enact legislation to 
increase the automobile allowance to 80 percent of the average 
cost of a new automobile.
    Fourth, and last, the disability claims process--certainly 
not least. To illustrate, let me recount this story about the 
disability claims process.
    Between August 25 and September 2 of last, the Roanoke VA 
Regional Office was visited by the VA's Office of Inspector 
General. Inspectors looked at 118 of the 901 claims filed 
between January and March 2009 and found 29 of those 118 claims 
contained errors. That is a 25 percent error rate. That is 
unacceptable.
    But it is worse. Not only that, they found nearly 11,000 
folders sitting on top of full file cabinets. An engineer 
stated that the load on floors 10, 11, and 12 of this 14-story 
building is double what is considered safe and heavy enough to 
cause a potential collapse. This story provides a timely 
illustration of the need to reform the veterans benefits 
approval system before the very weight of it destroys the 
structural integrity of the system and it collapses in upon 
itself.
    In March 2009, VA's Office of Inspector General reported on 
the overall benefits approval system and found that 22 percent 
of all veterans' claims for disability compensation were 
decided incorrectly in the 12-month period they reviewed. Over 
200,000 received inaccurate disability compensation decisions. 
The chart attached to the end of my written testimony portrays 
the results of the last six VA Office of Inspector General 
visits.
    Today, too many disabled veterans and their survivors must 
wait too long for disability compensation and pension ratings 
that are too often wrong or inaccurate. VBA must develop a work 
culture that emphasizes quality at all steps of the process. It 
must begin with the development of a management culture that 
measures and rewards the quality of results not just the 
quantity and which provides sufficient training of both 
management and the workforce in order to achieve proper 
outcomes. We would much prefer to see a claim done right the 
first time rather than done quickly three times.
    VBA must modernize its IT infrastructure and optimize its 
business processes. The current paper-heavy system must be 
replaced with a secure and accessible paperless system that 
rapidly moves and organizes information necessary to rating 
specialists for them to reach their correct decisions. The new 
system must optimize both the work flow and the business 
processes.
    Finally, VBA must implement a simpler and more transparent 
benefits application and approval process. There should be a 
universal and simple application, not the 28-page document that 
we have now, and procedures to manage this process more 
effectively so veterans can see where their claim is it moves 
through the process.
    A renewed commitment to and investment in training and 
quality control will help to ensure that benefits decisions are 
done right the first time. VA must take action to do it right 
the first time to save time.
    It has been a pleasure to appear before you. I look forward 
to your questions.
    [The prepared statement of Mr. Wilson follows:]
   Prepared Statement of John Wilson, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee: I am pleased to have 
this opportunity to appear before you on behalf of the Disabled 
American Veterans (DAV), one of four national veterans' organizations 
that create the annual Independent Budget (IB) for veterans programs, 
to summarize our recommendations for fiscal year (FY) 2011.
    As you know Mr. Chairman, the IB is a budget and policy document 
that sets forth the collective views of DAV, AMVETS, Paralyzed Veterans 
of America (PVA), and Veterans of Foreign Wars of the United States 
(VFW). Each organization accepts principal responsibility for 
production of a major component of our IB--a budget and policy document 
on which we all agree. Reflecting that division of responsibility, my 
testimony focuses primarily on the variety of Department of Veterans 
Affairs (VA) benefits programs available to veterans.
    In preparing this 24th IB, the IB Veterans Service Organizations 
(IBVSOs) draw upon our extensive experience with veterans' programs, 
our firsthand knowledge of the needs of America's veterans, and the 
information gained from continuous monitoring of workloads and demands 
upon, as well as the performance of, the veterans benefits and services 
system. This Committee has acted favorably on many of our 
recommendations to improve services to veterans and their families. We 
ask that you give our recommendations serious consideration again this 
year. My testimony today will focus on three areas: Benefits; General 
Operating Expenses; and Judicial Review.
    Within the Benefits arena, the first area to address is concurrent 
receipt of compensation and military longevity retired pay. It has been 
and continues to be the perspective of the IBVSOs that all military 
retirees should be permitted to receive military longevity retired pay 
and VA disability compensation concurrently, regardless of the level of 
their disability rating.
    Many veterans, retired from the Armed Forces based on longevity of 
service, must forfeit a portion of their retired pay earned through 
faithful performance of military service before they receive VA 
compensation for service-connected disabilities. This is inequitable. 
Military retired pay is earned by virtue of a veteran's career of 
service on behalf of the Nation, careers of no less than 20 years.
    Entitlement to disability compensation, on the other hand, is paid 
solely because of disabilities resulting from military service, 
regardless of the length of service. Most nondisabled military retirees 
pursue second careers after serving in order to supplement their 
income, thereby justly enjoying a full reward for completion of a 
military career with the added reward of full civilian employment 
income. In contrast, service-connected disabled military longevity 
retirees do not enjoy the same full earning potential. Instead, their 
earning potential is reduced commensurate with the degree of service-
connected disability.
    While Congress has made progress in recent years in correcting this 
injustice, current law still provides that service-connected veterans 
rated less than 50% who retire from the Armed Forces on length of 
service will not receive both their VA disability compensation and full 
military retired pay.

          The IBVSOs recommend Congress enact legislation to repeal the 
        inequitable requirement that veterans' military retired pay be 
        offset by an amount equal to their rightfully earned VA 
        disability compensation.

    The next area to address is repeal of the current requirement that 
the amount of an annuity under the Survivor Benefit Plan (SBP) be 
reduced on account of and by an amount equal to Dependency and 
Indemnity Compensation (DIC).
    Career members of the Armed Forces earn entitlement to retired pay 
after 20 or more years' service. Unlike many retirement plans in the 
private sector, survivors have no entitlement to any portion of the 
member's retired pay after his or her death. Under the SBP, deductions 
are made from the member's retired pay to purchase a survivors' 
annuity. Upon the veteran's death, the annuity is paid monthly to 
eligible beneficiaries under the plan. If the veteran died of other 
than service-connected causes or was not totally disabled by service-
connected disability for the required time preceding death, 
beneficiaries receive full SBP payments. However, if the veteran's 
death was due to service or followed from the requisite period of total 
service-connected disability, the SBP annuity is reduced by an amount 
equal to the DIC payment. If the monthly DIC rate is equal to or 
greater than the monthly SBP annuity, then beneficiaries lose all 
entitlement to the SBP annuity.
    This offset is inequitable because no duplication of benefits is 
involved. The offset penalizes survivors of military retired veterans 
whose deaths are under circumstances warranting indemnification from 
the government separate from the annuity funded by premiums paid by the 
veteran from his or her retired pay.

          It is the recommendation of the IBVSOs that Congress repeal 
        the offset between DIC and SBP.

    The last area to address within the Benefits section of the IB is 
the topic of automobile grants and adaptive equipment. The automobile 
and adaptive equipment grants need to be increased and automatically 
adjusted annually to cover increases in costs.
    The VA provides certain severely disabled veterans and 
servicemembers' grants for the purchase of automobiles or other 
conveyances. VA also provides grants for adaptive equipment necessary 
for the safe operation of these vehicles. Veterans suffering from 
service-connected ankylosis of one or both knees or hips are eligible 
for the adaptive equipment only. This program also authorizes 
replacement or repair of adaptive equipment.
    Congress initially fixed the amount of the automobile grant to 
cover the full cost of the automobile. However, because sporadic 
adjustments have not kept pace with increasing costs, over the past 53 
years the value of the automobile allowance has been substantially 
eroded. In 1946, the $1,600 allowance represented 85 percent of the 
average retail cost and was sufficient to pay the full cost of 
automobiles in the ``low-price field.''
    The Federal Trade Commission cites National Automobile Dealers 
Association data that indicate that the average price of a new car in 
2009 was $28,400. The current $11,000 automobile allowance represents 
62 percent of the 1946 benefit when adjusted for inflation by the CPI; 
however, it is only 39 percent of the average cost of a new automobile. 
To restore equity between the cost of an automobile and the allowance, 
the allowance, based on 80 percent of the average new vehicle cost, 
would be $22,800.

          It is the recommendation of the IBVSOs that Congress enact 
        legislation to increase the automobile allowance to 80 percent 
        of the average cost of a new automobile in 2009 and then 
        provide for automatic annual adjustments based on the rise in 
        the cost of living. Congress should also consider increasing 
        the automobile allowance to cover 100 percent of the average 
        cost of a new vehicle and provide for automatic annual 
        adjustments based on the actual cost of a new vehicle, not the 
        CPI.

    Within the General Operating Expenses arena, the IBVSOs offer 
Congress and the Administration many opportunities for improvement. The 
first topic of consideration has to do with the Veterans Benefits 
Administration (VBA) disability claims process.
    While simultaneously enhancing training and increasing individual 
and managerial accountability, Congress and the VA must take definitive 
steps to reduce delays in the disability claims process caused by 
policies and practices that were developed in a disjointed and 
haphazard manner.
    The adjudication of compensation claims is complex and time 
consuming. Failure to develop evidence correctly requires serial 
redevelopment, which delays claims resolution and increases 
opportunities for mistakes. Further, inadequately trained employees may 
fail to recognize when claims development is inadequate for rating 
purposes. The lack of effective on-the-job training, as well as the 
failure to involve program expertise of senior Veterans Service 
Representatives (VSRs) and Rating Veterans Service Representatives 
(RVSRs) earlier in the process are critical failures. As a consequence, 
VA routinely continues to develop many claims rather than making timely 
rating decisions.
    Processing policy should be changed to get claims into the hands of 
experienced technicians (Journey-level VSRs/RVSRs) earlier in the 
process. This way, issues with sufficient evidence can be evaluated, 
while development of other outstanding issues continues as directed by 
those more experienced technicians.
    It is understandable that VA wants to be deliberative as it 
determines the next best course of action to address how to improve the 
claims process. After all, the VA estimates it will manage as many as 
946,000 total claims this fiscal year and provide more than $30 billion 
in compensation and pension benefits. The IBVSOs recognize that VA has 
a responsibility to administer these programs according to the law.
    There is virtually no in-process quality control that could detect 
errors before they create undue delays, and provide real-time feedback 
to technicians. The claims process is a series of steps VA goes through 
to identify necessary evidence, obtain that evidence, and then make 
decisions based on the law and the evidence gathered. What fails here 
is the execution. While the rules are fairly clear, it is the 
overwhelming quantity of the work, inadequate training, lack of 
adequate accountability, and pressure to cut corners to produce numbers 
that result in an 18 percent substantive error rate (by VA's own 
admission). It is difficult to maintain quality control when individual 
performance reviews are limited to 5 cases per month, and when there is 
virtually no oversight on the propriety of end product closures.
    There is ample room to improve the law in a manner that would bring 
noticeable efficiency to VA's claims process, such as when VA issues a 
Veterans Claims Assistance Act (VCAA) notice letter. These notice 
letters, in their current form, do not inform the claimant of what 
elements render private medical opinions adequate for VA rating 
purposes.
    In FY 2007, the Board of Veterans' Appeals (BVA) remanded more than 
12,000 cases to obtain a medical opinion. In 2008, that number climbed 
to more than 16,000. In the view of the IBVSOs, many of these remands 
could have been avoided if VA had accepted sufficient medical opinions 
already provided by veterans. While recent court decisions have 
indicated that VA should accept private medical opinions that are 
credible and acceptable for rating purposes, we have seen no evident 
reduction in remands to obtain medical opinions.
    To correct this deficiency, we recommend that when VA issues 
proposed regulations to implement the recent amendment of title 38, 
United States Code, Sec. 5103, its proposed regulations contain a 
provision that will require it to inform a claimant, in a VCAA notice 
letter, of the basic elements that make medical opinions adequate for 
rating purposes.
    Congress should also consider amending title 38, United States 
Code, Sec. 5103A(d)(1), to provide that when a claimant submits private 
medical evidence, including a private medical opinion, that is 
competent, credible, probative, and otherwise adequate for rating 
purposes, the Secretary shall not request such evidence from a VA 
health care facility. The language we suggest adding to section 
5103A(d)(1), would not, however, require VA to accept private medical 
evidence if, for example, VA finds that the evidence is not credible 
and therefore not adequate for VA rating purposes.
    Modifying regional office jurisdiction regarding supplemental 
statements of the case (SSOCs) will improve the timeliness of the 
appeals process. This proposal is addressed in H.R. 4121, which seeks 
to amend title 38, United States Code, to improve the appeals process 
of the VA and was introduced by Representative John Hall on November 
19, 2009.
    In the current process, when an appeal is not resolved, the VA 
regional office will issue a statement of the case (SOC) along with a 
VA Form 9, to the claimant, who concludes, based on the title of the 
Form 9 (Appeal to the BVA) that the case is now going to the VA. 
Consequently, the veteran may feel compelled to submit additional or 
repetitive evidence in the mistaken belief that his or her appeal will 
be reviewed immediately by BVA. But the VARO issues another SSOC each 
time new evidence is submitted. This continues until VA finally issues 
a VAF-8, Certification of Appeal, which actually transfers the case to 
the BVA.
    H.R. 4121 would amend this process so that evidence submitted after 
the appeal has been certified to the BVA will be forwarded directly to 
the BVA and not considered by the regional office unless the appellant 
or his or her representative elects to have additional evidence 
considered by the regional office. This opt-out clause merely reverses 
the standard process without removing any rights from an appellant. The 
IBVSOs believe this change should result in reduced appellant lengths, 
much less appellant confusion, and nearly 100,000 reduced VA work hours 
by eliminating in many cases the requirement to issue SSOCs.
    It is the IBVSOs' recommendation that:

          Congress should modify current ``duty to assist'' 
        requirements that VA undertake independent development of the 
        case, including gathering new medical evidence, when VA 
        determines the claim already includes sufficient evidence to 
        award all benefits sought by the veteran.
          Congress should allow the BVA to directly hear new evidence 
        in cases certified to it, rather than require VA's regional 
        offices to hear the evidence and submit SSOCs.
          Congress pass H.R. 4121 to amend the process so that evidence 
        submitted after the appeal and certified to the BVA be 
        forwarded directly to the BVA and not considered by the 
        regional office unless the appellant or his or her 
        representative elects to have additional evidence considered by 
        the regional office.

    The next area to address is VBA training. Although the VA has 
improved its training programs to some extent, more needs to be done to 
ensure decisionmakers and adjudicators are held accountable to training 
standards.
    The IBVSOs have consistently maintained that VA must invest more in 
training adjudicators in order to hold them accountable for accuracy. 
VA has made improvements to its training programs in the past few 
years; nonetheless, much more improvement is required in order to meet 
quality standards that disabled veterans and their families deserve.
    Training, informal instruction as well as on-the-job training, has 
not been a high enough priority in VA. The IBVSOs have consistently 
asserted that proper training leads to better quality decisions, and 
that quality is the key to timeliness of VA decisionmaking. VA will 
achieve such quality only if it devotes adequate resources to perform 
comprehensive and ongoing training and imposes and enforces quality 
standards through effective quality assurance methods and 
accountability mechanisms. The Administration and Congress should 
require mandatory and comprehensive testing designed to hold trainees 
accountable. This requirement should be the first priority in any plan 
to improve training. VA should not advance trainees to subsequent 
stages of training until they have successfully demonstrated that they 
have mastered the material.
    One of the most essential resources is experienced and 
knowledgeable personnel devoted to training. More management devotion 
to training and quality requires a break from the status quo of 
production goals above all else. In a 2005 report from the VA Office of 
Inspector General, VBA employees were quoted as stating: ``Although 
management wants to meet quality goals, they are much more concerned 
with quantity. An RVSR is much more likely to be disciplined for 
failure to meet production standards than for failing to meet quality 
standards,'' and ``there is a lot of pressure to make your production 
standard. In fact, your performance standard centers around production 
and a lot of awards are based on it. Those who don't produce could miss 
out on individual bonuses, etc.''\1\ Little if anything has changed 
since the Inspector General issued this report.\2\ VBA employees 
continue to report that they receive minimal time for training, whether 
it is self-study, training broadcasts, or classroom training. They 
report that management remains focused on production over quality.
---------------------------------------------------------------------------
    \1\ Department of Veterans Affairs Office of Inspector General, 
Rep. No. 05-00765-137, Review of State Variances in VA Disability 
Compensation Payments 61 (May 19, 2005).
    \2\ A survey conducted by the Center for Naval Analysis Corporation 
for the Veterans' Disability Benefits Commission found that "some 
raters felt that they were not adequately trained or that they lacked 
enough experience." Veterans' Disability Benefits Commission, October 
2007, Honoring the Call to Duty: Veterans' Disability Benefits in the 
21st Century. p. 12.
---------------------------------------------------------------------------
    The Veterans' Benefits Improvement Act of 2008 mandated some 
testing for claims processors and VBA managers, which is an 
improvement; however, it does not mandate the type of testing during 
the training process as explained herein. Measurable improvement in the 
quality of and accountability for training will not occur until such 
mandates exist.
    Training will only be effective if the VBA training board, or a 
more robust oversight entity, can ensure communication and coordination 
between the Office of Employee Development and Training, Technical 
Training and Evaluation, Veterans Benefits Academy and the five 
business lines. Feedback should be collected from ROs to assess the 
effectiveness of their training, which can be incorporated into revised 
lesson plans as necessary. Communication and close, continued 
coordination by each of these offices is essential to the establishment 
of a comprehensive, responsive training program.
    For a culture of quality to thrive in the VBA, VA leaders must be 
the change agents to achieve this important goal. Training is an 
essential component to transforming the organization from a production-
at-all-costs focus to one of decisions based on quality products which 
are delivered in a timely manner.
    It is the IBVSOs' recommendation that:

          VA should undertake an extensive training program to educate 
        its adjudicators on how to weigh and evaluate medical evidence 
        and require mandatory and comprehensive testing of the claims 
        process and appellate staff. To the extent that VA fails to 
        provide adequate training and testing, Congress should require 
        mandatory and comprehensive testing, under which VA will hold 
        trainees accountable.
          VA should hold managers accountable to ensure that the 
        necessary training and time is provided to ensure all personnel 
        are adequately trained. Feedback should be collected from ROs 
        on the effectiveness of the training. The Office of Employee 
        Development and Training, Technical Training and Evaluation, 
        Veterans Benefits Academy and the five business lines should 
        incorporate any emerging trends into revised training plans.

    The next topic of consideration is VBA's current accountability and 
quality mechanisms. It is the IBVSOs' position that VBA must overhaul 
these outdated and ineffective mechanisms.
    This can be accomplished through the development and deployment of 
a robust new electronic document management system, capable of 
converting all claims-related paperwork into secure, official 
electronic documentation that is easily accessible and searchable by 
all official personnel involved in the process and has built in 
accountability and quality management process management tools.
    ``60 Minutes'' ran a story on January 3, 2010, entitled ``Delay, 
Deny and Hope I Die,'' which addressed the issue of the VA's claims 
backlog and veterans' frustrations. The VA Deputy Under Secretary for 
Benefits, Michael Walcoff, was interviewed for the story. When asked if 
VA had a focus on quantity over quality, he stated, ``I don't believe 
that they're being pressured to produce claims at the expense of 
quality. We stress over and over again to our employees that quality is 
our number one indicator, that that's absolutely a requirement for 
successful performance.''
    While he and others in leadership positions may stress quality, 
what employees are compensated for is quantity based on a work credit 
system.
    In March 2009, the VA's Inspector General discovered that the VA 
was making more mistakes than it reported. The internal investigation 
found that nearly one out of four files had errors. That is 200,000 
claims that ``may be incorrect.''
    The need for improvement in quality is evident when reviewing the 
table depicting the VA Office of Inspector General's (VA OIG) results 
from their last six VA Regional Office visits at the end of my 
testimony.
    Although quality may be emphasized and measured in limited ways, as 
it currently stands, almost everything in the VBA is production driven. 
Employees naturally will work toward those things that enhance 
compensation and currently that is production. Performance awards are 
based on production alone. They should also be based on demonstrated 
quality. However, in order for this to occur, the VBA must implement 
stronger accountability quality assurance measures.
    What does VBA do to assess the quality of the product it delivers? 
The quality assurance tool used by the VA for compensation and pension 
claims is the Systematic Technical Accuracy Review (STAR) program. 
Under the STAR program, VA reviews a sampling of decisions from 
regional offices and bases its national accuracy measures on the 
percentage with errors that affect entitlement, benefit amount, and 
effective date. However, samples as small as 20 cases per month per 
office are inadequate to determine individual quality.
    With STAR samples far too small to allow any conclusions concerning 
individual quality, rating team coaches who are charged with reviewing 
a sample of ratings for each RVSR each month. This review, if conducted 
properly, should identify those employees with the greatest success as 
well as those with problems. In practice, however, most rating team 
coaches have insufficient time to review what could be 100 or more 
cases each month. As a result, individual quality is often 
underevaluated and employees performing successfully may not receive 
the recognition they deserve and those employees in need of extra 
training and individualized mentoring may not get the attention they 
need to become more effective.
    The problems related to the quality of decisions, the timeliness of 
decisions, workload management, and safeguarding case files can be 
significantly improved by incorporating a robust IT solution. VA should 
establish systems that rapidly and securely convert paper documents 
into electronic formats, and establish new electronic information 
delivery systems that provide universal searchability and connectivity. 
This would increase the ability of veterans who have the means and 
familiarity with digital approaches to file electronic claims using 
VONAPP (Veterans On Line Application) or other future digital claims 
filing options. Lost or incorrectly destroyed records must become a 
problem of the past, as should the need to transfer thousands of case 
files from one location to the next.
    The Veterans' Benefits Improvement Act of 2008 (section 226) 
required VA to conduct a study on the effectiveness of the current 
employee work-credit system and work-management system. In carrying out 
the study, VA is required to consider, among other things:

    (1) Measures to improve the accountability, quality, and accuracy 
for processing claims for compensation and pension benefits;
    (2) Accountability for claims adjudication outcomes; and
    (3) The quality of claims adjudicated. The legislation requires VA 
to submit the report to Congress, which must include the components 
required to implement the updated system for evaluating VBA employees, 
no later than October 31, 2009. This report was not delivered on time.

    This study is a historic opportunity for VA to implement a new 
methodology--a new philosophy--by developing a new system with a 
primary focus of quality through accountability. Properly undertaken, 
the outcome would result in a new institutional mind-set across the 
VBA--one that focuses on the achievement of excellence--and change a 
mind-set focused mostly on quantity-for-quantity's sake to a focus of 
quality and excellence. Those who produce quality work are rewarded and 
those who do not are finally held accountable.
    It is the recommendation of the IBVSOs that:

          The VA Secretary's upcoming report focus on how the 
        Department will establish a quality assurance and 
        accountability program that will detect, track, and hold 
        responsible those VA employees who commit errors while 
        simultaneously providing employee motivation for the 
        achievement of excellence.
          VA should generate the report in consultation with veterans 
        service organizations most experienced in the claims process.
          The performance management system for claims processors 
        should be adjusted to allow managers greater flexibility and 
        enhanced tools to acknowledge and reward staff for higher 
        levels of performance.

    The IBVSOs urge VA to identify new funding for the purposes 
enumerated in this section and to ensure that new VBA personnel are 
properly supported with necessary IT resources. With restored 
investments in these initiatives, the VBA could complement staffing 
adjustments for increased workloads with a supportive infrastructure to 
improve operational effectiveness. The VBA could resume an adequate 
pace in its development and deployment of IT solutions, as well as to 
upgrade and enhance training systems for staff to improve operations 
and service delivery to veterans. It is vital to the VBA that many of 
their unique needs are met in a timely manner, including the following: 
expansion of web-based technology and deliverables, such as a web 
portal and Training and Performance Support System (TPSS); ``Virtual 
VA'' paperless processing; enhanced veteran self-service access to 
benefit application, status, and delivery; data integration across 
business lines; use of the corporate database; information exchange; 
quality assurance programs and controls; and employee skills 
certification and training.
    It is imperative that TEES and WINRS develop common architecture 
designs that maximize data sharing between the new GI Bill and the 
Vocational Rehabilitation programs. These programs share common 
information about programs of education, school approvals, tuition & 
fees, and other similar data which their processing systems should 
share more effectively. TEES provides for electronic transmission of 
applications and enrollment documentation along with automated expert 
processing.
    Also, the IBVSOs believe the VBA should continue to develop and 
enhance data-centric benefits integration with ``Virtual VA'' and 
modification of The Imaging Management System (TIMS). All these systems 
serve to replace paper-based records with electronic files for 
acquiring, storing, and processing claims data.
    Virtual VA supports pension maintenance activities at three VBA 
pension maintenance centers. Further enhancement would allow for the 
entire claims and award process to be accomplished electronically. TIMS 
is the Education Service system for electronic education claims files, 
storage of imaged documents, and workflow management. The current VBA 
initiative is to modify and enhance TIMS to make it fully interactive 
and allow for fully automated claims and award processing by the 
Education Service and VR&E nationwide.
    VA's TPSS is a multimedia, multimethod training tool that applies 
the instructional systems development methodology to train and support 
employee performance of job tasks. These TPSS applications require 
technical updating to incorporate changes in laws, regulations, 
procedures, and benefit programs. In addition to regular software 
upgrades, a help desk for users is needed to make TPSS work 
effectively.
    VBA initiated its skills certification instrument in 2004. This 
tool helps the VBA assess the knowledge base of veterans' service 
representatives. VBA intends to develop additional skills certification 
modules to test rating veteran service representatives, decision review 
officers, field examiners, pension maintenance center employees, and 
veterans' claims examiners in the Education Service.
    By providing veterans regionalized telephone contact access from 
multiple offices within specified geographic locations, VA could 
achieve greater efficiency and improved customer service. Accelerated 
deployment of virtual information centers will more timely accomplish 
this beneficial effect.
    It is the IBVSOs' recommendation that:

          VA complete the replacement of the antiquated and inadequate 
        Benefits Delivery Network (BDN) with the Veterans Service 
        Network (VETSNET), or a successor system, that creates a 
        comprehensive nationwide information system for claims 
        development, adjudication, and payment administration.
          VA enhance the Education Expert System (TEES) for the 
        Education Service to support the new GI Bill recently enacted 
        by Congress in Public Law 110-181.
          VA update the corporate WINRS (CWINRS) to support programs of 
        the Vocational Rehabilitation and Employment (VR&E) Service. 
        CWINRS is a case management and information system allowing for 
        more efficient award processing and sharing of information 
        nationwide.
          Congress provide VBA adequate funding for its information 
        technology initiatives to improve multiple information and 
        information-processing systems and to advance ongoing, 
        approved, and planned initiatives such as those enumerated in 
        this section. These IT programs should be increased annually by 
        a minimum of 5 percent or more.
          VBA revise its training programs to stay abreast of IT 
        program changes and modern business practices.
          VA ensure that recent funding specifically designated by 
        Congress to support the IT needs of the VBA, and of new VBA 
        staff authorized in FY 2009, are provided to VBA as intended, 
        and on an expedited basis.
          The Chief Information Officer and Under Secretary for 
        Benefits should give high priority to the review and report 
        required by Public Law 110-389 and redouble their efforts to 
        ensure these ongoing VBA initiatives are fully funded and 
        accomplish their stated intentions.
          The VA Secretary examine the impact of the current level of 
        IT centralization under the chief information officer on these 
        key VBA programs and, if warranted, shift appropriate 
        responsibility for their management, planning, and budgeting 
        from the chief information officer to the Under Secretary for 
        Benefits.
          Congress require the Secretary to establish a quality 
        assurance and accountability program that will detect, track, 
        correct and prevent future errors and, by creating a work 
        environment that properly aligns incentives with goals, holds 
        both VBA employees and management accountable for their 
        performance.

    The next topic to address in the area of General Operating Expenses 
is staffing. It is the IBVSOs' position that recent staffing increases 
in the VBA may now be sufficient to reduce the backlog of pending 
claims, once new hires complete training. However, any move by Congress 
to reduce VBA staffing in the foreseeable future will guarantee a 
return to unacceptably high backlogs.
    VA began making some progress in reducing pending rating claims in 
FY 2008. At the end of FY 2009, over 940,000 claims had been processed, 
well above the 940,000 that had been projected. Over 388,000 
compensation claims were pending rating decisions, which is above the 
386,000 of FY 2008.\3\
---------------------------------------------------------------------------
    \3\ Monday Morning Workload Report, October 3, 2009, pg. 1.
---------------------------------------------------------------------------
    During FY 2008, VA hired nearly 2,000 staff authorized by Congress. 
The total number of new hires since 2007 now stands at over 4,200. 
Historically, it takes at least two years for new nonrating claims 
processors to acquire sufficient knowledge and experience to be able to 
work independently with both speed and quality. Those selected to make 
rating decisions require a separate period of at least two years of 
training before they have the skills to accurately complete most rating 
claims.
    It would be interesting to know the attrition rate of these 4,200 
new hires. How many have successfully completed training? How many 
current employees have retired or terminated employment in comparison? 
Answers to these questions and other questions would be useful in 
discussions on the adequacy of the number of new hires and their 
current and future ability to substantially affect the claims backlog.
    Once everyone is fully trained and reductions in the backlog are 
seriously under way, it would be a mistake of monumental proportions if 
Congress were to allow staffing levels to decline. The IBVSOs do not 
suggest that VBA staffing remain off limits to Congressional budget 
considerations. What we believe, however, is that staffing reductions 
should occur only after the VBA has demonstrated, through technological 
innovation and major management and leadership reforms, that it has the 
right people and the right tools in place to ensure that claims can be 
processed both timely and correctly. As with backlog reductions, these 
changes will also not occur overnight. Congressional oversight, 
therefore, is critical to buttress any real improvements in claims 
processing and quality decisions.
    It is the recommendation of the IBVSOs that:

          Congress require the VA to report the attrition rate the 
        4,200 new hires; how many successfully completed training; how 
        many current employees have retired or terminated employment in 
        comparison.
          Congress continue to monitor current staffing levels and 
        ensure that they remain in place until such time as the backlog 
        is eliminated.
          Once the backlog is eliminated, Congress consider staffing 
        reductions in the VBA but only after ensuring that quality 
        problems are fully and adequately addressed.
          Congress ensure through oversight that management and 
        leadership reforms in the VBA are completed and permanent.

    The next topic of consideration is Vocational Rehabilitation and 
Employment, a program that continues to provide critical resources to 
service-connected disabled veterans despite inadequate staffing levels. 
To meet its ongoing workload demands and to implement new initiatives 
recommended by the Secretary's Vocational Rehabilitation and Employment 
(VR&E) Task Force, VR&E needs to increase its staffing.
    The cornerstone among several new initiatives is VR&E's Five-Track 
Employment Process, which aims to advance employment opportunities for 
disabled veterans. Integral to attaining and maintaining employment 
through this process, the employment specialist position was changed to 
employment coordinator and was expanded to incorporate employment 
readiness, marketing, and placement responsibilities. In addition, 
increasing numbers of severely disabled veterans from Operations 
Enduring and Iraqi Freedom (OEF/OIF) benefit from VR&E's Independent 
Living Program, which empowers such veterans to live independently in 
the community to the maximum extent possible. Independent living 
specialists provide the services required for the success of severely 
disabled veterans participating in this program. VR&E needs 
approximately 200 additional full-time employees (FTEs) to offer these 
services nationally.
    Given its increased reliance on contract services, VR&E needs 
approximately 50 additional FTEs dedicated to management and oversight 
of contract counselors and rehabilitation and employment service 
providers. As a part of its strategy to enhance accountability and 
efficiency, the VA VR&E Task Force recommended creation and training of 
new staff positions for this purpose. Other new initiatives recommended 
by the task force also require an investment of personnel resources.
    Finally, VA has a pilot program at the University of Southern 
Florida entitled ``Veteran Success on Campus'' that places a qualified 
Vocational Rehabilitation Counselor on the campus to assist veterans in 
Vocational Rehabilitation as well as veterans enrolled in the Post-9/11 
or other VA educational programs. The pilot has garnered high praise 
from the University, the American Council on Education, and the press. 
VA should be authorized to expand the program significantly in the next 
fiscal year.
    In FY 2009, VR&E was authorized 1,105 FTEs. The IBVSOs have been 
informed that this number has been ``frozen'' due to the unknown impact 
the implementation of chapter 33 benefits will have on the VR&E 
program. Last year, we recommended that total staffing be increased to 
manage the current and anticipated workload as stated in the 
Secretary's VR&E Task Force. We believe that this increase is still 
warranted. VA currently has approximately 106,000 enrollees in Chapter 
31. The IBVSOs believe that a ratio of 1:96 (which includes 
administrative support) is inadequate to provide the level of 
counseling and support that our wounded and disabled veterans need to 
achieve success in their employment goals.
    It is the recommendation of the IBVSOs that Congress should 
authorize 1,375 total FTEs for the Vocational Rehabilitation and 
Employment Service for FY 2010.
    The last area of the IB that I wish to address is Judicial Review. 
From its creation in 1930, decisions of the Veterans Administration, 
now the Department of Veterans Affairs, could not be appealed outside 
VA except on rare Constitutional grounds. This was thought to be in the 
best interests of veterans, in that their claims for benefits would be 
decided solely by an agency established to administer veteran-friendly 
laws in a paternalistic and sympathetic manner. At the time, Congress 
also recognized that litigation could be very costly and sought to 
protect veterans from such expense.
    For the most part, VA worked well. Over the course of the next 50 
years, VA made benefit decisions in millions of claims, providing 
monetary benefits and medical care to millions of veterans. Most 
veterans received the benefits to which they were entitled.
    Congress eventually came to realize that without judicial review, 
the only remedy available to correct VA's misinterpretation of laws, or 
the misapplication of laws to veterans claims, was through the unwieldy 
hammer of new legislation.
    In 1988, Congress thus enacted legislation to authorize judicial 
review and created the United States Court of Appeals for Veterans 
Claims (CAVC) to hear appeals from BVA.
    Today, the VA's decisions on claims are subject to judicial review 
in much the same way as a trial court's decisions are subject to review 
on appeal. This review process allows an individual to challenge not 
only the application of law and regulations to an individual claim, but 
more importantly, contest whether VA regulations accurately reflect the 
meaning and intent of the law. When Congress established the CAVC, it 
added another beneficial element to appellate review by creating 
oversight of VA decisionmaking by an independent, impartial tribunal 
from a different branch of government. Veterans are no longer without a 
remedy for erroneous BVA decisions.
    Judicial review of VA decisions has, in large part, lived up to the 
positive expectations of its proponents. Nevertheless, based on past 
recommendations in the IB, Congress has made some important adjustments 
to the judicial review process based on lessons learned over time. More 
precise adjustments are still needed to conform judicial review to 
Congressional intent. Accordingly, IBVSOs make the following 
recommendations to improve the processes of judicial review in 
veterans' benefits matters.
    In the area of scope of review, the IBVSOs believe that to achieve 
the law's intent that the CAVC enforce the benefit-of-the-doubt rule on 
appellate review, Congress must enact more precise and effective 
amendments to the statute setting forth the Court's scope of review.
    Title 38, United States Code, section 5107(b) grants VA claimants a 
statutory right to the ``benefit of the doubt'' with respect to any 
benefit under laws administered by the Secretary of Veterans Affairs 
when there is an approximate balance of positive and negative evidence 
regarding any issue material to the determination of a matter. Yet, the 
CAVC has affirmed many BVA findings of fact when the record contains 
only minimal evidence necessary to show a ``plausible basis'' for such 
finding. The CAVC upholds VA findings of ``material fact'' unless they 
are clearly erroneous and has repeatedly held that when there is a 
``plausible basis'' for the BVA factual finding, it is not clearly 
erroneous.
    This makes a claimant's statutory right to the ``benefit of the 
doubt'' meaningless because claims can be denied and the denial upheld 
when supported by far less than a preponderance of evidence. These 
actions render Congressional intent under section 5107(b) meaningless.
    To correct this situation, Congress amended the law with the 
enactment of the Veterans Benefits Improvement Act of 2008 to expressly 
require the CAVC to consider whether a finding of fact is consistent 
with the benefit-of-the doubt rule; however this intended effect of 
section 401 of the Veterans Benefits Act of 2008 has not been used in 
subsequent Court decisions.
    Prior to the Veterans Benefits Act, the Court's case law provided 
(1) that the Court was authorized to reverse a BVA finding of fact when 
the only permissible view of the evidence of record was contrary to 
that found by the BVA and (2) that a BVA finding of fact must be 
affirmed where there was a plausible basis in the record for the 
Board's determination.
    As a result of Veterans Benefits Act section 401 amendments to 
section 7261(a)(4), the CAVC is now directed to ``hold unlawful and set 
aside or reverse'' any ``finding of material fact adverse to the 
claimant * * * if the finding is clearly erroneous.''\4\ Furthermore, 
Congress added entirely new language to section 7261(b)(1) that 
mandates the CAVC to review the record of proceedings before the 
Secretary and the BVA pursuant to section 7252(b) of title 38 and 
``take due account of the Secretary's application of section 5107(b) of 
this title * * *.''\5\
---------------------------------------------------------------------------
    \4\ 38 U.S.C.  7261(a)(4). See also 38 U.S.C.  7261(b)(1).
    \5\ 38 U.S.C.  7261(b)(1).
---------------------------------------------------------------------------
    The Secretary's obligation under section 5107(b), as referred to in 
section 7261(b)(1), is as follows:

          (b) Benefit of the Doubt.--The Secretary shall consider all 
        information and lay and medical evidence of record in a case 
        before the Secretary with respect to benefits under laws 
        administered by the Secretary. When there is an approximate 
        balance of positive and negative evidence regarding any issue 
        material to the determination of a matter, the Secretary shall 
        give the benefit of the doubt to the claimant.\6\
---------------------------------------------------------------------------
    \6\ 38 U.S.C.  5107(b).

    Congress wanted for the Court to take a more proactive and less 
deferential role in its BVA fact-finding review, as detailed in a joint 
explanatory statement of the compromise agreement contained in the 
legislation:\7\
---------------------------------------------------------------------------
    \7\ 148 Congressional Record S11337, H9007.

          [T]he Committees expect the Court to reverse clearly 
        erroneous findings when appropriate, rather than remand the 
        case. The new subsection (b) [of section 7261] would maintain 
        language from the Senate bill that would require the Court to 
        examine the record of proceedings before the Secretary and BVA 
        and the special emphasis during the judicial process on the 
        benefit-of-doubt provisions of section 5107(b) as it makes 
        findings of fact in reviewing BVA decisions * * *. The 
        combination of these changes is intended to provide for more 
        searching appellate review of BVA decisions, and thus give full 
        force to the ``benefit-of-doubt'' provision.\8\
---------------------------------------------------------------------------
    \8\ 148 Congressional Record S11337, H9003 (daily ed. November 18, 
2002) (emphasis added). (Explanatory statement printed in Congressional 
Record as part of debate in each body immediately prior to final 
passage of compromise agreement.)

    With the foregoing statutory requirements, the Court should no 
longer uphold a factual finding by the Board solely because it has a 
plausible basis, inasmuch as that would clearly contradict the 
requirement that the CAVC's decision must take due account whether the 
factual finding adheres to the benefit-of-the-doubt rule. Yet such CAVC 
decisions upholding BVA denials because of the ``plausible bases'' 
standard continue as if Congress never acted.
    It is the IBVSOs' recommendation that:

          Congress clearly intended a less deferential standard of 
        review of the Board's application of the benefit-of-the-doubt 
        rule when it amended title 38, United States Code, section 7261 
        in 2002, yet there has been no substantive change in the 
        Court's practices. Therefore, to clarify the less deferential 
        level of review that the Court should employ, Congress should 
        amend title 38, United States Code, section 7261(a) by adding a 
        new section, (a)(5), that states: ``(5) In conducting review of 
        adverse findings under (a)(4), the Court must agree with 
        adverse factual findings in order to affirm a decision.''
          Congress should also require the Court to consider and 
        expressly state its determinations with respect to the 
        application of the benefit-of-the-doubt doctrine under title 
        38, United States Code, section 7261(b)(1), when applicable.

    The next topic to address is the appointment of judges to the CAVC. 
The CAVC received well over 4,000 cases during FY 2008. According to 
the Court's annual report, the average number of days it took to 
dispose of cases was nearly 450. This period has steadily increased 
each year over the past four years, despite the Court having recalled 
retired judges numerous times over the past two years specifically 
because of the backlog.
    Veterans' law is an extremely specialized area of the law that 
currently has fewer than 500 attorneys nationwide whose practices are 
primarily in veterans law. Significant knowledge and experience in this 
practice area would reduce the amount of time necessary to acclimate a 
new judge to the Court's practice, procedures, and body of law.
    A reduction in the time to acclimate would allow a new judge to 
begin a full caseload in a shorter period, thereby benefiting the 
veteran population. The Administration should therefore consider 
appointing new judges to the Court from the selection pool of current 
veterans law practitioners.

          The IBVSOs urge the Administration to consider that any new 
        judges appointed to the CAVC be selected from the knowledgeable 
        pool of current veterans law practitioners.

    The last topic to address in this area is in reference to Court 
facilities. During the 21 years since the CAVC was formed in accordance 
with legislation enacted in 1988, it has been housed in commercial 
office buildings. It is the only Article I court that does not have its 
own courthouse.
    The ``Veterans Court'' should be accorded at least the same degree 
of respect enjoyed by other appellate courts of the United States. 
Congress has finally responded by allocating $7 million in FY 2008 for 
preliminary work on site acquisition, site evaluation, preplanning for 
construction, architectural work, and associated other studies and 
evaluations. The issue of providing the proper court facility is now 
moving forward.

          It is the recommendation of the IBVSOs that Congress should 
        provide all funding as necessary to construct a courthouse and 
        justice center in a location befitting the CAVC.

    We hope the Committee will review these recommendations and give 
them consideration for inclusion in your legislative plans for FY 2011. 
Mr. Chairman, thank you for inviting the DAV and other member 
organizations of the IB to testify before you today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Akaka. Thank you. Thank you very much, Mr. Wilson.
    Now we will receive the statement of Raymond Kelley.

STATEMENT OF RAYMOND C. KELLEY, NATIONAL LEGISLATIVE DIRECTOR, 
                             AMVETS

    Mr. Kelley. Thank you, Mr. Chairman, Senator Begich.
    As a partner in the Independent Budget, AMVETS devotes a 
majority of our time with the concerns of the National Cemetery 
Administration, and I would like to speak directly to the 
issues and concerns surrounding NCA.
    In fiscal year 2009, $230 million was appropriated for the 
operations and maintenance of NCA, $49 million over the 
administration's request. NCA awarded 49 of the 56 minor 
construction projects that were in the operating plan. The 
State Cemetery Grants Service awarded $40 million in grants for 
ten projects. The IB partners also want to recognize and thank 
NCA for their foresight in reducing the population threshold 
for the establishment of new cemeteries, as well as 
understanding this policy needs to be flexible to take into 
account areas that do not easily fit the model due to urban or 
geographical phenomena.
    The Independent Budget recommends an operating budget of 
$274.5 million for the NCA for fiscal year 2011. The 
Independent Budget is encouraged that $25 million was set aside 
for the National Shrine Commitment for 2007 and 2008. In 2006, 
only 67 percent of headstones and markers in national 
cemeteries were at the proper height and alignment. By 2009, 
proper height and alignment increased to 76 percent. NCA has 
also identified 153 historic monuments and memorials that need 
repair and/or restoration. With funding from the American 
Recovery and Reinvestment Act, NCA will make repairs to 32 
percent of these monuments and memorials.
    The Independent Budget supports the NCA's operational 
standards and measures outlined in the National Shrine 
Commitment, and in the past, the Independent Budget advocated 
for a 5-year, $250 million National Shrine Initiative to assist 
NCA in achieving its performance goals. However, over the past 
few years, NCA has made marked improvements in the National 
Shrine Commitment by earmarking a portion of its operations and 
maintenance budget for the commitment. Therefore, the 
Independent Budget no longer believes it is necessary to 
implement the National Shrine Initiative program at $50 million 
a year for 5 years but, rather, proposes an increase in the 
NCA's operations budget by $25 million per year until the 
operational standards and measures goals are reached.
    The State Cemeteries Grant Program faces the challenges of 
meeting the growing interest from States by providing burial 
services in areas that are not currently served by national 
cemeteries. Currently, there are 60 State and Tribal government 
cemetery construction pre-grant applications, 36 of which have 
the required State matching funds totaling $121 million. The 
Independent Budget recommends that Congress appropriate $51 
million for the program in fiscal year 2011. This funding level 
would allow the program to establish 13 new State cemeteries.
    Based on accessibility and the need to provide quality 
burial benefits, the Independent Budget recommends that VA 
separate burial benefits into two categories: veterans who live 
inside the VA accessibility threshold model and those who live 
outside the threshold. For those veterans who live outside the 
threshold, the service-connected burial benefit should be 
increased to $6,160, non-service-connected veterans' burial 
benefit should be increased to $1,918, and the plot allowance 
should increase to $1,150 to match the original value of the 
benefit. For veterans who live inside the threshold, the 
benefit for a service-connected burial should be $2,793, the 
amount provided for a non-service-connected burial should be 
$854, and the plot allowance should be $1,150. This will 
provide a burial benefit at equal percentages, but based on the 
average cost for a VA funeral and not on the private funeral 
cost that will be provided for those veterans who do not have 
access to a State or national cemetery. This model will provide 
a meaningful benefit to those veterans whose access to State 
and national cemeteries is restricted as well as provide an 
improved benefit for eligible veterans who opt for private 
burial. Congress should also enact legislation to adjust these 
burial benefits for inflation annually.
    This concludes my testimony, and I look forward to any 
questions you may have.
    [The prepared statement of Mr. Kelley follows:]
               Prepared Statement of Raymond C. Kelley, 
                 National Legislative Director, AMVETS
    Chairman Akaka, Ranking Member Burr, and Members of the Committee: 
AMVETS is honored to join our fellow veterans' service organizations 
and partners at this important hearing on the Department of Veterans 
Affairs budget request for fiscal year 2011. My name is Raymond C. 
Kelley, National Legislative Director of AMVETS, and I am pleased to 
provide you with our best estimates on the resources necessary to carry 
out a responsible budget for VA.
    AMVETS testifies before you as a co-author of The Independent 
Budget. This is the 24th year AMVETS, the Disabled American Veterans, 
the Paralyzed Veterans of America, and the Veterans of Foreign Wars 
have pooled our resources to produce a unique document, one that has 
stood the test of time.
    In developing The Independent Budget, we believe in certain guiding 
principles. Veterans should not have to wait for benefits to which they 
are entitled. Veterans must be ensured access to high-quality medical 
care. Specialized care must remain the focus of VA. Veterans must be 
guaranteed timely access to the full continuum of health care services, 
including long-term care. And, veterans must be assured accessible 
burial in a state or national cemetery in every state.
    The VA healthcare system is the best in the country and responsible 
for great advances in medical science. VHA is uniquely qualified to 
care for veterans' needs because of its highly specialized experience 
in treating service-connected ailments. The delivery care system 
provides a wide array of specialized services to veterans like those 
with spinal cord injuries, blindness, Traumatic Brain Injury, and Post 
Traumatic Stress Disorder.
    As a partner of the Independent Budget, AMVETS devotes a majority 
of its time with the concerns of the National Cemetery Administration 
(NCA) and I would like to speak directly to the issues and concerns 
surrounding NCA.
                  the national cemetery administration
    The Department of Veterans Affairs National Cemetery Administration 
(NCA) currently maintains more than 2.9 million gravesites at 130 
national cemeteries in 39 states and Puerto Rico. Of these cemeteries, 
70 will be open to all interments; 20 will accept only cremated remains 
and family members of those already interred; and 40 will only perform 
interments of family members in the same gravesite as a previously 
deceased family member. NCA also maintains 33 soldiers' lots and 
monument sites. All told, NCA manages 19,000 acres, half of which are 
developed.
    VA estimates that about 27 million veterans are alive today. They 
include veterans from World War I, World War II, the Korean War, the 
Vietnam War, the Gulf War, the conflicts in Afghanistan and Iraq, and 
the Global War on Terrorism, as well as peacetime veterans. With the 
anticipated opening of the new national cemeteries, annual interments 
are projected to increase from approximately 111,000 in 2009 to 114,000 
in 2010. Historically, 12 percent of veterans opt for burial in a state 
or national cemetery.
    The most important obligation of the NCA is to honor the memory of 
America's brave men and women who served in the Armed Forces. 
Therefore, the purpose of these cemeteries as national shrines is one 
of the NCA's top priorities. Many of the individual cemeteries within 
the system are steeped in history, and the monuments, markers, grounds, 
and related memorial tributes represent the very foundation of the 
United States. With this understanding, the grounds, including 
monuments and individual sites of interment, represent a national 
treasure that deserves to be protected and cherished.
    The Independent Budget veterans service organizations (IBVSOs) 
would like to acknowledge the dedication and commitment of the NCA 
staff who continue to provide the highest quality of service to 
veterans and their families. We call on the Administration and Congress 
to provide the resources needed to meet the changing and critical 
nature of NCA's mission and fulfill the Nation's commitment to all 
veterans who have served their country honorably and faithfully.
    In FY 2009, $230 was million appropriated for the operations and 
maintenance of NCA, $49 million over the administration's request, with 
$2.7 million in carryover. NCA awarded 49 of the 56 minor construction 
projects that were in the operating plan. The State Cemetery Grants 
Service awarded $40 million in grants for 10 projects.
    NCA has done an exceptional job of providing burial options for 90 
percent of all veterans who fall within the 170,000 veterans within a 
75-mile radius threshold model. However, under this model, no new 
geographical area will become eligible for a National Cemetery until 
2015. St. Louis, MO. will, at that time, meet the threshold due to the 
closing of Jefferson Barracks National Cemetery in 2017. Analysis shows 
that the five areas with the highest veteran population will not become 
eligible for a National Cemetery because they will not reach the 
170,000 threshold.
    NCA has spent years developing and maintaining a cemetery system 
based on a growing veteran population. In 2010 our veteran population 
will begin to decline. Because of this downward trend, a new threshold 
model must be developed to ensure more of our veterans will have 
reasonable access to their burial benefits. Reducing the mile radius to 
65 miles would reduce the veteran population that is served from 90 
percent to 82.4 percent, and reducing the radius to 55 miles would 
reduce the served population to 74.1 percent. Reducing the radius alone 
to 55 miles would only bring two geographical areas in to 170,000 
population threshold in 2010, and only a few areas into this revised 
model by 2030.
    Several geographical areas will remain unserved if the population 
threshold is not reduced. Lowering the population threshold to 100,000 
veterans would immediately make several areas eligible for a National 
Cemetery regardless of any change to the mile radius threshold. A new 
threshold model must be implemented so more of our veterans will have 
access to this earned benefit.
            national cemetery administration (nca) accounts
    The Independent Budget recommends an operations budget of $274.5 
million for the NCA for fiscal year 2011 so it can meet the increasing 
demands of interments, gravesite maintenance, and related essential 
elements of cemetery operations.
    The NCA is responsible for five primary missions: (1) to inter, 
upon request, the remains of eligible veterans and family members and 
to permanently maintain gravesites; (2) to mark graves of eligible 
persons in national, state, or private cemeteries upon appropriate 
application; (3) to administer the state grant program in the 
establishment, expansion, or improvement of state veterans cemeteries; 
(4) to award a Presidential certificate and furnish a United States 
flag to deceased veterans; and (5) to maintain national cemeteries as 
national shrines sacred to the honor and memory of those interred or 
memorialized.
    The national cemetery system continues to be seriously challenged. 
Though there has been progress made over the years, the NCA is still 
struggling to remove decades of blemishes and scars from military 
burial grounds across the country. Visitors to many national cemeteries 
are likely to encounter sunken graves, misaligned and dirty grave 
markers, deteriorating roads, spotty turf and other patches of decay 
that have been accumulating for decades. If the NCA is to continue its 
commitment to ensure national cemeteries remain dignified and 
respectful settings that honor deceased veterans and give evidence of 
the Nation's gratitude for their military service, there must be a 
comprehensive effort to greatly improve the condition, function, and 
appearance of all our national cemeteries.
    The IBVSOs is encouraged that $25 million was set aside for the 
National Shrine Commitment for FY 2007 and 2008. The NCA has done an 
outstanding job thus far in improving the appearance of our national 
cemeteries, but we have a long way to go to get us where we need to be. 
In 2006 only 67 percent of headstones and markers in national 
cemeteries were at the proper height and alignment. By 2009 proper 
height and alignment increased to 76 percent. The NCA has also 
identified 153 historic monuments and memorials that need repair and/or 
restoration. With funding from The American Recovery and Reinvestment 
Act (ARRA), the NCA will make repairs on 32 percent of these monuments 
and memorials.
    The IBVSOs support the NCA's operational standards and measures 
outlined in the National Shrine Commitment, and in the past the 
Independent Budget advocated for a five-year, $250 million National 
Shrine Initiative to assist the NCA in achieving its performance goals. 
However, over the past few years, the NCA has made marked improvements 
in the National Shrine Commitment by earmarking a portion of its 
operations and maintenance budget for the commitment and pending 
receipt of funding from the ARRA. Therefore, the IBVSOs no longer 
believe it is necessary to implement the National Shrine Initiative 
program at $50 million per year for five years but, rather, propose an 
increase in the NCA's operations and maintenance budget by $25 million 
per year until the operational standards and measures goals are 
reached.
    In addition to the management of national cemeteries, the NCA is 
responsible for the Memorial Program Service. The Memorial Program 
Service provides lasting memorials for the graves of eligible veterans 
and honors their service through Presidential Memorial Certificates. 
Public Laws 107-103 and 107-330 allow for a headstone or marker for the 
graves of veterans buried in private cemeteries who died on or after 
September 11, 2001. Prior to this change, the NCA could provide this 
service only to those buried in national or state cemeteries or to 
unmarked graves in private cemeteries. Public Law 110-157 gives VA 
authority to provide a medallion to be attached to the headstone or 
marker of veterans who are buried in a private cemetery. This benefit 
is available to veterans in lieu of a government-furnished headstone or 
marker. The IBVSOs call on the Administration and Congress to provide 
the resources required to meet the critical nature of the NCA mission 
and fulfill the Nation's commitment to all veterans who have served 
their country so honorably and faithfully.
                   the state cemetery grants program
    The State Cemeteries Grant Program faces the challenge of meeting a 
growing interest from states to provide burial services in areas that 
are not currently served. The intent of the SCGP is to develop a true 
complement to, not a replacement for, our Federal system of national 
cemeteries. With the enactment of the Veterans Benefits Improvements 
Act of 1998, the NCA has been able to strengthen its partnership with 
states and increase burial service to veterans, especially those living 
in less densely populated areas not currently served by a national 
cemetery. Currently there are 60 state and tribal government cemetery 
construction grant pre-applications, 36 of which have the required 
state matching funds necessary totaling $121million.
    The Independent Budget recommends that Congress appropriate $51 
million for SCGP for FY 2011. This funding level would allow SCGP to 
establish 13 new state cemeteries that will provide burial options for 
veterans who live in a region that currently has no reasonably 
accessible state or national cemetery.
                            burial benefits
    In 1973 NCA established a burial allowance that provided partial 
reimbursements for eligible funeral and burial costs. The current 
payment is $2,000 for burial expenses for service-connected (SC) death, 
$300 for non-service-connected (NSC) deaths, and $300 for plot 
allowance. At its inception, the payout covered 72 percent of the 
funeral cost for a service-connected death, 22 percent for a non-
service-connected death, and 54 percent of the burial plot cost. In 
2007 these benefits eroded to 23 percent, 4 percent, and 14 percent 
respectively. It is time to bring these benefits back to their original 
value.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potters' fields. In 1923 the allowance was 
modified. The benefit was determined by a means test, and then in 1936 
the allowance was changed again, removing the means test. In its early 
history, the burial allowance was paid to all veterans, regardless of 
the service-connectivity of their death. In 1973 the allowance was 
modified to reflect the relationship of their death as service-
connected or not.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowances were intended to cover the full cost of a civilian burial in 
a private cemetery, the increase in the benefit's value indicates the 
intent to provide a meaningful benefit by adjusting for inflation.
    The national average cost for a funeral and burial in a private 
cemetery has reached $8,555, and the cost for a burial plot is $2,133. 
At the inception of the benefit the average costs were $1,116 and $278 
respectively. While the cost of a funeral has increased by nearly seven 
times the burial benefit has only increased by 2.5 times. To bring both 
burial allowances and the plot allowance back to its 1973 value, the SC 
benefit payment will be $6,160, the NSC benefit value payment will be 
$1,918, and the plot allowance will increase to $1,150. Readjusting the 
value of these benefits, under the current system, will increase the 
obligations from $70.1 million to $335.1 million per year.
    Based on accessibility and the need to provide quality burial 
benefits, the Independent Budget recommends that VA separate burial 
benefits into two categories: veterans who live inside the VA 
accessibility threshold model and those who live outside the threshold. 
For those veterans who live outside the threshold, the SC burial 
benefit should be increased to $6,160, NSC veteran's burial benefit 
should be increased to $1,918, and plot allowance should increase to 
$1,150 to match the original value of the benefit. For veterans who 
live within reasonable accessibility to a state or national cemetery 
that is able to accommodate burial needs, but the veteran would rather 
be buried in a private cemetery the burial benefit should be adjusted. 
These veterans' burial benefits will be based on the average cost for 
VA to conduct a funeral. The benefit for a SC burial will be $2,793, 
the amount provided for a NSC burial will be $854, and the plot 
allowance will be $1,150. This will provide a burial benefit at equal 
percentages, but based on the average cost for a VA funeral and not on 
the private funeral cost that will be provided for those veterans who 
do not have access to a state or national cemetery.
    The recommendations of past legislation provided an increased 
benefit for all eligible veterans but it currently fails to reach the 
intent of the original benefit. The new model will provide a meaningful 
benefit to those veterans whose access to a state or national cemetery 
is restricted as well as provides an improved benefit for eligible 
veterans who opt for private burial. Congress should increase the plot 
allowance from $300 to $1,150 for all eligible veterans and expand the 
eligibility for the plot allowance for all veterans who would be 
eligible for burial in a national cemetery, not just those who served 
during wartime. Congress should divide the burial benefits into two 
categories: veterans within the accessibility model and veterans 
outside the accessibility model. Congress should increase the service-
connected burial benefit from $2,000 to $6,160 for veterans outside the 
radius threshold and $2,793 for veterans inside the radius threshold. 
Congress should increase the non-service-connected burial benefit from 
$300 to $1,918 for veterans outside the radius threshold and $854 for 
veterans inside the radius threshold. Congress should enact legislation 
to adjust these burial benefits for inflation annually.
    The NCA honors veterans with a final resting place that 
commemorates their service to this Nation. More than 2.8 million 
soldiers who died in every war and conflict are honored by burial in a 
VA national cemetery. Each Memorial Day and Veterans Day we honor the 
last full measure of devotion they gave for this country. Our national 
cemeteries are more than the final resting place of honor for our 
veterans; they are hallowed ground to those who died in our defense, 
and a memorial to those who survived.

    Mr. Chairman, this concludes my testimony. I thank you again for 
the privilege to present our views, and I would be pleased to answer 
any questions you might have.

    Chairman Akaka. Thank you. Thank you very much, Mr. Kelley.
    Now we will receive the statement of Mr. Hilleman.

 STATEMENT OF ERIC A. HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE 
     SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES

    Mr. Hilleman. Thank you, Mr. Chairman. On behalf of the 2.1 
million men and women of the Veterans of Foreign Wars and our 
Auxiliaries, I thank you for the opportunity to present our 
views today on The Independent Budget. The VFW is responsible 
for the construction portion of the IB, so I will limit my 
remarks to that portion.
    VA's infrastructure--particularly within its health care 
system--is at a crossroads. The system is facing many 
challenges, including the average age of buildings, at 60 years 
or more, and significant funding needs for routine maintenance, 
upgrades, modernization, and construction of facilities as 
needed. VA is beginning a patient-centered reformation--or 
excuse me, an information reformation in the way it delivers 
care and manages infrastructure to meet the needs of its sick 
and disabled veterans in the 21st century. Regardless of what 
the VA health care system of the future looks like, our focus 
must remain on a lasting and accessible VA health care system 
that is dedicated to the unique needs of veterans.
    VA manages a wide portfolio of capital assets throughout 
the Nation. According to its latest Capital Asset Plan, VA is 
responsible for 5,500 buildings and over 34,000 acres of land. 
This vast capital network of facilities requires significant 
time and attention from capital asset managers.
    CARES--a data-driven assessment of VA's current and future 
construction needs--gave VA a long-term road map that has 
helped guide its capital planning in the past fiscal years. 
CARES showed a large number of significant construction 
priorities that would be necessary to fulfill the needs of VA 
into the future, and Congress has made significant inroads in 
funding these priorities. But it has been a huge and necessary 
undertaking, and VA has made slow and steady progress on these 
critical projects.
    The challenge for VA in the post-CARES era is that there 
are still numerous projects that need to be carried out, and 
the backlog of partially funded projects that CARES has 
identified is large. This means that VA is going to continue to 
require significant appropriations for major and minor 
construction to continue to live up to the promise of CARES.
    VA's most recent Asset Management Plan provides an update 
of the state of CARES projects--including those only in the 
planning of acquisition process. The top ten major construction 
projects in queue require $3.25 billion in appropriations.
    A November 17, 2008, letter from then-Secretary Peake said, 
``The Department estimates that the total funding requirement 
for major medical facility projects over the next 5 years would 
be in excess of $6.5 billion.'' It is clear that VA needs a 
significant infusion of cash for construction priorities. VA's 
own words and studies state this.
    The Major Construction request that the IB estimates is 
$1.3 billion with Minor Construction Recommendation at $785 
million.
    The IB recognizes much needed money was provided for 
military and veterans construction under the American Recovery 
and Reinvestment Act of 2009. We urge this Committee to examine 
VA's construction accounts and carefully review the 
administration's requests and weigh them against the priority 
list of partially funded projects.
    I thank you for this time, Mr. Chairman, and I am happy to 
answer any of your questions.
    [The prepared statement of Mr. Hilleman follows:]
Prepared Statement of Eric A. Hilleman, Director, National Legislative 
         Service, Veterans of Foreign Wars of The United States
    Mr. Chairman and Members of the Committee: On behalf of the 2.1 
million men and women of the Veterans of Foreign Wars of the U.S. (VFW) 
and our Auxiliaries, I would like to thank you for the opportunity to 
testify today. The VFW works alongside the other members of the 
Independent Budget (IB)--AMVETS, Disabled American Veterans and 
Paralyzed Veterans of America--to produce a set of policy and budget 
recommendations that reflect what we believe would meet the needs of 
America's veterans. The VFW is responsible for the construction portion 
of the IB, so I will limit my remarks to that portion of the budget.
    VA's infrastructure--particularly within its health-care system--is 
at a crossroads. The system is facing many challenges, including the 
average age of buildings (60 years) and significant funding needs for 
routine maintenance, upgrades, modernization and construction. VA is 
beginning a patient-centered reformation and transformation of the way 
it delivers care and new ways of managing its infrastructure plan based 
on needs of sick and disabled veterans in the 21st Century. Regardless 
of what the VA health care system of the future looks like, our focus 
must remain on a lasting and accessible VA health-care system that is 
dedicated to their unique needs and one that can provide high quality, 
timely care when and where they need it.
    VA manages a wide portfolio of capital assets throughout the 
Nation. According to its latest Capital Asset Plan, VA is responsible 
for 5,500 buildings and almost 34,000 acres of land. It is a vast 
network of facilities that requires significant time and attention from 
VA's capital asset managers.
    CARES--VA's data-drive assessment of their current and future 
construction needs--gave VA a long-term roadmap and has helped guide 
its capital planning process over the past few fiscal years. CARES 
showed a large number of significant construction priorities that would 
be necessary for VA to fulfill its obligation to this Nation's veterans 
and over the last several fiscal years, the administration and Congress 
have made significant inroads in funding these priorities. Since FY 
2004, $4.9 billion has been allocated for these projects. Of these 
CARES-identified projects, VA has completely five and another 27 are 
currently under construction. It has been a huge, but necessary 
undertaking and VA has made slow, but steady progress on these critical 
projects.
    The challenge for VA in the post-CARES era is that there are still 
numerous projects that need to be carried out, and the current backlog 
of partially funded projects that CARES has identified is large, too. 
This means that VA is going to continue to require significant 
appropriations for the major and minor construction accounts to live up 
to the promise of CARES. VA's most recent Asset Management Plan 
provides an update of the state of CARES projects--including those only 
in the planning of acquisition process. Table 4-5 (page 7.4-49) shows a 
need of future appropriations to complete these projects of $3.25 
billion.
        Project                                   Future Funding Needed 
                                                        ($ In Thousands)
    Denver....................................................  $492,700
    San Juan..................................................   122,920
    New Orleans...............................................   370,000
    St. Louis.................................................   364,700
    Palo Alto.................................................   478,023
    Bay Pines.................................................    80,170
    Seattle...................................................    38,700
    Seattle...................................................   193,830
    Dallas....................................................    80,100
    Louisville*............................................... 1,100,000
                    --------------------------------------------------------------
                    ____________________________________________________

        TOTAL.................................................$3,246,143
                    ==============================================================
                    ____________________________________________________
    * Louisville's cost estimate is found on table 5-6, on Page 7.5-93.

    This amount represents just the backlog of current construction 
projects. It does reflect the administration's FY 2011 proposed 
appropriation toward Denver, New Orleans, and Palo Alto.
    Meanwhile, VA continues to identify and reprioritize potential 
major construction projects. These priorities, which are assessed using 
the rigorous methodology that guided the CARES decisions, are released 
in the Department's annual Five Year Capital Asset Plan, which is 
included in the Department's budget submission. The most recent one was 
included in Volume IV and is available on VA's Web site: http://
www4.va.gov/budget/docs/summary/Fy2011_Volume_4-
Construction_and_5_Year_
Cap_Plan.pdf.
    Table 4-5 shows a long list of partially funded major construction 
projects. These 82 ongoing projects demonstrate the continued need for 
VA to upgrade and repair its aging infrastructure, and that continuous 
funding is necessary for not just the backlog of projects, but to keep 
VA viable for today's and future veterans.
    In a November 17, 2008 letter to the Senate Veterans' Affairs 
Committee, Secretary Peake said that ``the Department estimates that 
the total funding requirement for major medical facility projects over 
the next 5 years would be in excess of $6.5 billion.''
    It is clear that VA needs a significant infusion of cash for its 
construction priorities. VA's own words and studies show this.

Major Construction Account Recommendations

        Category                                         Recommendation 
                                                        ($ in Thousands)
    VHA Facility
        Construction..........................................$1,000,000
        NCA Construction......................................    60,000
        Advance Planning......................................    40,000
        Master Planning.......................................    15,000
        Historic Preservation.................................    20,000
    Medical Research
        Infrastructure........................................   100,000
    Miscellaneous
        Accounts..............................................    58,000
                    --------------------------------------------------------------
                    ____________________________________________________

            TOTAL.............................................$1,295,000
                    ==============================================================
                    ____________________________________________________

    <bullet> VHA Facility Construction--this amount would allow VA to 
continue digging into the $3.25 billion backlog of partially funded 
construction projects. Depending on the stages and ability to complete 
portions of the projects, any additional money could be used to fund 
new projects identified by VA as part of its prioritization methodology 
in the Five-Year Capital Plan.
    <bullet> NCA Construction's Five-Year Capital Plan details numerous 
potential major construction projects for the National Cemetery 
Association throughout the country. This level of funding would allow 
VA to begin construction on at least three of its scored priority 
projects.
    <bullet> Advance Planning--helps develop the scope of the major 
construction projects as well as identifying proper requirements for 
their construction. It allows VA to conduct necessary studies and 
research similar to planning processes in the private sector.
    <bullet> Master Planning--a description of our request follows 
later in the text.
    <bullet> Historic Preservation--a description of our request 
follows later in the text.
    <bullet> Miscellaneous Accounts--these include the individual line 
items for accounts such as asbestos abatement, the judgment fund, and 
hazardous waste disposal. Our recommendation is based upon the historic 
level for each of these accounts.

Minor Construction Account Recommendations

        Category                                                Funding 
                                                        ($ in Thousands)

    Veterans Health Administration............................  $450,000
    Medical Research Infrastructure...........................   200,000
    National Cemetery Administration..........................   100,000
    Veterans Benefits Administration..........................    20,000
    Staff Offices.............................................    15,000
                    --------------------------------------------------------------
                    ____________________________________________________

        TOTAL.................................................  $785,000
                    ==============================================================
                    ____________________________________________________
    <bullet> Veterans Health Administration--Page 7.8-138 of VA's 
Capital Plan reveals hundreds of already identified minor construction 
projects. These projects update and modernize VA's aging physical 
plant, ensuring the health and safety of veterans and VA employees. 
Additionally, a great number of minor construction projects address 
FCA-identified maintenance deficiencies; the backlog of 216 projects in 
FY 2010 with over $1 billion that has yet to be funded.
    <bullet> Medical Research Infrastructure--a description of our 
request follows later in the text.
    <bullet> National Cemetery Administration of the Capital Plan 
identifies numerous minor construction projects throughout the country 
including the construction of several columbaria, installation of 
crypts and landscaping and maintenance improvements. Some of these 
projects could be combined with VA's new NCA nonrecurring maintenance 
efforts.
    <bullet> Veterans Benefits Administration--Page 7.6-106 of the 
Capital Plan lists several minor construction projects in addition to 
the leasing requirements VBA needs.
    <bullet> Staff Offices--Page 7.8-134 lists numerous potential minor 
construction projects related to staff offices.
             increase spending on nonrecurring maintenance
      The deterioration of many VA properties requires increased 
                  spending on nonrecurring maintenance
    For years, the Independent Budget Veteran Service Organizations 
(IBVSOs) have highlighted the need for increased funding for the 
nonrecurring maintenance (NRM) account. NRM consists of small projects 
that are essential to the proper maintenance and preservation of the 
lifespan of VA's facilities. NRM projects are one-time repairs such as 
maintenance to roofs, repair and replacement of windows, and flooring 
or minor upgrades to the mechanical or electrical systems. They are a 
necessary component of the care and stewardship of a facility.
    These projects are so essential because if left unrepaired, they 
can really take their toll on a facility, leading to more costly 
repairs in the future, and the potential of a need for a minor 
construction project. Beyond the fiscal aspects, facilities that fall 
into disrepair can create access difficulties and impair patient and 
staff health and safety. If things do develop into a larger 
construction projection because early repairs were not done, it creates 
an even larger inconvenience for veterans and staff.
    The industry standard for medical facilities is for managers to 
spend from 2%-4% of plant replacement value (PRV) on upkeep and 
maintenance. The 1998 PriceWaterhouseCoopers study of VA's facilities 
management practices argued for this level of funding and previous 
versions of VA's own Asset Management Plan have agreed that this level 
of funding would be adequate.
    The most recent estimate of VA's PRV is from the FY 2008 Asset 
Management Plan. Using the standards of the Federal Government's 
Federal Real Property Council (FRPC), VA's PRV is just over $85 billion 
(page 26).
    Accordingly, to fully maintain its facilities, VA needs a NRM 
budget of at least $1.7 billion. This number would represent a doubling 
of VA's budget request from FY 2009, but is in line with the total NRM 
budget when factoring in the increases Congress gave in the 
appropriations bill and the targeted funding included in the 
supplemental appropriations bills.
    Increased funding is required not to just to fill current 
maintenance needs and levels, but also to dip into the extensive 
backlog of maintenance requirements VA has. VA monitors the condition 
of its structures and systems through the Facility Condition Assessment 
(FCA) reports. VA surveys each medical center periodically, giving each 
building a thorough assessment of all essential systems. Systems are 
assigned a letter grade based upon the age and condition of various 
systems, and VA gives each component a cost for repair or replacement.
    The bulk of these repairs and replacements are conducted through 
the NRM program, although the large increases in minor construction 
over the last few years have helped VA to address some of these 
deficiencies.
    VA's 5-Year Capital Plan discusses FCAs and acknowledges the 
significant backlog the number of high priority deficiencies--those 
with ratings of D or F--had replacement and repair costs of over $9.4 
billion, found on page 7.1-18. VA estimates that 52 percent of NRM 
dollars are obligated to toward this cost.
    VA uses the FCA reports as part of its Federal Real Property 
Council (FRPC) metrics. The department calculates a Facility Condition 
Index, which is the ratio of the cost of FCA repairs to the cost of 
replacement. According to the FY 2008 Asset Management Plan, this 
metric has gone backwards from 82% in 2006 to just 68% in 2008. VA's 
strategic goal is 87%, and for it to meet that, it would require a 
sizable investment in NRM and minor construction.
    Given the low level of funding the NRM account has historically 
received, the IBVSOs are not surprised at the metrics or the dollar 
cost of the FCA deficiencies. The 2007 ``National Roll Up of 
Environment of Care Report,'' which was conducted in light of the 
shameful maintenance deficiencies at Walter Reed, further prove the 
need for increased spending on this account. Maintenance has been 
neglected for far too long, and for VA to provide safe, high-quality 
health care in its aging facilities, it is essential that more money be 
allocated for this account.
    We also have concerns with how NRM funding is actually apportioned. 
Since it falls under the Medical Care account, NRM funding has 
traditionally been apportioned using the Veterans Equitable Resource 
Allocation (VERA) formula. This model works when divvying up health-
care dollars, targeting money to those areas with the greatest demand 
for health care. When dealing with maintenance needs, though, this same 
formula may actually intensify the problem.
    By moving money away from older hospitals, such as in the 
northeast, to newer facilities where patient demand is greater, even if 
the maintenance needs are not as high. We were happy to see that the 
conference reports to the VA appropriations bills required NRM funding 
to be apportioned outside the VERA formula, and we would hope that this 
continues into the future.
    Another issue related to apportionment of funding came to light in 
a May 2007 Government Accountability Office (GAO) report. They found 
that the bulk of NRM funding is not actually apportioned until 
September, the final month of the fiscal year. In September 2006, GAO 
found that VA allocated 60% of that year's NRM funding. This is a 
shortsighted policy that impairs VA's ability to properly address its 
maintenance needs, and since NRM funding is year-to-year, it means that 
it could lead to wasteful or unnecessary spending as hospital managers 
rushed in a flurry to spend their apportionment before forfeiting it 
back. We cannot expect VA to perform a year's worth of maintenance in a 
month. It is clearly poor policy and not in the best interest of 
veterans. The IBVSOs believe that Congress should consider allowing 
some NRM money to be carried over from one fiscal year to another. 
While we would hope that this would not resort to hospital managers 
hoarding money, it could result in more efficient spending and better 
planning, rather than the current situation where hospital managers 
sometimes have to spend through a large portion of maintenance funding 
before losing it at the end of the fiscal year.
Recommendations:
    VA must dramatically increase funding for nonrecurring maintenance 
in line with the 2%-4% total that is the industry standard so as to 
maintain clean, safe and efficient facilities. VA also requires 
additional maintenance funding to allow the department to begin 
addressing the substantial maintenance backlog of FCA-identified 
projects.
    Portions of the NRM account should be continued to be funded 
outside of the VERA formula so that funding is allocated to the 
facilities that actually have the greatest maintenance needs.
    Congress should consider the strengths of allowing VA to carry over 
some maintenance funding from one fiscal year to another so as to 
reduce the temptation some VA hospital managers have of inefficiently 
spending their NRM money at the end of a fiscal year for fear of losing 
it.
          inadequate funding and declining capital asset value
    VA must protect against deterioration of its infrastructure and 
                    a declining capital asset value
    The last decade of underfunded construction budgets has meant that 
VA has not adequately recapitalized its facilities. Recapitalization is 
necessary to protect the value of VA's capital assets through the 
renewal of the physical infrastructure. This ensures safe and fully 
functional facilities long into the future. VA's facilities have an 
average age approaching 60 years, and it is essential that funding be 
increased to renovate, repair, and replace these aging structures and 
physical systems.
    As in past years, the IBVSOs cite the Final Report of the 
President's Task Force to Improve Health Care Delivery for Our Nation's 
Veterans (PTF). It found that from 1996-2001, VA's recapitalization 
rate was just 0.64%. At this rate, VA's structures would have an 
assumed life of 155 years.
    The PTF cited a PriceWaterhouseCoopers study of VA's facilities 
management programs that found that to keep up with industry standards 
in the private sector and to maintain patient and employee safety and 
optimal health care delivery, VA should spend a minimum of 5 to 8 
percent of plant replacement value (PRV) on its total capital budget.
    The FY 2008 VA Asset Management Plan provides the most recent 
estimate of VA's PRV. Using the guidance of the Federal Government's 
Federal Real Property Council (FRPC), VA's PRV is just over $85 billion 
(page 26).
    Accordingly, using that 5 to 8 percent standard, VA's capital 
budget should be between $4.25 and $6.8 billion per year in order to 
maintain its infrastructure.
    VA's capital budget request for FY 2009--which includes major and 
minor construction, maintenance, leases and equipment--was just $3.6 
billion. We greatly appreciate that Congress increased funding above 
that level with an increase over the administration request of $750 
million in major and minor construction alone. That increased amount 
brought the total capital budget in line with industry standards, and 
we strongly urge that these targets continue to be met and we would 
hope that future VA requests use these guidelines as a starting point 
without requiring Congress to push them past the target.
Recommendation:
    Congress and the Administration must ensure that there are adequate 
funds for VA's capital budget so that VA can properly invest in its 
physical assets to protect their value and to ensure that the 
Department can continue to provide health care in safe and functional 
facilities long into the future.
                 maintain va's critical infrastructure
    The IBVSOs are concerned with VA's recent attempts to back away 
from the capital infrastructure blueprint laid out by CARES and we are 
worried that its plan to begin widespread leasing and contracting for 
inpatient services might not meet the needs of veterans.
    VA acknowledges three main challenges with its capital 
infrastructure projects. First, they are costly. According to a March 
2008 briefing given to the VSO community, over the next five years, VA 
would need $2 billion per year for its capital budget. Second, there is 
a large backlog of partially funded construction projects. That same 
briefing claimed that the difference in major construction requests 
given to OMB was $8.6 billion from FY 2003 through FY 2009, and that 
they have received slightly less than half that total. Additionally, 
there is a $2 billion funding backlog for projects that are partially 
but not completely funded. Third, VA is concerned about the timeliness 
of construction projects, noting that it can take the better part of a 
decade from the time VA initially proposes a project until the doors 
actually open for veterans.
    Given these challenges, VA has floated the idea of a new model for 
health care delivery, the Health Care Center Facility (HCCF) leasing 
program. Under the HCCF, VA would begin leasing large outpatient 
clinics in lieu of major construction. These large clinics would 
provide a broad range of outpatient services including primary and 
specialty care as well as outpatient mental health services and 
ambulatory surgery.
    On the face of it, this sounds like a good initiative. Leasing has 
the advantage of being able to be completed quickly, as well as being 
adaptable, especially when compared to the major construction process. 
Leasing has been particularly valuable for VA as evidenced by the 
success of the Community Based Outpatient Clinics (CBOCs) and Vet 
Centers.
    Our concern rests, however, with VA's plan for inpatient services. 
VA aims to contract for these essential services with affiliates or 
community hospitals. This program would privatize many services that 
the IBVSOs believe VA should continue to provide. We lay out our 
objections to privatization and widespread contracting for care 
elsewhere in The Independent Budget.
    Beyond those objections, though, is the example of Grand Island, 
Nebraska. In 1997, the Grand Island VA Medical Center closed its 
inpatient facilities, contracting out with a local hospital for those 
services. Recently, the contract between the local facility and VA was 
canceled, meaning veterans in that area can no longer receive inpatient 
services locally. They must travel great distances to other VA 
facilities such as the Omaha VA Medical Center. In some cases, when 
Omaha is unable to provide specialized care, VA is flying patients at 
its expense to faraway VA medical centers, including those in St. Louis 
and Minneapolis.
    Further, with the canceling of that contract, St. Francis no longer 
provides the same level of emergency services that a full VA Medical 
Center would provide. With VA's restrictions on paying for emergency 
services in non-VA facilities, especially for those who may have some 
form of private insurance, this amounts to a cut in essential services 
to veterans. Given the expenses of air travel and medevac services, the 
current arrangement in Grand Island has likely not resulted in any cost 
savings for VA. Ferrying sick and disabled veterans great distances for 
inpatient care also raises patient safety and quality concerns.
    The HCCF program raises many concerns for the IBVSOs that VA must 
address before we can support the program. Among these questions, we 
wonder how VA would handle governance, especially with respect to the 
large numbers of non-VA employees who would be treating veterans. How 
would the non-VA facility deal with VA directives and rule changes that 
govern health-care delivery and that ensure safety and uniformity of 
the quality of care? Will VA apply its space planning criteria and 
design guides to non-VA facilities? How will VA's critical research 
activities, most of which improve the lives of all Americans and not 
only veterans, be affected if they are being conducted in shared 
facilities, and not a traditional part of VA's first-class research 
programs? What would this change mean for VA's electronic health 
record, which many have rightly lauded as the standard that other 
health-care systems should aim to achieve? Without the electronic 
health record, how would VA maintain continuity of care for a veteran 
who moves to another area?
    But most importantly, CARES required years to complete and consumed 
thousands of hours of effort and millions of dollars of study. We 
believe it to be a comprehensive and fully justified roadmap for VA's 
infrastructure as well as a model that VA can apply periodically to 
assess and adjust those priorities. Given the strengths of the CARES 
process and the lessons VA learned and has applied from it, why is the 
HCCF model, which to our knowledge has not been based on any sort of 
model or study of the long-term needs of veterans, the superior one? We 
have yet to see evidence that it is and until we see more convincing 
evidence that it will truly serve the best needs of veterans, the 
IBVSOs will have a difficult time supporting it.
Recommendation:
    VA must resist implementing the HCCF model without fully addressing 
the many questions the IBVSOs have and VA must explain how the program 
would meet the needs of veterans, particularly as compared to the 
roadmap CARES has laid out.
                    research infrastructure funding
    The Department of Veterans Affairs must have increased funding for 
its research infrastructure to provide a state-of-the-art research and 
laboratory environment for its excellent programs, but also to ensure 
that VA hires and retains the top scientists and researchers.
                    va research is a national asset
    Research conducted in the Department of Veterans Affairs has led to 
such innovations and advances as the cardiac pacemaker, nuclear 
scanning technologies, radioisotope diagnostic techniques, liver and 
other organ transplantation, the nicotine patch, and vast improvements 
in a variety of prosthetic and sensory aids. A state of-the-art 
physical environment for conducting VA research promotes excellence in 
health professions education and VA patient care as well as the 
advancement of biomedical science. Adequate and up-to-date research 
facilities also help VA recruit and retain the best and brightest 
clinician scientists to care for enrolled veterans.
             va research infrastructure funding shortfalls
    In recent years, funding for the VA Medical and Prosthetics 
Research Program has failed to provide the resources needed to 
maintain, upgrade, and replace VA's aging research facilities. Many VA 
facilities have exhausted their available research space. Along with 
space reconfiguration, ventilation, electrical supply, and plumbing 
appear frequently on lists of needed upgrades in VA's academic health 
centers. In the 2003 Draft National Capital Asset Realignment for 
Enhanced Services (CARES) plan, VA included $142 million designated for 
renovation of existing research space and build-out costs for leased 
researched facilities. However, these capital improvement costs were 
omitted from the Secretary's final report. Over the past decade, only 
$50 million has been spent on VA research construction or renovation 
nationwide, and only 24 of the 97 major VA research sites across the 
Nation have benefited.
    In House Report 109-95 accompanying the FY 2006 VA appropriations, 
the House Appropriations Committee directed VA to conduct ``a 
comprehensive review of its research facilities and report to the 
Congress on the deficiencies found and suggestions for correction of 
the identified deficiencies.'' In FY 2008, the VA Office of Research 
and Development initiated a multiyear examination of all VA research 
infrastructures for physical condition and capacity for current 
research, as well as program growth and sustainability of the space 
needed to conduct research.
     lack of a mechanism to ensure va's research facilities remain 
                              competitive
    In House Report 109-95 accompanying the FY 2006 VA appropriations, 
the House Appropriations Committee expressed concern that ``equipment 
and facilities to support the research program may be lacking and that 
some mechanism is necessary to ensure the Department's research 
facilities remain competitive.'' A significant cause of research 
infrastructure's neglect is that there is no direct funding line for 
research facilities.
    The VA Medical and Prosthetic Research appropriation does not 
include funding for construction, renovation, or maintenance of 
research facilities. VA researchers must rely on their local facility 
managements to repair, upgrade, and replace research facilities and 
capital equipment associated with VA's research laboratories. As a 
result, VA research competes with other medical facilities' direct 
patient care needs--such as medical services infrastructure, capital 
equipment upgrades and replacements, and other maintenance needs--for 
funds provided under either the VA Medical Facilities appropriation 
account or the VA Major or Minor Medical Construction appropriations 
accounts.
Recommendations:
    The Independent Budget veteran's service organizations anticipate 
VA's analysis will find a need for funding significantly greater than 
VA had identified in the 2004 Capital Asset Realignment for Enhanced 
Services report. As VA moves forward with its research facilities 
assessment, the IBVSOs urge Congress to require the VA to submit the 
resulting report to the House and Senate Committees on Veterans' 
Affairs no later than October 1, 2010. This report will ensure that the 
Administration and Congress are well informed of VA's funding needs for 
research infrastructure so they may be fully considered at each stage 
of the FY 2011 budget process.
    To address the current shortfalls, the IBVSOs recommend an 
appropriation in FY 2010 of $142 million, dedicated to renovating 
existing VA research facilities in line with the 2004 CARES findings.
    To address the VA research infrastructure's defective funding 
mechanism, the IBVSOs encourage the Administration and Congress to 
support a new appropriations account in FY 2010 and thereafter to 
independently define and separate VA research infrastructure funding 
needs from those related to direct VA medical care. This division of 
appropriations accounts will empower VA to address research facility 
needs without interfering with the renovation and construction of VA 
direct health-care infrastructure.
                 program for architectural master plans
    Each VA medical facility must develop a detailed master plan.
    The delivery models for quality healthcare are in a constant state 
of change. This is due to many factors including advances in research, 
changing patient demographics, and new technology.
    The VA must design their facilities with a high level of 
flexibility in order to accommodate these new methods of patient care. 
The department must be able to plan for change to accommodate new 
patient care strategies in a logical manner with as little effect as 
possible on other existing patient care programs. VA must also provide 
for growth in already existing programs.
    A facility master plan is a comprehensive tool to look at potential 
new patient care programs and how they might affect the existing 
healthcare facility. It also provides insight with respect to possible 
growth, current space deficiencies, and other facility needs for 
existing programs and how VA might accommodate these in the future.
    In some cases in the past, VA has planned construction in a 
reactive manner. After funding, VA would place projects in the facility 
in the most expedient manner--often not considering other projects and 
facility needs. This would result in shortsighted construction that 
restricts, rather than expands options for the future.
    The IBVSOs believe that each VA medical Center should develop a 
comprehensive facility master plan to serve as a blueprint for 
development, construction, and future growth of the facility. Short and 
long-term CARES objectives should be the basis of the master plan.
    Four critical programs were not included in the CARES initiative. 
They are long-term care, severe mental illness, domiciliary care, and 
Polytrauma. VA must develop a comprehensive plan addressing these needs 
and its facility master plans must account for these services.
    VA has undertaken master planning for several VA facilities; most 
recently Tampa, Florida. This is a good start, but VA must ensure that 
all facilities develop a master plan strategy to validate strategic 
planning decisions, prepare accurate budgets, and implement efficient 
construction that minimizes wasted expenses and disruption to patient 
care.
Recommendation:

    Congress must appropriate $20 million to provide funding for each 
medical facility to develop a master plan.
    Each facility master plan should include the areas left out of 
CARES; long-term care, severe mental illness, domiciliary care, and 
Polytrauma programs as it relates to the particular facility.
    VACO must develop a standard format for these master plans to 
ensure consistency throughout the VA healthcare system.
                      empty or underutilized space
    VA must not use empty space inappropriately and must continue 
disposing of unnecessary property where appropriate Studies have 
suggested that the VA medical system has extensive amounts of empty 
space that the Department can reuse for medical services. Others have 
suggested that unused space at one medical center may help address a 
deficiency that exists at another location. Although the space 
inventories are accurate, the assumption regarding the feasibility of 
using this space is not.
    Medical facility planning is complex. It requires intricate design 
relationships for function, but also because of the demanding 
requirements of certain types of medical equipment. Because of this, 
medical facility space is rarely interchangeable, and if it is, it is 
usually at a prohibitive cost. For example, VA cannot use unoccupied 
rooms on the eighth floor to offset a deficiency of space in the second 
floor surgery ward. Medical space has a very critical need for inter- 
and intra-departmental adjacencies that must be maintained for 
efficient and hygienic patient care.
    When a department expands or moves, these demands create a domino 
effect of everything around it. These secondary impacts greatly 
increase construction expense, and they can disrupt patient care.
    Some features of a medical facility are permanent. Floor-to-floor 
heights, column spacing, light, and structural floor loading cannot be 
altered. Different aspects of medical care have different requirements 
based upon these permanent characteristics. Laboratory or clinical 
spacing cannot be interchanged with ward space because of the needs of 
different column spacing and perimeter configuration. Patient wards 
require access to natural light and column grids that are compatible 
with room-style layouts. Labs should have long structural bays and 
function best without windows. When renovating empty space, if the area 
is not suited to its planned purpose, it will create unnecessary 
expenses and be much less efficient.
    Renovating old space rather than constructing new space creates 
only a marginal cost savings. Renovations of a specific space typically 
cost 85% of what a similar, new space would. When you factor in the 
aforementioned domino or secondary costs, the renovation can end up 
costing more and produce a less satisfactory result. Renovations are 
sometimes appropriate to achieve those critical functional adjacencies, 
but it is rarely economical.
    Many older VA medical centers that were rapidly built in the 1940s 
and 1950s to treat a growing veteran population are simply unable to be 
renovated for modern needs. Most of these Bradley-style buildings were 
designed before the widespread use of air conditioning and the floor-
to-floor heights are very low. Accordingly, it is impossible to 
retrofit them for modern mechanical systems. They also have long, 
narrow wings radiating from a small central core, which is an 
inefficient way of laying out rooms for modern use. This central core, 
too, has only a few small elevator shafts, complicating the vertical 
distribution of modern services.
    Another important problem with this unused space is its location. 
Much of it is not located in a prime location; otherwise, VA would have 
previously renovated or demolished this space for new construction. 
This space is typically located in outlying buildings or on upper floor 
levels, and is unsuitable for modern use.
                va space planning criteria/design guides
    VA must continue to maintain and update the Space Planning Criteria 
and Design Guides to reflect state-of-the-art methods of healthcare 
delivery.
    VA has developed space-planning criteria it uses to allocate space 
for all VA healthcare projects. These criteria are organized into sixty 
chapters; one for each healthcare service provided by VA as well as 
their associated support services. VA updates these criteria to reflect 
current methods of healthcare delivery.
    In addition to updating these criteria, VA has utilized a computer 
program called VA SEPS (Space and Equipment Planning System) it uses as 
a tool to develop space and equipment allocation for all VA healthcare 
projects. This tool is operational and VA currently uses it on all VA 
healthcare projects.
    The third component used in the design of VA healthcare projects is 
the design guides. Each of the sixty space planning criteria chapters 
has an associated design guide. These design guides go beyond the 
allocation of physical space and outline how this space is organized 
within each individual department, as well as how the department 
relates to the entire medical facility.
    VA has updated several of the design guides to reflect current 
patient delivery models. These include those guides that cover Spinal 
Cord Injury/Disorders Center, Imaging, Polytrauma Centers, as well as 
several other services.
Recommendation:
    The VA must continue to maintain and update the Space Planning 
Criteria and the VA SEPS space-planning tool. It also must continue the 
process of updating the Design Guides to reflect current delivery 
models for patient care. VA must regularly review and update all of 
these space-planning tools as needed, to reflect the highest level of 
patient care delivery.
               design-build construction delivery system
    The VA must evaluate use of the Design-build construction delivery 
system.
    For the past ten years, VA has embraced the design-build 
construction delivery system as a method of project delivery for many 
healthcare projects. Design-build attempts to combine the design and 
construction schedules in order to streamline the traditional design-
bid-build method of project delivery. The goal is to minimize the risk 
to the owner and reduce the project delivery schedule. Design-build, as 
used by VA, places the contractor as the design builder.
    Under the contractor-led design build process, VA gives the 
contractor a great deal of control over how he or she designs and 
completes the project. In this method, the contractor hires the 
architect and design professionals. With the architect as a 
subordinate, a contractor may sacrifice the quality of material and 
systems in order to add to his own profits at the expense of the owner.
    Use of design-build has several inherent problems. A short-cut 
design process reduces the time available to provide a complete design. 
This provides those responsible for project oversight inadequate time 
to review completed plans and specifications. In addition, the 
construction documents may not provide adequate scope for the project, 
leaving out important details regarding the workmanship and/or other 
desired attributes of the project. This makes it difficult to hold the 
builder accountable for the desired level of quality. As a result, a 
project is often designed as it is being built, which often compromises 
VA's design standards.
    Design-build forces the owner to rely on the contractor to properly 
design a facility that meets the owner's needs. In the event that the 
finished project is not satisfactory to the owner, the owner may have 
no means to insist on correction of work done improperly unless the 
contractor agrees with the owner's assessment. This may force the owner 
to go to some form of formal dispute resolution such as litigation or 
arbitration.
Recommendation:
    VA must evaluate the use of Design-build as a method of 
construction delivery to determine if design-build is an appropriate 
method of project delivery for VA healthcare projects.
    The VA must institute a program of ``lessons learned''. This would 
involve revisiting past projects and determining what worked, what 
could be improved, and what did not work. VA should compile and use 
this information as a guide to future projects. VA must regularly 
update this document to include projects as they are completed.
                preservation of va's historic structures
    The VA must further develop a comprehensive program to preserve and 
protect its inventory of historic properties.
    The VA has an extensive inventory of historic structures that 
highlight America's long tradition of providing care to veterans. These 
buildings and facilities enhance our understanding of the lives of 
those who have worn the uniform, and who helped to develop this great 
Nation. Of the approximately 2,000 historic structures, many are 
neglected and deteriorate year after year because of a lack of funding. 
These structures should be stabilized, protected and preserved because 
they are an integral part our Nation's history.
    Most of these historic facilities are not suitable for modern 
patient care. As a result, a preservation strategy was not included in 
the CARES process. For the past six years, the IBVSOs have recommended 
that VA conduct an inventory of these properties; classifying their 
physical condition and their potential for adaptive reuse. VA has been 
moving in that direction and historic properties are identified on 
their Web site. VA has placed many of these buildings in an ``Oldest 
and Most Historic'' list and these buildings require immediate 
attention.
    At least one project has received funding. The VA has invested over 
$100,000 in the last year to address structural issues at a unique 
round structure in Hampton, VA. Built in 1860, it was originally a 
latrine and the funding is allowing VA to convert it into office space.
    The cost for saving some of these buildings is not very high 
considering that they represent a part of history that enriches the 
texture of our landscape that once gone cannot be recaptured. For 
example, VA can restore the Greek Revival Mansion in Perry Point, MD, 
which was built in the 1750's, to use as a training space for about 
$1.2 million. VA could restore the 1881 Milwaukee Ward Memorial Theater 
for use as a multi-purpose facility at a cost of $6 million. This is 
much less than the cost of a new facility.
    As part of its adaptive reuse program, VA must ensure that the 
facilities that it leases or sells are maintained properly. VA's legal 
responsibilities could, for example, be addressed through easements on 
property elements, such as building exteriors or grounds.
    We encourage the use of Public Law 108-422, the Veterans Health 
Programs Improvement Act, which authorized historic preservation as one 
of the uses of a new capital assets fund that receives funding from the 
sale or lease of VA property.
Recommendation:
    VA must further develop a comprehensive program to preserve and 
protect its inventory of historic properties.

    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

    Chairman Akaka. Thank you very much, Mr. Hilleman.
    And now we will receive the statement from Steve Robertson.

STATEMENT OF STEVE A. ROBERTSON, DIRECTOR, NATIONAL LEGISLATIVE 
                COMMISSION, THE AMERICAN LEGION

    Mr. Robertson. Thank you for the opportunity for the 
American Legion to comment on the President's budget request 
for fiscal year 2011. Mr. Chairman, the American Legion would 
like to express its appreciation for your leadership and the 
timely enactment of the public law that authorized advance 
appropriations for the Department of Veterans Affairs medical 
accounts.
    After reviewing the President's budget request, the 
American Legion share the President's vision to continue the 
VA's transformation into a 21st century organization. It is a 
bold paradigm shift that VA has approached to veterans' care, a 
lifetime initiative from the day the oath of enlistment is 
taken until the last day when the veteran is laid to rest. 
Clearly, the budget request appears to direct funding to assure 
veterans and their families will receive timely access to the 
highest-quality benefits and services provided by VA. The 
American Legion sees these benefits and services as earned 
through honorable military service.
    Secretary Shinseki explained that this budget request 
focuses on three specific concerns that are of critical 
importance to the entire veterans community: easier access to 
the benefits and services; reducing the backlog of claims and 
the wait before veterans receive their earned benefits; and 
ending the downward spiral resulting in veterans' homelessness.
    The American Legion is pleased with the President's budget 
request of $125 billion for the Department of Veterans Affairs. 
This budget request will meet or exceed most of the funding 
recommendations offered by the American Legion National 
Commander last September during our joint hearing with the 
Committees.
    VA has identified six high-priority goals as well, and the 
American Legion supports those initiatives. There are other 
areas addressed in the budget supported by the American legion, 
such as expanding health care eligibility, meeting the needs of 
women veterans, timely access to quality care for veterans in 
rural and highly rural areas, and expanding the burial benefits 
in VA National Cemeteries.
    In reviewing the budget request, it is obvious that 
information technology is going to play an enormous role in 
achieving the President's vision and many of these goals and 
objectives.
    Mr. Chairman, thank you for the opportunity to participate 
in this hearing today. That concludes my oral remarks, and I 
look forward to discussing some issues with you at the end.
    [The prepared statement of Mr. Robertson follows:]
     Prepared Statement of Steve A. Robertson, Director, National 
              Legislative Commission, The American Legion
    Mr. Chairman and Members of the Committee: The American Legion 
welcomes this opportunity to comment on the President's budget request 
for Fiscal Year 2011/2012. The American Legion is pleased by the $125 
billion total appropriations for the Department of Veterans Affairs 
(VA) in FY 2010 and the projected $64.7 billion in mandatory 
appropriations and $60.3 billion in discretionary appropriations.
    As a nation at war, America has a moral, ethical and legal 
commitment to the men and women of the Armed Forces of the United 
States and their survivors. These current defenders of democracy will 
eventually join the ranks of their 23.1 million comrades, we refer to 
as veterans. The active-duty, Reserve Components and veterans continue 
to make up the Nation's best recruiters for the Armed Forces. Young men 
and women across the country see servicemembers and veterans as role 
models. Chances are before enlisting in the Armed Forces; these young 
people will seek the advice of those they see in uniform or family 
members who have served for their recommendations on military service.
    Therefore, it is absolutely critical that the entire veterans' 
community (active-duty, Reserve Component, and veterans) continue to 
remain supportive of honorable military service. No servicemember 
should ever be in doubt about:

    <bullet> the quality of health care he or she will receive if 
injured;
    <bullet> the availability of earned benefits for honorable military 
service upon discharge; or
    <bullet> the quality of survivors' benefits should he or she pay 
the ultimate sacrifice.

    The American Legion and many other veterans' and military service 
organizations are united in advocating enactment of timely, predictable 
and sufficient budgets for VA medical care. The American Legion greatly 
appreciated the leadership of this Committee in passing Public Law 111-
81 authorizing advance appropriations for VA medical care accounts. 
With the decision for advance appropriations behind us, The American 
Legion continues to urge Congress to pass the VA budget for FY 2011 
before the start of the new fiscal year.
    After reviewing the proposed President's budget request for VA in 
FY 2011/2012, The American Legion renders its support as follows:

    <bullet> Increases funding for VA in FY 2011 by $11 billion above 
FY 2010.
    <bullet> Increases funding for VA's medical care by $4 billion in 
FY 2011 and a projected $2.8 billion increase in FY 2012 to $54.3 
billion.
    <bullet> Expands enrollment for 500,000 additional Priority Group 8 
veterans by FY 2013.
    <bullet> Enhances outreach and services related to mental health 
care and cognitive injuries, including Post Traumatic Stress Disorder 
and Traumatic Brain Injury, with a focus on access for veterans in 
rural and highly rural areas.
    <bullet> Invests in better technology to deliver services and 
benefits to veterans with the quality and efficiency they deserve.
    <bullet> Full concurrent receipt of military retirement pay and VA 
disability compensation without offsets.
    <bullet> Combats homelessness by safeguarding vulnerable veterans. 
Facilitates timely implementation of the comprehensive education 
benefits that veterans earn through their dedicated military service.

    When National Commander Clarence Hill testified on September 10, 
2009 before a Joint Session of the Committees on Veterans' Affairs, he 
clearly outlined the funding recommendations for FY 2011. This 
testimony will re-emphasize that support for certain specific areas.
                              medical care
    The American Legion fully supports funding ``the best health care 
anywhere'' in FY 2011 at $51.5 billion and in FY 2012 at $54.3 billion. 
VA reports that 6.1 million veterans will receive timely access to 
quality health care in FY 2011. This represents an anticipated increase 
of 168,904 new patients who will ``vote with their feet'' in making VA 
their health care provider of choice. VA medical care is still 
America's best investment in quality health care delivery--the right 
care, at the right time, in the right facility.
                     medical care collections fund
    The Balanced Budget Act of 1997, Public Law (P.L.) 105-33, 
established the VA Medical Care Collections Fund (MCCF), requiring 
amounts collected or recovered from third-party payers after June 30, 
1997, be deposited into this fund. The MCCF is a depository for 
collections from third-party insurance, outpatient prescription co-
payments and other medical charges and user fees. Funds collected may 
only be used to provide VA medical care and services, as well as VA 
expenses for identification, billing, auditing and collection of 
amounts owed the Federal Government.
    The American Legion supported legislation to allow VA to bill, 
collect, and reinvest all third-party reimbursements and co-payments. 
The American Legion adamantly opposes the scoring of MCCF as an offset 
to the annual discretionary appropriations since the majority of these 
funds come from the treatment of nonservice-connected medical 
conditions. VA's ability to capture these funds is critical to its 
ability to provide quality and timely care to veterans. Miscalculations 
of VA required funding levels result in real budgetary shortfalls.
    The American Legion continues to oppose offsetting annual VA 
discretionary funding by the MCCF goal.
                        medicare reimbursements
    As do most American workers, veterans pay into the Medicare system, 
without choice, throughout their working lives, including while on 
active duty or as active service Reservists in the Armed Forces. A 
portion of each earned dollar is allocated to the Medicare Trust Fund 
and, although veterans must pay into the Medicare system, VA is 
prohibited from collecting any Medicare reimbursements for the 
treatment of allowable, nonservice-connected medical conditions. Since 
over half of VA's enrolled patient population is Medicare-eligible, 
this prohibition constitutes a multi-billion dollar annual subsidy to 
the Medicare Trust Fund.
    The American Legion continues to support a legislative initiative 
to allow VHA to bill, collect and reinvest third-party reimbursements 
from the Centers for Medicare and Medicaid Services for the treatment 
of allowable, nonservice-connected medical conditions of enrolled 
Medicare-eligible veterans.
                    medical and prosthetics research
    The American Legion believes VA's focus in research must remain on 
understanding and improving treatment for medical conditions that are 
unique to veterans. Servicemembers are surviving catastrophically 
disabling blast injuries due to the superior armor they are wearing in 
the combat theater and the timely access to quality combat medical 
care. The unique injuries sustained by the new generation of veterans 
clearly demand particular attention. It has been reported that VA does 
not have state-of-the-art prostheses like DOD and that the fitting of 
prostheses for women has presented problems due to their smaller 
stature.
    There is a need for adequate funding of other VA research 
activities, including basic biomedical research and bench-to-bedside 
projects. Congress and the Administration should continue to encourage 
acceleration in the development and initiation of needed research on 
conditions that significantly affect veterans, such as prostate cancer, 
addictive disorders, trauma and wound healing, Post Traumatic Stress 
Disorder, rehabilitation, and other research that is conducted jointly 
with DOD, the National Institutes of Health (NIH), other Federal 
agencies, and academic institutions.
    The American Legion recommends $700 million for Medical and 
Prosthetics Research in FY 2011.
                           major construction
    The CARES process identified approximately 100 major construction 
projects throughout the VA Medical Center System, the District of 
Columbia, and Puerto Rico. Construction projects are categorized as 
major if the estimated cost is over $10 million. Now that VA has 
disclosed the plan to deliver health care through 2022, Congress has 
the responsibility to provide adequate funds. The FY 2011 President's 
budget request calls for ongoing construction of a new medical facility 
in Denver, CO; New Orleans, LA; and Palo Alto, CA. Also work is to 
begin on new medical facilities in Omaha, NE and Alameda Point, CA.
    The American Legion supports these projects; however, we feel the 
President's budget request for $864 million in FY 2011 for Major 
Construction is inadequate and should be increased to $2 billion to 
provide for additional facilities particularly Community-Based 
Outpatient Clinics in rural and highly rural areas and additional Vet 
Centers.
                           minor construction
    VA's minor construction program has also suffered significant 
neglect over the past several years. Maintaining the infrastructure of 
VA's buildings is no small task, due to the age of these buildings, 
continuous renovations, relocations and expansions. When combined with 
the added cost of the CARES program recommendations, it is easy to see 
that a major increase over the previous funding level is crucial and 
overdue. The President's budget request for FY 2011 would fund Minor 
Construction at only $468 million.
    The American Legion recommends $1.5 billion for Minor Construction 
in FY 2011.
        state extended care facility construction grants program
    Since 1984, nearly all planning for VA inpatient nursing home care 
has revolved around State Veterans' Homes (SVHs) and contracts with 
public and private nursing homes. Under the provisions of Title 38, 
U.S.C., VA is authorized to make payments to states to assist in the 
construction and maintenance of SVHs. Today, there are 133 SVHs in 47 
states with over 27,000 beds providing nursing home, hospital, and 
domiciliary care. Grants for Construction of State Extended Care 
Facilities provide funding for 65 percent of the total cost of building 
new veterans' homes. Recognizing the growing Long-Term Care needs of 
veterans, it is essential the State Veterans' Homes Program be 
maintained as an important alternative health care provider for the VA 
integrated health care delivery system.
    The American Legion opposes attempts to place a moratorium on new 
SVH construction grants. State authorizing legislation has been enacted 
and state funds have been committed. Delaying projects will result in 
cost overruns and may result in states deciding to cancel these much 
needed facilities.
    The American Legion supports:

    <bullet> increasing the amount of authorized per diem payments to 
50 percent for nursing home and domiciliary care provided to veterans 
in State Veterans' Homes;
    <bullet> providing prescription drugs and over-the-counter 
medications to State Homes Aid and Attendance patients along with the 
payment of authorized per diem to State Veterans' Homes; and
    <bullet> allowing full reimbursement of nursing home care to 70 
percent or higher service-connected disabled veterans, if those 
veterans reside in a State Veterans' Home.

    The American Legion strongly recommends $275 million for the State 
Extended Care Facility Construction Grants Program in FY 2011.
                           rural health care
    Research conducted by VA indicates that veterans residing in rural 
and highly rural areas have poorer health than their urban 
counterparts. It was further reported that one in five veterans live in 
a rural setting. Providing quality health care to veterans living in 
rural and highly rural areas has proven to be an extreme challenge.
    The American Legion recommends construction of Community-Base 
Outpatient Clinics in areas such as Alaska, Montana, Nebraska, Nevada, 
South Dakota, Utah, Vermont and Wyoming.
                     information technology funding
    Since the data theft occurrence in May 2006, the VA has implemented 
a complete overhaul of its Information Technology (IT) division 
nationwide. The American Legion is hopeful VA takes the appropriate 
steps to strengthen its IT security to regain the confidence and trust 
of veterans who depend on VA for the benefits they have earned.
    Within VA Medical Center Nursing Home Care Units, it was discovered 
there was conflict with IT and each respective VAMC regarding provision 
of Internet access to veteran residents. VA has acknowledged the 
Internet would represent a positive tool in veteran rehabilitation. The 
American Legion believes Internet access should be provided to these 
veterans without delay for time is of the essence in the journey to 
recovery. In addition, veterans should not have to suffer due to VA's 
gross negligence in the matter.
    The American Legion hopes Congress will not attempt to fund the 
solution to this problem with scarce fiscal resources allocated to the 
VA for health care delivery. With this in mind, The American Legion is 
encouraged by the fact that IT is its own line item in the budget 
recommendation.
    The American Legion believes there should be a complete review of 
IT security government wide. VA isn't the only agency within the 
government requiring an overhaul of its IT security protocol. The 
American Legion urges Congress to exercise its oversight authority and 
review each Federal agency to ensure that the personal information of 
all Americans is secure.
    The American Legion supports the centralization of VA's IT. The 
amount of work required to secure information managed by VA is immense. 
The American Legion urges Congress to maintain close oversight of VA's 
IT restructuring efforts and fund VA's IT to ensure the most rapid 
implementation of all proposed security measures.
    The American Legion disagrees with freezing funding at the FY 2009 
level of $3.3 billion for Information Technology, as recommended in the 
President's budget request; therefore, The American Legion recommends 
$3.8 billion in FY 2011.
                              homelessness
    The American Legion notes there are approximately 154,000 homeless 
veterans on the street each night. This number, compounded with 300,000 
servicemembers entering the civilian sector each year since 2001 with 
at least a third of them potentially suffering from mental illness, 
indicates that programs to prevent and assist homeless veterans are 
needed. The American Legion applauds VA's continued emphasis as one of 
its priority items the elimination of homelessness among America's 
veterans.
    The American Legion fully supports the $294 million in the FY 2011 
President's budget request to help eliminate homelessness among 
veterans.
                    national cemetery administration
    The mission of the National Cemetery Administration (NCA) is to 
honor veterans with final resting places in national shrines and with 
lasting tributes that commemorate their service to this Nation. The 
American Legion recognizes the NCA's excellent record in providing 
timely and dignified burials to all veterans who opt to be buried in a 
National Cemetery. Further the American Legion applauds the new VA 
guidelines reducing the required population base for creating a 
National Cemetery from 175,000 to 85,000. This will allow 90 percent of 
all veterans a realistic option within 75 miles of their home.
    The American Legion feels that the President's budget request for 
$251 million for NCA and $46 million for the State Cemetery 
Construction Grants program is not enough to carry out this hallowed 
mission. Therefore, The American Legion recommends $260 million be 
allocated to the National Cemetery Administration and further that $50 
million be provided for State Cemetery Construction Grants Programs in 
FY 2011.
     homeless providers grant and per diem program reauthorization
    In 1992, VA was given authority to establish the Homeless Providers 
Grant and Per Diem Program under the Homeless Veterans Comprehensive 
Service Programs Act of 1992, Public Law 102-590. The Grant and Per 
Diem Program, offered annually (as funding permits) by the VA, funds 
community agencies providing services to homeless veterans.
    VA can provide grants and per diem payments to help public and 
nonprofit organizations establish and operate supportive housing and/or 
service centers for homeless veterans. Funds are available for: 
assistance in the form of grants to provide transitional housing (up to 
24 months) with supportive services; supportive services in a service 
center facility for homeless veterans not in conjunction with 
supportive housing; or to purchase vans.
    The American Legion recommends $200 million for the Grant and Per 
Diem Program for FY 2011.
                    veterans benefits administration
    Clearly, the current VA claims backlog is a major concern to The 
American Legion and the rest of the veterans' community. Aggressively 
addressing this growing problem will require actions from an array of 
approaches. The President's budget request proposes to add both 
increases in funding ($460 million) and in personnel (4,048 new FTE). 
These increases will be helpful, but The American Legion believes more 
will be required to ``turn the tide.'' The American Legion will 
continue to work with VA, Congress and the veterans' community to 
transform the current process into a more timely and accurate process. 
The American Legion applauds the $13.4 billion in supplemental funding 
to address the newly approved Agent Orange claims.
   summary of legislation proposed in the fy 2011 president's budget 
                                request
    In reviewing the proposed legislation in the President's budget 
request, The American Legion would like to address several of them in 
detail:
Compensation and Pensions--Proposed Legislation
    <bullet> Compensation Cost of Living Adjustment (COLA): Legislation 
will be proposed to provide a cost of living increase to all 
Compensation beneficiaries, including DIC spouses and children, 
effective December 1, 2010. The percent increase will align with 
increases in the Consumer Price Index and the increase for Social 
Security benefits. However, current estimates suggest that the CPI will 
not increase; therefore, no COLA may be enacted.
    The American Legion has no official position on this proposal.

    <bullet> Expansion of Concurrent Receipt of Department of Defense 
Retirement Pay: Legislation will be proposed by the Administration to 
expand the veteran eligibility for concurrent receipt of military 
retirement pay and VA disability benefits to veterans who are medically 
retired from service by the Department of Defense. Eligibility will be 
phased in over five years based on the degree of disability assigned by 
VA. While the primary impact will be on Title 10 and the Department of 
Defense, VA estimates that the cost to VA of concurrent receipt 
expansion will be $47 million in 2011 and $254 million over the five 
year period[D1].
    The American Legion supports this proposal. Since the offset comes 
from military retirement pay, The American Legion is somewhat surprised 
that VA would incur any costs.

    <bullet> Use of Health and Human Services (HHS) Data for Purposes 
of Adjusting VA Benefits: Public Law 110-157 requires independent 
verification of HHS data for purpose of adjusting VA benefits based on 
economic need. This proposal seeks to remove the expiration date of 9/
30/11 and extend through 2020. Benefit costs are estimated to be $2.0 
million in 2012 with a net savings in later years.
    The American Legion has no official position on this proposal.

    <bullet> Special Monthly Pension for Wartime Veterans 65 years of 
age and older: This proposal amends Section 1513 of Title 38 and 
repeals the Court of Appeals for Veterans Claims (CAVC) rendered 
decision in Hartness v. Nicholson. The decision affected the 
qualifications for the special monthly pension (SMP) awarded to 
veterans who are housebound (H/B). The court decision excluded the SMP 
requirement of being permanently and totally disabled for veterans 65 
years of age and older. By repealing the court decision, a veteran will 
once again only be eligible for SMP if, in addition to basic pension 
qualifications, the veteran shows proof of being permanently and 
totally disabled. Once a veteran reaches age 65, the requirements for 
H/B pension will require a single disability rated at 100 percent, and 
a disability or combined disabilities (separate and distinct from the 
100 percent disability) independently ratable to at least 60 percent. 
This proposal will provide for more equitable treatment of veterans 
under the pension program; currently, veterans with lower disability 
ratings may receive larger benefits than veterans who are permanently 
and totally disabled. The 2011 estimated savings is $3.2 million with 
an anticipated caseload of 506,000.
    The American Legion strongly opposes this proposal. The American 
Legion believes this proposal would take away a needed benefit provided 
to disabled elderly wartime veterans as allowed by statute and 
confirmed in a precedential decision of the United States Court of 
Appeals for Veterans Claims.

    <bullet> VA Pension Limitations for Medicaid-covered Veterans 
Without Spouse or Children: This provision limits the amount of pension 
payable to a veteran who has neither spouse nor child (or a surviving 
spouse with no child) and who is covered by a Medicaid plan for 
services furnished by a nursing facility. Title 38, U.S.C. section 
5503(d) will expire on September 30, 2011. This proposal seeks to 
extend the expiration date an additional five years. Elimination of 
this provision would result in increased pension expenditures but money 
available to veterans and survivors would actually decrease. The 
maximum pension entitlement is not sufficient to cover the normal cost 
of nursing home care but receipt of that amount would result in the 
termination of Title XVI Medicaid benefits which currently cover 
nursing care costs in excess of the projected amount ($90) that is 
payable to the veteran under this provision. This is likely to result 
in veterans and surviving spouses being unable to afford nursing care. 
This proposal will result in VA benefit cost savings of $559.4 million 
and net governmentwide savings of $246 million in 2012. Mandatory VA 
savings through 2015 are estimated at $2.3 billion.
    The American Legion has no official position on this proposal.

    <bullet> IRS Income Data Matching for VA Eligibility 
Determinations: Section 6103(I)(7) of the Internal Revenue Code of 1986 
(26 U.S.C. Section 6103(I)(D)) requires the Secretary of the Treasury 
and the Commissioner of Social Security to disclose certain income 
information to any governmental agency administering certain programs, 
including VA's pension, dependency and indemnity compensation, and 
health-care programs. Section 5317 of Title 38, U.S.C., governs VA's 
use of that information. The duty of the Secretary of the Treasury and 
the Social Security Commissioner to disclose that information and VA's 
authority to obtain it from them will expire 9/30/2011. This proposal 
seeks to extend the expiration date for five years. While this proposal 
will result in net mandatory and discretionary savings of $20 million 
in 2012, it will result in net mandatory costs of $20 million in 2012. 
However, the proposal will result in net mandatory savings beginning in 
2013 and net mandatory savings between 2011-2016 are estimated at $21.9 
million.
    The American Legion has no official position on this proposal.

    <bullet> Clarification of Monthly Payment Option for the Month of 
Death for Compensation or Pensions: This proposal will amend Title 38 
U.S.C. 5310 and 5111(c)(1) to clarify that all surviving spouses are 
entitled to receive payment in the amount of the veteran's compensation 
or pension rate for the month of the veteran's death, and to simplify 
administration of the month-of-death benefit.
    The American Legion supports this proposal. There has been much 
confusion and misinterpretation of the law by VA regarding the month-
of-death benefit that has deprived thousands of beneficiaries of the 
benefits to which they are entitled, causing additional heartache 
during an already painful period following the death of a loved one.

    <bullet> Extension for Contract Physicians to Perform Disability 
Evaluations: P.L. 108-183, Section 704, provides authority under which 
examinations with respect to medical disability of applicants for 
compensation and pension benefits are carried out by persons not 
employed by the VA. These examinations are funded through discretionary 
funds, and there is no limitation to the number of VA regional offices 
involved. This authority, extended by Public Law 110-329, Section 105, 
will expire December 31, 2010. The proposal would extend the authority 
by two additional years to December 31, 2012.
    The American Legion has no official position on this proposal.
Readjustment Benefits--Proposed Legislation
    <bullet> Change of Terminology for the Administration of the New GI 
Bill: Title 38 U.S.C. uses the term ``institution of higher learning'' 
throughout chapter 36. For consistency, this proposal would adjust the 
administrative language of the new Chapter 33 benefit from the use of 
``institution of higher education'' to ``institution of higher 
learning.''
    The American Legion has no official position on this proposal.

    <bullet> Change in VA Authority to Approve Educational Programs: 
This proposal would amend 38 U.S.C. Chapter 36 to expand VA's authority 
regarding approval of courses for the enrollment of veterans (and other 
eligible persons) that are in receipt of educational assistance under 
the programs VA administers.
    The American Legion has no official position on this proposal.

    <bullet> Extend the Delimiting Date for Caregivers Use of Education 
Benefits: This proposal would amend Title 38 U.S.C. Sec. 3031(d) and 
Title 38 U.S.C. Sec. 3512, to permit the extension of delimiting dates 
for eligible individuals who could not pursue, or had to interrupt, a 
program of education while acting as the primary caretaker for a 
veteran or servicemember seriously injured while on active duty in a 
contingency operation after September 10, 2001.
    The American Legion has no official position on this proposal.

    <bullet> Expand Employer Support Eligibility: This proposal would 
amend Title 38, U.S.C., Section 3116 to expand eligibility for 
incentives paid to employers who provide on-job training and employment 
opportunities for veterans with service-connected disabilities who may 
be difficult to place in suitable jobs.
    The American Legion supports this proposal. If enacted this 
legislative proposal would give employers a greater incentive to hire 
injured veterans who are trying to obtain gainful employment. The 
unemployment rate for veterans is above the national average, 
particularly for those between the ages of 18 to 24. The American 
Legion believes this legislation will greatly assist servicemembers in 
their transition into the civilian workforce and allow them to use 
their expertise and military training to fill desirable positions 
within high potential industries.
Housing--Proposed Legislation
    <bullet> Authority to Pool Loans: Legislation will be proposed to 
extend the authority to pool loans for two years to December 2013. This 
will allow the VA to obtain the best pricing for the pooled and 
securitized loans and to continue selling loans at a greater return 
without any additional risk. VA estimates additional revenue of $87 
million in 2012 and overall increased revenue of $190 million over the 
2012-2014 period.
    The American Legion has no official position on this proposal.

    <bullet> Permission of Occupancy of Veteran's Child/Children: 
Legislation will be proposed to allow occupancy by a dependent child to 
satisfy occupancy requirements of VA home loans. This will permit a 
veteran who is unable to occupy a property as his/her primary residence 
due to active duty status or overseas employment, to use his/her earned 
Loan Guaranty benefit. No significant costs are anticipated.
    The American Legion has no official position on this proposal.

    <bullet> First Lien Exemption for Public Entities: Legislation will 
be proposed to extend first lien exemption to public entities as well 
as private entities during disaster relief situations only. This will 
allow disaster relief agencies and veterans to have more options in the 
type of assistance available. No significant costs are anticipated.
    The American Legion has no official position on this proposal.
Insurance--Proposed Legislation
    <bullet> VGLI Increased Coverage Act: This proposal would provide 
an opportunity for veterans to increase VGLI coverage in increments of 
$25,000 without medical underwriting. The opportunity will be available 
every 5 years with a total coverage not to exceed current legislated 
maximum SGLI. Current law limits the amount of VGLI allowed to the 
amount of SGLI at discharge and as a result, many service-disabled VGLI 
insured, have no opportunity to increase coverage to meet current 
family needs. This proposed change would allow veterans, including 
service-disabled veterans, to purchase adequate amounts of life 
insurance to protect their families. There are no PAYGO costs 
associated with this proposal and it does not impact the budget.
    The American Legion strongly supports this proposal. The American 
Legion would welcome such an addition to the VGLI program. This 
addition would permit veterans who separated from service prior to the 
latest increases in SGLI coverage, and who are thus restricted by 
current law to a lower maximum amount of life insurance coverage than 
those veterans who separated from service after September 1, 2005, when 
SGLI maximum coverage was raised from $250,000 to the current $400,000, 
a periodic opportunity to increase their VGLI coverage consonant with 
changes in their family situation and the needs of their beneficiaries. 
This increases program flexibility and fairness, and provides a greater 
benefit to this portion of the veteran population. The American Legion 
would like to comment further, however, that in the cases of severely 
service-disabled veterans, a federally subsidized premium relief or 
waiver element should be included to lessen the financial burden of 
VGLI's high premium costs, particularly in the older age groups.

    <bullet> SGLI Two Year Total Disability Extension Retention Act: 
Under current law and procedures, if an insured servicemember is 
totally disabled at the time of separation from service, the member's 
SGLI coverage may be continued for up to two years, for free, following 
separation from service. Effective October 1, 2011, this provision 
expires and the SGLI extension period will be reduced from two years to 
18-months. The SGLI Two Year Total Disability Extension Retention Act 
will allow for the indefinite retention of the two-year total 
disability extension period. By maintaining the SGLI Total Disability 
Extension period at two years, this will maximize the opportunity for 
totally disabled veterans, who have no hope of obtaining commercial 
insurance, to make informed decisions regarding their life insurance 
needs and options. It also guarantees that those most in need, who have 
been traumatized by their disabilities, will be fully covered under the 
SGLI program during this transition period with no action or cost on 
their part. There are no PAYGO costs associated with this proposal and 
it does not impact the budget.
    The American Legion strongly supports this proposal. It is obvious 
that veterans who separate from service with such extensive 
disabilities as to render them totally disabled often require a 
substantial period of time to bring their personal and financial 
affairs into order, due to the debilitating nature of such disabilities 
and the resulting period of family adjustment, and so to assist them in 
later meeting the premium costs of VGLI coverage as the program's 
structure does not provide for any disability waiver of premiums as 
other Federal and many private life insurance programs do. The American 
Legion further believes the process for this extension, which requires 
application by the veteran to the OSGLI center for such, be streamlined 
and automated so that veterans leaving active duty in a totally 
disabled status are automatically granted the extension shortly after 
separation.
Medical Care--Proposed Legislation
    <bullet> Homeless Providers Grant and Per Diem Program: Legislation 
will be proposed to amend legislative authority in Title 38 U.S.C., 
Subchapter VII, section 2061, to obtain statutory authority to offer 
both capital grants and enhanced per diem payments to eligible 
community-based entities who serve special needs veterans including 
female homeless veterans, homeless veterans diagnosed with a chronic 
mental illness, and those veterans who are failing and/or terminally 
ill. This proposal would grant VA permanent authority to offer capital 
grants and per diem to agencies that create transitional housing and 
supportive services for homeless veterans with special needs; allow for 
enhancement of the current per diem rate for transitional housing 
services; and remove the requirement to provide grants to VA health 
care facilities.
    The American Legion supports this proposal. If enacted, this 
legislative proposal would provide resources for public and private 
sector agencies and organizations who serve special needs veterans, 
including female homeless veterans, homeless veterans diagnosed with 
chronic mental illness and those veterans who are failing and/or 
terminally ill. With the VA and other homeless care service providers 
continuing to focus on the various needs (i.e., health issues, economic 
issues, lack of safe/affordable housing, and lack of family and social 
support networks) of homeless veterans, and the enactment of this 
legislation, The American Legion believes that homelessness rates will 
continue to drop among the veterans' community. The American Legion 
strongly supports taking the necessary means to combat and aid in 
ending veterans' homelessness.

    <bullet> Reinstate the Health Professional Scholarship Program 
(HPSP): Legislation will be proposed to reauthorize the HPSP. The 
authority to provide the financial assistance will be established by 
extending the expiration date of the Department of Veterans Affairs 
Health Professional Scholarship Program described in Title 38, U.S.C., 
Sections 7611-7618. The HPSP, established by Public Law 96-330, awarded 
scholarships from 1982 through 1995 to 4,650 students earning 
baccalaureate and masters degrees. Authority for the program expired in 
1998. It is recommended that the Health Professional Scholarship 
Program be reauthorized and funded because there is no other 
scholarship program with a VA service obligation available to the 
public at this time. This program, if reauthorized, will provide 
financial assistance to competitively selected scholarship recipients 
in exchange for 2-year VA service obligations upon graduation and 
licensing.
    The American Legion supports this proposal. The Health Professional 
Scholarship Program maintains the Department of Veterans Affairs 
presence in the competitive medical professional market, as well as 
helps to lower the attrition rate amongst medical professionals 
employed at VA medical centers (VAMC).

    <bullet> Remove Requirement that VA Reimburse Certain Employees for 
Professional Education: Legislation will be proposed to eliminate Title 
38, U.S.C., section 7411 that states ``The Secretary shall reimburse 
any full-time board certified physician or dentist appointed under 
section 7401(1) of this Title for expenses incurred, up to $1,000 per 
year, for continuing professional education.'' VHA has a long history 
of providing educational and training support to all clinical and 
administrative staff. The Employee Education System and VA Learning 
University offer a large course catalog with opportunities for 
physicians and dentists, as well as other occupations, to obtain 
continuing professional education at VA expense. VHA will continue to 
manage training and education funding within long-standing parameters 
in conjunction with published policies at the national and local 
levels. Continuance of the entitlement in section 7411 is no longer 
necessary, given the improved competitive recruitment position 
resulting from the new pay system.
    The American Legion has no official position on this proposal.

    <bullet> Provide Care for Newborns as Part of the Uniform Benefits 
Package: Legislation will be proposed to amend Title 38, U.S.C., to 
authorize VA to provide care to newborns of enrolled women veterans who 
are receiving maternity care through the Department of Veterans 
Affairs. This proposal is to cover costs of newborn hospitalization and 
is not to exceed 96 hours after delivery. Longer hospitalization or 
outpatient costs for the newborn, beyond 96 hours post-delivery, would 
not be authorized in this maternity benefit.
    The American Legion has no official position on this proposal.

    <bullet> Civilian Health and Medical Program of the Department of 
Veterans Affairs (CHAMPVA) Coverage for Caregivers: Legislation will be 
proposed to provide health care coverage through CHAMPVA for any 
caregiver without entitlement to other health insurance or coverage. 
Caregivers for severely wounded veterans are in most cases impacted by 
their inability to sustain employment related health coverage. CHAMPVA 
health care coverage will help relieve the financial burden of health 
care costs incurred by the caregiver of severely wounded veterans and 
allow them the reassurance that their medical care needs will be met 
while they care for the medical needs of the veteran. This in turn will 
reduce veterans' stress as they will not need to worry about how their 
caregivers health related needs are met.
    The American Legion supports this proposal. This legislative 
proposal would adequately provide timely access to quality health care 
for those who are unselfishly caring for the Nation's veterans.

    <bullet> Travel Expenses, including Lodging and Subsistence, for 
Caregivers: Legislation will be proposed to provide travel, incidental 
expenses [e.g., per diem (inclusive of lodging allowance), tolls etc.] 
and subsistence for a caregiver of qualifying veterans receiving care 
for service-related conditions at a VA or VA authorized facility. The 
Department does not have authority to provide lodging expenses to an 
attendant if the veteran is not lodging with the attendant. Since the 
veteran's caregiver in most cases is a close family member, providing 
travel expenses for the caregiver assures the veteran has the 
appropriate support while traveling to a VA health care facility. This 
will allow the veteran's health care provider to communicate directly 
to the veteran's caregiver about the needs of the veteran. This will 
also ensure continuity of the veteran's care and help the caregiver 
better understand the needs of the patient.
    The American Legion supports this proposed. This legislative 
proposal would help to ensure veterans receive complete and 
uninterrupted care.

    <bullet> Education and Training for Caregivers: Legislation will be 
proposed to allow VA to develop caregiver education materials for 
caregivers and individuals who support caregivers. In addition, VA 
would provide outreach to veterans and their caregivers to inform them 
of the support available through VA as well as public, private, and 
non-profit agencies. VA currently provides education and training for 
veterans and their caregivers regarding medical issues. This proposal 
would codify and expand those efforts. These programs generally 
demonstrate significant reduction in caregiver burden and the impact of 
depressive symptoms on their daily life. This proposal provides VA with 
the opportunity to implement a formal approach to educating and 
training caregivers so they are better prepared to care for the 
veteran.
    The American Legion supports this proposal.

    <bullet> Survey of Caregiver Needs: Legislation will be proposed to 
conduct a caregiver survey every 3 years to determine the number of 
caregivers, the types of services they provide to veterans, and 
information about the caregiver (age, employment status, and health 
care coverage). Currently, VA does not have adequate information on the 
number of caregivers, the number of family caregivers, and the number 
of veterans receiving caregiver services from caregivers and family 
caregivers, including the era in which each veteran served in the Armed 
Forces.
    A survey of veteran caregivers will allow VA to gather needed 
information that will be used to better understand the population of 
caregivers and to identify and understand their specific needs. This 
information will allow VA to appropriately develop education, training, 
and support programs for veteran caregivers.
    The American Legion supports this proposal.

    <bullet> Nonprofit Corporations: Legislation will be proposed to 
establish a Central Nonprofit Corporation for VA research. Currently, 
there are 88 of these VA affiliated Non-Profit Corporations (NPC). Each 
NPC is required to report annually a detailed statement of their 
operations, activities and accomplishments during the previous year. 
The purpose of the central Non-Profit Corporation will be to: (1) carry 
out national medical research and education projects under cooperative 
arrangements with VA, (2) serve as a focus for interdisciplinary 
interchange and dialog between VA medical research personnel and 
researchers from other Federal and non-Federal entities, and (3) 
encourage the participation of the medical, dental, nursing, 
veterinary, and other biomedical sciences in the work of the central 
NPC for the mutual benefit of VA and non-VA medicine. The central NPC 
would enable facility directors or the Under Secretary for Health to 
have an alternative to individual medical-center-based NPCs in those 
facilities in which the volume of research and education does not 
enable the resources to assure adequate management controls.
    The American Legion has no official position on this proposal.

    <bullet> Clarify Breach of Agreement under the Employee Incentive 
Scholarship Program (EISP): Legislation will be proposed to amend Title 
38, U.S.C., chapter 76, section 7675, subchapter VI, to provide that 
full-time student participants in the EISP would have the same 
liability as part-time students for breaching an agreement by leaving 
VA employment. The current statute clearly limits liability to part-
time student status participants who leave VA employment prior to 
completion of their education program. This allows a scholarship 
participant who meets the definition of full-time student to leave VA 
employment prior to completion of the education program, breaching the 
agreement with no liability. This proposal would require liability for 
breaching the agreement by leaving VA employment for both full- and 
part-time students. All other employee recruitment/retention incentive 
programs have a service obligation and liability component. This 
proposal would result in cost savings for the Department by recovering 
the education funds provided to employees who leave VA employment prior 
to fulfilling their agreement.
    The American Legion has no official position on this proposal.

    <bullet> Consider VA a Participating Provider for Purpose of 
Reimbursement (revenues): Legislation will be proposed that would allow 
VA to be treated as a participating provider, whether or not an 
agreement is in place with a health insurer or third-party payer, thus 
preventing the effect of excluding coverage or limiting payment of 
charges for care. With the enactment of the Balanced Budget Act of 1997 
(BBA), Congress changed the health insurer and third-party program into 
one designed to supplement VA's medical care appropriations by allowing 
VA to retain all collections and some other copayments. VA can use 
these funds to provide medical care to Veterans and to pay for its 
medical care collection expenses. This law also granted VA authority to 
begin billing reasonable charges versus reasonable costs for care. 
Reasonable charges are based on the amounts that health insurers and 
third-party payers pay for the same care provided by non-government 
health care providers in a given geographic area. This proposal would 
prevent a health insurer or third-party payer from denying or reducing 
payment, absent an existing agreement between VA and any health 
maintenance organization, competitive medical plan, health care 
prepayment plan, preferred provider organization, or other similar 
plan, based on the grounds that VA is not a participating provider.
    The American Legion supports this proposal.

    <bullet> Military Surgeon Association: This proposal would make the 
Department of Veterans Affairs (VA) an Incorporated Member of the 
Association of Military Surgeons of the United States (AMSUS). As a 
result, VA would be authorized to participate in AMSUS activities to 
the same extent as the military services.
    The American Legion has no official position on this proposal.

    <bullet> Technical Changes to Fee Basis Authority: This proposal 
would amend Title 38 U.S.C. 1703(a) by adding language similar to the 
language found in Title 38 U.S.C. Sec. 8123, Procurement of prosthetic 
appliances, which will strengthen the Department's interpretation of 
legal authority to purchase health care on an individual basis when 
needed.
    The American Legion supports this proposal. This legislative 
proposal would seek to ensure veterans receive adequate and timely 
care, to include medical appliances.

    <bullet> Mandatory Disclosure of Social Security Number (SSN) and 
3rd Party Health Insurance: The provision would deny access to hospital 
care, nursing home care, or medical services that may be provided to 
any person under the provisions of Title 38 U.S.C. chapter 17 unless 
that person has disclosed his/her social security number and the social 
security number of any dependent or beneficiary and furnish VA with 
current, accurate third-party health insurance information.
    The American Legion has no official position on this proposal.

    <bullet> Permanent Authority for Co-Pays: The provision would amend 
Title 38 U.S.C. Sec. 1710(f)(2)(B) to make permanent VA authority to 
collect an amount equal to $2 or $10 for every day the veteran receives 
hospital care for a veteran who is required to agree to pay to the 
United States the applicable amount determined under paragraph (2) or 
(4) or this subsection. This current authority expires September 30, 
2010.
    The American Legion has no official position on this proposal.

    <bullet> Permanent Authority for Collections: The provision would 
amend Title 38 U.S.C. Sec. 1729 to make permanent VA authority to 
recover reasonable charges for care or services for care of nonservice-
connected conditions from a third party to the extent that the veteran 
who has a service-connected disability would be eligible to receive 
payment for care or services from a third party if the care or services 
were not provided by VA. This current authority expires October 1, 
2010.
    The American Legion has no official position on this proposal.

    <bullet> Eliminate and Change Dates for Certain Congressional 
Reports: This proposal would eliminate the Report on Pay for Nurses and 
Other Heath Care Personnel (Title 38, U.S.C., Section 7451(f)) and 
Report on Long-Range Health Planning (Title 38, U.S.C., Section 8107) 
and modify the due date and limit the duration of the Annual Report on 
federally Sponsored Gulf War Research Activity.
    The American Legion has no official position on this proposal.

    <bullet> Codify Rules on Billing of Veterans in CHAMPVA: This 
proposal would modify Title 38 U.S.C. Sec. 1781 to codify, consistent 
with regulations, that the VA determined allowable amount for 
reimbursement of medical services represents payment in full and the 
health care provider may not impose additional charges on the 
beneficiary above the VA-determined allowable amount.
    The American Legion has no official position on this proposal.
Other Legislative Proposals
    <bullet> Staying of Claims: This proposal would amend Title 38, 
U.S.C., to permit the Secretary of Veterans Affairs (VA) to delay 
adjudications as needed to preserve program integrity and to clarify 
that the Board of Veterans' Appeals (Board) may decide certain cases 
out of docket order.
    The American Legion opposes this proposal. The American Legion 
would oppose VA from initiating stays involving implementation of 
precedential Federal court decisions pending the appeal of the decision 
without seeking permission of such a stay from the court as is the 
current practice. The current procedure for initiating stays in claims 
adjudication in such instances allows for VA to preserve program 
integrity but also provides a check by not allowing VA to circumvent 
the court's authority.

    <bullet> Revise Time Limits and Dates for Herbicide and Gulf War 
Presumptions: This proposal would modify statutory time limits to the 
review and rulemaking process.
    The American Legion has no official position on this proposal.

    <bullet> Repeal Obsolete Ethics Provision: This proposal would 
eliminate the blanket prohibition against VA employees having interests 
in, or receiving income or services from, certain for-profit 
educational institutions.
    The American Legion has no official position on this proposal.

    <bullet> Notice of Disagreement Filing Period: This proposal would 
amend Title 38 U.S.C. Sec. 7105(b)(1) to reduce the time period for 
filing of a notice of disagreement (NOD) following the issuance of a 
rating decision from one year to 180 calendar days.
    The American Legion strongly opposes this proposal. Claimants 
currently have one year to initiate the appeals process following the 
issuance of a VA rating decision by filing a notice of disagreement. 
Arbitrarily reducing this period from one year to six months for the 
sake of expediency serves no purpose other than to adversely impact 
appellants who miss the six month cutoff. If the percentage of 
appellants who file after six months is large, then a large group of 
appellants would be denied their appellant rights. If the percentage of 
those who file after six months is small, then there can be no great 
benefit to timeliness by implementing this change.

    <bullet> Automatic Waiver of Agency of Original Jurisdiction Review 
of New Evidence: This proposal would amend Title 38 U.S.C. Sec. 7105 to 
specifically incorporate an automatic waiver of agency of original 
jurisdiction (AOJ) consideration for any evidence submitted to VA by 
the appellant or his or her representative following VA's receipt of a 
VA Form 9 substantive appeal, unless the appellant or his or her 
representative expressly chooses in writing not to waive such 
jurisdiction.
    The American Legion supports this proposal. The American Legion 
believes the automatic waiver of agency of original jurisdiction (AOJ) 
review in instances where the claims file has already been certified 
and transferred to the Board of Veterans' Appeals (BVA). However, as it 
takes an average of approximately 600 days for the regional offices 
(RO) to transfer an appeal to the BVA after the substantive appeal has 
been filed, an automatic waiver of AOJ review and or submission of the 
evidence directly to the BVA after the substantive appeal has been 
received would cause additional delay if the claims file is still at 
the regional office. It is also in the best interest of the appellant 
for the RO to review evidence and issue a decision, after the appeal 
has been perfected, in instances where the claims file is still at the 
RO and the evidence submitted would allow a grant of the benefit 
sought. As it now takes a year or more, depending on docket date, for 
the BVA to make a decision after it has received the claims file, 
automatically waiving AOJ review in such instances would cause 
unnecessary delay.
    The American Legion also suggests the consideration of legislation 
addressing the inordinate amount of time it takes the AOJ to certify 
and transfer the appeal to the BVA after a substantive appeal is 
received.

    <bullet> Board of Veterans' Appeals Video Hearings: This proposal 
would amend Title 38 U.S.C. Sec. 7107(d)(1) and (e)(2) to allow the 
Board to determine the most expeditious type of hearing to afford an 
appellant (i.e. an in-person hearing or a video conference hearing), 
restricting the appellant to the hearing selected by the Board unless 
good cause or special circumstances are shown to warrant another type 
of hearing.
    The American Legion opposes this proposal. The American Legion does 
not support a denial of the appellant's right to choose the type of 
Board of Veterans' Appeals (BVA) hearing he or she desires. The 
majority of BVA appellants do not opt to have a personal hearing and 
taking away their right to choose their preferred option serves no good 
purpose.

    <bullet> Board of Veterans' Appeals'--Rationale in Decisions: This 
proposal would amend Title 38 U.S.C. Sec. 7104(d)(1), to define 
``reasons or bases'' to mean ``a plausible statement of the reasons for 
the Board's ultimate findings of fact and conclusions of law.''
    The American Legion has no official position on this proposal.

    <bullet> Definition of Prevailing Party for the Equal Access of 
Justice Act (EAJA) and Veterans Benefits Appeals: This proposal would 
amend the definition of ``prevailing party'' for purposes of 
establishing eligibility to receive attorney fees and expenses fees 
under Title 28 U.S.C. Sec. 2412 of the Equal Access of Justice Act 
(EAJA) for cases handled by the United States Court of Appeals for 
Veterans Claims (Court).
    The American Legion has no official position on this proposal.

    <bullet> Filing of Substantive Appeals: This proposal would amend 
Title 38, U.S.C., Sec. 7105(d)(3), to establish a clear time period for 
filing a substantive appeal in order to perfect an appeal to the Board 
of Veterans' Appeals (Board), to make the filing of a timely 
substantive appeal a jurisdictional requirement for Board review, and 
to establish that finality attaches to any matter in which a timely 
substantive appeal is not filed, all for the purpose of promoting 
efficiency in the adjudication process.
    The American Legion is deeply concerned about the potential impact 
this proposal will have, but without reviewing the exact statutory 
language we are unable to provide specific comment.

    <bullet> Advisory Committee on Homeless Veterans: This proposal 
would extend the Congressional authority to continue the Advisory 
Committee for Homeless Veterans (ACHV) for an additional three years 
until 2014.
    The American Legion supports this proposal. VA's new initiative to 
eliminate homelessness among the veterans' population in five years 
will require this Committee's insight and guidance to making this 
endeavor a reality.

    <bullet> Title 38 Pay Authority to Maintain On-Call Pay for 
Information Technology (IT) Specialists in VA OI&T: This proposal would 
amend Title 38 to continue to allow Title 5 IT Specialists authority to 
serve in an ``on-call'' status and receive ``on-call'' pay because of 
the requirement to support VA's healthcare mission 24 hours a day, 7 
days a week.
    The American Legion has no official position on this proposal.

    <bullet> Title 38 Pay Authority to Recruit and Retain Healthcare 
Professionals in VA OI&T: Legislation will be proposed to allow the 
Office of Information and Technology (OI&T) Title 38 Pay Authority. 
This will enable OI&T to recruit and retain healthcare professionals in 
leadership positions.
    The American Legion has no official position on this proposal.

    <bullet> Office of Small Business Programs: This proposal would 
change the name of the Office of Small and Disadvantaged Business 
Utilization to the Office of Small Business Programs. This change will 
bring VA into alignment with DOD's name change in accordance with the 
National Defense Authorization Act for Fiscal Year 2006 (Public Law 
109-163, Section 904).
    The American Legion has no official position on this proposal.

    <bullet> Real Property Enhanced Use Leases (EUL): Legislation will 
be proposed to extend the current EUL authority from its expiration 
date of December 31st, 2011 for five years, until December 31st, 2016.
    The American Legion has no official position on this proposal.

    <bullet> Franchise Fund: This proposal would modify Public Law 109-
114, Military Quality of Life and Veterans Affairs Appropriations Act 
of 2006, to provide a better financial procedure for the VA Franchise 
fund to more quickly return refunds to customers when improper payments 
are inadvertently made by the fund on the customer's behalf.
    The American Legion has no official position on this proposal.

    <bullet> VA Police Uniform Allowances: This proposal would update 
Title 38 U.S.C. Sec. 903-Uniform Allowance for Department Police 
Officers to make the uniform allowance paid to Department police 
officers consistent with current Federal statute and regulations.
    The American Legion has no official position on this proposal.
                               conclusion
    Mr. Chairman and Members of the Committee, The American Legion will 
continue to review the President's budget request. The American Legion 
had less than 24 hours to review the President's budget request and 
prepare this written testimony.
    Once again, The American Legion supports:

    <bullet> Increases funding for VA in FY 2011 by $11 billion above 
the FY 2010. Increases funding for VA's medical care by $4 billion in 
FY 2011 and a projected $2.8 billion increase in FY 2012 to $54.3 
billion.
    <bullet> Expands enrollment for 500,000 additional Priority Group 8 
veterans by FY 2013.
    <bullet> Enhances outreach and services related to mental health 
care and cognitive injuries, including Post Traumatic Stress Disorder 
and Traumatic Brain Injury, with a focus on access for veterans in 
rural and highly areas.
    <bullet> Invests in better technology to deliver services and 
benefits to veterans with the quality and efficiency they deserve.
    <bullet> Full concurrent receipt of military retirement pay and VA 
disability compensation without offsets.
    <bullet> Combats homelessness by safeguarding vulnerable veterans. 
Facilitates timely implementation of the comprehensive education 
benefits that veterans earn through their dedicated military service.
    The American Legion welcomes the opportunity to work with this 
Committee and the Administration on the enactment of a timely, 
predictable and sufficient budget for the Department of Veterans 
Affairs.

    Mr. Chairman, this concludes my testimony and The American Legion 
would welcome any questions you or your colleagues may have.

    Chairman Akaka. Thank you very much, Mr. Robertson.
    And now we will hear the statement from Rick Weidman.

  STATEMENT OF RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY & 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Thank you, Mr. Chairman, for the opportunity 
to appear here today. I want to join in the thanks to you for 
your leadership and that of Senator Burr in getting advance 
appropriations and, over the last 3 years, major strides toward 
restoring the lost organizational capacity that we experienced 
in the flat-line years in the latter years of the last decade. 
We are getting close for the first time, perhaps, in my adult 
lifetime to something that could be considered full funding for 
the VA. We are not there yet, but we are getting closer.
    We have four things for the 111th Congress and VBA as our 
legislative priorities. Number 1 was adequate funding and 
advance appropriations. Thanks to you and your colleagues, we 
now have that.
    Our number 2 priority, however, we are a long way from, and 
that is to achieve much greater accountability for how those 
funds are used and whether or not we have efficient and 
effective quality care both at the health care facilities and a 
fair shake and accurate determination on a claim that a veteran 
files for service-connected disability in a reasonable 
timeframe. We are a long way from that.
    In regard to the President's budget, we commend the 
administration for continuing strides toward that restoration 
of organizational capacity, and particularly think that it is 
necessary to note in the budget document and the appropriations 
bill the continued emphasis on rural and remote--we would call 
it remote. Rural is the Northeast Kingdom of Vermont; remote is 
the Outer Islands of Hawaii or many places in Alaska. In fact, 
it was our Alaska State President Ric Davidge who came up with 
that distinction that we find very helpful in talking about 
those issues.
    It is worth remembering that 40 percent of the active force 
today come from towns of 25,000 or less. So the planning for 
the future about how we site and the paradigm that we use all 
services, whether it be benefits and compensation and pension 
or medical services, needs to take that into account and 
achieve that balance that you rather insightfully asked the 
Secretary about on the first panel.
    Second, homeless veterans. We have a healthy request. The 
one thing that we would add to that is we would request that 
the Committee push for full funding up to the authorized 
statutory limit on the Homeless Veterans Reintegration Program, 
which we would argue is the most cost-efficient, cost-effective 
program administered through the Department of Labor. It has 
always puzzled us as to why Labor has resisted full funding on 
that program. Which part of putting homeless veterans back to 
work and get them off the tax dole and on the tax rolls don't 
you understand? I mean, it is just very puzzling to us.
    Also, the need to have a much greater emphasis on access to 
services and quality of services of women veterans needs to be 
maintained until such time as the coordinators really take 
hold. It has come to light within the past year that VA is not 
clear at all as to where they have women's coordinators and who 
that person is at a particular facility, much less whether they 
are doing their job of ensuring equal access and equal quality 
for women.
    In general, while we agree with the notation for those 
special programs and perhaps one or two others, we think it is 
important that the Committee ensure that in your request to the 
appropriators, a 3-5 percent increase be reserved for the VISN 
directors and for the hospital directors. For 2009, we have not 
discovered a single hospital director who had an increase from 
2008 to 2009 that was greater than 3 percent. And most of them 
were at 1 percent, which is effectively a cut. And that was 
used as an excuse for not hiring PTSD counselors where 
necessary, and people said it was in special programs when we 
brought it to the attention of central office. We said, ``What 
special programs?'' They said, ``Mental health.'' Puzzling to 
us, I must say.
    The last thing, because I see I am out of time here, is to 
mention that VVA feels very strongly we need an Extramural 
Research Office established and funded at VA. The research 
budget, 95 percent of it goes toward hanging on to the medical 
stars, if you will, at the affiliated medical school. We 
believe that is a legitimate thing to do, and it is important. 
But that does not address the research that is needed that is 
not done anywhere else into the wounds, maladies, and injuries 
of war, and we encourage you to talk with the appropriators and 
move toward authorization of such an office in the near future. 
And we will be coming back to you with a separate letter on 
that, Mr. Chairman.
    Once again, I thank you for the opportunity, sir.
    [The prepared statement of Mr. Weidman follows:]
  Prepared Statement of Rick Weidman, Executive Director for Policy & 
            Government Affairs, Vietnam Veterans of America
    Good morning, Chairman Akaka, Ranking Member Burr, and 
distinguished Members of the Committee. Thank you for giving Vietnam 
Veterans of America (VVA) the opportunity to offer our comments on the 
President's Budget Request for FY 2011. All of us at Vietnam Veterans 
of America (VVA) wish to thank the leadership shown by this Committee, 
by the leadership of the Budget Committee and of the Appropriations 
Committee, as well as the leadership of the entire Senate for your 
vision in leading the struggle to enact Advance Appropriations. 
Further, your extraordinary vision in working with your Senate Budget 
and Appropriations Committee colleagues to secure the dramatic 
increases in funding for Department of Veterans Affairs (VA) in both 
the medical system and in the Veterans Benefits Administration in the 
last three years has been nothing short of astonishing, and we applaud 
you for it.
    First let me note that VVA is one of the many organizations which 
have endorsed the Independent Budget of the Veterans Service 
Organizations (IBVSO). We commend our colleagues at the Veterans of 
Foreign Wars, AMVETS, Paralyzed Veterans of America, and the Disabled 
America Veterans for their excellent work on this major undertaking, 
and thank them for the strenuous effort it takes to produce this 
excellent document each year.
    Further, VVA commends President Obama and his Administration for 
submitting a budget request that continues to move us toward the goal 
of full funding of the health care and benefits earned by virtue of 
military service. It is a relatively ``lean year'' in regard to the 
Federal Budget request, yet the President has recognized that caring 
for ``he--or she--who hath borne the battle'' and their survivors is 
both part of the cost of war as well as the duty of the Nation and our 
citizenry. Therefore the President has exempted programs that serve 
veterans from the projected budget freeze along with the Department of 
Defense, Department of Homeland Security, and other programs vital to 
protecting the country. We also would like to thank the administration 
for increasing funding for women and homeless veterans in the FY 2011 
budget.
    While VVA does endorse the IBVSO in the main, and lauds the 
President's Budget Request, there are a few areas that we must comment 
where we see some needs that are not included in either the IBVSO or in 
the President's Budget Request for VA.
    First, VVA strongly supports the need to indicate where some of the 
appropriations increases need to be focused by VA managers, such as 
Post Traumatic Stress Disorder (PTSD) services. The reason for this is 
that all too often in the past Congress has appropriated additional 
funds to deal with specific needs, and the money has been redirected at 
other areas of operation. The well documented instance of money 
specifically directed by the Congress to start to more properly address 
the scourge of Hepatitis C a decade ago is one glaring incident of this 
behavior by VA. Even after being pressed hard by the Congress and the 
General Accounting Office (GAO), VA could not account for the majority 
of the funds that were supposedly directed toward correcting the 
deficiencies of the VA health care system in diagnosing and treating 
Hepatitis C. There is therefore a natural inclination to ensure that 
this type of thing does not happen again, both on the part of top 
managers in the Executive branch and in the Congress.
    However, because so much of the funding was centrally directed from 
Washington, VISN Directors and VA Medical Center Directors reported to 
us last tear that they could not meet certain needs because they only 
got a small increase of funds from FY 2008 to FY 2009 and/or FY 2009 to 
FY 2010. Usually those reported increases were from 1% to 3%. This of 
course caused VVA to ask how this could be, given that there was a much 
larger increase than that in the appropriation of the medical 
operations account? Where did the money go? We were told that it was in 
the special accounts, such as for PTSD. However, some of the unmet 
needs that local VA managers said they could not meet because of tight 
budgets were for additional clinicians to deal with PTSD problems of 
young soldiers returned from the current conflicts.
    The argument against making medical care part of the mandatory side 
of the budget as opposed to keeping it where it is now, in the 
discretionary side of domestic spending was that Congress would not 
have adequate control over how the funds were spent. That was 
persuasive to the veterans' community, so all agreed that we should go 
to advance appropriations. With the strong leadership here in the 
Senate, and Chairman Filner and his colleagues in the House, as well as 
President Obama, we have achieved this important milestone. As you 
know, VVA's top legislative agenda item for the 111th Congress was 
Advance Appropriations for VA health care. Now that this has been 
achieved, our top legislative agenda item is to assist the Congress in 
securing much greater accountability in both the efficiency and 
effectiveness of how each appropriated dollar is spent.
    Essentially what we are saying is that the Director of each 
Veterans' Integrated Service Network (VISN) and of each VA Medical 
Center (VAMC) must be given funds to be able to handle the increased 
costs of everything from electricity to salary to supplies, and then 
held accountable for how well they use those dollars to deliver high 
quality medical care to every eligible veteran. VVA suggest that 
several billion be added to the pool of funds that is sent out to the 
VISNs under the allocation model. VVA further suggest that Congress 
direct VA to re-examine the Veterans Equitable Resource Allocation 
(VERA) model to make it a more finely tuned instrument for allotting 
resources. At present the VA medical facilities in the north are being 
shortchanged because the veterans who have resources move south, 
leaving generally the veterans who are poorer, sicker, and in need of 
more medical services than the more affluent ones who move to warmer 
climates. The two-tiered system currently employed does not 
sufficiently account for this phenomena, thereby leaving those VISNs in 
the north without adequate resources to meet the needs of the veterans 
in their catchment area.
    This does not mean that the President's request should not ask for 
targeted dollars (e.g., for PTSD, for increased services to homeless 
veterans, etc.), but that as this is passed down to the local level for 
actual delivery of services, how much goes where needs to be 
transparent. VVA National President John Rowan wrote to VA on April 9, 
2009, asking for the allocation by VISN and by VAMC of medical care 
dollars. While it was partly answered within 30 days, the only 
information provided was for the previous Fiscal Year (FY'08). It is 
now almost halfway through the second quarter of FY 2010, and we are 
still waiting for that answer, despite having made repeated efforts to 
secure same. This is just not acceptable.
               need for much greater transparency in vha
    It is clear to us that mechanisms to achieve a much higher degree 
of transparency in all parts of the Veterans Health Administration 
(VHA) needs to be restored, and the trend toward secretiveness that 
started in 2003-2004, and has only gotten worse each year since, needs 
to be sharply reversed. There is no better way of securing the 
undivided attention of the permanent managers employed in the VHA than 
to make such mandates part of the appropriations process/language, both 
in the text of the law and in the report language. VVA encourages the 
Committee to suggest possible language to the Budget and Appropriations 
Committees in your views and estimates statement.
    Further, there needs to be much more consultation and sharing of 
information between key officials in the VHA and leaders of the 
veterans' community. The fact that much of the meetings of the 
Seriously Mentally Ill Advisory Committee now meets in secret, and the 
Advisory Committee on PTSD meets totally in secret should give everyone 
pause, particularly after the mis-steps and serious problems with these 
services at VA over the last four or five years.
   outreach and education to open the system to all eligible veterans
    VVA encourages the Congress to continue and accelerate the lifting 
of the restrictions imposed in January 2003, and to allow so-called 
Priority 8 veterans to register and use the system. As a key element in 
this effort, VVA strongly urges the Congress to mandate that there be a 
line item in each division of VA specifically for outreach and 
education, and that all of these efforts be coordinated through the 
Office of the Assistant Secretary for Intergovernmental and Public 
Affairs. Having been turned away one or more times by the VA, many of 
the veterans they are trying to reach are very skeptical (to say the 
least) about responding to any letters that VA may send asking them to 
come in and register for health care services.
    If it is to be successful, this effort must be coordinated, done on 
a media market by media market basis, and involve the Veterans Service 
Organizations and other key players if it is to be successful in 
drawing these veterans back to VA.
                           homeless veterans
    Homelessness continues to be a significant problem for veterans. 
Among male homeless veterans those of the Vietnam Era are still of the 
highest percentage, although it is decreasing. Among women veterans 
this percentage is highest for those of the peace time era after 
Vietnam and before Gulf War I. In part this is due to the fact that 
until the end of the Vietnam Era women by law were only able to make up 
2% of the Active Duty Force.
    The VA estimates about one-third of the adult homeless population 
have served their country in the Armed Services. With the increasing 
number of new, and younger, veterans who find themselves without a home 
and with dependent children, it is essential that the agencies of 
government and the non-governmental entities funded to assist these men 
and women be given the mandate and the funding necessary to assist 
these veterans--before their homelessness becomes chronic. Newly 
released population estimates suggest that about 131,000 veterans are 
homeless on any given night and perhaps twice as many experience 
homelessness at some point during the course of a year.
    Vietnam Veterans of America supports the VA FY 2011 budget proposal 
submitted by the Administration which includes $4.2 billion for the 
prevention of homelessness among Veterans, $799 million for specific 
homeless programs and expanded medical care, and $294 million for 
expanded homeless initiatives. VVA is hopefully optimistic that the 
funding in the proposed budget will provide the necessary resources for 
state, non-profit and faith based agencies and organizations to achieve 
the goal VA Secretary Eric Shinseki has set before us--Ending Veteran 
Homelessness in 5 Years. We also look forward to VA's plans for 
establishing these new proposed initiatives.
    Thousands of homeless veterans have availed themselves of the VA 
Homeless Grant and Per Diem programs provided by community-based 
service providers. Community-based service providers are able to supply 
much needed services in a cost-effective and efficient manner. The VA 
HGPD program offers funding in a highly competitive grant round. 
Because financial resources available to HGPD are limited, the number 
of grants awarded and the dollars granted are restrictive and hence 
many geographic areas in need suffer a loss that HGPD could address. 
The increased dollars in the HGPD Budget will provide for the creation 
of thousands of new transitional beds.
    However, VVA continues to advocate that VA Homeless Grant and Per 
Diem funding must be considered a payment rather than a reimbursement 
for expenses, an important distinction that will enable the community-
based organizations that deliver the majority of these services to 
operate more effectively. Per Diem dollars received by services centers 
are not capable of obtaining or retaining appropriate staffing to 
provide services supporting the ``special needs'' of the veterans 
seeking assistance. Per Diem for Service Centers is provided on an 
hourly rate, currently only $3.91 per hour.
    Vietnam Veterans of America thanks this Committee for their support 
as well as your colleagues on the Appropriations Committee for $75M 
included in the VA FY 2010 budget for 10,000 HUD/VASH voucher and urges 
your support for continued funding for and expansion of the HUD/VASH 
voucher program. As we believe this is a key to ending homelessness 
among our Nation's veteran population.
    Further, VVA requests an oversight hearing on the HUD/VASH program 
and its processes administered by the Department of Veterans Affairs 
and the Housing and Urban Development. Oversight is necessary to ensure 
these vouchers, and any additional vouchers, will be administered, 
distributed and utilized to the fullest extent possible. Establishing 
an annual evaluation of their effectiveness will drive not only those 
vouchers online, but we believe will demonstrate the need for 
additional vouchers, and will prove to be an invaluable tool in the 
continuance and expansion of this program.
    VVA urges full funding to the authorized level for the Homeless 
Veterans Reintegration Program (HVRP) administered by the Department of 
Labor. Congressman Lane Evans, in a 1994 statement before the full 
House of Representatives explained, ``Veterans are veterans no matter 
what else has transpired in their lives. These men and women served our 
Nation. Providing them with their rightful benefits can only remind 
them of their prior commitment to society, promote their sense of self-
worth, and further their rehabilitation.''
    VVA continues to communicate the importance of transitional 
residential and supportive service only programs in their approach to 
placing homeless in permanent housing. Additionally, VVA reiterates the 
sense of Congress in its proposal process and seeks set aside HUD 
funding in its McKinney-Vento grant cycle for transitional housing, 
supportive service only and supportive service dollars within the 
Shelter Plus Care grant programs.
    The current programs that are designed specifically for homeless 
veterans in place at the Departments of Veterans Affairs, Housing and 
Urban Development, and Labor to appear to be working. These agencies 
provide outstanding services and programs to veterans and their 
families. Enhancing all programs with added supportive services will 
only add to their success. Supportive services are the key ingredient 
in finding a solution to this long ignored problem.
    The one over riding issue here is that many times society has the 
misconception that the VA takes care of all veterans. Society must be 
reminded that, first we are citizens, second we are veterans. Our 
veterans are due the same services as their non-veteran counterparts, 
with respect to housing, health and a better life provided through 
every Federal agency.
                       women veteran health care
    Vietnam Veterans of America (VVA) believes women's health care is 
not evenly distributed or available throughout the VA system. Although 
women veterans are the fastest growing population within the VA, there 
seems to remain a need for increased focus on women health and its 
delivery. It seems clear that although VACO may interpret women's 
health as preventative, primary and gender specific care, this 
comprehensive concept remains ambiguous and splintered in its delivery 
throughout all the VA medical centers. Many view women's health as only 
a GYN clinic. As you are aware, throughout medical schools across the 
country and in the current health care environment, women's health is 
viewed as a specialty onto itself and involves more that gender 
specific GYN care.
    The new women veterans also need increased mental health services 
related to re-adjustment, depression, and re-integration, along with 
recognition of differences among active duty, Guard, and reserve women. 
The VA already acknowledges the issue of fragmented primary care, 
noting that in 67 percent of VA sites, primary care is delivered 
separately from gender specific health care--in other words, two 
different services at two different times, and in some cases, two 
different services, two different times, and two different delivery 
sites. VVA also notes that there are too few primary care physicians 
trained in women's health, and at a time when medicine recognizes the 
link between mental and medical health, most mental health is separate 
from primary care.
    VVA seeks to ensure that every woman veteran has access to a 
primary care provider who meets all her primary care needs, including 
gender specific and mental health care in the context of an on-going 
patient-clinician relationship; and that general mental health 
providers are located within the women's and primary care clinics in 
order to facilitate the delivery of mental health services.
    Providing care and treatment to women veterans by professional 
staff that have a proven level of expertise is vital in delivering 
appropriate and competent gender-specific care. It is not sufficient to 
simply have training in internal medicine. Women's health care is a 
specialty recognized by medical schools throughout the country. 
Providers who have both a knowledge base and training in women's health 
are able to keep current on health care and its delivery as it relates 
to gender. In order to maintain proficiency in delivering care and 
performing procedures, these providers must meet experience standards 
and maintain an appropriate panel size. This cannot occur if women 
veterans are lost in the general primary care setting. It is critical 
that women receive care from a professional who is experienced in 
women's health. If attention is not given to defining qualified 
providers, it will be a detriment to the quality of care provided to 
women veterans.
    VVA does, however, feel comprehensive women's health care clinics 
are most desirable where the medical center populations indicate 
because comprehensive consolidated delivery systems present increased 
advantage to the patients they serve.
                      providing care for newborns
    VVA asks that particular reflective consideration be given to the 
following:

    As referenced in the Department of Veterans Affairs, Volume II, 
Medical Programs and Information Technology Programs, Congressional 
Submission, FY 2011 Funding and, FY 2012 Advance Appropriations 
Request, the VA addresses the care of a newborn delivered to a woman 
veteran within the VA policy.

        ``Amend title 38, United States Code, to authorize VA to 
        provide care for newborns of enrolled women Veterans who are 
        receiving maternity care through the Department of Veterans 
        Affairs. This proposal is to cover costs of newborn 
        hospitalization and is not to exceed 96 hours after delivery. 
        Longer hospitalization or outpatient costs for the newborn, 
        beyond 96 hours post-delivery, would not be authorized in this 
        maternity benefit.''
        ``VA does not provide care for normal pregnancy and childbirth 
        in its medical facilities pursuant to 38 U.S.C. Sec. 1710, 
        which limits the Secretary to providing care and services which 
        the Secretary determines are ``needed'' for a ``disability.'' 
        VA's rationale for not providing this care was that a normal 
        pregnancy did not constitute a disability.''

    VVA seeks a change in this section of the proposed legislation that 
would increase the time for the provision of neonatal care to 30 days, 
as needed for the newborn children of women veterans receiving 
maternity/delivery care through the VA. Certainly, only newborns with 
extreme medical conditions would require this time extension.
    VVA believes that there may be extraordinary circumstances wherein 
it would be detrimental to the proper care and treatment of the newborn 
if this provision of service was limited to less than 30 days. The 
decision for extended would require professional justification. If the 
infant must have extended hospitalization, it would allow time for the 
case manager to make the necessary arrangements to arrange necessary 
medical and social services assistance for the women veteran and her 
child. This has important implications for our rural woman veterans in 
particular. And this is not to mention cases where there needs to be 
consideration of a woman veteran's service-connected disabilities, 
including toxic exposures and mental health issues, especially during 
the pre-natal period, multiple births and pre-mature births. This may 
be especially important as it relates to the ever increasing duty 
responsibilities of our women in the military and their increasing role 
in ``combat related'' service.
        women veterans and the veterans benefits administration
    VVA is concerned that the investment given by the VA in regard to 
Women Veteran Program Managers at all VA medical centers is not being 
given the same level of consideration in the Veterans Benefits 
Administration. VVA seeks to have consistent standards established for 
the time allocated to the position of Women Veterans Coordinators based 
on the number of women Veterans in the geographic area that the VARO 
serves. Additionally we note that there is need for a formalized 
structure to be established for these WVC in order to provide 
additional oversight, accountability, and reporting. Frankly, if the 
Congress does not indicate that this should be done, at least in the 
Committee report accompanying the Appropriations bill, it is unlikely 
that VBA will take this much needed enhancement of services for women 
veterans.
    VVA also would seek VA to establish a method to identify and track 
all outcomes, whether granted or denied, for all claims involving 
personal assault/trauma. This should be identified and tracked 
regardless of whether the claim is for PTSD, depression, or anxiety 
disorder.
                     veterans economic opportunity
    While VVA supports adding additional claims processors to the 
Compensation and Pension system, it is equally important to add 
additional staff to the rolls of VA Vocational Rehabilitation. VVA 
strongly favors reorganizing VA to create a fourth element of VA that 
would be known as the Veterans Economic Opportunity Administration, 
giving the current Secretary the opportunity to establish a new 
corporate culture in the VEOA that focuses on helping veterans to be as 
autonomous and as independent as possible. Frankly, getting, and 
keeping, veterans who are homeless off of the street a major goal of VA 
should make expansion of the VA Vocational Rehabilitation program a top 
priority, both for adding rehabilitation specialists, and for adding 
more employment placement specialists. There are currently less than 
100 employment placement specialists for the entire Nation. We have 
excellent leadership at the top of VA Vocational Rehabilitation Service 
now. It is time to give her the staff and the resources needed to 
assist veterans to obtain and sustain meaningful employment at a living 
wage. It is important that the Congress add funding specifically for at 
least 400 staff members to the VA Voc Rehab staff, with many of those 
being placement specialist. If we can add 4,000 new staff members to 
process claims, then we should be able to add 400 staff to help 
veterans return to work.
   va extramural research into the wounds, maladies, illnesses of war
    While VVA supports the request for $590 million for VA Research & 
Development, we hope that all recognize that this is not nearly enough 
for the tasks at hand. Frankly, much of these funds go to research 
projects that keep the medical ``stars'' at VA in the VAMC that are 
affiliated with a medical school. This is fine, and a useful function. 
However, there is a glaring need for funding into the wounds, maladies, 
injuries, illnesses, and medical conditions that stem from service by 
American citizens in our Armed Forces. The National Institutes (NIH) 
does virtually no specific veteran related research. Similarly, the 
same is largely true of the Center for Disease Control (CDC), the 
National Academies for the Advancement of Sciences (NAAS), and the 
Agency for Health Research Quality (AHRQ). While VVA strongly supports 
the work of all of these fine institutions as the only VSO to be a 
member of the ``Research America!'' coalition, we also know that there 
is an immediate and pressing need for veteran specific research. This 
vitally needed research would include, but not be limited to, projects 
such as research into the genochromosomal effects of Agent Orange and 
other toxins across multiple generations, possibly causing health 
anomalies in grandchildren and great-grandchildren of veterans exposed. 
Or, similarly, the consequences in regard to MS or MS-like conditions 
in veterans or the possible birth defects of children of those exposed 
to the cloud of chemical and biological weapons detonated in Iraq at 
the end of Gulf War I.
    If it is necessary to create a new branch of VA that would be 
called the Division of Extramural research in order to make it possible 
to have such directed research grants available to those inside and 
outside of VA on a competitive basis, then VVA recommend that we move 
in that direction, and fund these activities to the level of at least 
$2 Billion by the year 2015, with commensurate increases of $260 + 
million each year to reach that level. Frankly this is important both 
for the health of current and future veterans already exposed, but also 
as a force health protection activity that will assist in preventing 
such maladies in the future, which makes it necessary for our national 
security.
    In this regard in the short term, VVA strongly urges the Congress 
to allocate and additional $30 million for VA to begin to analyze and 
study the mountains of epidemiological evidence that it has on veterans 
of every generation, to meet Secretary Shinseki's desire that we not 
``wait for an Army to die'' but rather get answers about patterns of 
health care problems now, without for prospective studies in the 
future.
                automating va it functions and outreach
    VA has an ambitious set of proposals to bring the department into 
the 21st century, and VVA enthusiastically supports these initiatives. 
However, we are still troubled that VA wants an electronic medical 
record system that can communicate with the Department of Defense and 
the private sector, but which will still not be able to communicate 
with the Compensation & Pension Service.
    Further, while we can all be proud that the VA's electronic health 
care record ``VistA'' is so popular that it is now being exported to 
the private sector, VVA is still troubled that this is occurring 
without a field being added for military history, thereby sending an 
implicit false message to the private sector that exposures and 
experiences in military service have no significant impact on the long 
term health care risks for veterans. I think it is safe to say that 
most of know this to not be the case for all too many veterans.
    Clearly the funds directed toward IT must be significantly 
increased from the Administration request, by at least a 20% plus 
increase more that the current Fiscal Year.

    Mr. Chairman, thank you for this opportunity to share our thinking 
and recommendations on these matters.

    Chairman Akaka. Thank you very much, Mr. Weidman.
    This question is for the representatives of the Independent 
Budget. The IB makes no specific recommendation for increased 
staffing at VBA for claims adjusters, and the question is: 
Should the Committee conclude that the IB groups believe 
current staffing levels are appropriate? Mr. Blake.
    Mr. Blake. I think we could argue--it is arguable whether 
the staff levels are appropriate. Our position has been, one, 
that I am not sure we have firm arms all the way around what 
has been done as far as staffing at VBA in the last couple of 
years. We do not oppose necessarily the administration's 
proposal to increase staffing by an additional 4,000. What I 
will say is in the last, I believe, 3 years, VBA staffing has 
been authorized an increase of like 7,000 new employees. I am 
not sure exactly how those are targeted. Our concern remains: 
how has VBA gone about filling those positions; where are those 
people; are they still in the VBA and are they being used 
appropriately; and have they been trained properly?
    So, I think that is--while the Committee obviously has to 
grasp whether they are going to go along with the idea of 
increasing staffing an additional 4,000, I think it is 
important to go back and look at what the VBA has done in the 
last 3 years with regards to those staffing hires as well.
    Chairman Akaka. Mr. Wilson.
    Mr. Wilson. If I could add, we would like to know what the 
attrition rates have been for the current employees. We would 
like to know, of those new hires--the 4,200 or 4,300 or so that 
were hired over the last year--what is their place in training? 
How does their place in training compare to their attrition 
rates? Have people in training completed training? Have people 
who were only hired recently been relieved from employment 
because they were not adequately--could not adequately meet the 
requirements of the job? We do not know answers to these 
questions, though would certainly like to. We have asked them, 
but they have not been answered by the VA.
    Chairman Akaka. Any further responses to that?
    [No response.]
    Chairman Akaka. Well, thank you very much.
    My next question is for all the witnesses. What is your 
view of the administration's incremental approach to allowing 
more middle-income veterans--the Priority 8 veterans--back into 
the system?
    Mr. Robertson.
    Mr. Robertson. Mr. Chairman, I think that it is very 
interesting that we have had this battle going on for quite a 
few years, because access to the VA health care system should 
be for any veteran in need of health care. And I have had 
discussions with members where they said, ``Well, you mean if 
Ross Perot wanted to come to the VA, we should allow him to 
come to the VA?'' He earned that right, and if that is his best 
health care option, then we should allow that to happen.
    In the midst of all the health care reform debate that is 
going on, we have seen reactions by the private health care 
industry where it talked about increasing premium rates at 
double-digit increases. Yesterday, in my hometown paper, that 
was one of the front articles; that was an anticipation from 
one of the major health care providers in my community. That is 
going to force a lot of veterans to think about other options 
they have, and many of them may drop their private insurance to 
come to the VA because they feel it is their best health care 
option.
    This is going to have a double whammy on us. It is going to 
bring more veterans into the system and fewer options for us to 
be able to seek reimbursements for third-party contribution--or 
reimbursements for care. So it may be a major strain on us, 
but, again, I go back to the original premise. If that is the 
veteran's best health care option, we should have the doors 
open. No veteran should ever be turned away from a VA hospital 
if they are in need of care.
    Chairman Akaka. Thank you.
    Mr. Weidman. It is not working well, bluntly--the 
incremental approach that they are taking. We believe they 
should open it up to Category 8 veterans in a much more rapid 
way. Part of that has to do with the outreach effort. Last 
summer, VBA met with the business processes folks in VHA who 
were working on the campaign about how to get people in. We 
said you are going about this all wrong. What you need to do is 
go media market by media market; get all of us--meaning 
veterans service organizations and military service 
organizations--involved so that we can saturate the media and 
get free media by going on talk shows, by using our post and 
chapter newsletters, by encouraging our folks to get the word 
out to people so that when people then get a mailing from VA, 
it becomes an evoked response as opposed to a learned response.
    Once veterans get turned away, they get turned off. Trying 
to get people back is going to be a real push, and it is going 
to take all of us to do that.
    However, all of that advice, even though we have talked to 
them three times since, has been ignored. They have not 
involved the entire community in trying to get people in 
Category 8 back into the system before they get sick and get so 
sick that they lose their job and then they come in as indigent 
and that much sicker and that much more expensive to treat.
    It just makes no sense to us, and we think that the whole 
thing needs to be speeded up, number 1; and number 2, it needs 
to be coordinated with the involvement of everybody in the 
community, including you and your distinguished colleagues on 
this Committee. You have State newsletters that can be used. 
There are lots of ways that we can get the word out to the 
average veteran and his or her family--that they are now 
eligible--if we will only try and do it as a total group.
    VA talks a lot about us being their partners, but when push 
comes to shove, they freeze us out and do it alone. And they 
cannot do it alone. That is the problem.
    Chairman Akaka. Thank you very much.
    Mr. Blake. Mr. Chairman, could I take that question also?
    Chairman Akaka. Mr. Blake.
    Mr. Blake. Let me say that I think the Independent Budget 
organizations have previously testified that we believed that 
as the VA moved toward expanding Priority 8 enrollments, it had 
to be done in a measured way or you could say incrementally. I 
think it is almost by necessity because the VA system has sort 
of shrunk by not allowing all those folks to come in starting 
in 2003. Our feel was that if you opened the system up broadly, 
you could flood the system without having the capacity to meet 
their needs.
    Now, I will say I agree with Mr. Weidman that I think that 
it is not going well, at least from the perspective that we 
have, because there has been very little information provided 
as to what has actually been done as it relates to that 
expansion for Priority Group 8 enrollment. I think it was two 
budget cycles ago, there was the plan that would have allowed 
$375 million targeted at an increase of, I think, 10 percent on 
the income threshold and all of that. There has been very 
little information provided. I was kind of disappointed in the 
budget submission that it did not outline the steps going 
forward with this continuing larger policy for bringing in 
500,000 new veterans.
    I would also agree with Mr. Weidman. I think while the VA 
may have this as an initiative and the leadership may have that 
as an initiative, I am not sure that at the local level there 
is very little, if any, outreach going on to bring these folks 
into the system, because what little information we have 
received suggests that there has been a slow trickle of new 
Priority Group 8 veterans coming into the system. And this is 
where I agree with both what Mr. Robertson and Mr. Weidman 
said. I think given the current economic environment, not to 
say that--depending on what happens with health reform, there 
are so many factors at play that we believe you are going to 
see an expansion of enrollment into the VA at all different 
levels.
    So, I think we are concerned that there is very little 
information that has been provided, at least to our community, 
about what steps the VA has taken to forward that policy.
    Chairman Akaka. Thank you very much.
    Now let me call on Senator Begich for your questions.
    Senator Begich. Thank you very much, Mr. Chairman. I am 
going to hopefully be brief. I have just been called down to 
the Senate floor. But let me say a couple of things quickly.
    First, to just follow up--mine is going to be on a whole 
separate issue, but, you know, you are right. What is going to 
be the impact? You know, if you read the article I read just 10 
days ago, 2.7 million people are no longer insured through 
private insurance. The odds are there are veterans there. I am 
just betting on it. And more than likely, they are going to 
figure out that they have got to get service, and that is 
another increase that is not in the mix. So, when you mentioned 
the health care issue, this is a growing concern.
    Then there are some that have private insurance, have been 
very happy with it, been able to use it as they see fit without 
maybe even touching the VA system. But because now individuals 
are seeing rates--and I just saw another sheet this morning--
from 20 percent to 38 percent rate increases. Again, people 
will make some decisions--the economic decision versus maybe 
convenience. Maybe it was not as convenient to go to the VA, 
and they used their insurance differently. But that option may 
be more limited.
    So, your point is very good, that it is not just the 8s, 
but what else is going to happen in this whole changing economy 
with our health care system. So I think that is an interesting 
issue that we have to address.
    I want to go, if I can, very quickly. First, thank you all, 
as usual, for your attendance and your information. It is very 
helpful. I removed a portion from one of the books because I 
like to hold it in my hands this way.
    On the construction backlog, major and minor--and this is 
my approach to life, as a former mayor--that is, why don't we 
just figure out what the backlog range is? You know, I have 
heard it 5 million, 3 million, 7 million or billion, 9 billion. 
Why don't we just figure out what that initial requirement is 
and just do one massive bond then use operating dollars to pay 
for that for a period of time so we accelerate this? Because 
the cost--and I am just assuming here--there is a cost factor 
here every time they delay or partially start a project. I know 
this from being a former mayor. You can sit there and pay cash 
all the time; which in this case, we are just paying deficit 
money anyway. It is borrowed money, so why not limit--and I 
came up with a number. I was going through the sheet here. But 
between major and minor construction, it is about $2 billion a 
year. I may be wrong about that, but I am just looking very 
quickly at the numbers here. If you took a portion of that and 
said we are going to take that to pay debt--bond a sizable huge 
bond--you probably can accomplish these things in a much quick 
way at a lower cost. The bond market will absorb these, I 
think, very easily because they would be Government-based 
securities, so forth and so on.
    I know that is unusual for the Federal Government to think 
that way, but maybe that is a way to accelerate this process 
and actually lower your operating costs, or at least maintain 
or stabilize your operating costs and accelerate the projects 
that need to be done, minor and major.
    Any comments on that?
    Mr. Hilleman. Thank you, Congressman--or Senator. Excuse 
me. You make a very valid point that the longer the delays 
continue with any construction project, costs go up. The 
construction material prices increase. Costs for labor 
increases.
    I would say that in tackling the backlog, VA has done a 
good, steady job of working through the work that is before 
them, but not in constantly identifying new projects based on 
the needs of veteran populations or the expansion of specific 
services at a hospital, developing new wings.
    It may be feasible to knock out a number of projects all at 
once with a larger investment, but I--and I believe the 
Independent Budget would agree with that--it is not going to 
eliminate the need for ongoing construction throughout the 
system.
    Senator Begich. No. Right, I agree. That is why if you have 
a $2 billion allotment right now, approximately, you take a 
portion of that, that is the debt financed to take care of the 
future. If you keep a strong maintenance, you are kind of 
getting to ground zero. But you are now forward thinking rather 
than always--you know, every time you try to step forward in 
construction, minor and major, you are always going back, 
because why--you know, the director gets a call. He hears the 
wing is in deplorable condition. So construction aid project--a 
new project--gets pushed a little bit further because they have 
got to resource it immediately, because if you do not, then you 
have beds that are going to be vacant because you have got to 
take those people out of those beds in order to modify the 
system or modify the building.
    So, I guess my thought is that it seems you can do both, 
but the way the Federal Government works is, on construction, 
they are just not really good about doing what local 
governments and States do and that is to bond long term. That 
is what you do. It is like when you buy your house. You get 
debt and you get it now, and then you have a maintenance budget 
to maintain it. I mean, that is how I run my household, my two 
houses I have to maintain by being in this job. It saves me a 
lot of long-term capital expenditures.
    So it would just seem like there may be something there. It 
is unusual for the Federal Government to ever do something like 
this, but, you know, I would just argue that local government 
has been doing it for decades very successfully, building 
schools, building roads, building police stations, fire 
stations, and it seems to work.
    So that is not to take away what you know you are always 
going to have, but kind of catch up.
    Mr. Hilleman. I would welcome the chance to chat with you 
or your staff more on this, Senator.
    Senator Begich. Let me follow up with you on that.
    Mr. Hilleman. Thank you.
    Senator Begich. Thank you.
    Mr. Chairman, I apologize. I have to slip out. But, again, 
thank you for the opportunity to ask a quick question, and 
thank you all very much for your work. I apologize for pulling 
this piece out of the book, but that is how I wanted it--in my 
hands here. So thank you all very much.
    Chairman Akaka. Thank you very much, Senator Begich, and 
thank you for your active participation in this Committee. I 
certainly appreciate that.
    Mr. Hilleman, Mr. Weidman, and Mr. Robertson, do you 
believe that VA has a truly strategic vision regarding the 
future of VA construction projects? Is this reflected in the 
proposed budget?
    Mr. Robertson. Speaking for the American Legion, we have 
looked at projects such as replacement of a hospital in 
Colorado. That project, if they would have been more 
progressive in their efforts, would have probably come in a 
heck of a lot cheaper than what it is going to wind up costing 
them due to delays.
    I think that their construction strategy is kind of an 
amoeba, that every time you think you have got a good hold on 
it, something starts leaking out on the other side. I think it 
is something that seriously needs to be addressed and to plant 
the vision out there, develop the strategy, and start working 
toward the goal. Some of it involves, I understand, the local 
dynamics of making sure that all the stakeholders in that 
community have their say and can offer their comments and 
views. But you really have to set up a plan and move forward on 
it and try to accomplish it in a timely manner.
    The bottom line is that most of these delays, like with the 
Las Vegas facility, the Colorado facility, and the one in my 
home State of Louisiana, the longer the delay takes place, the 
only people that are being penalized are the veterans that need 
those services.
    Mr. Weidman. The strategic plan, if you will, which is 
really the CARES decision--VVA disagreed with the CARES formula 
from the outset because it was a civilian formula and did not 
take into account the shape of medical care that has to be 
delivered to veterans.
    Just one example. The formula they used had average 
presentations of one to three per individual who came in, which 
is not unusual in middle-class people who buy PPOs and HMOs, 
which is what that formula originally was developed for. 
Veterans hospitals average between five and seven presentations 
per individual who comes in, and it is not unusual in homeless 
vets to have 12, 13, 14 presentations, or things wrong with 
them, all of which burn resources. So the burn rate of 
resources and the facilities needed is much higher among 
veterans than we believe the CARES formula allows for, even 
with the tinkering and adjustments after the fact for mental 
health, spinal cord injury, blind and visually impaired--and 
those, by the way, were only added under significant pressure 
from the veterans service organizations and the leadership of 
yourself and others on the Hill, sir.
    But it is a plan, and we have recommended for more than 2 
years to let us speed up the investment. We went almost a 
decade with no investment, with totally deferred maintenance at 
all the facilities across the country. Then everybody comes 
back and says, ``Wow, we need to let this go because they are 
dilapidated buildings.'' Well, they did not get that way by 
accident. They got that way because we did not put in the minor 
construction, and the deferred maintenance was not done, which 
now needs to be done. This is the perfect time for the 
President to come in with ARRA-type of funds just to get it 
done and bring us back to ground zero.
    As I mentioned earlier about the organizational capacity of 
the VA health care system, which is coming close to being 
restored to where it should have been, we need to do the same 
thing when it comes to the construction budget.
    Are the recommendations of CARES necessarily the best from 
our point of view? The answer is no. But it is at least a 
logical and reasonable plan to start from.
    Chairman Akaka. Mr. Hilleman.
    Mr. Hilleman. Thank you for the question, Mr. Chairman. To 
be quite frank, I do not think we have an answer to what the 
VA's plan looks like at this point and if it will meet the 
necessary needs. I know that there is a transition to move away 
from a large hospital model toward more like a super CBOC and 
focus more intently on outpatient care. I think until we see 
some more concrete demonstrations of what that plan will look 
like from a data-driven model, we would withhold judgment, sir.
    Chairman Akaka. Thank you.
    My next question is for all members of the panel having to 
do with DOD transition. We know well that discharged Reserve 
and National Guard servicemembers face challenges as they 
rapidly transition from active duty to civilian life and are 
often unaware of their VA benefits. Can each of you comment on 
how VA should budget for outreach to servicemembers leaving the 
military? Mr. Blake?
    Mr. Blake. I think what you point to is probably the 
biggest challenge that the VA is facing in bringing new 
veterans into the system. The Guard and Reserve component also 
sort of points to the rural component as well. I think the two 
are very closely tied together. I think we have really pushed 
on the VA to be involved in the transition--not transition, 
Senator, but the discharge points for active-duty 
servicemembers. I think the challenge with the Guard and 
Reserve is the fact that these men and women come home and then 
they sort of vanish from the radar. It is a challenge for the 
VA in reaching any of those folks, even veterans who are sort 
of off the radar now.
    And so as far as budgeting for it, though, I do not know if 
I have a good answer for that. I would be glad to defer to some 
of my colleagues who might have a better answer.
    Chairman Akaka. Mr. Robertson.
    Mr. Robertson. Mr. Chairman, as a former DVOP in my 
previous life before coming to Washington, DC, the DVOP program 
was specifically designed for outreach, and the mandate at that 
time for a DVOP was to go where veterans are. There is no 
secret where Guard and Reservists are on drill weekends. They 
are at their armories or whatever military base they are 
supposed to be reporting to. I do not think it would take a 
rocket scientist to come up with a schedule to have VA 
employees arrive at the drill bases or the locations where the 
units are drilling to give briefings, especially if there are 
changes in policy that would give more benefits or more 
opportunities to Guard and Reservists to receive medical care 
or benefits or whatever.
    So, I think their most effective tool would be to think 
about developing an outreach program that actually goes to 
where the veterans are that need to receive these briefings.
    When they are still on active duty and they go through the 
TAP program, they are a captive audience. But their mind is 
usually on, ``I want to go home,'' and I do not think 
everything seeps in. But I think that once they get back to 
their unit and they start drilling again, to come back and make 
a presentation at the armories where the servicemembers are 
located is probably the best solution.
    Chairman Akaka. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. A couple of items come 
to mind when I think about transition issues, and Mr. Robertson 
was talking about that. The Transition Assistance Program, 
established back during the Gulf War, is an interesting 
concept, but it has not seen a significant change in its 
funding since then. Also, it is a matter of simply being able 
to access the service. There are enough opportunities for 
people leaving the services, active-duty people leaving the 
services--not counting Guard and Reserve, to even go through 
the Transition Assistance Program. There are not.
    The Guardsmen and Reservists tend to defer going because 
they would rather, as Mr. Robertson said, get back home. And 
when you have the prospect of being put in administrative hold 
or medical hold, as opposed to going back home after your 
second or third deployment, how might you decide? I think I 
would decide to go home, even though it may not be in my best 
interest. Not the wisest decision that they can make, but they 
are currently allowed that flexibility.
    The solution would be to me, if I were still on active duty 
and had the opportunity to do so, I would make it mandatory for 
every single person who is coming off of active-duty orders--
that is your Guard and Reserve--to be required to have a 
physical examination before they leave which at least captures 
the particular issues that they may be having affect them. If 
they do not do so--and many do not--that will harm them for the 
rest of the time they are in veteran status because they will 
have no way to be able to identify that they had a particular 
condition while on active-duty orders. The services can do 
this. They simply choose not to do this because of the cost 
factor.
    The DTAP program and TAP programs, if you look at them, the 
Marines require everyone--every single Marine is required, 
mandatory--to go through the Transition Assistance Program. 
Actually, that means they sign the roster: ``Yes, I am 
scheduled to go.'' But there is, again, not enough opportunity 
to go because there are not enough classes for them. And 
certainly for the other services, they are not required to go, 
and some can opt out if they wish.
    So, appropriate funding for Transition Assistance programs 
would be useful, plussing it up to numbers that are more 
appropriate. What those numbers should be I do not know. It has 
been some time. DTAP is not an effective program. VA should go 
out and talk to the people who use the program. The 2 hours of 
assistance that they provide people who are extremely disabled, 
it is not sufficient. Ask them, VA.
    A person who is going through spinal cord injury care, is 
being seen at a VA facility while on active duty. Guardsmen and 
Reservists may drop through the cracks as well and not even get 
the assistance they need through BDD or Quick Start or 
Transition Assistance Programs. So, there are lots of 
opportunities for growth for Transition Assistance Programs.
    Chairman Akaka. Mr. Weidman.
    Mr. Weidman. There basically is no Disabled Transition 
Assistance Program, even though it is on the books. It just 
does not exist insofar as anything useful. We have a lot of 
contact with the young people in Bethesda Naval Hospital and at 
Walter Reed. And one of the things we always take with us when 
we go down there or have contact with the young people is the 
latest copy of the little 5-by-8 book ``Federal Benefits for 
Veterans and Their Families.'' And the reason for that is VA 
swears up and down that every young person has it. They do not. 
These books get snapped up just like that.
    So, if we had the resources, what we would do is give 
everyone a thumb drive, because these young people, all of 
them, are on the Internet. One of the most helpful things that 
will be coming down the line is the establishment of the 
gateway that is being created as a result of the project with 
VINS and the Veterans Innovation Center which is privately 
funded and driven, and it will be extremely useful.
    There is another tool coming, hopefully next year, called 
the Veterans Benefits Calculator that is an online tool. What 
you then have got to do is just make people aware of where to 
go with it and to market it using the Internet marketing 
systems and devices ranging from tweeting to you name it.
    Last, but not least, I have got to touch on this. I was 
never a DVOP, but I ran the second largest DVOP/LVER program in 
the country for the State of New York under Governor Cuomo. I 
know what has happened to that program since I left. It ain't 
happening in that program anymore, and it is not happening in 
the large States. The primary responsibility for delivering 
Transition Assistance Programs across the country falls on 
DVOPs and LVERs who do not work for the Federal Government; 
they work for the States. That is why many of those programs 
are very truncated, because Ray Jefferson does not have control 
over those staff even though he is held accountable for it.
    It is really past time to Federalize the DVOPs and LVERs. 
In many cases, they can go back into the same local office they 
were in before if the local office is acting correctly. But 
what it does mean is that the State directors for U.S. DOL can 
have the best staff go out and do the transition programs to 
catch people and get them on the right track before they get 
off on the wrong foot as they return to civilian life, whether 
they are Guard, Reservists, or separating active duty.
    We can put together a plan. We know the elements of it. We 
just do not have the resources. And simply sending more money 
to VETS in its current form without giving the Assistant 
Secretary additional power and control over the staff that 
theoretically he has I do not believe is going to be effective, 
Mr. Chairman.
    Chairman Akaka. Thank you very much.
    Mr. Kelley?
    Mr. Kelley. Thank you, Mr. Chairman. Mr. Kelley from 
AMVETS. I want to go back to the Benefits Delivery at Discharge 
Program. It is a great program that allows active-duty 
servicemembers to file for disability prior to leaving active 
service. The issue is that it is run on a local memorandum of 
understanding at each one of these bases. There are over 150 
bases or intake sites that will allow these servicemembers to 
initiate early.
    Local commands either do not understand the MOU, have not 
seen the MOU, or have not bought into the program to help get 
the information out to the troops. So, one of the big stumbling 
blocks is not that it is not a good program or it is not an 
effective program, it is that that communication down to the 
lowest level on these intake sites has not been received and 
disseminated out to the other veterans.
    Mr. Blake. Mr. Chairman, if I might offer one positive 
comment out of all of this, I would say that, at least from our 
perspective, we wholeheartedly support the administration's 
concept or proposal that it has for this Virtual Lifetime 
Electronic Record. I would suggest that is something long 
overdue in tracking these men and women from the time they 
enter service until the time they die.
    I think we all agree that is something that needs to be 
done, but as we have seen in the past, the implementation of 
that is going to be far more challenging, and it is going to be 
incumbent upon all of us to press not only the VA but DOD--who 
has not exactly been the willing partner in all this as well--
to make sure that happens, because we think it is a crucial 
first step in all of this transition process.
    Chairman Akaka. Well, thank you. Thank you very much for 
your responses. I may have more questions which I will submit 
for the record.
    In closing, I again thank all of our witnesses for 
appearing before the Committee today. Your participation in 
this matter is, without question, very valuable to us and what 
we are trying to do as we go forward in producing the 
Committee's recommendation on the budget.
    I would also say how much I appreciate that VHA Under 
Secretary Petzel, Assistant Secretary Baker, Steve Muro of NCA, 
and other members of the Secretary's team have stayed to hear 
this panel. I hope there will be some communications with your 
concerns.
    I do want to say that we have before us a very good and 
strong VA budget, and I thank the administration for 
recognizing the needs of veterans and the system that is 
designed to serve them. It is being created, it is coming, and 
it is exciting for me as we continue to push in the right 
direction to serve our veterans.
    I want to wish all of you well in your organizations, and, 
again, let me personally thank the organizations for your 
support in what we are trying to do here legislatively. Without 
question, together we can really move it well.
    I am glad that we have a feeling of making progress in 
restructuring as we see it come forward, increasing access and 
making it available to our veterans.
    So, thank you very much. I wish you well, and this hearing 
is now adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
      

                                  <all>

</pre></body></html>
